<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010 

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________

    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island        FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania              JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California                 ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California               JO BONNER, Alabama
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 PETER J. VISCLOSKY, Indiana
 JOSE E. SERRANO, New York  

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

              John Blazey, Dixon Butler, Adrienne Simonson,
             Tracey LaTurner, Diana Simpson, and Darek Newby
                           Subcommittee Staff
                                ________

                                 PART 7
                                                                   Page
 Federal Law Enforcement Response to U.S.-Mexico Border Violence..    1
 Drug Enforcement Administration..................................  115
 Legal Services Corporation.......................................  193
 Department of Justice............................................  269
 Department of Commerce...........................................  383
 National Aeronautics and Space Administration....................  587

                                   S

                                ________

         Printed for the use of the Committee on Appropriations















PART 7--COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2010












  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010 
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________

    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island         FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania               JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California                  ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California                JO BONNER, Alabama
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 PETER J. VISCLOSKY, Indiana
 JOSE E. SERRANO, New York          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Blazey, Dixon Butler, Adrienne Simonson,
             Tracey LaTurner, Diana Simpson, and Darek Newby
                           Subcommittee Staff
                                ________

                                 PART 7
                                                                   Page
 Federal Law Enforcement Response to U.S.-Mexico Border Violence..    1
 Drug Enforcement Administration..................................  115
 Legal Services Corporation.......................................  193
 Department of Justice............................................  269
 Department of Commerce...........................................  383
 National Aeronautics and Space Administration....................  587

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-291 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 




                     COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New Jersey
 JOSE E. SERRANO, New York          TODD TIAHRT, Kansas
 ROSA L. DeLAURO, Connecticut       ZACH WAMP, Tennessee
 JAMES P. MORAN, Virginia           TOM LATHAM, Iowa
 JOHN W. OLVER, Massachusetts       ROBERT B. ADERHOLT, Alabama
 ED PASTOR, Arizona                 JO ANN EMERSON, Missouri
 DAVID E. PRICE, North Carolina     KAY GRANGER, Texas
 CHET EDWARDS, Texas                MICHAEL K. SIMPSON, Idaho
 PATRICK J. KENNEDY, Rhode Island   JOHN ABNEY CULBERSON, Texas
 MAURICE D. HINCHEY, New York       MARK STEVEN KIRK, Illinois
 LUCILLE ROYBAL-ALLARD, California  ANDER CRENSHAW, Florida
 SAM FARR, California               DENNIS R. REHBERG, Montana
 JESSE L. JACKSON, Jr., Illinois    JOHN R. CARTER, Texas
 CAROLYN C. KILPATRICK, Michigan    RODNEY ALEXANDER, Louisiana
 ALLEN BOYD, Florida                KEN CALVERT, California
 CHAKA FATTAH, Pennsylvania         JO BONNER, Alabama
 STEVEN R. ROTHMAN, New Jersey      STEVEN C. LaTOURETTE, Ohio
 SANFORD D. BISHOP, Jr., Georgia    TOM COLE, Oklahoma
 MARION BERRY, Arkansas
 BARBARA LEE, California
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado          

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)






  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010
                              ----------                           
                                              Tuesday, March 24, 2009.

    FEDERAL LAW ENFORCEMENT RESPONSE TO U.S.-MEXICO BORDER VIOLENCE

                               WITNESSES

BILL NEWELL, SPECIAL AGENT IN CHARGE, ATF PHOENIX DIVISION
JOSEPH ARABIT, SPECIAL AGENT IN CHARGE, DEA EL PASO DIVISION
PHIL GORDON, MAYOR, CITY OF PHOENIX
DAVID SHIRK, ASSISTANT PROFESSOR AND DIRECTOR OF THE TRANS-BORDER 
    INSTITUTE

   Opening Statements of the Subcommittee Chairman and Ranking Member

    Mr. Mollohan. The hearing will come to order.
    Well, good afternoon. We are here today to discuss the 
rising tide of drug cartel-related violence in the U.S.-Mexican 
border region and our federal response to this problem.
    As with any issue related to the border, this problem has 
many dimensions and it requires a response with many 
dimensions.
    Other Subcommittees have already examined the border 
security and foreign aid elements of our response and today we 
will be focusing on the law enforcement response.
    It would be difficult to overstate the severity of the 
situation in Mexico today. There have been over 7,000 cartel-
related killings in Mexico since the beginning of 2007, 
including increasingly brazen attacks on law enforcement, 
political and governmental targets.
    The level of brutality in many of the attacks is truly 
appalling, with details so gruesome that they could come 
straight from the script of a horror movie.
    This violence is being fueled by the constant northward 
trafficking of tons of narcotics and the southward trafficking 
of cash and weapons.
    This traffic has created a literal war zone in the streets 
of some Mexican towns and states as the Mexican government has 
deployed its military to join law enforcement officers in 
pitched battles against these cartels.
    The United States has both an interest and an obligation to 
help Mexico overcome these difficult challenges. We are 
fortunate to have a dedicated partner in President Calderon, 
who has staked his personal and professional legacy on beating 
these cartels.
    The Department of Justice has a significant role to play in 
aiding his struggle and we look forward to hearing more today 
about how our federal law enforcement entities can bring their 
resources and expertise to bear on this situation.
    At the same time, we must also be cognizant of the 
potential for spill-over violence, when the violent crimes of 
these Mexican cartels begin to cross the border into our 
southwestern states and beyond.
    We have seen lots of media reports over the past several 
months about cartel-related violence springing up in states 
from Arizona to Maine. It is important for us to assess the 
potential for spill-over violence, look at the impacts cartel-
driven violence has had on our local communities, and discuss 
strategies to prevent it.
    In doing so, we must balance the need to acknowledge the 
seriousness of the situation with the need to avoid unnecessary 
hysteria.
    It is my hope that our hearing today will inform the 
Subcommittee's discussion of these issues over the next few 
months. We certainly could not have picked a more timely date 
to kick off that discussion as the Administration has announced 
just this morning a comprehensive border violence policy that 
takes advantage of the significant new resources this 
Subcommittee provided for border crimes over the last few 
months.
    Those resources include over $15 million in regular and 
supplemental funds for ATF's Project Gun Runner, $21 million 
for DEA to expand its enforcement operations along the border 
and in Mexico and Central America, and 10 million for DEA to 
target Mexican methamphetamine trafficking.
    It is my intention to follow-up on these investments with a 
Subcommittee trip to the southwest border region to assess 
further the adequacy of the recommendations made to this 
Committee, the adequacy of resources provided to date, and 
additional needs for consideration in fiscal year 2010.
    Our witnesses today will also help to provide perspective 
and to set the stage for the 2010 process.
    First, we will hear from Professor David Shirk, the 
Director of the Trans-Border Institute at the University of San 
Diego.
    Did I pronounce that correctly, Professor?
    Mr. Shirk. Yes. Thank you.
    Mr. Mollohan. Dr. Shirk will place current events within 
the broader context of crime and judicial reform in Mexico and 
will give his assessment of both the Mexican and U.S. responses 
to the violence.
    Next we will hear from the panel which includes Mayor Phil 
Gordon from the City of Phoenix, Special Agent Bill Newell from 
ATF's Phoenix Division, and Special Agent Joseph Arabit from 
DEA's El Paso Division.
    These three witnesses are on the ground in our southwest 
border states addressing this problem every day. They will 
testify about the challenges that they face, discuss their 
efforts to combat cartel-related violence and its underlying 
causes, and suggest ways to improve on strategies going 
forward.
    I would like to thank all the witnesses in advance for 
their time today. They all took a big effort to get here and we 
appreciate the opportunity to have the benefit of their 
expertise. We look forward to a lively discussion with them.
    Before we begin, I would like to first turn to my Ranking 
Member, Mr. Wolf, for any opening remarks that he might like to 
make.
    Mr. Wolf. Thank you, Mr. Chairman.
    I really do not have any. Just to welcome the witnesses.
    There seems there is not a day that goes by that we do hear 
about this. We have also heard that there are reports of the 
spill-over and these gangs operating in other areas. I am 
anxious to find out if there is any connection between these 
gangs and MS13 or any domestic gangs, but look forward to your 
testimony.
    Thank you.
    Mr. Mollohan. Professor Shirk, your written statement will 
be made a part of the record and you can proceed with your oral 
testimony as you wish.
    Mr. Shirk. Thank you, Mr. Chairman.
    On behalf of the University of----
    Mr. Mollohan. You have to push your button in and you might 
want to pull it a little bit closer to you so you will not have 
to lean.
    Mr. Shirk. Can you hear me now?
    Mr. Mollohan. I can hear you fine, but it is being----
    Mr. Shirk. Can you hear me now? Okay. Thank you.

               Opening Statement of Professor David Shirk

    First of all, thank you, Mr. Chairman, on behalf of the 
Trans-Border Institute at the University of San Diego.
    Thank you to the other members of this Committee for the 
invitation to provide testimony on the recent surge in drug 
violence in Mexico and the border region.
    You have already explained very well the importance and 
urgency of this issue. So I would like to talk a little bit 
about our efforts to monitor the situation in the southwest 
border region and provide some testimony about the efforts that 
are being made currently to address those problems.
    Our organization has been monitoring a wide array of rule 
of law challenges through something called the Justice in 
Mexico Project, an ongoing research initiative that pays 
special attention to drug violence, justice sector reform, and 
other problems related to the rule of law in Mexico.
    I would like to focus especially today on the challenges 
that are presented to U.S. border communities and the possible 
strategies and resource allocations that can be helpful in 
addressing the challenge of Mexican drug violence.
    From the outset, I want to state clearly and definitively 
that while the escalating drug war violence presents a major 
challenge to the Mexican state and to the United States, the 
prospect of a state collapse in Mexico and the prospect of 
high-level spill-over violence perpetrated by Mexican organized 
crime appears to be greatly exaggerated at this time.
    Still, there is no doubt that high-impact crime and 
violence and the ineffectiveness and corruption of the state's 
public security apparatus present severe challenges in Mexico.
    Our data find, from reports from the Mexico City based 
Reforma Newspaper, that the vast majority, that is roughly 60 
percent, of over 13,000 cartel-related killings in Mexico since 
2005 occurred in five Mexican states, Chihuahua, Sonora, 
Michoacan, Baja California, and Guerrero. Of these, Mexican 
border states accounted for approximately 40 percent of all 
cartel-related killings.
    Since 2000, the Mexican government has embarked on a 
deliberate strategy to try to break the cartels down into 
smaller, more manageable pieces that can be dealt with more 
effectively by state and local law enforcement.
    The disruption and fragmentation of organized crime 
networks has led to increased in fighting and competition, 
effectively replacing the cartels with organizations that are, 
in fact, smaller, but also far more dangerous and unpredictable 
and far less manageable.
    One thing is certain. The current rate of killings, more 
than 400 per month, puts Mexico on track to have another very 
bad year in 2009.
    There is also no doubt about the trans-national nature of 
organized crime or the fact that there are significant measures 
that we can take to better address the problem here in the 
United States.
    Although some of the issues, I believe, are often overblown 
by inaccurate media reporting and hyperbolic rhetoric, there 
are significant concerns about the reach and the proliferation 
of violent trans-national organized crime networks in the 
United States, the southbound flow of arms and bulk cash from 
the southwest border region into Mexico, kidnappings and other 
diversified criminal activities in U.S. border states, the 
impacts of Mexican drug-related violence in U.S. healthcare 
facilities, and the possible corruption and penetration of U.S. 
law enforcement agencies.
    In the interest of time, I will just highlight a couple of 
these.
    First of all, it is important to say that the violence 
raging between the Mexican cartels or what is left of them has 
not spilled over in the kind of extreme violence that has 
become so prevalent in Mexico. The overall efficacy and 
integrity of U.S. law enforcement has prevented this from 
happening, at least prevented the cartels from operating as 
audaciously as they do in Mexico.
    Moreover, while literally hundreds of Mexican cartel 
operatives and Mexican Nationals involved in the drug trade 
have been detected or arrested in the United States, it is not 
clear that the cartels' retail operations are exclusively 
Mexican or to what extent U.S. subsidiaries form part of the 
distribution chain.
    Our hasty and careless response to these concerns could 
prove costly, counterproductive to our relationship with 
Mexico, and ultimately ineffective in addressing the actual 
problems we face.
    While better legislation is needed to contain the spread of 
high-powered weapons and their use, more resources should and I 
am glad to see are being directed towards the regulation of gun 
sales and the investigation of illegal gun trafficking in the 
southwest border region, the tracking and seizure of drug 
profits, and the support of long-term development of rule of 
law reform in Mexico.
    Unfortunately, I see only three possible scenarios for a 
dramatic reduction in drug violence in Mexico and the border 
region. The first is a pact between what is left of the major 
cartels that would reestablish the agreed upon structuring of 
organized crime in Mexico. Such an arrangement is less likely 
today, however, because the cartels are so fragmented. 
Moreover, even if it were possible, it would be contrary to the 
best interests of the United States and Mexico.
    A second scenario is for a major change in U.S. drug policy 
and the regulation of psychotropic drugs as a public health 
problem rather than a strictly law enforcement problem.
    The first and best solution is to reduce overall drug 
consumption in the United States. Eventually consideration also 
needs to be given to finding the least harmful ways to regulate 
the drug market and address drug consumption as a public health 
problem more so than as a security problem.
    In the short term, though, barring a major improvement in 
the situation in Mexico's domestic rule of law and barring any 
major changes in U.S. drug policy, a continuation of the 
Mexican government's current approach, the atomization or 
expulsion of the cartels from Mexico seems to be the most 
politically viable option.
    On the one hand, this will imply sustained investment in 
current rule of law reform initiatives and a costly hard-fought 
battle against the cartels that will undoubtedly require tens 
of billions of dollars and result in continued violence over 
the next few years.
    On the other hand, this approach will also result in a 
quote, unquote balloon effect as major drug trafficking 
operations move outside of Mexican territory and develop new 
routes in the Caribbean, Guatemala, and elsewhere as we have 
already begun to see.
    In the end, if Mexico is to succeed in its efforts to 
combat trans-national organized crime, U.S. cooperation will be 
essential. Mexico has worked very closely with the United 
States in recent years to enhance bi-national cooperation and 
these efforts deserve our ample appreciation and support.
    Thank you so much for the opportunity to provide this 
testimony, and I look forward to your questions.
    [Testimony of Professor David Shirk follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mollohan. Thank you, Doctor.
    Members of the Committee, in the first round we are going 
to certainly stick to five minutes of questioning and then we 
will see where we are in the second round.


                   patterns of drug-related violence


    Doctor, let me go right to the question of violence and the 
potential for spill-over violence from the Mexican situation 
that you have described.
    You have documented a steady northward move of cartel-
related violence over the last three years from central Mexico 
to areas immediately adjacent to the U.S. border.
    What explains this shift and should we expect that violence 
to continue creeping right on northward into the United States?
    Mr. Shirk. The patterns of drug violence that we have 
documented have basically followed feuds between the drug 
cartels. Those feuds have been partially driven by the 
disruption of the cartel leadership beginning back in about 
2002, initially the disruption of the Arellano Felix cartel, 
but also other operations in the Gulf, the Gulf cartel, and 
more recently efforts to crack down on the Sinaloa cartel.
    As the drug cartels have splintered and broken apart, 
partly because of in fighting, partly because of greater 
pressure from the government, we have seen the movement around 
the country of different clashes between the cartels and to a 
certain extent with the government.
    It is not clear, however. That pattern has, although it has 
been in the last few years moving northward, it has also jumped 
around from state to state. We have recently seen a diminution, 
for example, in the border state of Baja California, but a 
surge in other states like Guerrero and Durango, which are 
further south from the border.
    So it is not clear that this is a forward movement of the 
drug cartels into the United States.
    Mr. Mollohan. Well, you know, I was looking at your chart 
some time ago and it seemed pretty clear to me. Yes, Baja 
looked like violence had subsided there, but it looked like it 
was moving right up against the border.
    Mr. Shirk. The last year in 2008, the two leading states 
were the State of Chihuahua and the second state was Sinaloa. 
Chihuahua actually accounted for nearly a third of all drug-
related killings in Mexico. So that is pressing right up 
against the U.S. border.
    What I am not positive about is whether this is a movement 
into the United States or rather just a fight for control over 
these very lucrative routes into the U.S. for the movement of 
drugs.
    I would be very surprised if drug cartels felt that they 
could operate with the same kind of impunity that they do in 
Mexico here in the United States.
    Mr. Mollohan. How are you measuring violence coming across 
the border?
    Mr. Shirk. Well, first of all, we have seen an increase in, 
for example, drug-related, well, drug-related violence in U.S. 
hospitals, for example. I mentioned the introduction of people 
into U.S. hospitals, particularly in El Paso, in the last year.
    Mr. Mollohan. Is there any agency that counts drug-related 
violence incidents?
    Mr. Shirk. Not to my knowledge, because I think it would be 
difficult to distinguish between regular gang-level violence, 
as you indicated in the introduction, and other forms of 
specifically cartel-related violence.
    Mr. Mollohan. From a rational perspective, you would think 
that cartels operating in Mexico would not want to get that 
violent north of the border, lest they incur the greater wrath 
of the United States authorities and the kind of resources that 
the United States could bring to bear. That would be 
additionally threatening to them.
    Mr. Shirk. I think the issue of rationality is very 
important to underscore. The cartels as they become broken down 
into sort of gang-level units have become somewhat less 
rational and more disorganized in their operations. So that I 
think is somewhat of a concern.
    But I think that the thing that allows the cartels to 
operate the way they do in Mexico is the impunity with which 
they can act.
    I mentioned in my testimony that about one in four crimes 
are reported in Mexico and of those, a much smaller fraction 
are even investigated.
    And so the lack of rule of law in Mexico allows these 
cartels to operate with a very high degree of impunity. I do 
not think that is as much of a problem here in the United 
States and I think that is a testament to the integrity of our 
law enforcement institutions throughout the country.
    And so that is why I am less concerned about raging gun 
battles in the streets of the United States or the corruption 
of high-level officials here in the United States.
    Mr. Mollohan. Thank you, Doctor.
    Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.


     connections between mexican cartels and other organized crime


    Thank you for your testimony, Doctor. I have a whole series 
of questions. In the interest of the time, I will try to make 
them fast and if you can give me a yes or no.
    Is there any connection with regard to the cartels down 
there and Al-Qaeda or any terrorist activity from around the 
country, around the world?
    Mr. Shirk. Not that I have any knowledge of. And I think 
that would be extremely irrational on the part of the cartels.
    Mr. Wolf. Okay. Is there any connection with regard to the 
cartels and MS-13, which is very prevalent here in the U.S.?
    Mr. Shirk. That, I think there may be more of the 
possibility of a connection between trans-national organized 
gangs like MS-13 and the Mara Salvatrucha. I do think that that 
is something to be concerned about. The Mexican mafia, which is 
not technically a Mexican cartel organization but a U.S. based 
gang, does have connections to Mexico.
    Mr. Wolf. Have we ever seen a trend like this before going 
back over a hundred years or fifty years? Is this something 
that happened in the 1930s or 1920s or is this just kind of a 
new phenomena that we are faced with?
    Mr. Shirk. I think organized crime is not a new----
    Mr. Wolf. No, I know that. But, I mean, this.
    Mr. Shirk. Of this kind of gang-land violence?
    Mr. Wolf. Yes.
    Mr. Shirk. Certainly in the 1920s, we saw this kind of 
thing in Chicago.
    Mr. Wolf. No, I know that. But, I mean, coming----
    Mr. Shirk. In Mexico?
    Mr. Wolf. Yeah.
    Mr. Shirk. In the 1990s, we started to see this kind of 
drug feud in Mexico. And, in fact, you saw higher rates of 
killing in, for example, the City of Tijuana in the mid 1990s 
than you do today.
    But this scale and this breadth of violence in Mexico has 
not happened before because I do not think the Mexican State 
has taken the problem as seriously as it does today. They are 
really working hard to fight against these organizations.
    Mr. Wolf. So the violence is more as a result of the fact 
that the Mexican government is doing everything they possibly 
can to crack down; therefore, the violence is coming up? Is 
that the reason?
    Mr. Shirk. I think that is correct.


                     coordination between agencies


    Mr. Wolf. How is the coordination on this side of the 
border with regard to like are all of the sheriff departments 
in Texas and all the sheriff departments and law enforcements 
in Arizona, do they all coordinate together? I know there are 
fusion centers along the border, but is there really in-depth 
coordination all along the border in the four states?
    Mr. Shirk. I think that there are varying degrees of 
cooperation here in the United States among law enforcement 
agencies. I think that what I have noticed is there are very 
different models at each major corridor along the border for 
U.S. cooperation and for U.S.-Mexico cooperation.
    Mr. Wolf. And which model is working the best?
    Mr. Shirk. Well, I am partial to San Diego, I suppose. But 
what I have seen that has been very effective is the creation 
of liaison mechanism relationships in the San Diego corridor 
between international liaisons both from Mexican agencies and 
from U.S. agencies to try to cooperate and share information, 
develop partnerships and relationships across the border for 
even dealing with very small kinds of issues that agitate 
cross-border communities like abductions and stolen vehicles 
and the like, which in many cases form part of the activities 
of organized crime.
    Mr. Wolf. I just saw, and tell me, Mr. Chairman, when my 
time is up, I just saw that the Justice Department announced a 
major effort and I think they gave the responsibility to the 
Deputy Attorney General Ogden.
    Can you do this from Washington or do you need, and I do 
not want to use the word, but I will in the interest of time, a 
border czar, if you will, on the four states that are 
coordinating with regard to ATF, DHS, DEA, FBI, local police, 
Phoenix police, the sheriff departments? Do you need one person 
who has the responsibility to coordinate down on the border 
rather than running this from Washington?
    Mr. Shirk. I think that the czar model has certain benefits 
and certain disadvantages.
    Mr. Wolf. What are the disadvantages?
    Mr. Shirk. Disadvantages, in many cases, the czar is not 
sufficiently empowered to mandate agency action, but rather 
plays more of a coordinating role. But I think that the 
benefits of that coordinating role can be very important.
    The last time we had a border czar under the Clinton 
Administration, Allen Burson, was able to make significant 
progress in achieving both coordination among agencies on this 
side and with his counterparts in Mexico.
    Mr. Wolf. The last question. Given the responsibility that 
the czar would be given, that responsibility of the concerns 
you expressed, assuming that individual were given that 
authority, would it be your recommendation for a border czar, 
and I do not like to use the word czar, but for the border czar 
or not for one?
    Mr. Shirk. To avoid the use of the word czar, I think more 
coordination----
    Mr. Wolf. Well, you can use--yeah.
    Mr. Shirk [continuing]. More coordination on the U.S. side 
of the agencies, a specific coordinator for those agencies, I 
think, could be a useful innovation in this Administration.
    Mr. Wolf. Thank you.
    Mr. Mollohan. Thank you.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.


                  involvement of the mexican military


    Professor, everyone on this panel, regardless of how we 
think about different issues, agrees that this is a major 
problem that has to be dealt with immediately. But whenever you 
have a clamping down by any government, any law enforcement, 
there are many sides to that issue.
    And I have had people visit me from Mexico saying that in 
some cases government officials may use this war on drugs and 
on the cartels as an opportunity to clamp down on political 
opposition. And it gets mixed in who they went after and 
whether that person was a drug dealer or a person who last week 
was involved in a political protest against the government.
    I also note in your testimony some unease with the use of 
using the Mexican military.
    So are we speaking about the same thing that these folks 
came to talk to me about and what is your unease with using the 
military in these cases?
    Mr. Shirk. The use of the military for domestic law 
enforcement operations is dangerous because the military is a 
very blunt instrument. It is not intended for community 
policing, for respecting due process and civil rights. They are 
not trained for that.
    And I think that has been a major concern for human rights 
activists and other experts focused on this issue. There have 
been numerous complaints in the last year due to the military's 
involvement and alleged violation of human rights.
    Also, the involvement of the military in the domestic-
political arena is a dangerous game that has been played before 
in Latin America with very severe and dire consequences for 
democratic governance.
    That is the source of my unease and I think it is the 
source of unease for many Mexican citizens as well.
    Mr. Serrano. Well, it is interesting your last comment 
because I am a student of some of the things that have happened 
historically in Latin America and I know that the military 
would look for any opportunity to move in and establish 
changes, including a total change in government.
    Therefore, should the United States play a role in 
supporting the Mexican military in their fight or should part 
of our demand, if you will, as we in the future give aid and 
support, be that it be handled by local enforcement?
    Mr. Shirk. Well, the fact of the matter is that local law 
enforcement, state and even federal law enforcement in Mexico 
is not presently capable of managing the problems that we have.
    The lack of institutional integrity in Mexico is very dire, 
high rates of corruption, lack of resources. Effectively the 
Mexican government has turned to the military as its last 
resort. I think we need to be very understanding of that fact 
and view the use of the military in Mexico as a short-term 
option.
    I think we should be wary to make sure that we ensure that 
any U.S. funds are not used inappropriately, that there is a 
sincere and dedicated effort on the part of the Mexican 
government to protect human rights, and to prosecute human 
rights violations.
    That said, I think Mexico is at the end of its rope and 
there is no alternative at this point that the Mexican 
government can come up with other than the military. If this 
effort fails, there is no other place that Mexico can turn. And 
that is very disconcerting.
    Mr. Serrano. Thank you, Professor.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you.
    Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.


                     stability of the mexican state


    I share Mr. Serrano's concern about the involvement of the 
military and their history of unfortunately corruption both in 
the military and local officials.
    And from what I am hearing, Chairman Serrano, there is 
indeed a lot of concern on the U.S. side that what we are 
seeing in the civil war in northern Mexico is in many ways 
rearranging the food chain and payback.
    I think Mr. Serrano is exactly right. There is a lot of 
payback going on. And with the violence that we see and, in 
fact, Mr. Chairman, the testimony we are going to receive in a 
minute from the Drug Enforcement Agency from Special Agent 
Arabit from El Paso points out that the DEA, quote, assesses 
that a large percentage of the officials killed in both years 
were corrupt officials who either failed to do the bidding of 
their controlling cartel or who were targeted for assassination 
by a rival cartel.
    It is a lot of payback, Mr. Serrano is exactly right, and 
rearranging the food chain which is one of the reasons I was so 
concerned about the Amerita Initiative and voted against it. I 
hope that if at least we are going to send them the vehicles, I 
hope we will lo jack the helicopters and lo jack some of those 
vehicles so we can see when they start using them, we hope they 
do not, for corrupt purposes.
    But your testimony a moment ago, Professor, is that you 
said Mexico is at the end of their rope, but a minute ago in 
your testimony, you felt that it was overblown to be concerned 
about the stability of Mexico.
    Yet, the testimony that this Committee has received that we 
have on homeland security, many members of this Committee are 
also on the Homeland Security Committee, are that Mexico and 
the U.S. military has ranked the Mexican government, the 
Pakistani government, and Afghan government as the three most 
unstable, potentially likely to collapse governments in the 
world.
    And the level of violence we are seeing today in northern 
Mexico certainly has to be qualified as essentially a civil 
war. The level of violence is unprecedented. I mean, they are 
saying a spill-over.
    The DEA, Mr. Chairman, is going to testify in a moment, I 
will get to a question, I guess, in a minute, but a lot of this 
is something I have paid, and is near and dear to my heart as a 
Texan, and worked closely on, but the DEA is going to point out 
in a minute, Mr. Chairman, that the U.S. law enforcement 
agencies do not consider it spill-over unless there is, where 
is that, it says in here deliberate, the DEA federal law 
enforcement does not consider it spill-over unless it is 
deliberate. Well, yeah, here it is on page six. As agreed to by 
the interagency community, spill-over violence entails 
deliberate, planned attacks by the cartels on U.S. assets or 
citizens.
    Well, in Houston, Texas, in broad daylight, you had a 
machine gun fight at one of the biggest intersections in 
southwest Houston, at Bisnet and Belair in my district, a 
machine gun battle between two human smugglers. And they are 
trying to kill each other. That is not counted as spill-over 
because they are shooting each other and it is not a deliberate 
attack on U.S. civilians. But those bullets were not hitting 
each other. Bullets were flying everywhere.
    So I have to say, Professor, my impression is you tend to 
be understating, I think, the level of the potential for the 
collapse of the Mexican government. You said yourself they are 
at the end of their rope. If Mexico collapses, we are going to 
see millions of people come over the border seeking asylum 
quite properly.
    And so I wish you would talk to us in a little more 
realistic way. Talk to us about the stability of the Mexican 
government and what we are seeing, not just deliberate 
violence, but the incidental violence, the attacks in and 
between smugglers and the kidnappings that we are seeing.
    In Houston, Texas, a Houston police officer shot in the 
face. We have had terrible murders in Houston.
    Frank Wolf's district in northern Virginia, Frank has got 
MS-13 gang members all over northern Virginia.
    Talk to us a little bit, if you could, my Chairman has been 
very gracious for the time, about the stability of the Mexican 
government, number one, and the realistic spill-over that we 
are seeing here in the United States.
    Mr. Shirk. Thank you, Congressman.
    I want to say again I do not think that Mexico is currently 
anywhere close to Pakistan or Colombia. When we saw the 
violence in Colombia in the late 1980s and through the 1990s 
really, you had insurgent groups controlling broad swaths of 
territory. You had rebel armies that were competing for control 
of the state. You had a murder rate of approximately 100 per 
100,000.
    In Mexico, the rates vary, but we are talking about maybe 
10 to 15 per 100,000. Things would have to get ten times worse 
in Mexico in terms of the level of violence to equate what we 
have seen in Colombia, which I would categorize incidentally as 
a failed state, at least through much of the 1990s.
    Mr. Culberson. But Mexico is more dangerous than Iraq. 
There are more deaths in northern Mexico than there have been 
in Iraq. I am already over my time. The Chairman is going to 
get the hook.
    Thank you. You have been very kind, Mr. Chairman.
    Mr. Mollohan. Go ahead. You can respond.
    Mr. Shirk. May I respond to the Iraq comment?
    Mr. Mollohan. Yes.
    Mr. Shirk. The number of civilians killed in Iraq, I 
believe was about 7,000 in the previous year compared to about 
6,000 in Mexico. So that I do not think is an accurate 
reflection. And, of course, it varies by how you do your count 
of civilian deaths, et cetera. But I do not think that is a 
fair characterization.
    Mr. Mollohan. Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman.


                    potential impact of legalization


    Professor, when I was running for Congress in 2002 and 
during the six and a half years that I have been in Congress, 
my personal position has always been against legalization of 
illegal drugs.
    And I noted in your written testimony, and forgive me, I 
was out of the room for part of your oral testimony, but you 
actually cover part of this. And I would like to focus on that 
for just a minute.
    Interestingly, a writer to the Mobile Press Register, the 
newspaper in my home of Mobile, Alabama, this Sunday actually 
opined that as prohibition proved to be a failure in the 1920s, 
we were not able to manage it and it was the right thing to do 
to leave it up to states and local option, that perhaps, he 
suggested, and since this is being telecast, if anyone is 
watching back home, I want to make sure that this is Michael 
Tomison's view, not Joe Bonner's view, but his suggestion was 
that if we legalized marijuana, that that would go a long way 
toward reducing the violence that is going on with the drug 
cartels in Mexico.
    You touched on it a little bit in your written testimony. I 
thought I would give you a chance to elaborate on that and 
share us your views.
    Mr. Shirk. Thank you.
    It is an extremely complex issue. And, unfortunately, we 
have not really been asking that question, what would happen if 
we legalized drugs in the United States. I think the answer is 
nowhere near as simple as anyone likes to believe. It would not 
be the end of the world on the one hand, but it would involve 
serious problems and challenges.
    I think one thing to talk about is, first of all, the 
phenomena of decriminalization. We have been reducing penalties 
on drug users here in the United States. In many different 
states, we have actually legalized medical use of marijuana, in 
about 13 states. And that actually effectively increases the 
available market for the illicit drug sales and partially state 
sanctioned drug sales in the United States.
    I am not sure that is a very positive tendency if we are 
trying to fight the cartels and giving them more opportunities 
to make money.
    On the other hand, legalization could involve some very 
serious consequences, public health consequences with higher 
rates of addiction and use, consequences for our law 
enforcement officers who would have to deal with a whole host 
of very serious problems.
    The real question, though, is are those costs greater than 
the costs that we are currently paying in this war and that we 
have been paying for the last roughly 70 years of prohibiting 
the use of these substances.
    I do not have an answer as to whether or not legalization 
would be a better alternative to what we are doing now, but I 
am disturbed by the fact that we have not really seriously been 
considering alternative approaches to try to deal with drug 
consumption as a public health problem. Whether or not we 
legalize drugs, we definitely need to try to reduce drug 
consumption. We need to reduce drug demand here in the United 
States. We need to combat addiction. And we could do a lot more 
of that than we have been.
    Mr. Bonner. Just a quick follow-up. A couple years ago, I 
had the opportunity to travel on a Congressional Delegation 
down to Laredo, Texas and to spend a couple days with the 
Border Patrol agents there. And this was at the time when 
illegal immigration was the number one issue. It was not the 
economy. It was not even Iraq. It was the flow of illegals 
coming into this country through Mexico.
    And one of the startling things that stuck out in my mind 
was we were with the Border Patrol. It was almost midnight. And 
two young ladies crossed over the Rio Grande River and one had 
an infant, just a few months old. And it just struck me about 
how people were literally willing to risk their lives to come 
into this country for not necessarily a promise of quick or 
easy fortune, but a bad day in America was better than a good 
day in their home country.
    But when we were talking with the Border Patrol people the 
next day, they were talking about what the real challenge no 
one was really talking about then, I think we are now, was the 
illegal drugs coming in and just coming in by the truckload.
    And I guess my question is, does it take a crisis like what 
we are seeing happening in Mexico now for us to put our proper 
attention on what the real problem is as opposed to what the 
mask of the problem is?
    Mr. Shirk. I do think that that is one positive side effect 
of some of the hyperbolistic rhetoric and coverage that we have 
had is that, yes, we are now focused on our number two export 
market. We are now focused on the neighbor with which we share 
the closest ties culturally in terms of immigration, et cetera.
    And I think that out of crisis, we should find opportunity 
here to work with Mexico and strengthen the bilateral 
relationship.
    Mr. Mollohan. Thank you, Mr. Bonner.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.


                          smuggling detection


    I was just curious, just an overview, talking about drug 
trafficking and crimes along the borders in a couple of states. 
Very quickly, can you tell us where the source of the drugs are 
and how it travels and the kind of interdiction that goes on 
along the border on the Mexican side and what kinds of help 
should we be looking at offering the Mexican side of the border 
for detection that go along with the drugs? Coming from the 
other side, what is the major traffic coming from the other 
side, from our side to the Mexican side? What is the major 
traffic there and what is its source?
    Mr. Shirk. The drug cartels in Mexico have control over an 
estimated 90 percent of the cocaine market moving from the 
Andean region into the United States.
    Mr. Honda. Uh-huh.
    Mr. Shirk. They control approximately, I think it is 40 
percent or more of marijuana that is consumed in the United 
States. We are fairly self-sufficient. A significant 
proportion, we grow our own. We also import a fair amount from 
Canada.
    But the cartels use virtually all manner of conveyance to 
move product into the United States. They use boats. They use 
clandestine entry points, including tunnels, anything to evade 
interdiction.
    Our interdiction efforts at the border frequently result in 
major seizures. But, unfortunately, wherever we try to 
interdict, the Mexican cartels do try to find other ways of 
bringing product into the United States. And they are extremely 
creative.
    Last year, for example, they found panels, a truck that 
actually had panels that were modified cocaine substance that 
was literally driven into the United States and looked like a 
car or looked like a vehicle. And the creativity, the ingenuity 
of these organizations is tremendous.
    In terms of southbound, the cartels are heavily dependent--
--
    Mr. Honda. Could you talk about what are some of the 
techniques----
    Mr. Shirk. Detection techniques----
    Mr. Honda [continuing]. That we could----
    Mr. Shirk [continuing]. We use, very effective methods are 
the use of K-9 units, the use of X-ray detection technology. 
And there is a new X-ray technology that is being developed 
that is even more rapid and efficient in searching vehicles as 
they move across the border with very low levels of X-rays that 
you can do it on a fairly regular basis.
    Those technologies are fairly expensive and not fully 
distributed all along the border. So the primary method of 
detection that is most important, I think, at our ports of 
entry is having trained, qualified personnel in our Customs, in 
the Department of Homeland Security for detecting and 
interviewing individuals and commercial vehicles as they move 
across the border.
    Unfortunately, I think that we do not have adequate either 
physical infrastructure or personnel to move our commercial 
vehicles and personal vehicles into the United States quickly 
enough because the inspection process is slow. Those slow down 
very significantly.
    On the last point, in terms of southbound efforts, we 
inspect a very small percentage of flows going into Mexico and 
Mexico also inspects a very small percentage of the traffic 
that goes across into Mexico.
    So one of the things that people have talked a lot more 
about is greater interdiction at our southbound ports of entry. 
That is concerning to me because currently our northbound 
efforts at interdiction slow down cross-border trade in the 
United States and Mexico to the point that we lose somewhere 
between six and ten billion dollars each year in cross-border 
trade just from the San Diego port of entry alone.
    If we try to impose southbound interdiction at a rate 
equivalent to or similar to what we are doing for northbound 
traffic, that is going to have important economic effects not 
just for our border communities but for the rest of the United 
States and for all of the hundreds of billions of dollars in 
NAFTA trade that we have here.
    But we do need to do more to try to prevent the flow of 
bulk cash and the flow of arms south of the border. I 
personally think that we should be doing more at the point of 
transaction. In other words, doing more investigations into the 
financial operations of the drug cartels and more effort to 
regulate the sale of guns here in the United States, enforcing 
existing laws, and perhaps considering new ways of regulating 
and restricting access to very high-powered weapons.
    Mr. Mollohan. Thank you, Mr. Honda.
    Mr. Fattah.
    Mr. Fattah. Thank you.


         adequacy of the administration's border security plan


    President Obama has made some announcements today and they 
include hundreds of new FBI, DEA, ATF agents assisting in this 
effort on the border, some 700 million new dollars to Mexico to 
help bolster their efforts in terms of purchase of helicopters 
and the like.
    This goes along with, what the Committee has already 
appropriated, over a billion four over the next couple of years 
towards the efforts of the Mexican government. There are a 
number of other pieces to the announcement today by the 
Administration.
    Would you care to comment, if you know about the specifics, 
about what you think regarding these additional efforts which 
include 54 million for local law enforcement in the tribal and 
border states along the border?
    Mr. Shirk. I will not go into the specifics because I have 
not read the specific allocations that have been made, but I do 
think that there is definitely a need for more resources of the 
kind that have been mentioned so far, more resources for ATF, 
more resources for enhancing ports of entry and enhancing our 
capability in terms of inspection for arms and for bulk cash 
movements.
    I do think that these are necessary and valuable efforts 
and, importantly, they signal to Mexico that we are serious 
about addressing the aspects of the problem that we are 
responsible for on our side of the border.
    Mr. Fattah. Now, the obvious challenge as we go forward is 
that there is still lots of money to be made if you want to 
sell drugs in the United States. It is a very wealthy country 
in comparison. And no matter what we do, borders, law 
enforcement, this financial incentive is going to continue.
    One of the things that the President's appointee for the 
drug czar is talking about is our nation taking much more 
seriously the question of drug treatment, and how to lessen the 
demand. As you know, there are certain people in our country, 
no matter how much drugs might be available, are never going to 
utilize them. They are never going to purchase them. They are 
not going to use them.
    We have a certain subset of our population that for a 
variety of reasons are susceptible to drug addiction or to drug 
use and there is a need to focus in on treatment really as a 
law enforcement mechanism, to the degree that we can lessen the 
demand, then people would not be willing to lose their lives to 
try to sell something they could not sell in our country.
    If you would like to comment on that, that would be useful 
to the Committee.
    Mr. Shirk. I agree. I think that we need to do a lot more 
to try to address demand in the United States. The issue of 
treatment is very important when the small percentage of 
regular cocaine users account for approximately 80 percent of 
demand for cocaine. That means that if we could reduce 
consumption among those regular users, we could dramatically 
cut overall demand in the United States.
    I could not agree more that we need to try to discourage 
the consumption of drugs in the United States.
    Mr. Fattah. All right. Well, thank you very much for your 
testimony.
    Mr. Shirk. Thank you.
    Mr. Mollohan. Thank you, Mr. Fattah.
    Mr. Ruppersberger.


                          securing our border


    Mr. Ruppersberger. Getting back to the issue of the border, 
I know you have said that you do not feel that by Mexico 
putting troops on the border would do anything or would be a 
deterrent.
    Could you explain that, please?
    Mr. Shirk. By Mexico putting troops on the border----
    Mr. Ruppersberger. Yes.
    Mr. Shirk [continuing]. Would be a deterrent to----
    Mr. Ruppersberger. To the drug war and the problems and 
escalation of violence that we have right now.
    Mr. Shirk. What I think is there has been no demonstrated 
effect other than to--in terms of reducing violence. The more 
the military has gotten involved in some ways, the more 
violence we have seen as the cartels become more fragmented, 
less predictable, and more violent as they sort of frenzy 
amongst each other trying to compete to take up and take 
control over routes that have been disrupted.
    So the question is whether there is an end in sight that 
the military can help to achieve. The best hope as I have 
described it so far appears to be making the cost of operating 
in Mexico so great that the drug cartels or some other drug 
cartels establish alternative routes into the United States 
that do not involve staying in Mexico.
    In other words, the balloon effect of pushing those drug 
cartels out of Mexico and perhaps into the Caribbean and----
    Mr. Ruppersberger. Well, let me ask you this as it relates 
to immigration, as it relates to drugs, as it relates to gun 
running, whatever. The bottom line, we have not been able to 
secure our border, our southern border.
    And if there is something really that every nation should 
have as a priority is to secure their borders for a lot of 
different reasons. I know you look a lot at history and you 
have studied this issue.
    Have you looked at what has happened in Colombia with Uribe 
working with the United States, being able to deal with the 
issue of corruption, the resources that were needed, whether it 
is UAVs or the boat runners, those type things? Do you think 
that the plan that we have used and worked with Uribe would 
help on the border, at the border, the escalation of drugs, 
guns, and violence in Mexico?
    Mr. Shirk. I think that the government of Colombia has been 
very successful in disarming, for example, paramilitary groups. 
They have also been very successful in striking strategically 
to hurt insurgent groups like the ELN and the FARC.
    Unfortunately, we have seen a similar pattern in Colombia 
of spiraling violence and the creation of smaller organizations 
that produce further chaos.
    Right now Colombia is the number two country worldwide for 
refugees. There are 30,000 refugees who have been displaced 
because of the spiraling violence.
    So if the Colombian----
    Mr. Ruppersberger. Well, that is the same issue at the 
Mexican border right now too.
    Mr. Shirk. Well, the difference is that, first of all, we 
do not have armed insurgent groups that are seriously 
challenging----
    Mr. Ruppersberger. Like the FARC?
    Mr. Shirk [continuing]. The Mexican state like the FARC. 
And we also have not seen the extremely high levels of--we are 
talking, you know, hundred per hundred thousand----
    Mr. Ruppersberger. Right.
    Mr. Shirk [continuing]. Homicides and the kind of 
displacement of the domestic population. So thankfully Mexico 
is very far away from that kind of a failed state scenario.
    Mr. Ruppersberger. Well, let me get to another. I do not 
know how much more time I have. But it seems to me that some of 
the most effective ways to deter whether it is terrorism, 
whether it is drugs, or whatever is kind of a strike force 
concept.
    If you look at the JTTF, you are familiar with that, where 
you have the federal, state, and local, you have CIA, NSA 
coming together not only from an intelligence point of view but 
also from an enforcement point of view, getting intelligence, 
analyzing the intelligence, and then operating.
    There are fusion centers on the border now which are kind 
of like that, but do you have an opinion if we could use more 
resources, the same resources, just a small amount that we are 
using in Iraq and Afghanistan, where we have the components of 
the intelligence, we have the components of our special ops or 
we have our coming together whether it is Immigration, whether 
it is Customs, DEA, FBI, whatever, do you feel that that could 
help Mexico by us being stronger on the border?
    I have not seen what the President came out with today, so 
I cannot analyze that. But do you have an opinion whether or 
not that type of concept would work on the border and the 
problems that we have right now?
    Mr. Shirk. I think that the approach you are suggesting, 
greater emphasis on intelligence, on fusion centers, on special 
tactical forces, interagency forces, I think that has proved 
successful in the United States and it can be a useful approach 
in the southwest.
    I would go further than that and also suggest that as we 
see continued concerted efforts on the part of the Mexican 
government and the establishment of agencies that do have a 
high degree of integrity, we should engage in intelligence 
sharing and greater cooperation across the border of that 
nature.
    Mr. Mollohan. Thank you, Mr. Ruppersberger.
    Because the members of the panel limited their questions to 
five minutes, we got through that with a lot of good questions. 
I would like to do a second round with our witness, who I think 
is providing very good testimony, and again limit our questions 
to five minutes.


              assessment of mexican response capabilities


    Doctor, getting at the question of Mexico's strengths and 
their weaknesses, how well they are doing? If you could 
critique their performance, where are they doing it right in 
Mexico? Where are they not? Give us insight into how we could 
best be of help to them.
    Mr. Shirk. Well, I think we have to think about the long-
term solutions. And I know that in the long-term, we are all 
dead. But I think that we need to think about really investing 
heavily in rule of law reform.
    One of the things the Mexican government has done well, for 
example, or has made a very positive effort in the last couple 
of years is in promoting reform of the judicial system, which 
will necessarily require an overhaul and reform of the police 
force.
    In the United States, we did those kinds of reforms, 
especially in the 1960s. Congress approved millions of dollars 
of funding for the improvement of our criminal justice system 
partly in response to legal changes that happened here in the 
early 1960s, the introduction of Miranda rights, the 
introduction of a universal right to a public defender. Those 
kinds of things raised the bar for law enforcement and our 
criminal justice system and we responded by investing heavily 
in strengthening state and local police forces to improve their 
professionalism.
    Mr. Mollohan. This sounds long term.
    Mr. Shirk. Mexico needs to do more of that.
    Mr. Mollohan. That sounds long term.
    Mr. Shirk. That is long term.
    Mr. Mollohan. Short term, should we continue going with the 
military? Should we encourage Mexico to go with its police 
force and do something with them?
    Mr. Shirk. Short term, and this goes to Congressman 
Culberson's point, short term, I do not think that Mexico has 
an alternative but to involve the military. It is not that they 
are on the verge of collapse, but rather their strongest, most 
respected, most or least corrupted unit is the military. And 
that is their best hope for trying to address these problems at 
this time. It should, however, I think, be a short-term option.
    Mr. Mollohan. Okay. In my limited time, I would like to go 
to federal law enforcement programs.
    You criticized U.S. border security efforts for being 
insufficiently targeted and too dependent on finding the needle 
in the haystack. That was the Border Patrol efforts as I 
understand it.
    How would you apply this critique to federal law 
enforcement programs?
    Mr. Shirk. I think that there has been so much emphasis in 
the last few years on the border as the primary line of defense 
on many different security issues. And, unfortunately, I think 
that trans-national crime and terrorism are not problems that 
can be easily interdicted. If your first or last line of 
defense is your border, we have, I think, much to be concerned 
about.
    We definitely need to see more efforts in terms of 
investigative efforts or investigations about how these cartels 
operate, hit them where it hurts the most in terms of their 
ability to move their profits back into Mexico and then launder 
them through their financial system. We also need to do a lot 
more to restrict their access to the weapons that they use to 
commit these murders.
    Mr. Mollohan. Thank you, Doctor.
    Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.


                  levels of success achieved by mexico


    You have so many questions and the time. I guess the one 
that is troubling me the most, I wanted to ask you two 
questions and get a comment on one, where is it the least of 
the problem and where is the most successful? What four states 
are doing the best job and what area? And as they do a good 
job, does it shift to another area?
    Mr. Shirk. This is where I am not convinced that we have 
seen a consistent pattern. When the Mexican military was 
deployed to Michoacan at the end of 2006, we subsequently saw a 
dramatic reduction in drug cartel-related killings in that 
state. They dropped to about half and many people attributed 
that to the success of the military.
    But in the neighboring state of Guerrero, also on the 
central Pacific Coast, we saw a dramatic increase, a doubling 
of drug-related killings practically despite the deployment of 
a similar number of Mexican troops. So there is not a 
consistent pattern in terms of reducing the violence.
    My understanding is that in recent weeks, the deployment of 
I think another 6,000 troops to the State of Chihuahua or, I am 
sorry, 5,000 troops to the State of Chihuahua on the border has 
been followed by a reduction in violence.
    How the cartels respond to the government presence has not 
been consistent or the military presence has not been 
consistent. And that is where my concern lies when I raised the 
point about will the military be effective as an instrument. I 
do not think that the military alone can be effective.
    I think what is really needed to combat trans-national 
organized crime are greater efforts at trans-national 
collaboration between the United States and the kind of 
intelligence sharing, shutting down of their cash flow and 
shutting down of the flow of weapons moving south across the 
border.
    Mr. Wolf. Last two. What is the total population or the 
number of the Mexican military? How many are in the Mexican 
military?
    Mr. Shirk. I do have data on this. I am not going to guess 
at the number. I think it is around 130, but I can pull that 
out if you need me to.
    Mr. Wolf. So they must be stretched. They must be 
stretched.
    Mr. Shirk. The Mexican military, I think, is, the number of 
military personnel deployed by the Mexican government to combat 
the drug war is, according to the Mexican government, is 45,000 
troops. About 9,000 of those last year were deployed to 
specific urban or metropolitan areas. And this year, they have 
deployed double that amount, about 18,000, to various major 
metropolitan areas in high drug trafficking states.
    And in that sense, I do not think that the Mexican military 
is overly stretched, but they are making a very concerted 
effort.


                       law enforcement corruption


    Mr. Wolf. Okay. And the last question is on page eight, you 
say since its formation in 2002, heightened recruitment efforts 
at the Department of Homeland Security brought in greater 
numbers of inexperienced agents while tighter security at the 
border created greater incentives for organized crime groups to 
infiltrate the agency and corrupt U.S. border security agents.
    And then you end by saying from October 2003 to April 2008, 
there were numerous cases of alleged corruption identified 
along the border and the potential vulnerability of U.S. law 
enforcement agencies to corruption.
    I think we have the most honest law enforcement, I think, 
probably in the world. But I have never seen that in writing 
before. Would you comment a little bit about that.
    Mr. Shirk. That is a special report that was done by the 
New York Times and it drew on agency information about simply 
the number of cases subject to internal review within Customs 
and Immigration along the border. And the number of cases, 125 
in California, 157 in Texas, double digits in Arizona and New 
Mexico, those are not all cases of drug-related corruption of 
our agencies and I do want to underscore that.
    What I think is troubling is that we do have cases of 
corruption in our law enforcement agencies at low levels in the 
United States and that those could be taken advantage of by 
drug trafficking organizations. I think we need to look more 
carefully at it.
    Mr. Wolf. Really, though, then you are not saying this is a 
problem in the United States of corruption?
    Mr. Shirk. I think the severity of the problem is nowhere 
near the level of the problem that we see in Mexico. When you 
are talking about hundreds of cases, though, of agents 
corrupted along the US-Mexico border, I think that would be 
concerning to any U.S. citizen.
    Mr. Mollohan. Thank you, Mr. Wolf.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.

                  CONTROL OF FIREARMS REACHING MEXICO

    Professor, the question I want to ask you is probably 
somewhat better suited for the next panel, but your testimony 
has been so full of knowledge that I cannot pass it up.
    One of the touchiest subjects that we have in this Congress 
and in this country is the issue of gun control, yet we know, 
according to the Mexican government, and I do not think we 
dispute it much, that 90 percent of the weapons being used in 
Mexico come from this country.
    Without getting you in trouble, although I do not think you 
worry about that too much, under our present laws and what we 
allow in terms of the use, the sale, the bearing of arms in 
this country, can we really ever think that we could stop any 
of those weapons going into Mexico, because, as you know, the 
Mexican government and the Mexican community in general says we 
have a problem? We understand it is our problem. But there are 
two problems. The guns come from here and we are the drug 
consumers.
    Mr. Shirk. I feel the same way about trying to control 
Mexican demand for arms that I do about the demand for drugs in 
the United States. These are market problems that are not easy 
to solve.
    There are public policy problems that you solve and there 
are public policy problems that you manage. I do not think we 
are going to solve gun trafficking as long as this very high 
level of demand is in Mexico, but we can certainly do more to 
try to regulate it and to manage the problem.
    Are existing laws adequate for preventing the trafficking 
of high-powered weapons into Mexico? Evidently not. When you 
have thousands of weapons moving into Mexico, 90 percent of 
them coming from the United States, arguably existing laws are 
not currently effective and current enforcement efforts are not 
sufficient.
    The increase in the number of ATF personnel and anti-weapon 
smuggling efforts in the southwest, I think, is a very good 
start, but I do think that we need to look more carefully at 
what existing regulations we have.
    The number one place for entry of weapons into Mexico is 
the State of Tamaulipas, just south of east Texas. California 
has much lower flows of guns moving into Mexico, especially 
high-powered assault weapons, in part because there, I think, 
are more restrictive controls in the State of California for 
the sale and purchase of those kinds of weapons.
    I know that that is a very controversial issue and I know 
that we need to respect the Constitution in the United States 
and the Supreme Court's interpretation of our right to bear 
arms.
    But that said, I do think that there is certainly more that 
we can do. We just have to figure out what we are going to do.
    Mr. Serrano. Now, I may be wrong, I think I read this 
somewhere, maybe not in your testimony, about the fact that 
most of those weapons are coming basically from one percent of 
gun dealers in the country.
    If that is so, if I read that correctly somewhere, then 
that should be easier to target; would you not agree? I mean, 
if it was widespread that people were selling to improper 
people illegally, okay, but if it is one percent of gun dealers 
in the country, you probably could target them and do a better 
job.
    Mr. Shirk. I think the statistic that I am recalling is the 
percentage of gun dealers who are regulated in the United 
States. It is a very small percentage. We throw around numbers 
a lot. And I think we could be doing more inspections of 
existing gun dealers.
    There are some 6,700 gun dealers in the southwest border 
region and I think we need to do more to try to inspect and 
regulate those. And that is what a lot of those ATF agents and 
inspectors hopefully will be doing as they are brought into the 
region.
    Mr. Serrano. In closing, Mr. Chairman, but you do believe 
or have you stated that there may be a relationship or there is 
a relationship between California's behavior on guns and east 
Texas' behavior on guns as to why more flow one way and not the 
other way?
    Mr. Shirk. That could be the case. I think it would in 
fairness to alternative explanations, it could also be related 
to trade routes and other operations that the cartels have. So 
I do not think we can definitively state that, but we certainly 
should give it more of a look as to why we see that variation 
along the border.
    Mr. Mollohan. Thank you, Mr. Serrano.
    Mr. Serrano. Thank you.
    Mr. Mollohan. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    I know east Texas is a lot safer than parts of California 
where they have gun control and certainly a lot safer than D.C. 
Washington, D.C. has the toughest gun control laws in the 
country and it is one of the most dangerous parts of the city, 
parts of the country there is.
    You know, the right to keep and bear arms is one of our 
most sacred rights. It is one that has served this country 
well.
    And I co-authored the concealed carry law in Texas and I do 
not think there has even been a fistfight between concealed 
carry permit holders in Texas in the 12 or 15 years it has been 
on the books.
    And they have stopped a lot of crime. They have saved a lot 
of police officers. They have saved a lot of fellow citizens.
    And a law enforcement officer's best friend is a licensed 
concealed carrier permit holder who is trained in the law, 
trained to use the weapon, and is a law-abiding citizen who is 
there to be a support for law enforcement.
    So I have to tell you I strenuously disagree with your--
your testimony tends to tell me that you believe in gun control 
and I just do not see it as a good solution in this area.
    In any event, I just appreciate your testimony. I do want 
to ask. I do not know much about the Trans-Border Institute. I 
tried to Google you in my mobile web browser and could not find 
out, but you are part of the University of San Diego?
    Mr. Shirk. That is correct.
    Mr. Culberson. You are funded through the State of 
California, through federal grants or both?
    Mr. Shirk. No. We have been very fortunate to have funding 
from the William and Flora Hewlett Foundation as well as the 
Tinker Foundation. Our unit is also funded directly by the 
University of San Diego thanks to our past Provost, Sally Fury, 
who established a line within our university.
    Mr. Culberson. And what are the goals of the Tinker 
Foundation and the Hewlett Foundation? Why are they funding you 
and what sort of positions do you advocate that is consistent 
with their philosophy?
    Mr. Shirk. The purpose of our effort through the Justice in 
Mexico Project which is funded by both of those agencies is 
consistent with Hewlett and Tinker's efforts to promote greater 
collaboration between the United States and Latin America, 
specifically their interest in our relationship with Mexico. 
Our primary goal in the Trans-Border Institute is to further 
cooperation with and understanding of Mexico. Our activities 
are consistent with theirs.
    I will say that I do not have a definitive position on gun 
control, Congressman. I think that we are all concerned about 
the flow of weapons going south of the border and we need to 
think carefully about what are the best ways of trying to deal 
with that. I do not know. I have not seen a study that says 
that definitively an assault ban would deal with that.
    Certainly our last assault ban here in the United States 
was not designed with southbound flows of weapons to Mexico in 
mind. So I do not think that we have any good evidence and I 
think it is something that we need to think very carefully 
about as you suggest.
    Mr. Culberson. Certainly any problems we are having with 
the flow of guns or the flow of illegal substances with crime 
on the borders are lack of enforcement of existing law. We have 
got plenty of gun laws on the books. And the ones that are--the 
overwhelming majority of all the people out there that have 
permits to sell guns are honest, law-abiding people who do 
their best to comply with ATF regulations.
    And I can tell you, and I know my five minutes is probably 
close to being up, but there is a great success story that I 
hope you will pay attention to in Texas on the border in 
Operation Streamline, a zero tolerance policy that the Border 
Patrol began in Del Rio at the initiative of Federal Judge Ali 
Alidlum, took it on herself to bring together the prosecutors, 
the Border Patrol, the Marshals, the sheriffs, all the law 
enforcement community in the Del Rio sector, and it is working 
beautifully, Mr. Chairman.
    And we will hear, I am going to ask some of the witnesses, 
in particular, I understand we have got El Paso is here, and we 
will talk, I would like to ask them about it, because this is a 
success story. It is a win-win supported by the local community 
which is 96 percent Hispanic. Dramatic drops in the crime rate 
and it has made the border sector in Del Rio and Laredo much 
safer as a result of enforcing the law. That is all we need to 
do, just enforce the law, and this problem will largely be 
solved.
    Mr. Mollohan. Thank you, Mr. Culberson.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    In that light, can you repeat for me the percentage of 
illegal guns that are found in Mexico because of drug running 
that comes from California, Arizona, New Mexico, and Texas?
    Mr. Shirk. An ATF trace in 2007 found that 90 percent of 
weapons seized in Mexico, that I think this was some 7,000 
something weapons seized in Mexico, that 90 percent of those 
came from the United States. And of that 90 percent, 40 percent 
came from three U.S. border states, California, I believe it 
was Arizona, and Texas. Those are the statistics that I cited 
earlier.
    Mr. Honda. And of the three, where did the largest amount 
of guns come from?
    Mr. Shirk. That data, I do not have. I would have to look 
back at the report to figure out whether the majority came from 
Texas or came from California.

             PROFESSIONALIZATION OF MEXICAN LAW ENFORCEMENT

    Mr. Honda. A quick question. It is probably a judgment 
statement on your part, but we seem to have a very strong 
central government in Mexico that wants to make the changes and 
put themselves out to do the battle.
    From there to the border states of Mexico is a long 
distance. It seems to me that the centralized government has to 
look at infrastructure kinds of issues in order to create the 
same determination in the states that are along the border, 
Sonora, Chihuahua. What are the other ones?
    Mr. Shirk. The Mexican states along the border are Baja 
California----
    Mr. Honda. Right.
    Mr. Shirk [continuing]. Sonora, Chihuahua, Tamaulipas, and 
Nuevo Leon.
    Mr. Honda. And of these states, the government in those 
states, is it a fact that the folks who are in law enforcement 
could probably use more professional training, a better pay 
scale so that they are not susceptible to corruption and 
bribery and things like that?
    But on top of that, it seems to me that every time a drug 
lord or a drug trafficker is thrown into jail in those states 
that sometimes the whole place just empties out and is left 
alone and open to being freed again.
    Are there stories or incidents that you can share with us 
that reflect that and do you have a recommendation that we 
should be looking in to bolster that up?
    Mr. Shirk. Well, there are some 430,000 police, domestic 
police agents in Mexico at the federal, state, and local level, 
according to a study that we did a couple of years ago. Of 
those, about 75 percent are preventive police agents that until 
recently did not have investigative capabilities. And of those, 
most tend to be local police forces.
    And the thing that we have seen in our studies of police in 
Mexico, domestic police, is that there is a lot of room for 
professionalization.
    We are doing a survey right now in central Mexico, in the 
State of Jalisco, of local police forces to try to determine, 
for example, the level of professional development, level of 
education, other aspects of those, of their professionalisms.
    But the preliminary indications suggest that at least half 
of the police forces that we are talking about, these local 
police forces, lack a high school education and in many cases 
are paid extremely inconsequential salaries. That contributes 
to unfortunately a high level of susceptibility to corruption 
and a low level of actual professional capability to actually 
deal with some of the problems that we are talking about.
    So I think Mexico needs to do more to address the 
deficiencies of its domestic police forces. I think we can be 
helpful in working with Mexico to address those deficiencies. 
It is tricky because we do not want to become responsible for 
training a domestic police force that becomes a menace to its 
own population.
    That said, I do think that we can through some of the 
programs we actually have right here along the border which 
involved exchanges between police, liaison relationships 
between police, information sharing among police, we can help 
those agencies to become much more professional and effective.
    And I expect that to happen over the next five to ten 
years. I expect to see major gains in Mexico's police force 
thanks to some of the investments that they are making, some of 
the pressure from Mexico's new justice reforms, and other 
changes that I think will advance the rule of law in Mexico.
    Mr. Mollohan. Thank you, Mr. Honda.
    Mr. Ruppersberger.

              REACH OF MEXICAN CARTEL IN THE UNITED STATES

    Mr. Ruppersberger. I want to get into the issue of how the 
violence might be spilling over into the United States.
    The first thing, we all know that when we are dealing with 
the issue of gangs, if you put a lot of pressure in one area, a 
lot of times, the gang will move to another area, another 
jurisdiction, whatever.
    I think what we see on the border and some of your 
testimony is that some of the cartels have been slowing down or 
whatever and you have more independent groups that are trying 
to take control. Then you have a lot of violence.
    What do you see about the drug cartels moving into the 
United States and connecting with gangs along the border, but 
even beyond that to urban areas, say Baltimore, Washington, 95 
corridor, that type thing?
    Do you see this escalation going to the United States 
escalating that and what do you see the relationship between 
the United States gangs and then drug cartels and how do they 
communicate, how do they pay each other, how are they able to 
have the drugs transported?
    Mr. Shirk. I would say that since at least the 1970s, 
Mexican organized crime groups have had retail operations and 
connections to distributors, illegal distributors here in the 
United States. You cannot have trans-national organized crime 
without ties to local networks for distribution and in many 
cases even controlling to a certain degree those operations.
    So I think that this is actually a longer-standing problem. 
What is obviously concerning to us is whether or not the feuds 
between cartels that are currently playing out in Mexico will 
be playing out in our streets.
    I am less familiar with the experience of Texas and some of 
the other border states. I have seen, for example, and paid a 
fair amount of attention to the issue of kidnapping, for 
example, in the State of Arizona.
    It is not clear to me from that information that I have 
seen that the kidnapping, the increased kidnapping we have seen 
in the Phoenix area, for example, and I know we will hear 
testimony on this, that that is necessarily a reflection of the 
drug cartels or rather immigrant smuggling groups which may be 
an entirely different animal from what we are talking about 
here.
    But I think the main concern that we should have is whether 
or not the operational--the contest for operational control is 
spilling over into the United States. And I am not sure that we 
have a lot of good evidence of that. We certainly have some 
isolated incidents. And as I said, I am less familiar with some 
of the specific incidents in the Texas area, so I would be 
interested in hearing more about that.
    But at this time, the scale of violence that we have seen 
in Mexico is not being replicated on the U.S. side of the 
border thankfully. Should we be concerned about these isolated 
incidents and try to empower local law enforcement along the 
border to better address those, absolutely.
    Mr. Ruppersberger. Well, let me give you an example. You 
have Mexico versus the United States. You have what I 
understand a police chief who is effective against the drug 
cartels, who is considered to be honest, and, yet, was told 
that if you do not resign because he was putting pressure on, 
we are going to kill a police officer every other day, so this 
police chief resigned. Probably one of the worst things he 
could do, but felt that he did not have the support from his 
government or whatever to protect his troops.
    The United States of America and no matter whether it is a 
small town, a large area, whatever, would not tolerate that. We 
would do whatever we had to do to make sure that would not 
happen. And that is one of the big differences that we have 
now.
    But my concern is the organized crime approach. And you 
have money. You have the ability. Still that we have not--it is 
amazing to me with a country like ourselves that is considered 
the most powerful country in the world, we have satellites, we 
have all sorts of technology, and, yet, we still cannot secure 
the border and can stop this.
    So my question again is, do you see the gang connection, 
organized crime between the cartels escalating in the United 
States and more violence occurring in the United States beyond 
just the border, in urban areas? I mean, we are having the 
Mayor of Phoenix here and some of those different urban areas.
    Mr. Shirk. Definitely I do believe that the drug 
trafficking cartels have--their networks extend to other 
markets in the United States. They have to. That is where the 
highest profit margins are on the retail side of these drug 
trafficking organizations.
    But you raise a very good example. When we talk about 
spill-over drug violence and the spill-over power of these 
cartels, we do not see the kind of thing that you are 
describing.
    Drug cartels basically able to force the head of a local 
law enforcement agency in the United States to step down, that 
kind of impunity does not exist on this side of the border. We 
do see very localized violence. We see the same kinds of 
killings and intimidation between gang members and rival 
distributors that we have seen in this country for many years 
unfortunately.
    But thankfully I do not----
    Mr. Ruppersberger. The term for that is turf battle.
    Mr. Shirk. Those are turf battles, local turf battles. The 
question is how badly are those being exacerbated by what is 
happening on the Mexican side. And I do not think we have a 
good answer for that.
    Mr. Ruppersberger. Okay.
    Mr. Mollohan. Thank you, Mr. Ruppersberger.
    Dr. Shirk, thank you very much for your fine testimony here 
today. You have given us informed, excellent responses to our 
questions over a broad range and supplied the Committee with a 
lot of information, in and of itself, but also an excellent 
backdrop to our next panel.
    Thank you very much for your testimony here today. And I 
know there are going to be members who would like to submit 
questions for the record. If you would be kind enough to 
respond to them in your good time, the Committee would 
certainly be appreciative.
    Mr. Shirk. Happy to do so. Thank you, Mr. Chairman and 
other members of the Committee, for having my testimony.
    Mr. Mollohan. Thank you. It has been tremendous for you to 
come all the way here today.
    Our next panel is an equally informed one. If each of you 
would come to the table. Thank you.
    Your written statements will be made a part of the record 
and we look forward to your oral testimony.
    And let us begin with Mayor Gordon and then we will turn to 
Special Agent Newell and then to Special Agent Arabit.
    Mayor Gordon, welcome.

                 Opening Statement of Mayor Phil Gordon

    Mr. Gordon. Thank you very much, Mr. Chairman Mollohan and 
also Ranking Member Wolf and distinguished members of the 
Subcommittee.
    I am also proud to be joined by Chief Jack Harris behind me 
who is here to answer any technical or professional questions 
the Subcommittee may desire. He has been with the Phoenix 
Police Department for the past 36 years and has risen through 
the ranks.
    Let me be blunt----
    Mr. Mollohan. Will the Chief raise his hand, so we know. 
Thank you, Chief.
    Mr. Gordon. Let me be blunt, direct, and realistic. There 
is no doubt in my mind or the residents of Phoenix or our 
police department and other federal agencies in Phoenix that a 
crisis, a critical crisis exists at our border with Mexico.
    The border itself which is vast and porous and may explain 
some of the reasons without a significant increase in the 
amount of agents on the ground and technology, it is ten 
thousands of square miles. It is the largest border at 2,000 
miles with the significant population located several hundred 
miles away.
    So there is miles and miles of open terrain, that even if 
you are next door in an adjoining canyon, you would not know 
that people are there smuggling drugs and people in.
    I am a very, very concerned Mayor. Phoenix finds itself at 
the center of this perfect storm of what is going on. Yet, I 
also come with optimism and to give and suggest solutions to 
the wisdom of this Committee which are proven and successful in 
achieving and making Phoenix and the Valley one of the safest 
major cities in the country today despite its increase in 
population and proximity to the Valley.
    All crimes are down in Phoenix for the last year, including 
homicides, which are down 24 percent. But the violence is 
spilling over and I will address that shortly.
    We have a police department with 3,400 sworn officers. Our 
city is 540 square miles. That equates to about an officer per 
square mile. They arrest over 46,000 criminals a year, handle 
nearly 750,000 calls a year, and they are stretched like all 
police departments, federal and local, to its very limits.
    Yet, due to the happenstance of the border and the 
associated increasing crimes that continue to go on, our police 
departments are doing much more at a significant cost both to 
residents financially and residents' potential safety-wise.
    And they cannot do it alone and that is why for years we 
have been partners with the federal government in these 
creative partnerships, some of which have been referred to, 
that have proven success for in some cases decades.
    Partnering with the DEA, the Border Patrol, FBI, ATF, the 
U.S. Attorney, the U.S. Postal Inspectors, and state and other 
local agencies, these law enforcement agents have disrupted and 
curtailed serious major felony criminal activity.
    They have executed thousands of warrants, indicted 
thousands of felons, and arrested thousands of dangerous and 
violent people engaging in drug trafficking, gun smuggling, 
drug smuggling, human smuggling, and kidnapping, by the way, 
all related. There is no difference today in whether it is drug 
smuggling and people smuggling. It is all together. It is all 
about money.
    And, in fact, on the human smuggling side, it is as 
profitable or more so with much less risk, but it is going on 
simultaneous with the same individuals.
    We have kept millions of dollars from flowing. And the way 
we have done it is our Chief has said and the other federal 
agencies we are going after the worst of the worst, the 
syndicates, the king pins, and the tops of the snakes. That is 
how we can be most effective as a nation, a city, and a state, 
by allocating scarce resources where they have the greatest 
impact. And let me say that is by partnering with our federal 
partners. That has been going on for decades in Phoenix to 
effectively increase the resources available.
    Again, the federal government, let me be clear, has been a 
tremendous partner in the Valley. We have accomplished 
important things together and helped keep our community one of 
the safest in our nation, also safe by disrupting these 
organizations, but they continue.
    The Phoenix Police Department together with ICE is 
partnered in Phoenix, a unique program that has been very 
effective. We actually have ICE imbedded agents on a full-time 
basis in our police department. That is where their desks are.
    They go out on the streets together. They provide the 
intelligence across agencies together. And they partner with us 
to take down violent criminals, which, by the way, in Phoenix 
is down six percent for the last year alone, again despite the 
growing population and the proximity to the border.
    In addition to ICE, our Phoenix police are imbedded in the 
FBI. We have imbedded city prosecutors with the U.S. Attorney's 
Office, allowing us to bring and prosecute federal cases, most 
importantly those prohibited young cases of felons that are 
holding guns or ammunition.
    Phoenix and its federal partners have established a task 
force to aggressively pursue kidnappers and those who invade 
homes that are plaguing our city, our community, and, by the 
way, directly related to the syndicates and the drug smuggling 
are these home invasions which are starting to spill over into 
the streets. And we share excellent results. Again grateful to 
our federal partners.
    Let me just give a few short examples, if time permits, 
that again have been operating over years that have had 
profound results.
    Operation Blank Check, a partnership with our local federal 
agencies that led to the felony indictment of hundreds of 
individuals, disrupted thousands of past crimes, solved 
thousands of past crimes. It was a year-long investigation that 
led directly to the arrest of hard-core gang leaders of 22 
different gangs who traffic in drugs and fraudulent checking 
schemes to finance their operations, totaling more $3 million 
in one year. Again, cross border also.
    Operation En Fuego, also in partnership with our local 
federal agencies, was responsible for the breakup of a major 
Phoenix-based smuggling organization and the indictment of 
almost four dozen individuals on felony charges related to the 
human smuggling of more than 10,000 individuals.
    Operation Tumbleweed, again involving our local federal 
agencies, disrupted and stopped the illegal activity of 20 
different organizations throughout the U.S. and Mexico by 
following the common money trail right back to all drug 
smuggling, human smuggling, money laundering, all disrupted and 
stopped.
    Additionally, our federal partners in the City of Phoenix 
shut down two of the largest syndicates in the nation that 
dealt in the tragedy of human smuggling, as well as drugs. Just 
these two syndicates alone smuggled in over 15,000 people 
illegally into the United States through the Border and then 
through Mexico, on to all parts of our country. And by the way, 
these two organizations brought in $30 million into Mexico that 
were tracked back, and they are out of business now.
    Phoenix P.D. is a critical participant in a federal/state 
project called Impact, which includes ICE and DPS, again to 
disrupt, dismantle, and deter violent criminal organizations 
profiting from illegal immigration and drugs. A major member of 
the FBI Violent Street Gang Task Force, which resulted in more 
than 300 felony arrests in the past year alone, the majority 
related to border syndicates and smuggling of drugs and people.
    So for us and for this country, partnerships are about 
everything and nobody does it better, in my personal opinion, 
than the federal partners, the City of Phoenix, other local 
jurisdictions, and the state police in Arizona, and are proven 
models that work and work well. So I am here to ask for and 
plead for your continued support and increased funding of these 
partnerships. That means besides the political support, which I 
know we have from you all, but also it means financial support.
    The City of Phoenix, by the way, has reduced our budget by 
almost a third, $280 million. It has continued to put public 
safety as its number one priority. But unfortunately, because 
of the cost of these operations that require many, many 
officers, a long time of undercover that cannot just be 
replaced by other individuals, we have had to curtail at a 
significant cost to the City and the State and the nation some 
of these activities. And that, to me, is the most important 
focus I could leave you with, is this is what is working. These 
operations cost significant amount of time and money and 
equipment. New officers to replace those that are there and 
undercover, and the expertise developed over time, as well as 
the surveillance. And these dangerous, well armed--and by the 
way, many times with military grade weapons, are very 
sophisticated with significant intelligence and smuggling 
operations over tens of thousands of square miles of desert.
    And a quick response is important. People are being 
tortured in our very city. Again, people are being kidnapped. 
People are being murdered in Phoenix. Traditionally, to this 
date, those innocent victims and bad guys on bad guys. But 
every night Phoenix police together with other federal agencies 
are called out from across the country, from across the world, 
and across the nation, that their relatives have been 
kidnapped. They were extorted to give more money. They cannot 
come up with it, and they only have hours to find their loved 
one, wife, husband, daughter, son, that would either be killed, 
raped, or in some cases never heard from again. That requires 
significant, intensive, and immediate responses. Most nights we 
have over sixty Phoenix police officers, some federal agents, 
rushing to rescue those on a reactive basis.
    So again, I come to Washington today to thank you 
significantly from my heart, to ask you for your continued 
support. And, again, not only to continue funding but to 
increase it. If you have even one dollar to invest, and the 
last dollar, I would respectfully request that you put them 
into these task forces that have profound effects across the 
nation. Under the federal government, under local government, 
however you choose. It is there.
    Thank you very, very much for your time and for the 
opportunity. And these are, this is one drug drop house of 
hundreds and hundreds discovered every year, thousands that the 
condition of what individuals are held in, the torturing.
    [Testimony of Phoenix Mayor Phil Gordon follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mollohan. I am sure we will have questions on those, 
Mayor.
    Mr. Gordon. Thank you very much.
    Mr. Mollohan. Thank you very much for that excellent 
statement. Special Agent Newell.

             Opening Statement of Special Agent Bill Newell

    Mr. Newell. Thank you, Chairman. Chairman Mollohan, Ranking 
Member Wolf, and distinguished members of the Subcommittee, as 
the ATF Special Agent in Charge of the Phoenix Field Division I 
am responsible for ATF operations in both Arizona and New 
Mexico, which constitutes about 552 miles of the U.S.-Mexico 
Border. I am honored to appear before you today regarding ATF's 
ongoing role of preventing firearms from being illegally 
trafficked from the United States and working to reduce the 
associated violence along the Border.
    On behalf of the men and women of ATF I would like to begin 
by thanking you for the generous support you have shown ATF 
over the years in providing the resources our agency needs to 
undertake our mission. We are appreciative of the support the 
Subcommittee provided ATF in both the fiscal year 2009 
appropriations and the American Recovery and Reinvestment Act, 
also known as the stimulus bill. In a moment I will discuss how 
we intend to use these funds to stem the illegal flow of 
firearms into Mexico.
    For over thirty years ATF has been protecting our citizens 
and communities from violent criminals and criminal 
organizations by safeguarding them from the illegal use of 
firearms and explosives. We are responsible for to both 
regulating the firearms and explosives industries and enforcing 
criminal laws relating to those commodities. ATF has the unique 
experience, expertise, tools, and commitment to investigate and 
disrupt groups and individuals who obtain guns in the U.S. and 
illegally traffick them into Mexico in facilitation of the drug 
trade.
    The combination of ATF's crime fighting expertise, specific 
statutory and regulatory authority, and our local capability in 
strategic partnerships just as the Mayor mentioned, is used to 
combat firearms trafficking both along the U.S. borders and 
throughout the nation. For instance, from fiscal year 2004 
through February 17th of this year Project Gunrunner, ATF's 
strategy for disrupting the flow of firearms to Mexico, has 
referred for prosecution 795 cases involving 1,658 defendants. 
Those cases include 382 firearms trafficking cases involving 
1,035 defendants and an estimated 12,835 firearms.
    While the greatest proportion of firearms trafficked in 
Mexico originate out of the U.S. states along the Southwest 
Border, ATF trace data has established that traffickers are 
also acquiring firearms from other states as far east as 
Florida and as far north and west as Washington State. A case 
from April 2008 involving a violent shootout in Mexico that 
resulted in thirteen deaths illustrates this very point. ATF 
assisted Mexican authorities to trace sixty firearms recovered 
at a crime scene in Tijuana. As a result, leads have been 
forwarded to ATF field divisions in Denver, Houston, Los 
Angeles, Philadelphia, Phoenix, San Francisco, and Seattle to 
interview the first known purchasers of those firearms. These 
investigations are ongoing.
    As the sole agency that represents 107,000 FFLs, federal 
firearms licensees, nationwide, of which roughly 6,700 are 
along the Southwest Border, ATF has the statutory authority to 
inspect and examine the records and inventory of licensees for 
firearms trafficking trends and patterns, and revoke the 
licenses of those who are complicit in firearms trafficking. 
For instance, ATF used regulatory authority to review the 
records of an FFL in El Paso, Texas to identify firearms 
traffickers who purchased seventy-five firearms that were 
trafficked in Mexico. Our investigation led to the arrest of 
eight individuals who later received sentences ranging from two 
to three years.
    An essential component of ATF strategy to curtail firearms 
trafficking into Mexico is the tracking of firearms seized in 
both countries. Using this information ATF can establish the 
identity of the first retail purchaser of the firearm and 
possibly learn pertinent information, such as how the gun came 
to be used in furtherance of a crime, or how it came to be 
seized in Mexico. Furthermore, analysis of aggregate trace data 
can reveal trafficking trends and networks, showing where the 
guns are being purchased, who is purchasing them, and how they 
flow across the Border.
    Let me share an example with you of how trace data can 
identify our firearms trafficker. ATF's analysis of trace data 
linked a man living in a U.S. Border city to four crime guns 
recovered in four different crime scenes in Mexico. Further 
investigation uncovered that he had purchased 111 AR-15 type 
receivers and seven additional firearms within a short time 
span using nine different FFL wholesale distributors as sources 
for his guns. In April of 2008 ATF seized eighty firearms from 
the suspect and learned that he was manufacturing guns in his 
home. He sold over 100 guns alone to an individual who is 
suspected of being linked to a Mexican cartel. Investigative 
leads are being pursued and charges are pending.
    Additionally, drug traffickers are known to supplement 
their firearms caches with explosives. Our expertise with 
explosives has proven to be another valuable tool to use in the 
fight against drug cartels and the violence. In fact, in the 
past six months we have noted a troubling increase in the 
number of grenades seized from and used by drug traffickers in 
Mexico. And we are concerned about the possibility of firearms 
related violence spilling into U.S. Border towns. We have had 
at least one such incident in San Juan, Texas when a hand 
grenade was thrown into a bar with a crowd of twenty patrons. 
ATF was able to quickly identify the grenade and believes it is 
linked to a drug cartel. Moreover, we believe these grenades 
were from the same source as those used during an attack on the 
U.S. Consulate in Monterrey, Mexico. Last week the individual 
who we believe directed the attack on the U.S. Consulate was 
arrested by the Mexican government. ATF is continuing to assist 
the United States agencies as well as Mexican officials with 
this investigation.
    We are aware that there is a growing concern amongst many 
Americans regarding spillover violence from the Border area. As 
the Mayor mentioned, Phoenix has experienced a marked increase 
in the number of kidnappings and other violent acts, such as 
home invasion. To address this violence, in September of 2008 
ATF partnered with the Phoenix Police Department to create the 
Home Invasion and Kidnapping Enforcement, or HIKE, Task Force. 
ATF is contributing its expertise in reducing violent crime, as 
well as our investigative and intelligence capabilities to this 
partnership.
    ATF's Project Gunrunner includes approximately 146 special 
agents dedicated to investigating firearms trafficking to 
Mexico on a full time basis, of which thirty-two are located in 
my field division. Project Gunrunner also includes fifty-nine 
industry operations investigator responsible for conducting 
regulatory inspections of FFLs along the Southwest Border, 
including thirteen that are assigned to the Phoenix Field 
Division.
    The funding that this Subcommittee has provided in the 
stimulus and the fiscal year 2009 budget will allow ATF to 
create five new Project Gunrunner teams focused solely on 
firearms trafficking between the United States and Mexico. This 
funding will allow the hiring of sixty-five special agents and 
other personnel, as well as the purchase of equipment needed to 
operate along the Border. It will also fund four special agent 
positions which will be assigned to areas of Mexico where 
currently ATF does not have a presence. The funds in these two 
bills are providing critical resources for ATF to expand our 
capabilities along the Southwest Border and we look forward to 
discussing with you the resources needed to continue that 
expansion.
    Chairman Mollohan, Ranking Member Wolf, and distinguished 
members of the Subcommittee, on behalf of the men and women of 
ATF, and on behalf of the men and women of the Phoenix Field 
Division, I want to thank you and your staff for your critical 
work. And with the backing of the Subcommittee ATF can continue 
to build upon our accomplishments in making our nation safer. 
Thank you very much, sir.
    [Testimony of Special Agent Bill Newell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mollohan. Thank you, Special Agent Newell. Special 
Agent Arabit.

            Opening Statement of Special Agent Joseph Arabit

    Mr. Arabit. Yes, sir. Chairman Mollohan, Ranking Member 
Wolf, and distinguished members of the Subcommittee. On behalf 
of the Drug Enforcement Administration Acting Administrator 
Michele Leonhart, I appreciate your invitation to testify today 
regarding violence along the Southwest Border.
    DEA thanks the Committee for its support of DEA's Drug Flow 
Attack Strategy, DFAS. The resources provided in fiscal year 
2009 will allow DEA to build upon its successes, like the $2.9 
billion in revenue that it denied drug traffickers in fiscal 
year 2008. DFAS acts as a forward defense of the United States 
by interdicting the flow of illegal drugs and the traffickers 
who smuggle them northward before they reach Mexico or the 
Southwest Border. Stopping the drugs before they reach Mexico 
and the Southwest Border impacts the U.S. drug supply, weakens 
the Mexican cartels, and helps reduce border violence.
    I come here today as the Special Agent in Charge of DEA's 
El Paso Field Division, one of DEA's five Southwest Border 
divisions. Prior to becoming Special Agent in Charge in El Paso 
I was stationed in a few cities in Texas, including Houston and 
San Antonio. I also spent approximately five years working 
undercover for DEA in Mexico. I spent two and a half years in 
Mexico City and two and a half years in Mazatlan, Sinaloa, 
allowing me to offer a unique perspective here today.
    The Southwest Border and the security threat posed by drug 
trafficking along the Border is not a new issue for DEA. As the 
lead law enforcement agency responsible for enforcing the drug 
laws of the United States, DEA special agents have been on the 
front lines of both sides of the Southwest Border for decades, 
gathering intelligence and conducting enforcement operations to 
dismantle the most powerful and ruthless drug trafficking 
organizations. The operations of these organizations have 
destabilizing effects, not only in the Border region but 
throughout Mexico. The Southwest Border is a principal arrival 
zone for most illicit drugs smuggled into the United States, as 
well as being the predominant staging area for the drugs' 
subsequent distribution throughout the country. This area is 
particularly vulnerable to drug smuggling because of the 
enormous volume of people and legitimate goods crossing the 
Border between the two countries each day. Disrupted supply 
routes along the Southwest Border translate into intense 
competition manifested in violence between the drug trafficking 
organizations. The drug trade in Mexico has been rife with 
violence for decades. Incidents of violence and murder, much of 
which is drug related, have remained at elevated levels in 
Mexico for three years since the Calderon Administration 
initiated a comprehensive program to break the power and 
impunity of the drug cartels.
    The violence in Mexico can be organized into three broad 
categories. They are: intra-cartel violence that occurs among 
and between members of the same criminal syndicate; intercartel 
violence among and between rival cartels; and cartel versus 
government violence. It is significant to note that intra and 
intercartel violence have always been associated with the 
Mexican drug trade. Cities like Ciudad Juarez and Tijuana in 
particular have witnessed escalating violence since 2006. In 
2007, the number of drug related killings in Mexico doubled 
from the previous year. Of the estimated 2,471 drug related 
murders, approximately 10 percent were Mexican military and law 
enforcement officials.
    In 2008, estimates increased to approximately 6,263 drug 
related killings, with 8 percent of those being Mexican 
military and law enforcement. DEA estimates that approximately 
95 percent of the officials killed in both 2007 and 2008 were 
corrupt officials who either failed to do the bidding for their 
controlling cartel, or who were targeted for assassination by a 
competing cartel. Around 1,000 people have died this year in 
Mexico, about 10 percent of whom are public officials.
    In the past year, U.S. intelligence and law enforcement 
agencies have worked diligently to reach a consensus view on 
spillover violence and on U.S. vulnerability to Mexican 
cartels' violent tactics. The interagency has defined spillover 
violence to entail deliberate, planned attacks by the cartels 
on U.S. assets, including civilian, military, or law 
enforcement officials, innocent U.S. citizens, or physical 
institutions such as government buildings, consulates, or 
businesses. We assess with medium confidence that in the short 
term there will be no significant increase in spillover 
violence as Mexican drug trafficking organizations understand 
that intentional targeting of U.S. persons or interests 
unrelated to the drug trade would likely undermine their own 
business interests.
    In response, the DEA continues to work vigorously in 
cooperation with its federal, state, local, and foreign 
counterparts to address the violence through the sharing of 
intelligence and joint investigations. DEA has the largest U.S. 
drug law enforcement presence in Mexico and is primed to mount 
an attack on these drug trafficking organizations at all levels 
with the Calderon administration. The disruption and 
dismantlement of these organizations, the denial of proceeds, 
and the seizure of assets significantly impacts the drug 
trafficking organizations' ability to exercise influence to 
further destabilize the region. Project Reckoning and Operation 
Xcellerator are recent examples of this U.S.-Mexico 
collaboration. While these collaborative operations are 
intended to break the power and impunity of the cartels, in the 
short term they also exacerbate the violence in Mexico.
    In short, guided by intelligence, DEA is working diligently 
on both sides of the Border to stem the flow of illicit drugs 
and assist our Mexican counterparts in curbing violence 
associated with the drug trade. DEA recognizes that interagency 
and international collaboration and coordination is fundamental 
to our success. DEA will continue to closely monitor the 
security situation in Mexico and ensure that the rampant 
violence does not spill over our Border by continuing to lend 
assistance and support to the Calderon administration.
    Chairman Mollohan, Ranking Member Wolf, members of the 
Committee, I thank you again for the opportunity to testify, 
and I will be happy to address any questions you may have.
    [Testimony of Special Agent Joseph Arabit follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
              RESPONDING TO SPILLOVER VIOLENCE IN PHOENIX

    Mr. Mollohan. Thank you, Special Agent Arabit. Mayor 
Gordon, these displays over here--would you quickly, for the 
record and for the Committee, describe for us what they are, 
what they represent?
    Mr. Gordon. Yes. The one on the floor is about an 
individual, an immigrant, that was tortured. You can see it on 
his fingers. The second one immediately to the left of me is a 
neighborhood, an upper middle class, brand new neighborhood, 
probably with a maximum of two years. So these homes are being 
rented throughout Phoenix. It is not just low income homes, but 
solid middle class neighborhoods. Twenty, thirty, forty, in 
some cases hundreds of individuals are warehoused in there. 
They have ``paid their money'' to get to Phoenix, which is they 
pay money. They get to the Border, they pay money to come 
across the desert, and then they pay money to get to Phoenix to 
then be shipped throughout the United States. That you will 
notice the barred up windows, which creates a significant 
danger both for police, fire, and the individuals inside since 
there is no way out but the front door. There is armed 
individuals, usually.
    As the police came into this one, the individual on top was 
one of the individuals, and the Chief can answer specifically 
as to how he was kept, probably as a result of his family not 
paying more money. All of these individuals were being held 
while their families throughout the U.S. or the world were 
extorted for additional monies.
    Mr. Mollohan. The person in the upper picture with the 
hands tied--is that person expired?
    Mr. Gordon. No, sir. That is the condition that the police 
found him.
    Mr. Mollohan. Identify yourself, Chief, please?
    Chief Harrison. My name is Jack Harrison, the police chief 
in Phoenix. And the individual on the top was kidnapped. His 
wife was called and they asked for $500,000 ransom to release 
him. As they were trying to get the money she called the 
police, and we were able to locate the individual. There is 
another photograph that shows his fingers had been smashed with 
a brick. It is very common to be tortured. This particular 
individual we found out was a cocaine dealer and it was related 
to the drug trade.
    Mr. Mollohan. Thank you, Chief. Mayor, listening to your 
testimony it sounded like you have a big problem that you are 
being very aggressive about dealing with and successfully so. 
And you are extremely complimentary of the partnership 
relationships you have with the federal government. Am I 
characterizing your testimony accurately?
    Mr. Gordon. Absolutely, Mr. Chairman.
    Mr. Mollohan. Let me ask you, because it sounded really 
good and satisfactory in most regards, in what ways could these 
partnerships be strengthened? Where would you suggest that we 
start? And what is the issue? More dollars? More resources?
    Mr. Gordon. Mr. Chairman, thank you very much. And again, 
the Chief or the agents that are here can correct me if I am 
wrong. But number one, these operations engage a lot of 
intelligence and sharing information, a lot of officers 
directly assigned. And due to the economic constraints on local 
governments, and in particularly Phoenix which represents about 
50 percent of the sworn agents in the state, 60 percent of the 
sworn officers in the valley, we are not able to continue to 
provide those officers at the rates that the federal agencies 
would like.
    Mr. Mollohan. You as the City of Phoenix are not able to 
partner adequately with your federal counterparts because you 
do not have enough agents?
    Mr. Gordon. Mr. Chairman, I would never say that, we do not 
have enough agents, which we do not. There is always crime, 
unfortunately, because of the economic budget.
    Mr. Mollohan. Right.
    Mr. Gordon. We will provide the agents, but we need the 
financial ability so that we can hire the other offices to keep 
the streets safe.
    Mr. Mollohan. So it is a city resource issue----
    Mr. Gordon. It is a city resource----
    Mr. Mollohan [continuing]. From your standpoint.
    Mr. Gordon [continuing]. Primarily. Also, it is the, for 
the federal government and the city, it is the sophistication 
of the intelligence. If one could picture, and there was a 
question raised with the helicopters and the planes, with the 
desert being so large you can have a plant--sorry, Mr. 
Chairman.
    Mr. Mollohan. No, no, no. Go ahead, please.
    Mr. Gordon. You can have an airplane there spotting. What 
is happening now is, because of the desert, if you can picture 
those auto trucks that have ramps where you drive the new cars 
up? Well, the smuggling cars and the drugs go up to any part of 
the Border. If there is even a fence, drive it up, drive it 
down, unload it, and are gone before there is any possibility 
of agents being there.
    Mr. Mollohan. Before my time runs out, may I ask the Chief 
that same question? Chief, from the federal government's side, 
what programs do you like best and what programs would you like 
to see increased?
    Chief Harrison. Yes, sir. There are a number of things that 
we would ask for. The HIKE unit that we had to put together 
takes ten officers and a supervisor out of patrol to be able to 
go after these kidnappers as they are happening. So increase in 
personnel.
    Mr. Mollohan. Now, that is for you?
    Chief Harrison. For our Department.
    Mr. Mollohan. Yes, but I am asking a different question. I 
am asking, what would you like to see the federal government do 
more of? You like what they are doing. And maybe they are doing 
enough. I mean the answer might be----
    Chief Harrison. We like the partnerships with the agencies, 
such as ATF and with ICE. Being able to add personnel to those 
units. Prosecutors through the U.S. Attorney's Office that are 
specifically utilized to target weapons violations and those 
types of operations is what we would like to see. An increase 
in funding, personnel, and equipment. The surveillance 
equipment, the computer equipment, it is very, very involved 
and it is very, very expensive.
    Mr. Mollohan. I will follow up in the second round. I want 
to stay within my time. Thank you. Thank you, Chief. Mr. Wolf.

                  INTEGRITY OF FEDERAL LAW ENFORCEMENT

    Mr. Wolf. Thank you, Mr. Chairman. Mr. Mayor, I appreciate 
your testimony and both of the special agents. And I think it 
is the obligation of government to provide public safety. I 
mean, that becomes more important than almost anything. That is 
an act of domestic terrorism.
    I wanted to ask the two special agents, I believe our law 
enforcement people are some of the most honest people. Do you 
believe that there is a problem with regard to corruption in 
federal law enforcement down on the Border? U.S. side.
    Mr. Newell. On the U.S. side?
    Mr. Wolf. Yes, sir. Correct.
    Mr. Newell. Well----
    Mr. Wolf. United States government law enforcement people.
    Mr. Newell. Yes, sir. I understand your question. Well, 
Ranking Member Wolf, having worked twenty years on the Border I 
know for a fact that we do not have the level of corruption on 
this side, on this side, you know, as compared to Mexico. You 
know, huge amounts of money changing hands always are enticing. 
But we, if there is an instance ever of an allegation of any 
corruption on any, you know, launched against or made against 
any of our people we aggressively address that. So the answer 
to your question is, I do not, I know for a fact, at least 
speaking for ATF, that it is not even close to comparison. It 
is just because of the amount of money involved on the Mexican 
side.
    Mr. Wolf. How about DEA?
    Mr. Arabit. Congressman Wolf, thank you for the question. I 
agree with Mr. Newell's assessment. We see isolated incidents 
of corruption. But it is not something that you see every day, 
or every week, or even every month. So the incidents are very 
isolated.

            INTEGRATION OF FEDERAL, STATE AND LOCAL AGENCIES

    Mr. Wolf. We have had a serious problem in our region of 
MS-13. And what we did is, we put together a coordinated effort 
where there is one location whereby we have every law 
enforcement in the entire region, from Arlington, Alexandria, 
Fairfax, Manassas, Manassas Park. And FBI and DEA, ATF and 
Marshal Service all meet together. Is there that type of 
coordination that you have? I mean, we have one location for 
this entire region, which is probably larger than the 
geographic size of Phoenix. Do you do this same type of 
coordination there that we would do here for MS-13? Yes, 
whoever. Yes, Mr. Mayor.
    Mr. Gordon. Mr. Wolf, as a mayor that is not part of the 
federal organization, I have traveled the U.S. for years, both 
in the private sector and now fifteen years public. There is 
not an area in this country that is so integrated for so long 
where you have FBI using Phoenix police for cold cases, Phoenix 
police using ATF for its, it is brothers and sisters that have 
literally grown up together. The answer is yes.
    Mr. Wolf. And what about as you leave Phoenix and go in 
other parts, is it the same?
    Mr. Gordon. Yes, sir. The valley represents 60 percent of 
the entire state, and probably nearly 80 percent of the private 
property in the State of Arizona. If there is any type of 
incident it is really the valley. And with your permission, Mr. 
Wolf and Mr. Chairman, I think because of the integration of 
the criminals across the Border and within the urban, within 
the United States, it becomes more and more dependent now that 
the local police agencies and the federal agencies work 
together, sharing their expertise in both areas. And that is 
where I think we are all trying to say, is continuing to fund 
those ongoing operations that we see it as something that is 
standard for years, that integration. And every special agent 
that I have ever talked to in any agency I think will tell you 
that our area is the model. And I am not speaking for Phoenix. 
I am talking about the federal/local partnerships.

                   CARTEL INVOLVEMENT IN U.S. CITIES

    Mr. Wolf. Two questions. Connected, how involved are other 
gangs? MS-13, for instance, in this and connectivity into 
Mexican gangs? And secondly, I was driving in my car about two 
weeks ago and there was a hearing. I think it could have been 
Homeland Security. There was a member questioning DHS. And the 
comment by the member was that these gangs have now infiltrated 
the United States. Are in I think it was over 200 cities. And 
then it kind of ended, the news report went on. One, 
connectivity to MS-13, Los Zetas, and different gangs. 
Secondly, how active are they in Buffalo, Kansas City, 
wherever, far, far away from the Border? What is the impact 
inside the United States as well as directly on the Border? 
Maybe both of you could take that?
    Mr. Arabit. Thanks for the question, Congressman Wolf. With 
respect specifically to the MS-13, we do not see any connection 
between the MS-13 and cartel leadership. It is quite possible 
that the MS-13 has connections to street level dealers or mid-
level distributors. But we do not know of a connection between 
MS-13 and cartel leadership.
    Mr. Wolf. And what about involvement in having people for 
these gangs, or in other cities in the United States well 
inland from the Border?
    Mr. Arabit. There have been----
    Mr. Wolf. How active are they in Kansas City, in Buffalo, 
Toledo, New York City, Washington, D.C.?
    Mr. Arabit. Congressman Wolf, there have been isolated 
reports of gang involvement. For example, Los Zetas being 
involved in the interior of Texas. But they are just isolated, 
uncorroborated reports. We do not have any definitive 
information to indicate that Los Zetas are involved in any 
activity in Texas.
    Mr. Newell. I agree with that assessment, Mr. Wolf. One of 
the issues, though, is regarding firearms trafficking to 
Mexico. It is a national issue. And we see throughout the 
United States, in certain areas, it is a national issue. The 
same way that gangs acquire firearms in the United States using 
straw purchasers is a very, very common way that the drug 
cartels are getting guns through the use of straw purchasers. 
So there are some similarities there in how they are doing it.
    Mr. Wolf. But the question is that I wanted to ask is, 
though, is these gangs that are involved in what the Mayor and 
the Police Chief said, and they are active, the cartels in 
Mexico, do they have operations in cities throughout the United 
States? In Wheeling, West Virginia? In Washington, D.C.? In 
Charlotte, North Carolina? Or is the activity in those areas 
totally different that what is taking place, connectivity to 
the cartels?
    Mr. Newell. I would assess it, Mr. Wolf, this way. That 
there is a loose affiliation between the local gangs in these 
areas with the cartels. Cartels are separate from a gang in the 
sense that a cartel is almost like a virus, if you will. They 
go in and they are intending to take over an entire area. Where 
a gang is really kind of looking at taking care of their own 
area, in a smaller gang in a city. But there are loose 
affiliations. But like Mr. Arabit said, we have not seen that 
direct connectivity between the drug cartels and those gangs 
that you are referring to.
    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. Would it not be 
true, though, the cartels are certainly in smuggling the gang 
members into the United States? Gang members are paying cash, 
the cartels will take any cash paying customer?
    Mr. Newell. Sure. I mean, it is all about the money.

                    FEDERAL PROSECUTIONS IN ARIZONA

    Mr. Culberson. To that extent, certainly, they are 
smuggling them in. And first of all, I want to thank you 
gentlemen for the terrific work you do. You know, God bless 
you, you are in the front lines of a real war. And that is just 
not known, I think, widely known to a lot of people how serious 
and dangerous the Southwest Border is. And I wanted to, in the 
brief time that I have got, talk a little bit about the scope 
of the problem, to illustrate for the Chairman and my Ranking 
Member Mr. Wolf, and the Committee, the scope of the problem, 
number one, and then talk about a solution that really is 
working very, very well along the Texas Border.
    And in particular talking about in Phoenix, you are in the 
Tucson sector, and I have had the chance to go out and visit 
Tucson, talk to Chief Gilbert of the Border Patrol who is your 
sector chief down there. And am frankly astonished and appalled 
to discover that the U.S. Attorney in the Tucson Sector will 
not prosecute. Apparently, ATF, DEA cases brought to her by 
the, now she is gone, the old U.S. Attorney. But the Tucson 
Sector, it is a fact that if you were, and these are numbers 
from the Border Patrol, Mr. Chairman, that if you were arrested 
in the Tucson Sector carrying less than 500 pounds of dope you 
had a 99.6 percent chance of never being prosecuted and being 
home in time for dinner. You would be out for about two and a 
half hours. And I would like to, you all are aware of the low, 
of the near zero prosecution rate in the Tucson Sector, Mr. 
Mayor and Chief? By the U.S. Prosecutor? You are familiar with 
this problem?
    Mr. Gordon. Mr. Chairman, Congressman, actually just from 
my perspective, you know, and not parochial, Tucson is 120 
miles from, south of Phoenix. I will leave it to the experts on 
Tucson. But the City of Phoenix, actually, as we testified, 
puts two city attorneys at our expense. We are asking for 
funding to continue that, and that is another program to 
prosecute strictly Phoenix federal prohibited gun cases and 
drug cases.
    Mr. Culberson. You are up to your ears in alligators in 
Phoenix, you are not really familiar, I guess, with what, is 
what you are telling me.
    Mr. Gordon. I----
    Mr. Culberson. Which basically is the problem, you are up 
to here. You have got so much on your own plate right there. 
That is a huge source of the problem, Mr. Chairman, I can tell 
you. Is going down to the Border and seeing the Border Patrol 
agents are, of course, intensely frustrated that 99.6 percent 
of every arrest they make, 99.6 percent of the people they 
arrest, are gone. They are going to be released and not 
prosecuted. They have had cases, they showed us, Mr. Chairman, 
of a video taken from a surveillance airplane of, did they have 
vehicles in that train? Was it vehicles and people? People, 
they had whole, like army ants coming over the Border with 
thousands pounds they found on them? About a thousand pounds. 
And Border Patrol agents went out there, intercepted them at 
2:00 in the morning, snakes, cactus, these guys are armed to 
the teeth. Pitch black, DEA was involved in this, I think, you 
guys went out there in the middle of the night. This was an 
arrest in the Tucson Sector near the Fort Huachuca. And the 
U.S. Attorney turned them all loose. So there is a, it is 
essentially the wild west.
    One of Phoenix's big problems, Mr. Chairman, is that the 
U.S. Attorney in that sector is not doing their job, and that 
is something I want to make sure we zero in on. This, in fact, 
Mr. Chairman, the Committee was very generous last year. With 
your help, Mr. Chairman, and with the help of Ranking Member 
Frelinghuysen, and Frank was a big part of this when Frank was 
our Chairman and Ranking Member. But in last year's bill, Mr. 
Chairman, this Committee provided enough money to hire twenty-
five new federal prosecutors in Arizona. Yet the U.S. Attorney 
out there refused to hire them. She only hired, filled nine of 
the positions. And they are still turning loose 99.6 percent of 
all the people arrested. So it is a huge part of your problem 
because they are coming over the Border in Tucson.
    In fact, Mr. Chairman, I was able to establish in my 
Homeland Security Committee, and also in testimony before this 
Committee, but the Border Patrol Chief Aguilar confirmed what I 
had been saying for years, and that there are actually manned 
observation posts in Arizona. The smugglers are so brazen that 
they actually have, and Mayor's nodding his head. You are 
familiar with this. They have got on hilltops on U.S. soil 
observation posts manned by these smugglers with the best 
satellite phone technology, scrambled satellite phones, high 
powered weapons, food. They even bring them female 
companionship. These guys have got all they need. And they are 
out there watching our law enforcement officers go out and 
attempt to make these arrests. The DEA and ATF, you are 
probably familiar with this. In El Paso, have you heard about 
the observation posts in Arizona? It is wide open, wild west in 
Tucson, Mr. Chairman.
    So number one, we want to make sure, I want to work with 
the Committee in making sure we get those prosecutor positions 
filled. And finally, Mr. Chairman, one other point I want to 
make, and also for your sake, Mr. Mayor, and Chief Harrison, 
that the U.S. Attorney's Office, because you know how 
relentless I am, I bird dogged this on the Operation 
Streamline. And I was able to establish with certainty that the 
U.S. Justice Department told us last year that if this 
Committee fully funded President Bush's request, and in fact 
you even beefed it up a little bit, Mr. Chairman, the U.S. 
Attorney's Office, they promised us that they would be able to 
implement Operation Streamline, the zero tolerance policy, from 
Brownsville to San Diego. That they would have the resources to 
do this in Arizona.
    So I want you to know help is on the way, Mr. Mayor. The 
Chairman, I may be about to run out of my time on the five 
minutes. I wanted you to know, help is on the way. It is a 
partnership. It is really important that the U.S. Attorney 
there who is based in Phoenix, who covers the entire Tucson 
Sector, do her or his job in handling these prosecutions.
    And then finally, Mr. Chairman, can I just ask very 
quickly, the Chief, there was a story in the press about five 
or six months ago about a paramilitary band dressed in black 
that assaulted a house in Phoenix. And the reports I got on the 
news wires was that this was some kind of a paramilitary strike 
force. The drug cartels going in to take out or execute a hit 
in Phoenix. Number one, tell us more about that story and how 
common is that? These guys have penetrated into Phoenix. They 
can operate at will anywhere in the United States, can they 
not?
    Chief Harrison. That was reported, that it was some type of 
a military operation. But that was not accurate. These were 
drug dealers. They were heavily armed. They had come into a 
West Phoenix neighborhood and invaded a house going after money 
and drugs. They fired over a hundred rounds from assault 
weapons into the house, and our officers happened to come upon 
them as the gunshots were being fired. And we were able to 
capture some of those people.
    Mr. Culberson. That was not the Zetas?
    Chief Harrison. But it was falsely reported that it was a 
military operation out of Mexico.
    Mr. Culberson. Paramilitary. It was not the Zetas?
    Chief Harrison. It was drug dealers.
    Mr. Mollohan. Thank you, Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Mollohan. I am going to give the witnesses a chance to 
respond to Mr. Culberson's concerns. And can we start with 
Mayor Gordon?
    Mr. Gordon. Thank you very much. I think my only response, 
request would be the filling of a permanent U.S. Attorney, 
particularly in Arizona and the Border states would be greatly 
appreciated by everyone. Right now it is interim, as everyone 
is aware of, and it really was almost an interim position as 
the previous, prior U.S. Attorney was let go. And so it has 
been, I believe personally, something that should be a priority 
to put on the, I guess, all the Borders given the changeover, 
that we get a U.S. Attorney. And that I know about and 
understand. I think, again, we need to have a U.S. Attorney 
assigned to Arizona.
    Mr. Newell. Mr. Culberson, it boils down for us in ATF, to 
a resources issue. I mean, of the twelve agents that I have at 
my disposal to address Gunrunner and the firearms trafficking 
issues in Metro Phoenix, the fifth largest city in the country, 
I have got two dedicated full time for the HIKE, the Home 
Invasion Kidnapping Enforcement Task Force, and one of the my 
three intel analysts over there full time. So I have taken two 
of twelve and one of three resources to dedicated, because it 
is a very important issue.
    In Tucson, for instance, the Violent Crime Impact Team that 
Ranking Member Wolf is familiar with, the Violent Crime Impact 
Team Initiative, I have three in my division. I have one in 
Mesa, Arizona, one in Tucson, and one in Albuquerque. Because 
Tucson is starting to see an uptick in home invasions. And the 
same issues that Phoenix, unfortunately, is afflicted with 
right now. I have retooled the VCIT mission. The VCIT mission 
is violent crime, addressing firearms related violent crime. 
Well, these home invasions, these kidnappings, as the Mayor and 
the Chief have said, involve firearms related violent crime. So 
the VCIT in Tucson is addressing firearms related violent crime 
in Tucson, in the city limits of Tucson, working in close 
partnership with Tucson P.D.
    But again, it is resource driven. I have got agents, and 
this is almost like a plea on my part. I have got agents that 
have not had a day off in months, because they are seriously, 
seriously dedicated to this. I have to balance the personal 
needs of my employees with the mission needs of ATF. And I 
routinely have to tell supervisors, ``Send that person home. 
They have a family.'' Because we are that dedicated to this 
issue.
    I fought very hard a year ago and finally have a PGR, I 
have a member of the Mexican PGR fully vetted in my office. It 
is the first time we have done it. We are hoping to expand it. 
Because one of the key things, it is not just partnerships on 
this side of the Border but partnerships with our Mexican 
counterparts. If we can find those key people in Mexico to 
partner with, to share information. Not just talk about sharing 
information but actually doing it, I think that is going to be 
how we really get to the next level here.
    And, you know, the Border is not a barrier to criminals. We 
need to eliminate the Border as a barrier for us and how we do 
business.
    Mr. Mollohan. I want to get to that relationship with the 
Mexican agents in just a moment, but I want to give Special 
Agent Arabit an opportunity to respond to Mr. Culberson.
    Mr. Arabit. Thank you, Mr. Chairman. Mr. Culberson, 
obviously, more prosecutors facilitate what we do. Along the 
entire Southwest Border region, we have task forces, we have 
OCDETF strike forces which include federal, state, and local 
agencies that are working very hard on this important issue. We 
also have High Intensity Drug Trafficking Area Task Forces that 
are working very hard on this issue. And obviously, the 
additional prosecutors would help facilitate the good work that 
those folks do.

                      RESOURCE NEEDS IN THE FIELD

    Mr. Mollohan. Now, let us talk about resource needs a 
little bit, Special Agent Arabit. Talk about the territory you 
are covering, the resources in terms of manpower and equipment 
that you have to cover that territory, and its adequacy or 
inadequacy for the record, please.
    Mr. Arabit. Sir, I cover the El Paso Field Division, and 
that is comprised of five different offices. We have an office 
in El Paso; an office in Alpine, Texas; an office in Las 
Cruces, New Mexico; an office in Albuquerque, New Mexico; and 
an office in Midland, Texas. We have 124 special agents and we 
have approximately fifty-five task force officers. These are 
officers from state and local agencies who are deputized to 
work on our task forces. They are deputized as federal agents.
    Just in the last couple of days I learned that we are going 
to assign a Mobile Enforcement Team to the El Paso Field 
Division to work on methamphetamine related cases and also on 
border violence. In fact, there are four Mobile Enforcement 
Teams that will be assigned along the Southwest Border. Well, 
actually two along the Southwest Border, one in Phoenix, one in 
El Paso, and then one in Chicago and one in Atlanta based on 
the fact that, you know, that the Mexican drug cartels have an 
influence in those cities.
    There are also an additional sixteen positions that are 
under consideration for various offices, or the five, rather, 
offices along the Southwest Border.
    Mr. Mollohan. So, you are the expert. Tell us your opinion. 
Adequate? Not adequate? You know, you just described additional 
initiatives as a result of the omnibus funding that we just 
passed. $10 million in the omnibus for the Mexican Meth 
Trafficking Program. You are obviously getting some of that 
money. You just indicated that. $21 million in the omnibus and 
the GWOT for DFAS programs. Adequate? Inadequate?
    Mr. Arabit. Well the first thing----
    Mr. Mollohan. What do you need?
    Mr. Arabit. Thank you for the question, Congressman. The 
first thing that I will say is that 29 percent of our domestic 
agent work force is located along the Border. To address the 
threat we realigned resources in 2002. I think for the moment 
it is adequate, but obviously in the 2010 budget we will be 
asking for more positions for the Southwest Border. But I think 
for right now it is adequate.
    Mr. Mollohan. Now, I want you to answer this question as an 
agent out there in the field. How many more agents would you 
like having working out there with you?
    Mr. Arabit. Well sir----
    Mr. Mollohan. Would you like to have any more?
    Mr. Arabit. Yes, sir. Absolutely.
    Mr. Mollohan. How many more would you like to have?
    Mr. Arabit. Obviously additional enhancements would help us 
to more effectively and efficiently do our job.
    Mr. Mollohan. How many teams? Give us some sense of scale.
    Mr. Arabit. Well sir, the Mobile Enforcement Team that is 
being assigned to the El Paso Field Division is going to be a 
tremendous help to us. You know, a few additional teams like 
that would be beneficial.
    Mr. Mollohan. Special Agent Newell? If you----
    Mr. Newell. Same question, sir?
    Mr. Mollohan. Same question.
    Mr. Newell. Yes, sir.
    Mr. Mollohan. And then I will follow up.
    Mr. Newell. Well, obviously sir, you know, twenty years in 
ATF. When I came on the job twenty years ago I think we had 
roughly 1,800 agents and we currently have roughly 2,500 agents 
now. So I hope I have my numbers right. That is approximately 
right. So yes, sir, I can always say we desperately need more 
resources. You know, one of the issues, and I said that to 
Congressman Culberson, is I have routinely conversations with 
my supervisors about, ``You send that agent home for a few 
days.'' Because we have taken this, everything we have done in 
the last, really, since we started Project Gunrunner has been 
with the existing resources. We redeployed resources, existing 
resources around the country, to the Border. And with the 
generous support, with the stimulus package, with the $10 
million we started El Centro, California, a field office in El 
Centro, California, Las Cruces, New Mexico, and McAllen. And 
with five, and four additional positions in Mexico. With the $5 
million in the fiscal year 2009 we created, we are getting an 
office in Houston and another office in Phoenix. So----
    Mr. Mollohan. They are shorting you $1 million. I think it 
is $6 million.
    Mr. Newell. $5 million is it, I believe.
    Mr. Mollohan. Oh no, go get that other million. It is 
there.
    Mr. Newell. But, yes sir, to answer your question, 
obviously, yes sir, I mean I could always use additional 
resources.

                 COORDINATION WITH MEXICAN COUNTERPARTS

    Mr. Mollohan. Describe your relationships with your 
counterparts in Mexico, what it is now, what it should be, and 
what we should be doing with your counterparts that we are not 
doing?
    Mr. Newell. Well like Mr. Arabit, I spent four years in 
Bogota, Colombia during the early nineties, during an 
interesting time in Colombia. And I will tell you, the only way 
we can make tremendous firearms trafficking cases is training 
and vetting key law enforcement officials, in this instance in 
Mexico, that can work in partnership with us to ensure that we 
get in a timely fashion the firearms tracing information so we 
can trace it and identify, you know, the sources of those 
firearms.
    So to answer your question, sir, about a year ago, with 
ATF's support, we started a pilot project of getting a PGR 
representative, the Mexican version of DOJ. And we have that 
person in my office in Phoenix. It has already paid dividends. 
Because that person not only is a PGR prosecutor and attorney, 
he also works under the umbrella of the Consul General's Office 
in Phoenix. So he kind of has a dual hat. And, you know, done 
the right way and fully vetted, of course, these individuals 
give us the portal, if you will, into a system that has been 
almost at the Border stopped. And now it is not. And we are, 
you know, DEA has many vetted units in Mexico and I will let 
Mr. Arabit speak about that. But it is key. Partnerships with 
our foreign law enforcement counterparts is key in this.
    Mr. Mollohan. Now, what we want to understand is scale, 
here. To what extent would that have to be scaled up to be 
adequate?
    Mr. Newell. As far as our partnerships?
    Mr. Mollohan. Yes.
    Mr. Newell. Well, something similar to, you know, DEA has a 
tremendous program in Mexico with their vetted units. Something 
very similar with us in Mexico, as well.
    Mr. Mollohan. How far away are you from being there?
    Mr. Newell. It is a resource issue, sir.
    Mr. Mollohan. No, I know what it is. I know it is a 
resource issue.
    Mr. Newell. Yes, sir.
    Mr. Mollohan. I am asking how many more agents? How long 
would it take to train and to implement and to create the 
partnerships? And how many people are we talking about?
    Mr. Newell. Just in my Field Division, sir, I could easily 
use another group in Phoenix and another group in Tucson, and 
the major cities. And, you know, you are talking about a year 
process to hire them on, get them through the academies----
    Mr. Mollohan. How many agents are in a group?
    Mr. Newell. Usually it is a ten, one, and one model, sir. 
Ten agents, one supervisor, and one support staff. So, but 
again, it is like the money that we have gotten in the stimulus 
as well as the 2009. It is about a year process, to get them 
hired, get them through the process, you know, get them 
background cleared, get them through the academies. The 
individuals that we are getting from the stimulus, in for 
instance Las Cruces, is probably going to be October, November 
just because of the time frames that are involved with it.
    Mr. Mollohan. Okay. What I am trying to understand is your 
relationship with your counterparts in Mexico. What more do we 
need to do there? And how do we need to help Mexico?
    Mr. Newell. Well sir, I think deploying additional ATF 
assets in Mexico and having the vetted units in----
    Mr. Mollohan. That needs to happen?
    Mr. Newell. Yes, sir.
    Mr. Mollohan. Special Agent Arabit.
    Mr. Arabit. Yes, sir. DEA has eleven offices in Mexico. We 
have had agents on the ground in Mexico for decades. We have 
100 employees----
    Mr. Mollohan. Sounds like you are further ahead than ATF is 
in these relationships.
    Mr. Arabit. We have been in Mexico for many, many years, 
sir. As I mentioned, we have 105 employees in Mexico, sixty-two 
of those employees are special agents who are involved in the 
intricate details of the work with the Mexican government. We 
do everything from, you know, from sharing sensitive 
intelligence from wiretap information on the U.S. side with the 
Mexicans to helping them establish wiretap cases and wiretap 
programs. We share informants. We, you know, we have access to 
Mexico's witnesses, Mexico's evidence. We have had the 
opportunity to build so many cases on the U.S. side as a direct 
result of that collaboration. So we have been working with the 
Mexican government for a long time.
    Mr. Mollohan. What part of that is adequate and what part 
of it is inadequate?
    Mr. Arabit. Well, I think the part that is inadequate, sir, 
is just the part that is being addressed by the Merida 
Initiative. And that is the institution building. I think the, 
you know, the Mexican government under President Calderon's 
administration is doing just a tremendous, tremendous job 
rebuilding their institutions. And I think that we have to be 
there to support them with Plan Merida.
    As Mr. Newell pointed out, we work a lot with vetted units. 
These vetted units are comprised of personnel that have been 
trained by DEA, and in some instances polygraphed by DEA. These 
are the people we work with on a daily basis. But there are 
only a couple of hundred of these people. And so Plan Merida 
addresses that specific issue in that, you know, it affords for 
the training of these individuals which is a very important 
component in our collaborative relationship.
    The only other thing I would like to point out is just two 
recent examples of our extensive collaboration with Mexico. 
Operation Xcellerator, where thousands of pounds of drugs were 
seized, over $59 million in currency was seized, and more than 
750 individuals were arrested. That operation would not have 
been anywhere near as successful as it was without the 
extensive collaboration of the Mexican government.
    The second operation I would mention is Project Reckoning. 
And that was the operation that targeted the Gulf Cartel. You 
know, the Zetas and company. And in that particular instance 
the Mexican government collaborated with us extensively. In 
fact, we used some of their information to secure some of the 
indictments in that case. And so I say that to say that the 
collaboration with the Mexican government is good.
    The final point I would like to make, sir, is our El Paso 
Intelligence Center also has some Mexican police 
representatives involved. And so we are collaborating with them 
on a daily basis. I specifically, and my Field Division in El 
Paso, specifically collaborate with our office in Ciudad 
Juarez. And we have a real time exchange of information with 
the Mexican government.
    Mr. Mollohan. Thank you, Special Agent Arabit. Mr. Wolf.

                         MILITARY ON THE BORDER

    Mr. Wolf. Thank you, Mr. Chairman. Just a thought before I 
ask a question. It appears that the problem is too that we have 
really lost control of our Border. And, you know, my dad was a 
policeman, a police officer, and I am very sympathetic to 
police officers. And I was thinking as we were listening to 
your testimony, the two Border Patrol people who were put in 
jail and allowed to be in jail for the longest period of time. 
I do not know how many years they were in jail. A couple of 
years. That the disincentive and the message, you know, that 
that would send to a law enforcement person, to have two people 
who were attempting to do their jobs. I do not know all of the 
case. And then you were talking about the U.S. Attorney. The 
U.S. Attorney prosecuted them. And I watched part of that 
hearing. And he could not really answer a lot of the questions. 
So I sort of started to think of that. What does that mean? 
What kind of message? And did that set us back?
    The two questions I have is, one, and then you can just 
answer me and I will shut the microphone off. We hear a lot of 
people talking about military on the Border, our military down 
on the Southwest Border. There have been some governors that 
have asked.
    Secondly, what ever happened, you lost an Agent Camarena, 
if I recall, twelve, fifteen years ago. Do you recall that 
case?
    Mr. Arabit. Yes, sir, I do.
    Mr. Wolf. Whatever happened to the people that killed him? 
Were they ever tracked down? Were they ever prosecuted? So one, 
and Mr. Mayor before, you know, anything we can do to help you. 
Because I think public safety, the people that live there, that 
is the number one thing they deserve. To make sure they live in 
safe neighborhoods. So anything we can do to help I think we 
should. But if you can answer, troops on the Board, U.S. troops 
on the Border, and secondly whatever happened to the people 
that killed Agent Camarena? Were they prosecuted?
    Mr. Arabit. Thank you for the question, Congressman Wolf. 
With respect to the individuals who tortured and murdered 
Special Agent Ricky Camarena in February of 1985, they were 
captured and they do currently sit in jail.
    Mr. Wolf. In a U.S. jail, or in a jail in Mexico?
    Mr. Arabit. There are a couple in jail in Mexico and a few 
in a U.S. jail.
    Mr. Wolf. Okay. And I guess since, I do not want to put 
them in a tough spot, your thoughts about U.S. troops on the 
Border?
    Mr. Gordon. Mr. Chairman and Mr. Wolf, I will answer that 
directly. I would also like to point out that just over a year 
ago, almost exactly a year ago, Officer Erfle, a Phoenix police 
officer, was killed by a violent gang member that was 
undocumented and was able to come across illegally at the 
Border on several occasions. He also happened to be a partner 
at one time with my son, who is a Phoenix police officer, and 
watched his two little children cry. And so this is an 
important issue for me on a personal level, that we need to 
secure that Border.
    With respect, and probably the only thing I will differ 
with these brave individuals in that they represent to the left 
of me, not politically, but to the left of me. Is that, you 
know, there could not be enough agents on the Border and in the 
urban core cities. Even what was announced today, which is a 
great first step by the administration, it is a drop in the 
bucket in terms of what is needed. And I realize it is 
resources. But these are the most effective results.
    I personally support the National Guard on the Border. And 
assuming the Constitution is followed and allowed any resources 
that the federal government can give, particularly in the 
intelligence area, and the tracking area. This to me is about 
the U.S. sovereignty protection. I think that the Border needs 
to be secured to protect those innocent immigrants that are 
being brought across. And on the other hand, our security, the 
more we can do, and if I could squeeze this in. If I was asked 
the question about how many more agents, and maybe again the 
model of what could occur if this is what the federal 
government agents and that this Subcommittee would want is 
Phoenix, again, it is that year to get an agent under the 
federal system hired, trained, polygraphed. Phoenix, and I just 
checked with the Chief, is willing to increase our 
participation in that interim gap under and by in charge of the 
federal agencies to help in that interim period. If you could 
fund that part we can hire patrol officers, and we are hiring 
patrol officers. The expertise that these experienced officers 
have are hard to develop, even new agents. And anything we can 
do in that area would help this entire nation.
    So I think certainly the more presence on the Border the 
more important it is. And with respect to Mexico, those brave 
officers and government officials are the targets of the 
killings and the assassinations. And the more we can do to help 
them. I think the Chief has told me your, the DEA, that over 
200 chiefs of police and sheriffs were assassinated over the 
last two years. That sends the message, unfortunately, to those 
brave individuals also. So getting the support in whatever 
manner it takes, I would be there publicly to support that.
    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Culberson.

                          OPERATION STREAMLINE

    Mr. Culberson. Thank you, Mr. Chairman. I want to document 
for the Committee, Mr. Chairman, in detail to show what is 
working and what we can do to help support that effort in 
expanding Operation Streamline, the zero tolerance policy. And 
I wanted to ask the witnesses first of all, particularly 
Special Agent Newell and Special Agent Arabit if, I want to 
characterize Operation Streamline because time is brief. And 
the success we have seen in the Del Rio Sector as opposed to 
what is going on in Tucson.
    And it is, securing the Border is no different than 
securing a neighborhood or a city. If the law is enforced, 
uniformly, fairly, with a sense of equal justice for everybody, 
if people know with certainty that the law is being enforced, 
and there is a prosecutor standing behind these officers, and a 
jail cell waiting for a criminal with a certainty of 
prosecution, the streets are going to be quiet. And it is 
working in Del Rio. And I would like to ask you, Special Agent 
Newell and Special Agent Arabit to confirm that what we have 
seen firsthand in Texas in the Del Rio Sector and the Laredo 
Sector with Operation Streamline is, we have seen about a 70 
percent drop in the crime rate, Mr. Chairman, in the Del Rio 
Sector, about a 60 percent drop in the Laredo Sector. We have 
seen dramatic, we are talking about a 50 percent drop in 
illegal apprehensions in the Laredo Sector. An even bigger drop 
in illegal apprehensions, I think it is 70 percent or 80 
percent in Del Rio. Simply by enforcing existing law.
    There is an existing statute that says that six months in 
jail if you cross the border illegally. The judge, Judge Ludlum 
literally sat the prosecutors down, and the U.S. Attorneys, and 
the magistrates and said, ``You are going to put in the time.'' 
She brought in all the law enforcement, federal, state, local, 
we are all going to work together. It is a team effort, Mr. 
Mayor, you are exactly right. Judge Ludlum, God bless her, she 
initiated this then I found out about it and was able to help 
with this great Committee. With the help of earmarks, which are 
so badly abused but are so important. In fact 80 percent of my 
earmarks went outside of my district, Port of Houston or the 
Border, in particular.
    But I was able to target money to this program with great 
success, with your help, Mr. Chairman, and the help of Chairman 
Price. And as a result, the, all that is happening in Del Rio 
and Laredo is the law is being enforced, that is six months in 
jail. Everyone is being arrested. Obviously with the exception 
of women and children, the offices are using their own good 
judgment. If you are arrested by the Border Patrol in Del Rio 
or Laredo you will be prosecuted for, and you will be thrown in 
jail for a short period of time, up to six months. A couple of 
days, a couple of weeks, six months, and then deported. And 
they do not get any repeat customers. Mr. Chairman, there is 
actually a surge in demand for bed space but there are actually 
vacancies. Are there still vacancies in the Val Verde County 
Jail? They have vacancies as we sit here today in the Val Verde 
County Jail because the word got out.
    And you can actually see the edge of the sector, Mr. 
Chairman, of the Del Rio Sector. The trash picks up. Because 
they are all going around it. And they know that if they cross 
in Tucson it is the wild west. They have a 99.6 percent chance 
of never being prosecuted if they carry less than 500 pounds of 
dope. And as a result all the loads, when I hope we go to 
Tucson, you will see the evidence room. All the loads are under 
500 pounds. And they all go free. But if they cross at Del Rio 
they go to jail. So it is working in Del Rio and in the Laredo 
Sector.
    Would you agree that enforcing the law, using Operation 
Streamline, if we were to expand Operation Streamline, and the 
U.S. Attorney has already told us, the Department of Justice, 
Mr. Chairman, that they have the resources to implement 
Streamline from Brownsville to San Diego using last year's 
since we approved last year's omnibus. Would you agree, Agent 
Newell and Agent Arabit that if we were to expand Operation 
Streamline from Brownsville to San Diego the border would 
largely be as quiet and secure up and down the entire border as 
it is in Del Rio and Laredo? And that you agree it is a 
successful program?
    Mr. Newell. Well, Congressman Culberson, I know Chief 
Gilbert and Chief Beeson well. They are friends of mine and 
they are outstanding law enforcement professionals. And, you 
know, our concern in ATF, is of course of firearms related 
violent crime, as it is with them. I meet with Chief Gilbert 
and Chief Beeson on a regular basis. And their concern just 
like mine is the safety of the Border Patrol agents on the 
Border.
    Mr. Culberson. And he is the Chief of the Tucson Sector, 
Mr. Chairman.
    Mr. Newell. Yes, sir. Chief Gilbert is Tucson and Chief 
Beeson is Yuma.
    Mr. Culberson. Right. And his agents are assaulted 
regularly because the illegals have no respect for law 
enforcement because they are not going to jail.
    Mr. Newell. Right. And our concern----
    Mr. Culberson. Is that correct?
    Mr. Newell. Our concern, of course, is the firearms 
violence.
    Mr. Culberson. Yes, sir.
    Mr. Newell. And so we, you know, I regularly work with the 
Border Patrol and meet with them. And any cases that we can 
take regarding obviously, you know----
    Mr. Culberson. Right. Firearms. But----
    Mr. Newell. Yes, sir.
    Mr. Culberson. My time is so limited. Forgive me.
    Mr. Newell. Yes, sir.
    Mr. Culberson. Can I ask Agent Arabit? Is it, tell us about 
Operation Streamline and your impression. Is it working and a 
successful program that we should expand to the El Paso Sector 
and Lordsburg?
    Mr. Arabit. Sir, the limited knowledge that I have on 
Operation Streamline has more to do with the high prosecution 
rate. And my opinion as far as the high prosecution rate is 
that if, you know, if the bad guys know they are going to get 
prosecuted then they are not going to cross there.
    Mr. Culberson. It works?
    Mr. Arabit. It works, yes.

                        PARALLELS WITH COLOMBIA

    Mr. Culberson. Okay.
    There is no question about it. Thank you, and you have been 
very generous with the time, Mr. Chairman. If I could ask one 
question that I hope will be helpful in illuminating the 
purpose of this hearing in conclusion, because Agent Newell, 
you have got experience in Colombia. Could you talk to us about 
the parallels between what we see today, the level of violence 
in Northern Mexico, with what you saw in Colombia? And what 
historical parallel is there to help the Chairman of the 
Subcommittee get a handle on what we are seeing today in 
Northern Mexico?
    Mr. Newell. Well I think what we are seeing, sir, from my 
personal experience is the efforts that President Uribe took in 
Colombia are very similar to the efforts President Calderon has 
taken. You know, he is taking the battle to the drug cartels. 
And they are responding with the only way they know how, which 
is rampant violence. And that violence is being perpetrated by 
guns that they are illegally purchasing and illegally 
trafficking, in large part out of this country. So the 
parallels are that the government of Mexico, in my opinion, is 
taking just a phenomenal, taking on a phenomenal task and doing 
the best they can, considering the daunting task.
    But to address something, if I may, Mr. Congressman, is in 
the interim of that one-year period to hire people we have 
detailed and are detailing to the Border to fill that gap. So 
there will not be a one-year lull, if you will, until the time 
that, you know, those agents are coming on. We are detailing to 
Texas a significant amount of personnel to deal with a bunch of 
investigative leads we have in Texas on firearms trafficking 
issues.
    Mr. Mollohan. What percent of your agents are on the 
Southwest Border?
    Mr. Newell. Sir, I think currently we have dedicated to 
Project Gunrunner we have roughly about 146 special agents. 
There is thirty-two in Phoenix Field Division, which of course 
is Arizona and New Mexico. Because we also obviously enforce 
the arson laws, explosives laws, and other things that we are 
statutorily mandated to.
    Mr. Mollohan. But of all the agents you have in the Bureau 
of Alcohol, Tobacco, and Firearms, what percentage of them are 
stationed in the Southwest Border?
    [The information follows:]

    What percentage of ATF agents are stationed in the Southwest 
Border?
    Answer. As of April 11, 2009, ATF has a total of 2,569 agents. ATF 
has 419 agents working on the Southwest Border, as defined by ATF's 
four field divisions (Houston, Dallas, Phoenix, and Los Angeles), which 
constitutes 16% out of ATF's total agent population. Of the 419 
Southwest Border agents, ATF has 155 agents working firearms 
trafficking cases.

    Mr. Newell. Sir, I do not have, I can get you that 
information. I am sorry, sir.
    Mr. Mollohan. Okay.
    Mr. Culberson. Mr. Chairman, may I have one very narrow 
follow up?
    Mr. Mollohan. Do you want Special Agent Arabit to answer 
that same question about Colombia?
    Mr. Culberson. Yes. I would be very interested in the 
analogy. And do you think, either one of you, that the 
government of Mexico is in danger of collapsing? The U.S. 
military has said that Mexico, Pakistan, and I think 
Afghanistan are three of the most unstable governments in the 
world and most likely to collapse. I wanted to ask you about 
that. And then one very narrow follow up for ATF. Yes, thank 
you. Thank you, sir.
    Mr. Arabit. Thank you, sir, for the question. I do not 
believe that the government of Mexico is going to collapse. I 
think the difference between, one of the big differences, the 
distinct difference between Mexico and Colombia, is that you do 
not have an active insurgency in Mexico as you did in Colombia, 
and maybe still do in Colombia to some degree with the FARC. 
And I think that is an important thing to note. The government 
of Mexico is working on unprecedented levels to break the power 
and the impunity of the cartels. I have personally seen it.
    I was in Juarez last Thursday. And what I saw just amazed 
me. I saw the military and the SSP, which is one of the police 
agencies in Mexico, working in a task force environment. And I 
saw them in the streets of Ciudad Juarez working in convoys, 
and setting up checkpoints. And the reason for that, I know 
there was a concern raised earlier about the military being 
involved. The reason for that, as was explained to me by the 
general who is in charge of security for Ciudad Juarez, was 
that if the military encountered a police situation, they would 
contain the situation and pass the defendants, the bad guys, 
over to the police for further processing. And in my entire 
time working with Mexico, and even in Mexico, I have never seen 
that sort of cooperation among the military and police entities 
in Mexico.
    And so the will to resolve this problem is certainly there. 
I just think that we need to manage our expectations in terms 
of how quickly the problem will be resolved. Because they are 
taking, they are trying to take a crisis situation in Mexico 
and transform it into a traditional police problem that will 
eventually be dealt with by the police force, once the police 
force is trained and up to speed and staffed. So I do not 
believe that Mexico is anywhere near the verge of collapse.
    Mr. Culberson. May I ask one very narrow follow up of ATF? 
Yeah. Do you, if I could, Special Agent Newell, I wanted to ask 
you specifically, of those federally, the FFLs, the federal 
firearm license holders in the United States. What percentage 
of those FFLs are deliberately involved in criminal activity? 
It has got to be less than 1 percent.
    [The information follows:]

    What percentage of federal firearm license holders in the U.S. are 
deliberately involved in criminal activity?
    Answer. To date, over the ten-year period from FY 1999 to FY 2009 
(as of 4/1/09), 245 cases involving 262 defendants (federal firearms 
licensees) have resulted in a determination of guilt in judicial 
proceedings. During this time period there have been at least 104,000 
active federal firearms licensees in business each year. Thus over the 
10 year period in aggregate, approximately \1/4th\ of 1 percent of FFLs 
have been found guilty of criminal activity in federal court.

    Mr. Newell. It is a very small percentage.
    Mr. Culberson. Less than half of a percent?
    Mr. Newell. I do not have the exact percentage off the top 
of my head, sir, but it is a very small percentage?
    Mr. Culberson. Probably less than one-half of 1 percent?
    Mr. Newell. Again, sir, I do not have that. But----
    Mr. Culberson. Certainly less than 1, and I am delighted to 
hear it. The next time that comes up in one of our hearings I 
am glad to have that little piece of statistical ammunition. 
Thank you, sir.
    Mr. Newell. Yes, sir.
    Mr. Mollohan. Thank you, Mr. Culberson. Some wrap up 
questions. Mr. Culberson is a real advocate for doing 
additional things on the Southwest Border to improve the 
situation. I know he has appreciated these hearings for that 
reason, and he frequently communicates with the Chairman and 
Ranking Member of this Subcommittee and the Homeland Security 
Subcommittee about this. So we commend him for that.

                      COMMUNICATIONS CAPABILITIES

    In dealing with these issues, we have heard more than once 
that the cartels have better communications equipment than the 
United States federal agents or the local police have. Is that 
true? And if so, how is it true and to what extent?
    Mr. Arabit. Thank you for the question, sir. The cartels 
are well equipped. I will just leave it at that.
    Mr. Mollohan. No, I do not want you to leave it at that. I 
want you to explain to the Committee what you mean and give us 
some detail.
    Mr. Arabit. Sir, I would like to explain that to you in 
private.
    Mr. Mollohan. Oh. Sure. Of course.
    Mr. Arabit. But they are well equipped.
    Mr. Mollohan. Do we have an issue here? Okay. Well, we will 
leave that at that then. Mayor? Chief? If you are comfortable 
with answering that.
    Chief Harrison. I would only say that only additional 
funding that is available for interoperability for local 
agencies, that that is extremely important on a daily basis as 
well as in an emergency like 9/11. Because when you travel from 
one side of the valley in Phoenix to the other you travel 
through ten of fifteen different police agencies. And if they 
are all on different radios and they are unable to communicate 
with each other, that creates a real officers safety hazard 
because officers are traveling back and forth across the valley 
following suspects. We have had shoot outs in Phoenix involving 
officers from other agencies. We did not even know it was 
happening until they were able to call. So just from the 
communications standpoint anything that is dedicated to true 
interoperability for local agencies is very valuable for police 
and fire.
    Mr. Mollohan. Well, thank you. Mayor, you probably know 
this, but for the record, there is $1 billion in the stimulus 
bill for the COPS hiring program, Community Oriented Police. 
That is really a reactivation of that program in a fairly big 
way. The whole purpose was to address the concerns that you 
expressed here at the beginning of the hearing and that the 
Chief echoed about needing additional personnel to meet this 
challenge. So I wanted to make sure you knew about that. I am 
sure you did. But I want to encourage you to apply for it.
    What an excellent panel. Both panels were excellent and we 
very much appreciate your testimony here today. As you can see, 
there was a lot of interest from members of the Committee. We 
know the administration just today came out with an initiative. 
We want to support that and already have in a number of ways. 
This testimony today will help us identify areas where we can 
be more robust in our funding, more targeted, and help you all 
do the tremendous and dangerous job that you do every day. And 
you have made that clear here today, that you greatly 
appreciate the kind of work ethic and sacrifice that your 
people are making. We recognize it and appreciate it as well, 
and we appreciate your good work and the good work of those who 
are over you.
    So thank you for your testimony and for your coming these 
long distances. And Godspeed.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 26, 2009.

                    DRUG ENFORCEMENT ADMINISTRATION

                                WITNESS

MICHELE M. LEONHART, ACTING ADMINISTRATOR, DEA

                 Opening Statement by Chairman Mollohan

    Mr. Mollohan. The hearing will come to order.
    Well, good morning. I would like to once again welcome 
Michele Leonhart, Acting Administrator of the Drug Enforcement 
Administration, to discuss drug enforcement priorities and 
strategies, both domestically and abroad.
    Because we will not be receiving the detailed President's 
budget request until next month, Ms. Leonhart, this hearing 
will be a little different from DEA hearings of previous years.
    We will have less questioning about line item changes in 
your budget and more about your overarching programs and 
activities. However, to the extent that you are able to share 
details about your budget request, we are happy for you to do 
so.
    Our discussions today will range across a wide variety of 
topics. Of course, we are interested in your major enforcement 
activities targeting the trafficking of illicit narcotics.
    We actually began our discussion of enforcement activities 
two days ago when a representative of DEA's El Paso field 
office joined other witnesses and provided excellent testimony 
on the trafficking of narcotics from Mexico into the United 
States as part of our hearing on cartel-related violence in the 
border region.
    We hope to expand on that discussion today to include your 
programs in other major source and transit countries around the 
world, including Afghanistan, Bolivia, and Colombia.
    At the same time, I want to make sure that we pay 
sufficient attention to the abuse of licit controlled 
substances.
    Much of your work in this area is regulatory as opposed to 
enforcement oriented and as a consequence, it can be 
overshadowed by DEA's other programs. Its importance, however, 
is highlighted by discouraging data on prescription drug abuse, 
which has been increasing across many age categories for the 
past few years.
    We are anxious to hear how DEA is continuing to address 
this problem while still ensuring unimpeded medical access to 
legal controlled substances.
    In a moment, I will ask you to proceed with your oral 
testimony. Your written statement, of course, will be made a 
part of the record. But first I would like to call on our 
Ranking Member, Mr. Wolf, for any comments he may like to make.
    Mr. Wolf. Thank you, Mr. Chairman.
    I have no comments. I just want to welcome you and look 
forward to your testimony.
    And I yield back.
    Mr. Mollohan. Thank you, Mr. Wolf.
    Ms. Leonhart, once again, welcome, and you may proceed.
    Ms. Leonhart. Thank you, Mr. Chairman.

       Opening Statement of Acting Administrator Michele Leonhart

    Chairman Mollohan, Ranking Member Wolf, members of the 
Subcommittee, it is my pleasure to appear before you to discuss 
DEA's programs and recent accomplishments.
    I want to thank you for your support. You enable us to do 
our jobs and you deserve much of the credit for our successes.
    I would like to highlight several areas of importance 
violence in Mexico and the Southwest Border, increasing 
methamphetamine production in small toxic labs, growing abuse 
of prescription drugs, and combating terrorists where there is 
a nexus with drug trafficking.
    Mexico and the Southwest Border. The violence we are seeing 
in Mexico is unprecedented, but it is not surprising. It is a 
symptom of the pressures DEA and the Mexican government are 
inflicting on the Mexican drug cartels.
    For many years, drug traffickers operated in Mexico with 
impunity, but under the Calderon Administration, which works 
closely with DEA, things have changed. As a result, the 
traffickers are fighting back like caged animals. And our 
response must be to stay the course, keep up the pressure, and 
never give in.
    My optimism about Mexico is supported by two recent 
successful DEA-led operations against Mexican cartels: 
Operation Xcellerator, which targeted the Sinaloa cartel, and 
Project Reckoning, which targeted the Gulf cartel. These 
cartels bring multi-ton quantities of cocaine and marijuana and 
large quantities of methamphetamine into the United States and 
are responsible for much of the violence in Mexico.
    To date, these two operations alone have resulted in 
arrests of more than 1,400 individuals; the seizure of more 
than $132 million in cash; the seizure of 29 tons of cocaine; 
the removal of a weapons arsenal in Mexico that included 
hundreds of assault rifles, explosives, an anti-tank rocket, 
and other weapons; and, most importantly, the indictment of the 
top tier of the Gulf cartel.
    I am happy to report that just last week, Mexican special 
forces arrested Vicente Zambada. Mr. Zambada was a major 
Mexican trafficker in charge of importing tons of cocaine for 
the Sinaloa cartel.
    Our enforcement successes are actually changing the 
dynamics of the cocaine market. We are reducing the 
availability of cocaine in America. Cocaine prices continue 
going up and purity continues going down. And over a two-year 
period, the price of cocaine has increased by more than 100 
percent and purity has decreased by 35 percent. This was 
accomplished through DEA's hard work and that of our federal, 
state, and local partners and our Colombian and Mexican 
counterparts.
    Methamphetamine. Methamphetamine is a drug of major concern 
to DEA and this Subcommittee. Thanks to law enforcement 
efforts, changes in state laws and the 2006 ``Combat Meth 
Epidemic Act,'' the number of small labs in the United States 
decreased dramatically in 2006 and 2007.
    Unfortunately, traffickers learned how to circumvent the 
CMEA through the illegal practice of smurfing and now the 
number of small toxic labs is rising again in some locations. 
Smurfing is difficult to stop as the CMEA does not require 
electronic or interconnected log books.
    Prescription drugs. Prescription drug abuse is one of our 
greatest areas of concern and the internet is a major source of 
these diverted pharmaceuticals. To combat this problem, DEA 
reprogrammed 108 diversion investigator positions into special 
agents and added intelligence analysts and state and local task 
force personnel to form what we call tactical diversion squads 
all across the country. As these resources come online, they 
will help us bring diversion under control.
    Afghanistan and narco-terrorism. The last area I want to 
mention is DEA's contribution to combating terrorism. DEA plays 
an integral role in the United States' overall Afghanistan 
strategy. Drug trafficking fuels terrorism and it destabilizes 
governments. DEA is working closely with the Afghan government 
to create institutions capable of enforcing the rule of law.
    Thanks to the funding we received in the 2008 GWOT 
supplemental, we are significantly expanding our presence in 
Afghanistan and this will lead to more successful operations 
like DEA's Operation Albatross and the arrest of more Afghan 
drug lords.
    In Operation Albatross, DEA's FAST teams worked with our 
Afghan counterparts to dismantle a super-lab complex and drug 
bunkers in a Taliban-controlled area in Kandahar Province. We 
seized 238 tons of hashish, the largest seizure of hashish in 
history, valued at approximately $600 million.
    And recent DEA investigations also led to the arrest of two 
major international arms traffickers, Victor Bout, known as the 
``Merchant of Death'', and Monzer Al Kassar, leader of an 
international arms trafficking organization.
    Al Kassar was sentenced last month to 30 years in prison 
for conspiring to sell millions of dollars worth of weapons 
that were to be used to kill Americans in Colombia. And we are 
pursuing the extradition of Mr. Bout from Thailand.
    In conclusion, drug traffickers are in business to make 
money and DEA is in business to stop them. Between 2005 and 
2008, DEA stripped traffickers of more than $9 billion in 
revenue, including $2.6 billion in hard cash.
    These enforcement successes are not the only signs that we 
are on the right track. There are roughly 900,000 fewer teens 
using illicit drugs now than there were eight years ago. In the 
same time frame, current teen meth use has plummeted 50 percent 
and cocaine use in the American workforce decreased nearly 40 
percent in the past three years.
    Our efforts are paying off, but we must do more. We 
continue to face many challenges, but I am confident the DEA 
will have many more successes to report to you in the year 
ahead.
    Thank you for the opportunity to speak to you, and I look 
forward to your questions.
    [Written statement by the Honorable Michele Leonhart, 
Acting Administrator, Drug Enforcement Administration follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             MEXICO CARTELS

    Mr. Mollohan. Thank you, Ms. Leonhart.
    A couple days ago, this Subcommittee held an afternoon of 
hearings with regard to drug trafficking on our southwestern 
border and the violence associated with it on both sides of the 
border.
    I would like to give you an opportunity to speak to that 
issue as well here first thing today. As I ask that question, I 
would note that Secretary of State Clinton made what I 
understand are some informal comments that were reported in the 
press to the effect that, by some indices, U.S. drug policies 
could be talked about in terms of being a failure. I think that 
assessment is at odds with the testimony that we heard the 
other day.
    What is your assessment and perhaps even your reaction to 
her comments? I want to stress that I think they were informal 
and perhaps not well thought through, but we look forward to 
your comments on that.
    Ms. Leonhart. Thank you, Mr. Chairman.
    First, I would say the failure is that we still have drug 
use and abuse in this country. But in terms of Mexico, that is 
nothing but a pure success. That is a sign post that what we 
are doing and what we have been doing over many, many years is 
finally working.
    And I say that as a veteran DEA agent for 28 years. Having 
worked in San Diego on the border and other places in the 
country, I know our efforts with our Mexican counterparts, and 
I have to include our Colombian counterparts, working together, 
our three countries have strategized over the last several 
years on how to take down both the Colombian cartels and the 
Mexican cartels.
    Our strategies over the last two years have been to do as 
much damage to the Mexican cartels as possible in an attempt to 
disrupt them and dismantle them and to have a change in the 
cocaine and meth markets in this country. And we have done 
that.
    So I could not label that failure. If you talk to experts 
in drug enforcement around the country, if you talk to the 
General of the Colombian National Police and if you talk to the 
Attorney General of Mexico, Eduardo Medina Mora, and I have 
talked to all of them, they will tell you that this is a 
success.
    And what we are hoping to do is as long as the valiant and 
courageous President Calderon and Eduardo Medina Mora and Mr. 
Garcia Luna stay the course, we see great things for Mexico. We 
see great things for the drug market in our country. We see a 
Mexico that can become like Colombia which, being a drug agent 
and seeing Colombia in the 1990s, is nothing like what Colombia 
is today.
    And those are our hopes for Mexico.
    Mr. Mollohan. So you are analogizing your success in 
Colombia, which was a process, not an event--it took a long 
time for that success to demonstrate itself--to Mexico today. 
You are suggesting that the strategies and tactics that you are 
employing in Mexico are bearing success and you predict, as you 
look to the future, will be increasingly successful and result 
in the kind of trends that we are now getting in Colombia; is 
that correct?
    Ms. Leonhart. That is correct. Those results like Colombia 
and also a continued change in the drug market in the United 
States.
    Mr. Mollohan. Well, you can understand why folks who are 
maybe taking a snapshot of the situation might have concerns 
because there is a lot of increasing violence that was evident 
in our hearing. It is all over the newspapers and perhaps in a 
sensationalized way to some extent.
    What indices should we be looking at to be able to share 
the optimism that you just expressed?
    Ms. Leonhart. I think the first thing that we do is we 
listen to President Calderon and we listen to the Attorney 
General and law enforcement officials in Mexico. They are very 
optimistic about what they are doing, and they do have a plan. 
They are optimistic that what they are doing is making a 
difference.
    And what we know about cartel leaders, and especially 
Mexican drug cartels, is they are on the run. They are fighting 
each other for the trafficking routes and the corridors to move 
product into the United States. They are fighting within their 
own cartels for leadership because the Mexican government and 
DEA have really done damage to these cartels.
    We have had, for instance, the leader of the Gulf cartel 
extradited to the United States two years ago, and we have had 
many extraditions since of major drug traffickers. So they are 
in disarray. And one of the things we can do is look and see 
what we are learning from the other drug traffickers.
    We conduct our investigations, and I can tell you that when 
we are intercepting traffickers during these investigations, we 
hear utter frustration on their part; because of different law 
enforcement operations that we have going on in the transit 
zone, operations that we have been conducting with the Mexican 
officials in Mexico now for two years. They are frustrated and 
they are changing the routes. They are changing their methods 
and they are making mistakes and we have been capitalizing on 
that.
    I think other things that you can look to is that there is 
still the majority of people within Mexico, you will hear from 
51 percent to 58 percent, that still back President Calderon, 
with all the violence still back President Calderon, and are 
looking to see a change in their country. And the perfect 
example is to look at Colombia.
    Mr. Mollohan. Are there any measurements of success? A 
decrease? We are talking about an increase in violence. You are 
suggesting that is cartel-on-cartel violence, competition for 
territory, competition for the business, and that in some way, 
that is a positive sign. That is an interpretation of it.
    Is there anything, and perhaps there is not, that we can 
look to that is obvious or that we can benchmark today and look 
to tomorrow as trends of success?
    Ms. Leonhart. Yes. There are a couple of things.
    What I needed to mention is a third dynamic there. It is 
not just the fighting within the cartel for leadership and 
money and power. It is fighting each other and it is for the 
first time in history, they are actually fighting the 
government. So that is a third factor that makes this different 
and why we see it as successful.
    But we can look to our own country for some dynamics that 
are happening here in the drug market and that will tell the 
story. And that really is the poster that I have here today. 
And if I can walk you through that and explain it, I think you 
will understand it a little bit more.
    We looked over 24 months, December 31, 2006 to December, 
well, all of 2007 and all of 2008, we looked. And when I was 
here last year, I was saying that we are in the perfect storm. 
Our enforcement operations, the operations we are doing in 
Mexico, all the money we are taking from the cartels, all the 
pressure we are putting on them, has changed the cocaine 
market.
    And I reported to you that in a 12-month period with 
sustained pressure on the cartels that we had increased the 
price of cocaine by 21 percent. At the same time, we had 
decreased the purity 10 percent.
    And I reported to you that at that time, 38 markets around 
the country simultaneously were reporting shortages of cocaine 
and we could verify skyrocketing prices.
    One more year of that sustained pressure, we take a look at 
it today and I can tell you that the price of cocaine, the 
average price of a pure gram of cocaine on the streets of 
America right now is up 104 percent, and the purity has dropped 
again to 35 percent.
    At the same time, that is a change in price and purity for 
cocaine, but when we look at drug use, we see major changes as 
well. A year ago, I reported great success because we saw that 
twelfth graders' prior-year use of cocaine was down nine 
percent. It is continuing to go down and today it is down 23 
percent.
    I also talked about workplace drug testing and said we had 
never seen anything like this. And these are the biggest drops 
in 19 years and the drop was 19 percent. It now has dropped 34 
percent in the workplace for cocaine positives.
    So not only has the cocaine market changed, but we have 
seen a change in teen and adult usage in this country. So that 
is why we call it the perfect storm. We have never seen it 
lined up like this.
    We were very cautious, very cautious and that is why we 
waited that year to even come to you and say we think something 
is happening, but now when we have 24 months of this and all 
the successes taking billions of dollars, that we stripped the 
cartels of billions of dollars over the last few years, this is 
putting pressure on them and it is affecting us.
    Mr. Mollohan. Well, we know that those results come about 
by the hard work of you and your agents working in very 
dangerous circumstances, so we compliment you for those 
results. And we will have other questions.
    Mr. Wolf.

                           VICTOR BOUT ARREST

    Mr. Wolf. Thank you, Mr. Chairman.
    And welcome. And I have a lot of questions that just your 
testimony has raised.
    But before I get into that, I want to thank your people for 
the Victor Bout arrest. When I would be in Africa, in the Congo 
and in Sierra Leone, they would say their Victor Bout plane is 
on the runway. And what he did with regard to Charles Taylor 
and the cutting off of arms and the Congo and the death is 
unbelievable.
    And I do not believe that your people have gotten enough 
credit and I do not know that people quite understand that this 
fellow is a merchant of death.
    There is another issue which we will not get into. I think 
it is very troubling. There have been reports that other 
agencies of our government have used him. And under no 
circumstances would that ever be justified.
    So I want to thank you. And I think the public ought to 
know that what your people have done is almost incredible 
because he would be with impunity. He would just move wherever. 
And some day, I would love your people to just come up and tell 
me how you actually happened to do that.
    Now, the question is, how successful will we be to 
extradite him and bring him back to the United States because I 
would say on behalf of the people that I would see, and I would 
go into villages where they would talk about short sleeve or 
long sleeve and their arm was cut off and all of the things? 
And I think with Charles Taylor's trial now in Hague, this guy 
has got to be part of it.
    So how hopeful are you and is the Administration doing 
everything it can to bring this guy back and convict him here 
in the United States? Can you tell us, and, one, thank you and 
your people who were involved in that, can you tell us a little 
bit more about it?
    Ms. Leonhart. I can tell you that we are very optimistic 
that he will be extradited to the United States. Both in the 
prior Administration and the current Administration, both 
Administrations saw what a spectacular case it was and how 
important it is to bring him to justice here in the United 
States to stand for those crimes. Nobody else could catch him 
for all these years.
    We know that from our law enforcement partners in Thailand 
that they will do whatever they can. We know that the courts 
are doing what they can. There are procedures that have to go 
on and I think there is possibly one more hearing. It was 
supposed to be a couple of weeks ago. I think they have put it 
off due to witness problems on his part. But we expect to have 
word after that hearing.
    Mr. Wolf. Could you tell the Committee and for the record 
just how extensive and his involvement in some of the things 
that he has been involved in over the years?
    Ms. Leonhart. Well, we did note, you know, he was involved 
in drug trafficking and money laundering, but, more important 
than that, just all the conflicts he has been involved in and 
all the weapons he has supplied.
    And this is a man that is all about greed, and when he saw 
the chance to sell arms to the FARC in Colombia to kill 
Americans, he took advantage of that and it was just 
dramatically done. It could be a movie some day, moving from 
one place to another.
    Mr. Wolf. Well, there was a movie.
    Ms. Leonhart. Yes.
    Mr. Wolf. How accurate is that movie?
    Ms. Leonhart. I have watched the movie and I can only 
imagine like most movies that it is probably a bit dramatic, 
but the events that they are covering pretty much parallel what 
we know his life to be.
    Mr. Wolf. Is the indictment for the sale of arms to FARC? 
Is that what the----
    Ms. Leonhart. Yes. We did traditional drug enforcement 
work. We had an undercover operation where our undercovers 
posed as the FARC in Colombia. And he was very interested in a 
transaction for arms where he would sell arms and went to the 
meeting to negotiate that. And we were able to have our 
counterparts in Thailand arrest him.
    Mr. Wolf. Are there any other indictments for him around in 
other countries of the world, any African countries or anything 
at the Hague or anything like that?
    Ms. Leonhart. I do not believe so. I believe that there may 
have been former charges in other countries brought against him 
and dropped. We felt that this was the chance to stop what he 
was doing and that this is where he would be brought for 
justice.
    Mr. Wolf. At his pinnacle, how many airplanes did he have?
    Ms. Leonhart. I am not sure, sir. We could get you that 
information. In fact, we would like to come and give you a 
briefing.
    [The information follows:]

    How many airplanes did he [Victor Bout] have?
    Answer. On April 22, 2009 Acting Administrator Michele M. 
Leonhart and other senior DEA staff briefed Congressman Wolf on 
the Victor Bout case. The briefing included information 
regarding Bout's airplanes.

    Mr. Wolf. Sure. I would like that.
    The last question is, so you are saying the Administration, 
the Obama Administration is committed to this and are our 
people out there in Thailand, in our embassy working 
aggressively to make sure that this happens?
    Ms. Leonhart. This is a major, major priority for DEA. And 
I know that the Attorney General, Mr. Holder, sees it as a 
priority and is doing what he can to make sure that justice is 
done and that we get Mr. Bout extradited out of Thailand.
    Mr. Wolf. I think the Committee should know and something 
should be put in the record that he was responsible for the 
death of so many people. In Africa, he was the merchant of 
death. He had literally furnished, I believe, most of the 
weapons to Charles Taylor. Much of his weapons have gone into 
the Congo.
    And I just think what the DEA has done on this has been 
incredible and, yet, there has been very little notoriety about 
it, I think because people do not know, you know, who he is 
and, therefore, they just think perhaps he is just some guy.
    I hope that the Administration will stay firm and not allow 
any of his friends in other countries to intercede.

                      DEA'S EXPULSION FROM BOLIVIA

    One other question, too, a little bit off of what your 
testimony is. In January, President Morales ordered the DEA to 
leave Bolivia and we understand you have relocated your staff 
to the southern countries.
    Can you explain how you have reconfigured your overseas 
staffing? And what impact, because I know that is a terrific 
problem down in Bolivia, what impact has this had and how do 
you see this thing working out? And is there anything on the 
horizon whereby he may allow our people back in?
    And, lastly, was DEA the only one that was expelled? Was--
--
    Ms. Leonhart. No, sir.
    Mr. Wolf [continuing]. ATF or AID or anybody else?
    Ms. Leonhart. Well, actually, the Ambassador was expelled 
first.
    Mr. Wolf. Oh, he went to the Ambassador too?
    Ms. Leonhart. Yes.
    Mr. Wolf. So what do we have, DCM there?
    Ms. Leonhart. We have INL, I believe is left there with 
maybe a couple of other officials, but he expelled the 
Ambassador first, then expelled our people who were working out 
in Beni, expelled them from that location and then later 
expelled us.
    Mr. Wolf. What were his reasons, because there is a drug 
problem in Cochabamba, there is a drug problem with young 
Bolivian children, there is a drug problem? Why would he do 
that?
    Ms. Leonhart. His support for counter-narcotics programs is 
diminished and he does not want DEA in his country.
    Mr. Wolf. Is there a reason or is there something that he 
wanted to do privately? Is there a reason why or is it just 
that----
    Ms. Leonhart. He believes that he does not need DEA in the 
country to attack the drug problem.
    Mr. Wolf. Do they have an effective drug program, Bolivia?
    Ms. Leonhart. I would say that their successes were because 
DEA and the Bolivians worked together for many years, 35 years 
in Bolivia. I would not say that they are successful today and 
I would not say that they will be successful in the future.
    Mr. Wolf. Last question and I can ask others in the second 
round, but is there any prospects or is there any effort being 
made to allow the DEA or others to come back in or is that just 
kind of pretty much on hold?
    Ms. Leonhart. Well, President Morales said himself that DEA 
will not return to Bolivia during his term as President. And at 
this point in time, he is expected-- well, he is going up for 
reelection in December of 2009. That would give him five more 
years if he wins that election.
    Mr. Wolf. Do the people support him on this? Is it a 
popular position in Bolivia or is it----
    Ms. Leonhart. That, I do not know.
    Mr. Wolf. And is there a drug problem? I mean, I have 
talked to people down through areas and they maintain that they 
do have a drug problem within their own country in addition to 
outside. Is there a drug problem in the cities of Bolivia among 
Bolivian children and----
    Ms. Leonhart. They have their own drug use and drug abuse 
problem and they have their own problem in that they are a 
supplier of coca.
    Mr. Wolf. Okay. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Wolf.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    My last question of the day was going to be on the subject 
that Mr. Wolf touched, so I will touch that subject first.
    First of all, thank you for your testimony and for your 
service, although I must say that your testimony left out at 
least an allegation with little truth to it. The allegation by 
President Morales was that DEA was involved in espionage in his 
country and that was the reason that he got rid of them.
    Now, there is a major drug issue in Latin America. And I 
fall traditionally, and the Chairman and the Ranking Member 
know this, I fall on the side of those unfortunately few 
Americans who want less American interference in Latin America.
    But at the same time, I want a very strong fight against 
drugs in cooperation with those governments. And I think many 
of those governments want to participate with us in that war on 
drugs.
    But there is, whether we like to admit it or not, it might 
be that DEA is caught up in what we hate to admit has been an 
ongoing belief in Latin America that there has been a lot of 
political interference.
    You know, we have a record in Chile with Allende where the 
CIA played a major role. We played at least a role of 
indifference in an attempted coup on President Chavez. We have 
had hostile behavior, whether warranted or not, towards Cuba. 
We hold a couple of colonies in that area, including one where 
I was born. So it has not been a pretty picture on either side.
    And what I think we are seeing, Mr. Chairman and Ranking 
Member, is that a lot of that hostility now is playing out in 
areas where it should not play out because whether you are on 
the left or on the right on this issue, everyone should be for 
fighting the war on drugs.
    But there is still a spillover from a time gone or still 
around where many of those leaders felt that our government was 
interfering too much. And so you have us accusing Chavez of 
something and he accusing us and Morales kicking out the 
Ambassador and we have no Venezuelan Ambassador here.
    The only salvation here is that the Secretary of State has 
said and the President has said that he would like to review 
our whole policy in Latin America. That has always been the 
forgotten area.
    And I think if you change some of our behavior, if we 
change some of our behavior or at least begin to give the 
feeling that we are there to support anybody who is 
democratically elected regardless of their rhetoric towards us, 
that then we can open the door to these other things that have 
to be done.
    And I would agree with you that, you know, every time I 
have had a chance to speak to anybody near the Bolivian 
government or in the Bolivian government, I say this is a 
mistake. We have to fight this war.
    I mean, there is a record in Latin America of using 
agencies other than the obvious agencies to disrupt government 
and I am not making that up. That is historically true. That is 
the problem that we have to deal with.
    Having said that, let me just move on to one of my 
questions. As we do more, do more--well, let me ask you a 
question before I leave the subject.
    Did you know, had you heard that one of his main reasons 
for asking DEA to leave was that he accused DEA of espionage?
    Ms. Leonhart. I did hear those accusations and they are 
untrue. They are preposterous. DEA is in that country to 
conduct joint drug operations and has for 35 years with great 
success. So our role was going after drug traffickers, solely 
going after drug traffickers.

                      DRUG TRADE IN THE CARIBBEAN

    Mr. Serrano. All right. Thank you.
    As we do more and more and more on the Mexican border, is 
there any fear that in the Caribbean, the drug trade will ramp 
up in a way that we are not keeping an eye on it? I am 
specifically speaking about the Virgin Islands and Puerto Rico 
and places like that. As we concentrate on one area, does 
something else happen in the other area?
    Ms. Leonhart. We think alike. And I made a trip to the 
Dominican Republic last year, just about this time last year, 
because as we saw this happening and we saw the pressure we 
were putting on the Mexican drug cartels, we knew that pressure 
would probably cause a change in routes and that route would 
then affect the Caribbean.
    I went and met with officials there and we had jointly done 
a few operations in 2007. And we were able to continue some of 
those operations and we put more focus on both Haiti and the 
Dominican Republic over the last year and a half. And we have 
very good relationships with them and we have some things in 
place to give us an indication if there is a change.
    Right now 90 percent of the cocaine destined for the United 
States goes, you know, through Central America and Mexico and 
10 percent through the Caribbean, but we have been watching 
that. We have been watching air tracks from Venezuela into 
Haiti and the Dominican Republic. And it is a priority for us. 
We have to be vigilant about that area.
    Mr. Serrano. And I hope it remains a priority because, you 
know, you guys do good work and you have got a huge task, an 
ongoing task ahead of you, and it is not going to get any 
easier. And so I hope you pay attention there.
    Let me finalize this round by just saying something else. 
Both Mr. Wolf and Mr. Mollohan remember that a few years ago, 
Puerto Rican communities throughout the United States and in 
Puerto Rico fought this battle which they won after 62, 64 
years of getting the Navy to stop bombing the Island of 
Vieques. This beautiful island that could be built up was used 
as a bombing range. The Navy left.
    Someone last week suggested in the Senate that the military 
look at Vieques again as a way of fighting the war on drugs. So 
needless to say, throughout the 50 states and in Puerto Rico, 
everybody is having a heart attack because the idea of the 
military returning to Vieques, even if it is to plant tomatoes 
or mangos, nobody is happy about.
    So I would hope, and just to show you that I support DEA 
notwithstanding the question I asked you about espionage and 
other things, I would hope when folks from DEA sit around the 
Administration, if the idea of bringing the military to fight 
that war using Vieques, that you guys would simply look across 
the table and say we can handle that, you know, and we are 
going to have more support from the people, good will, because 
it is not the military that left after 62 years.
    Ms. Leonhart. And I can respond that I have never heard 
that and I will remember our conversation if I do hear that.
    Mr. Serrano. It was in Senate testimony. A member of the, 
what is it, the South Command, said that they would look at 
Vieques again as a base, but this time, they said not for 
military training. They said to fight the war on drugs. And 
folks just do not want the military to return in that way. 
There are plenty of other places they could practice in Puerto 
Rico and they do practice, you know, military training.
    Ms. Leonhart. Thank you.
    Mr. Serrano. Thank you, Mr. Chairman.

                       SOUTHWEST BORDER POLICIES

    Mr. Mollohan. Well, just a final question on our southwest 
border policies. The President recently came out with an 
initiative. Would you please give us your description of that 
initiative, what you think it entails and what you intend to 
accomplish under it.
    Ms. Leonhart. Well, I believe with President Calderon's 
unprecedented level of support and commitment to make radical 
reform, he does need our help. He is going to stay the course 
and we stand behind him in his fight. And we need to do 
whatever we can to help him.
    And the Merida Initiative, as it is called, provides him a 
package that will help do some of the things that are badly 
needed in that country, that at the end of the day will not 
only help drug enforcement, but will also help with the 
violence and help stabilize Mexico so that they can return the 
cartel problem back to a law enforcement problem and he will no 
longer need troops to patrol his streets.
    So we stand behind that. We support that. And there are 
things that Mexico is in dire need of and Merida funding will 
help them get that.

                              AFGHANISTAN

    Mr. Mollohan. Thank you.
    What percentage of drugs produced in Afghanistan end up in 
our domestic market?
    Ms. Leonhart. When I was here last year, I told you it was 
less than ten percent. We have taken a look at some numbers and 
it is even lower than that. We think it is probably four or 
five percent of Afghan heroin or opium making its way to the 
United States.
    Mr. Mollohan. What triggers DEA's involvement in other 
countries, in producing areas outside the United States?
    Ms. Leonhart. I am sorry. Can you----
    Mr. Mollohan. What triggers your interest? How do you 
prioritize your resources across the world? Part of it, I 
suppose, is the percentage of illicit drugs that come from that 
area. I am just wondering is four percent a lot? Does that 
trigger your interest in an area, or does it take a larger 
percentage of drugs consumed in this country coming from that 
area for you to really want to get involved overseas in those 
production areas?
    Ms. Leonhart. The trigger for us is really about what 
happened in history because at one time, most of the heroin in 
our country came from Afghanistan. And if we do not put 
measures in place to contain them, [1] and we actually have an 
operation called Operation Containment that is made up of 19 
countries that are making sure that we can do what we can to 
keep drugs from coming out and keep chemicals from going in 
[1], we could return to our history not too long ago where our 
streets were flooded with Afghan heroin. So that is one thing.
    But then you also have to look at we have got U.S. troops 
and coalition forces in that country. And we know that the 
Taliban earns between $50 million and $70 million annually just 
from taxing opium. So we know that drug trafficking is funding 
the insurgency in Afghanistan. And we feel a responsibility 
because we have our troops over there. And we have a wonderful 
set of informants and measures in place there to help our 
military and to help our coalition forces.
    Since December of 2005, on at least nineteen occasions, and 
it is probably now twenty-one or twenty-two, DEA doing drug 
work in Afghanistan with informants was able to get information 
from these informants, turn it around, get it to the special 
forces. And on those nineteen occasions that I am aware of DEA 
was able to move personnel out of the way and move officials 
out of buildings. And there were rockets that were launched. So 
we play a role not only to make sure that they do not return as 
the primary source for heroin in this country, but also to help 
stabilize the Afghan government. You cannot stabilize 
Afghanistan without doing something about the drug trade.
    Mr. Mollohan. What is our mission in Afghanistan? How would 
you define success?
    Ms. Leonhart. We define success the way we define it in 
Mexico, and the way we define it in Colombia, and other 
countries. It is our role in Afghanistan to go after the 
kingpins and to go after the biggest and the baddest. Our 
mission there is to develop the Afghan National Police. Develop 
them so that they can become experts in drug law enforcement 
and become the future DEA of Afghanistan so we no longer have 
to be there. So it is building their capacity and helping with 
the rule of law in Afghanistan, and we do that with a five-year 
plan on how to stand up, technically, the DEA of Afghanistan.
    Mr. Mollohan. Is that your main mission in Afghanistan? To 
teach the Afghans how to fight drug production and the misuse 
of drugs? Is that your main mission in Afghanistan?
    Ms. Leonhart. Our main mission is to go after the high 
value targets, the kingpins, and the drug lords controlling 
heroin and opium in that country. And in doing that, we are 
developing the Afghan National Police, specifically the 
National Interdiction Unit, to be able to work jointly on those 
operations. And they are to the point now where they are doing 
their own search warrants, they are bringing cases to the 
narcotics tribunal. Just a few years ago there was no mechanism 
to do that. So it is really on the drug part, it is really a 
success story to see how far they have come.
    Now, there is still a lot to do with them. But at the same 
time we are doing that we have taken out some major drug lords 
in that country. And they have been extradited to the United 
States. A couple have been convicted. There are some in New 
York awaiting trial. And we are very excited about that in the 
same way we were excited about Viktor Bout.
    Mr. Mollohan. Give us a brief overview of your capabilities 
in Afghanistan.
    Ms. Leonhart. Well after September 11th, we had no one in 
that country. We had been in Afghanistan years ago and then had 
not been there for twelve or thirteen years. So we started slow 
with sending three agents over originally. We have built up now 
to the point where we have thirteen authorized positions in 
country. We have three pilots in country. And we have developed 
a program called the FAST team, Foreign-deployed Advisory 
Support Teams. And at any one time we have one of our teams in 
Afghanistan.
    So we are becoming more and more self-sufficient. It is 
dangerous in a war zone conducting drug operations. But we have 
developed relationships with the U.S. military and with NATO 
forces. And we are now at the point, where by the end of the 
year, we are going to be increasing our presence in Afghanistan 
by fifty-five positions. And that will allow us to bring the 
NIU and bring the Afghan National Police out to those 
provinces, out to those regional command----
    Mr. Mollohan. So you very much are involved in enhancing 
the capability of the Afghans themselves to fight illicit 
drugs?
    Ms. Leonhart. That is correct.

                              2010 BUDGET

    Mr. Mollohan. In your 2010 budget request how will those 
capabilities increase?
    Ms. Leonhart. I am not allowed to talk about the 2010.
    Mr. Mollohan. Well, do not give us numbers. Can you talk to 
us about----
    Ms. Leonhart. Well, I can tell you that we have----
    Mr. Mollohan [continuing]. Increases in personnel? 
Increases in equipment?
    Ms. Leonhart. We have in the 2008-2009 GWOT, I guess in the 
2008 GWOT that we will be using in 2009, we have the money for 
those fifty-five positions. And they should be in place by 
September 30th. Beyond that, we will need money in the 2010, or 
some other funding source, to keep them there. But right now we 
do have the money to deploy.
    Mr. Mollohan. So you are going to at least have a request 
to increase funding to support an increase of fifty-five 
personnel, is that correct?
    Ms. Leonhart. We would need money to sustain our fifty-five 
people in country beyond September 30th.
    Mr. Mollohan. Okay. Now, we have heard that the 
Administration is thinking about consolidating the non-military 
Afghan funding within the State Department, who would then 
distribute those funds out to various agencies that are 
operating in Afghanistan. That raises a lot of questions, 
including control questions and funding questions. What can you 
tell us about this proposal?
    Ms. Leonhart. I do not know that any decisions have been 
made for the 2010 budget. I believe that is all still being 
worked out.
    Mr. Mollohan. Have you heard about it? The State Department 
managing the funding for the agencies in Afghanistan, including 
DEA?
    Ms. Leonhart. I am not able to talk about the 2010 budget. 
And what I do know about the 2010 budget would be so minimal. I 
would be glad, once we know something, to talk to you about it.
    Mr. Mollohan. Okay. Well, we will look forward to that. Mr. 
Wolf.

                       CHALLENGES IN AFGHANISTAN

    Mr. Wolf. Thank you, Mr. Chairman. I had a lot of questions 
I wanted to ask you about this, but the Chairman's questions 
raised some other questions. I was the first member, with 
Congressmen Hall and Pitts, to go to Afghanistan shortly after 
the fighting broke out, and went back. And now the conditions 
are much worse. I mean, your people must be having a difficult 
time moving around the country. Can you tell us how difficult? 
I mean, do they move without military support?
    Ms. Leonhart. I can tell you that that has been a 
challenge. It has gotten better. And it has gotten better 
because of the partnerships we have developed. There were times 
when we were not sure that we were going to be able to get a 
U.S. military lift to go out on an operation. We did not have 
our own mechanisms. But now we do have the capacity to move our 
people around. Again, everything we do is coordinated with the 
U.S. military. We have developed a very good relationship with 
INL. And INL, where they can help us they do. We have developed 
relationships with the Germans, the Dutch, the British.
    Mr. Wolf. Well since most of this, that was the next 
question, since most of this does not go to the U.S., it goes 
to Europe and places like that, if we are going to have fifty-
five how many people do the Dutch, the Brits, the Germans have? 
I mean, going to have. I mean, they should be carrying the 
overwhelming burden on this. I mean, this should not be the 
United States government. We are carrying most of the burden 
with regard to the military. And since most of the drugs are 
going to Europe and places like that it would appear to me that 
from a responsibility point of view they should be carrying the 
overwhelming burden. So one, is it accurate that most of this 
is going to, say, Great Britain and Germany, and places like 
that? Is that fair to say?
    Ms. Leonhart. The trafficking patterns for the opium and 
heroin out of Afghanistan have changed a little bit. But it is 
primarily----
    Mr. Wolf. And go to what three countries?
    Ms. Leonhart. It is primarily Europe, Russia, and now we 
see it going to Iran, Central Asia, and more recently China.
    Mr. Wolf. So how many supporters do we have in the drug 
enforcement area from, I am sure China does not have anybody 
there. They may, but that would shock me if they did. But how 
many non-American, Western Europeans, whatever, are actively 
working in the drug area compared to our, if we get to fifty-
five? We are thirteen now, we get to fifty-five, what will the 
Europeans have?
    Ms. Leonhart. The other countries that we are working with, 
they are there in a military status.
    Mr. Wolf. Well, but should they not be there on, should the 
British, and I do not know how Britain fights drugs. But should 
not the British DEA be there? Should not the French DEA be 
there? Should not the Spanish DEA be there? Should not the 
German DEA, and if there is such a corresponding, should they 
not be there? And should not our administration be asking them? 
Since they are not participating as aggressively in the 
military area, and they are not going out in some of the combat 
areas? Some of them are. But some are not. Is that not a fair 
burden? That we should say, ``This is your responsibility.'' I 
am not suggesting that we withdraw from this area. But the 
overwhelming burden be carried by them?
    Ms. Leonhart. We would welcome any partners in the drug 
mission.
    Mr. Wolf. But are we asking? Do you know? Are we asking 
them?
    Ms. Leonhart. I know that we have on occasion been asked to 
brief on what we are doing in country. DEA is the only drug law 
enforcement there. Everybody else is military, or contractors.
    Mr. Wolf. But are there military involved with your DEA 
people? Are the German military involved with your DEA people?
    Ms. Leonhart. Yes. To get out of Kabul and to get into the 
provinces, and to get to the regional commands, that is when we 
are working with the Germans, and we are working with the 
British, and we are working with the Dutch.
    Mr. Wolf. Do those three countries have a problem with 
things coming from Afghanistan?
    Ms. Leonhart. Europe has a problem with heroin.
    Mr. Wolf. Well then, should we then not ask them? Should 
the State Department, or the Justice Department, not be asking 
them to take a heavier lift here?
    Ms. Leonhart. I would assume that the State Department has 
asked for assistance.
    Mr. Wolf. Could you let us know if they have? And we can 
then check.
    Ms. Leonhart. Yes.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                  TALIBAN INVOLVEMENT IN DRUG BUSINESS

    Mr. Wolf. Is the Taliban directly involved in the drug 
business in Afghanistan? And does the money help furnish the 
Taliban?
    Ms. Leonhart. Without a doubt, they are involved. And when 
we first arrived in about 2003 in Afghanistan, there was a 
question about, you know, what is the Taliban doing? What is 
their role? What is the role of narcotics in funding terrorism? 
Those questions have all been answered. And the UNODC estimates 
that the Taliban makes about $50 million to $70 million just by 
taxing the opium, the poppy farmers, and another $200 million 
to $400 million from the processing and trafficking of opiates. 
So they are very involved at all levels. They are making a lot 
of money. And they are assisting in funding the insurgency in 
Afghanistan.
    Mr. Wolf. Are they the dominant participants in the drug 
trade, the Taliban?
    Ms. Leonhart. They are associated and have working 
relationships with the drug lords that we have been targeting. 
And they will, for instance, work together on protecting labs 
and protecting crops, and they have a working relationship that 
benefits each other. That is primarily their involvement.
    Mr. Wolf. Do you coordinate everything, and talk to General 
Petraeus and the people who are involved in fashioning any of 
our policy in Afghanistan?
    Ms. Leonhart. We have very good access to the U.S. military 
commanders in Afghanistan. For instance, General McKiernan has 
actually met with us and been out on an operation. We have 
briefed the commanders that were there prior to him. We at one 
point worked with General Eikenberry when he had Afghanistan. 
And it is a very good relationship, and we are learning a lot 
from them, and they are learning a lot from us.
    Mr. Wolf. Well, but as I leave it I want to ask you about 
the drug issue. But my own sense is, and this is my own 
feeling, is that, and this is not meant as criticism of the 
Obama administration because they are just coming in. But I 
think we have taken our eye off of the ball. And Afghanistan is 
more difficult. If you look at the history of Afghanistan, from 
back from the British, and it is a very difficult place. And I 
know that last, was it Tuesday night? At the press conference, 
not one question dealt with international affairs, and not one 
question dealt with the issue of Afghanistan or Iraq. And yet 
we have many American men and women who are sacrificing 
tremendously, and their families are sacrificing tremendously. 
And I have had people from my district who were killed in 
Afghanistan. And we see the death total going up there. And 
yet, there was not one question. And I just think there needs 
to be a greater attention. There is not a lot of interest here 
in the Congress on this issue, either. I do not hear the word 
Afghanistan come up very, very much.
    And so one question with regard to the charts. They are 
very impressive numbers. But my question was, in comparison to 
what, though? I mean, if drug use is raging and it drops 35 
percent, and it is at the all time high it has ever been here, 
compared to 1912, I am making this up, 1938, there was almost 
no drug use. So everything is, these numbers are impressive, 
and in comparison to what though? Are they compared to the 
fifties they are great? The sixties they are great? The 
seventies they are great? The eighties they are great? The 
nineties? You follow the question? I mean, they are good based 
on where we are. But is this still at an all time high? Or is 
it really that we are kind of coming down into our low period 
for the country in modern times?
    Ms. Leonhart. Well, I can tell you the methodology and the 
way we are doing it. We could only go back to April of 2005 as 
a starting point. But when you look at, having been a drug 
agent for twenty-eight years, and to know that we are back to a 
$24,000 to $43,000 a kilo in New York, which we had not seen 
since I was a baby agent, that tells you something. When for 
many years when I was undercover the price of cocaine in L.A. 
was $12,000 to $13,000 for years. And to know that it is up to 
about $26,000 or $27,000 a kilo. It has been over a long period 
of time. I just do not have the data to tell you exactly when 
the last time the price would have been, where that is.
    Mr. Wolf. Well, I do not know what Secretary Clinton said 
yesterday. I just saw the headlines. And I think the concern 
is, and I think we ought to have greater emphasis on drug 
rehabilitation and treatment. And diminishing the use. Because, 
again, I just read the headline. I left early. But I thought 
what she may have been saying was that the fact that there is 
use in the United States, that has created the market. And I 
did not read the whole story, so maybe the Chairman did because 
he had a lot of questions based on that. But I think anything 
we can do here in the United States to diminish the use, both 
in rehabilitation, and also in the initial use. I remember 
reading the story that they gunned down the bishop in Tijuana, 
Archbishop, when was the Archbishop killed in Tijuana?
    Ms. Leonhart. I believe that was in the late nineties.
    Mr. Wolf. Yes, late nineties. I thought it was early 2000. 
But anyway, whenever it was, in essence, and I do not know if 
Secretary Clinton was saying this, the fact that there is a 
market here in the United States is creating the difficulty 
down in Mexico. So every time there is any flourishing here, we 
are somewhat responsible, in a sense. So the great effort we 
make in prohibiting, stopping the use of the drug, and also 
aggressively involved in rehabilitation. We had the hearings 
the other day, there are people in the federal prisons who do 
not have access to drug rehabilitation. There are many people 
in the state and local prisons who are there for drug use who 
do not have the ability. So while I have great respect for the 
law enforcement, my dad was a policeman and I have always been 
very sympathetic, I think it has to be aggressively on reducing 
the demand as well as the supply. And if we just stress the 
supply then I think we create, you know, a problem.
    So I hope there is coordination in the administration in 
both rehabilitation and reducing the demand in the United 
States so that people are not using drugs. You know, in high 
schools, and colleges, and wherever the case may be. That we 
move to be a drug free nation, if you will. So that is a 
thought. And if you have any comments about that I would like 
to hear them. And as you do comment, and I hope you will 
comment, if you could sort of give me a parallel from your 
experiences. How do you think drug use is in the United States, 
what those figures are, compared to how it was in the sixties? 
When we would have, you remember that Frank Sinatra movie, The 
Man with the Golden Arm, or whatever it was. How do we compare 
now and what are your comments about rehabilitation and 
education in addition to the law enforcement aspect of it?
    Ms. Leonhart. Let me comment first, sir, on prevention and 
treatment. Law enforcement officers, especially narcotics 
agents, have always felt that if we could have a comprehensive 
approach, with the prevention, the treatment, and enforcement, 
that that is the perfect solution to make sure that all three 
areas are looked at. And I, with a bit of optimism, I know 
there has been a nomination for the new drug czar. And I have 
worked with him. And I know that he is very interested in 
treatment and prevention. And I look forward, if he is 
confirmed, to talking to him about those issues.
    We in the DEA feel very strongly about this. Because we 
know if there is supply, then demand goes up. And we feel we 
have our place. We have our place because half the people in 
treatment are in treatment because of enforcement. And so there 
has got to be a way that everybody doing their job, us doing 
our job, that there are ways to look at getting more treatment, 
better treatment. I just had a presentation on, it is called 
Operation Hope, in Hawaii. And it was amazing. It was how to 
get people on probation, how to have measured sanctions if they 
screwed up. And it is amazing, it is like a pilot, but it has 
got amazing results. So looking at those, and I am a fan of the 
drug courts. I have been to graduations. I have met with people 
who have graduated. And I am all for that. And I think you 
cannot have one without the other. And it is everybody staying 
in their lane, and everybody doing what they need to do. So 
that if prevention does not work, you have enforcement that 
then gets people into treatment. And we hope for the day that 
we do not need that.
    But we have got, still, a number of drug users in the 
country. But it is also very promising to see our progress, 
especially with our teens. 900,000 fewer teens are using 
illegal drugs now. That is the population of Detroit. That is a 
major step. You asked about the sixties. Well, I graduated from 
high school in the seventies. And I can tell you that was the 
highest amount of drug usage our country has ever had, in the 
seventies. So we are nowhere close to that drug usage. And we 
continue to make inroads in drug usage, and we are hoping that 
now these teens will move into adult life and be non-drug 
users.
    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Serrano.
    Mr. Serrano. You were doing very well until you reminded 
all three panel members how much younger than us you are, by 
graduating in the seventies.
    Mr. Mollohan. I let that pass.
    Mr. Serrano. You did? But I noticed you quickly grabbed for 
the gavel.
    Mr. Mollohan. Yeah, I flinched.

                          DEA AROUND THE WORLD

    Mr. Serrano. He usually does not gavel witnesses out of 
order, but I kind of saw that. Once again, our colleague, Mr. 
Chairman, Mr. Wolf shows his courage. It is very easy to say 
that folks are sending us drugs and we should do everything we 
can to stop them. But it takes a lot of courage to admit that 
we are the number one consumers of those drugs. And it has to 
be a two-pronged attack. One is to stop the drug from coming 
in, and the other to stop the market from being here. And that 
is an age old fight.
    And he did mention, to my joy, The Man with the Golden Arm. 
Otto Preminger, and a great performance by Arnold Stang. And it 
was a groundbreaking movie because it touched on going cold 
turkey for drug addiction, which was totally a taboo subject. 
And the character's name was Dealer, not because he was a drug 
dealer but because he dealt cards at illicit poker games. But 
anyway, that is the other side of me.
    Members of Congress get a lot of information from federal 
agencies. And most of us, a lot of us, and I am guilty more 
than anyone else, do not delve into, ``Well, how does this 
really happen?'' We just know that you have agents all over the 
world, but we do not know how that really happens. So without, 
obviously, getting into areas that you cannot get into, not 
that you would even attempt to get into them, given the 
information that we do not need to have in public, how does DEA 
approach a country? Pick a country in, you know, Latin America 
and say, ``We know you have a problem and we want to work with 
you.'' Or is that at the State Department level, at that level? 
Once that happens, usually where do these agents go? Do they 
work under local law enforcement supervision? Or do they kind 
of run their own shop? You know, I am not asking you to tell me 
where they are housed. But is it military housing? Is it 
separate, civilian housing? Are they all undercover, or do many 
of them operate with the jackets, you know, that say DEA on the 
back and so on?
    Ms. Leonhart. Well, let us take Africa. Because Africa 
worries us very deeply right now. There are very few law 
enforcement partners to work with in Africa. So what we have 
done is we have opened a new office in Accra, Ghana. We have 
another office opening by the end of the year in Nairobi. And 
we were able to open those offices because we were able to 
build partnerships, and we do this a lot with the State 
Department, with INL, and with other agencies. We saw what is 
happening to Africa----
    Mr. Serrano. But who initiated this desire to go into that 
area? You did?
    Ms. Leonhart. We do. We see that it is being used as a 
transshipment point. And we know that the same organizations in 
Colombia who are shipping cocaine to Europe are using Africa. 
And there are no, it is like Afghanistan was. There are no law 
enforcement partners. There is no end game. There is no one to 
interdict anything. It is just a void. So what we did, a couple 
of years ago when we saw this happening, we sponsored with our 
partners a chemical conference. Just so we could find out who 
are the law enforcement officials in Africa. Who could we start 
developing relationships with? And in a two-year period, I am 
telling you, we actually have people to work with now.
    And we have done that in a number of countries. Afghanistan 
is the perfect example. You go in and you educate on what the 
problem is, educate them on why it is important that there is 
action taken. We bring in training and we train them. A lot of 
times some of these small countries, that is all they need. 
They want to help. They just do not have the capacity to help. 
So we, with the State Department and others----
    Mr. Serrano. And are they under local jurisdiction? Are 
they under that? Or do they work with the local law enforcement 
and take their orders from them, so to speak? I mean, who is in 
charge?
    Ms. Leonhart. Well, in country, the people from that 
country are in charge. We are there to partner with them. And, 
you know, if there are arrests to be made, and there is action 
to be taken, it will be them that takes it. But we really are 
there to enlighten them on trends that are headed their way. 
And to develop those relationships and provide them training 
and equipment. And similar to how the Colombians right now have 
gone to Africa to meet with the law enforcement officials, 
because they see what is happening. The Colombians are----
    Mr. Serrano. The Colombian government?
    Ms. Leonhart. The Colombian National Police----
    Mr. Serrano. Okay.
    Ms. Leonhart [continuing]. Has gone to help. In the same 
way that the Colombian National Police and DEA came in to meet 
with Mexico to offer, you know, ``Here is what happened in 
Colombia. Maybe that can be replicated in Mexico.'' So we feel 
as the Drug Enforcement Administration, which is the only 
single mission agency, and we are in over sixty-two countries, 
that we----
    Mr. Serrano. Sixty-two countries? And do we know how many 
agents we have outside of the U.S. and its territories?
    Ms. Leonhart. I can tell you that 9 percent of our special 
agent workforce is overseas.
    Mr. Serrano. Okay.
    Ms. Leonhart. And we are careful on talking about how 
many----
    Mr. Serrano. Of course.
    Ms. Leonhart [continuing]. How many actual people are in 
certain countries. But we do that capacity building with them. 
And that has been DEA's history for thirty-five years. That is 
why today we are in sixty-three countries. Why we have over 
eighty offices. Why we can go and stand up two new offices in 
Africa. And that is how we cover the world.
    Mr. Serrano. A somewhat improper question. But do these 
officers, agents get special pay as our military does when they 
are in certain dangerous zones, and so on?
    Ms. Leonhart. There are certain benefits. There is danger 
pay. There are different incentives, like cost of living 
increases, that differ from country to country. But there are 
benefits for them because it is quite difficult, especially in 
those countries where they bring their families.
    Mr. Serrano. Right. And last question, of course some of 
them are undercover and some are not?
    Ms. Leonhart. All have the potential to be undercover. It 
will depend on what country they go to and what the need is. We 
still call it the old-fashioned way. Undercover is still a very 
good way to take down traffickers. Mr. Bout, Mr. Al Kassar, 
were taken down by undercover operatives. So we do that. But a 
lot of it is you are undercover one day, and you may be 
training your law enforcement partners the next day.
    Mr. Serrano. Thank you so much. Thank you, Mr. Chairman.
    Mr. Mollohan. Dangerous work.
    Ms. Leonhart. It is.

                       DRUG ENFORCEMENT AUTHORITY

    Mr. Mollohan. There are a number of agencies in the federal 
government who have drug enforcement authority, either directly 
or delegated by DEA. Is that correct?
    Ms. Leonhart. Are you talking about the Title 21 
authorities?
    Mr. Mollohan. Yes, I am getting to that.
    Ms. Leonhart. Okay.
    Mr. Mollohan. Do you believe it makes good policy sense for 
drug enforcement authorities to be spread widely at the federal 
level?
    Ms. Leonhart. I think it depends on what the authorities 
are, what the crimes are or the activities that the authorities 
are in charge of. Some crimes, like drug enforcement, require 
coordination and deconfliction. I gave a set of photos that you 
have. These cases are tremendous. These cases, these two, take 
more than fifty or sixty different cases going on all around 
the country. Some with other agencies, some with task forces. 
And there has got to be this deconfliction and coordination to 
make sure we are not stepping on each other, we are not going 
after the same traffickers, we are not, we call it blue on 
blue. We are not reversing or going undercover with another law 
enforcement person.
    So in drug enforcement, to be the most effective, when they 
stood up DEA they really had it right. Because they wanted in 
1973 to have an agency that would be the single focus, single 
mission, and single point of contact overseas, which is very 
important, and why we have the largest law enforcement presence 
overseas. So that they could ensure that there was always this 
coordination and deconfliction, and systematic intelligence 
sharing. And all the buzzwords you hear today were really 
thought about in 1973 when they stood up DEA.
    And we have a lot of partners. We run a lot of task forces. 
We do a lot of things with every agency imaginable. And without 
them, we could not do our job sufficiently in the cases. Our 
rule is do what is best for the case. Turf does not matter, 
forget about turf. Do what is best for the case. And to do 
that, we respect other's turf, for instance, with weapons. We 
seize weapons all the time on a drug case. We respect ATF. We 
respect the local police. We get them involved. We bring them 
in so that they can do that case. We share the intelligence so 
they can use their authorities and their expertise to do their 
case. Is that what you were asking me about? I feel very 
strongly----
    Mr. Mollohan. Well ICE, for example, is what I was asking 
you about. ICE has drug enforcement authority to the extent it 
is delegated by DEA; is that correct?
    Ms. Leonhart. Not quite. There are a lot of 
misunderstandings there.
    I heard from some testimony the other day, ICE can make 
drug arrests on the border. They were given that authority when 
they stood up the DEA, they were given that authority so they 
can seize drugs, they can make arrests, they have the Title 21 
authority at the border to do what they need to do to get their 
job done.
    It is moving off the border and developing these 
investigations like Operation Xcelerator and Project Reckoning 
and doing these other investigations that are away from the 
border where it is very important that we all coordinate and 
deconflict. And that is why it was set up that through the 
Attorney General who delegates it to DEA, to ensure that 
everybody is playing by the same rules and that everything is 
coordinated. And there is a way for DEA to then give other 
agencies Title 21 authority, which we do.
    Mr. Mollohan. On a case by case basis? On a subject matter 
basis?
    Ms. Leonhart. We have the flexibility to give it on a case 
by case basis. Maybe you are working an operation together for 
two weeks. But we also have it with our task forces where we 
have people who have had Title 21 authority working. They were 
Customs and now ICE and they have worked with DEA on task 
forces for 20 years.
    Mr. Mollohan. Okay. Well, we understand ICE is trying to 
get this title 21 authority independent of DEA, and that the 
Department of Justice, strongly opposes this.
    Do you have concerns with ICE exercising independent drug 
enforcement authorities, and what is your opinion about their 
attempt to get it?
    Ms. Leonhart. Well again, they have the authority to make 
arrests at the border and seize drugs.
    Mr. Mollohan. Are they attempting to expand the scope of 
their authorities under Title 21?
    Ms. Leonhart. When they ask for independent Title 21----
    Mr. Mollohan. All right.
    Ms. Leonhart [continuing]. What they are asking for is the 
authority to go do it on their own.
    Mr. Mollohan. Okay. That is my question.
    Ms. Leonhart. And that is not good drug enforcement.
    Mr. Mollohan. Okay.
    Ms. Leonhart. So DEA, since 2003, has proposed and been 
very flexible on ways to expand what ICE wants to do, expand 
it, yet still have coordination and deconfliction.
    And years back, an agreement between Customs and DEA set a 
cap--a particular cap and ICE has never come up to that cap.
    Mr. Mollohan. What does that mean, a cap? You set a certain 
cap, and ICE has never come up to that cap--what does that 
mean?
    Ms. Leonhart. Between the agencies, way back, they set a 
cap, right now it is at 1,400 and something, I think. 1,460 
something--1,475 and right now----
    Mr. Mollohan. That is a cap on what, Ms. Leonhart?
    Ms. Leonhart. The agencies agreed----
    Mr. Mollohan. Cap on the number of agents?
    Ms. Leonhart [continuing]. To cap the number of Customs, 
now ICE agents, that would get Title 21.
    Mr. Mollohan. I see.
    Ms. Leonhart. It was a cap for years. So we threw on the 
table not too long ago, 2003/2004, why does there need to be a 
cap if we are coordinating and deconflicting? And why, for 
agents at the Border, agents that are going to be working drug 
cases with us, why have a cap? And we offered that. And we even 
have a draft agreement that has no cap.
    So this is really about deconfliction and coordination, and 
about doing synchronized drug enforcement so we are not 
stepping on each other. And this is respecting each other's 
authorities and using the best of each other's talents and 
abilities.
    DEA comes across weapons traffickers and human smugglers, 
and we aren't asking for those kinds of authorities, because we 
know that we have the authorities to do something--crimes that 
take place in front of a federal agent, you have authorities to 
do what you have to do. And we know that it makes a better 
case, it is better for the country, it is a better use of 
resources to do it together and do it coordinated.
    Mr. Mollohan. Okay. Well, we are in a new administration, a 
period of transition, that always makes possible shuffling of 
responsibilities, reconsideration of missions, roles. So this 
would seem to be a period where these issues might be more 
prevalently debated.
    In that process, we just encourage you to be instructive 
about your role and what it should be and to participate in 
this process aggressively.
    It sounds like you have a really good handle on how those 
relationships are, have been and should be defined.
    I want to go back to this question of jurisdiction as it 
relates to control and funding, because there are proposals out 
there--or at least we are hearing that there are--to have 
control and management of some of your activities outside the 
Justice Department.
    So instead of speaking specifically to those proposals, I 
would like for you to talk about your experience with that in 
other situations.
    Does that occur? Where you are either being managed by 
other agencies or funded by other agencies? How is that 
successful, and what are the problems associated with it?
    Ms. Leonhart. We have people detailed to other agencies, we 
have people who go on other people's task forces. Over the 
years, agencies have shared personnel, depending on what the 
mission of the task force or what the trafficking situation 
was.
    So we have had people who have--for instance we have people 
assigned to ICE's BEST teams, and they operate under the rules 
of the leader of that task force. And we have ICE agents who 
are in our task forces. And the same goes for ATF and IRS and 
everybody else. So that is not a problem.
    And in fact, we are looking forward to new leadership at 
ICE so we can sit down and we can talk about some of the things 
we could do to better coordinate and deconflict together.

                        PRESCRIPTION DRUG ABUSE

    Mr. Mollohan. Okay. Prescription drug abuse.
    The 2006 National Synthetic Drug Control Strategy set a 
goal to reduce the abuse of prescription drugs by 15 percent 
over three years, with 2005 serving as the base year. Do you 
have an assessment of our progress in meeting that goal?
    Ms. Leonhart. I don't specifically for that goal.
    I can tell you that our challenge is prescription drugs for 
teen use. When every other drug category has been going down, 
it is prescription drug use that has gone up. In fact, use went 
up, I believe, a 13 percent increase since 2004.
    Mr. Mollohan. What is the major source of illegal 
prescription drugs?
    Ms. Leonhart. Several, and it really depends on the age of 
the teen versus adult. But illegal prescribing, prescription 
forgery, doctor shopping, and more recently, and what worries 
us, is the Internet.
    Mr. Mollohan. How are you addressing those challenges?
    Ms. Leonhart. We address all of them, with thanks to this 
Committee for a reprogramming a couple years ago, with 108 
diversion investigators that were reprogrammed as special 
agents. We believe the task force concept is the best way to 
address the pharmaceutical problem.
    For too many years we thought that the answer was to kind 
of stovepipe it within our agency and have diversion 
investigators do regulatory cases and do criminal cases.
    And what we found works best, especially with the new 
Internet cases and how some of these illegal prescribers, or 
these practitioners that are selling scripts for money, they 
need to be investigated and they need to be worked just like a 
drug dealer.
    Mr. Mollohan. Well, how are we doing with regard to illicit 
prescription drugs?
    Ms. Leonhart. Use is up by teens. Use is up by adults. But 
what we are able to do is take down rogue pharmacies, we have 
been taking down the doctor shopper prescription mills.
    Mr. Mollohan. Okay.
    Ms. Leonhart. We have a lot of successes----
    Mr. Mollohan. Excuse me, go ahead, Ms. Leonhart.
    Ms. Leonhart. We have set some records for these type of 
cases.
    And most notably, we have not only gone after the drug 
dealer who is selling pharmaceuticals, the doctors who are 
illegally selling pharmaceuticals, but we have also gone after 
the wholesalers who are selling to these rogue pharmacies.
    Mr. Mollohan. Okay. I am sure you are going after all of 
them.
    Can you give us some statistics to give us a handle on the 
trend lines where we are having problems, and how successfully 
we are addressing them?
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mollohan. Your chart here, is a very positive report on 
cocaine availability and use. What about prescription drugs, do 
you have a similar statistic?
    Ms. Leonhart. There are 6.9 million users, past month users 
of prescription drugs for non-medical reasons. That is a 13 
percent increase from 2004.
    Painkillers now, this worries me, for the first time we 
have seen this, painkillers for brand new drug users is at the 
same rate that marijuana is. So in other words, a first----
    Mr. Mollohan. You mean new users?
    Ms. Leonhart. A first time drug user is just as often going 
to pick painkillers or pharmaceutical drugs as they are 
marijuana as their first drug to try. So that does worry us.
    One of the things we are trying to do is educate the 
public. And I am sure everybody has seen the ads over the last 
couple of years, just to make parents aware of, you know, what 
do you have in your medicine cabinet? That has been effective 
in getting people to understand that they are going to have to 
secure the drugs that they have in their own home. We----
    Mr. Mollohan. Go ahead.
    Ms. Leonhart. Because the Internet now is playing a role, 
it is like having a drug dealer in your kid's bedroom.
    And we have done a number of things, like worked with 
Google and Yahoo and AOL to come up with banners so that when 
people go online to try to go into a rogue pharmacy that they 
will have a banner that will warn them and send them to other 
web sites to learn about prescription drugs.
    Mr. Mollohan. This is a growing problem.
    Ms. Leonhart. Growing problem and our challenge for the 
future.
    Mr. Mollohan. How are you addressing it in terms of 
manpower, resources, and strategy?
    Ms. Leonhart. The strategy is to make task forces.
    Our state and local officers are raising this as a problem 
now. Not only are they making the cocaine seizures, but with 
the cocaine seizures they are now finding pills.
    So we have taken our resources, we converted the 108 
diversion investigators into agents, and now we have teams, 
about 30--I think we are going to have 36 or 37 of them--all 
over the country that are diversion investigators, special 
agents, and intelligence analysts so that the same kind of 
cases that we work on the illegal side can be worked towards 
the pharmaceuticals. And we have got five of those set up now 
with about 30 more to go.
    Mr. Mollohan. Are we making progress?
    Ms. Leonhart. We are making progress.
    Mr. Mollohan. Do you measure that?
    Ms. Leonhart. In different ways. Again, the drug use 
statistics are not promising right now with teens, and that is 
why we spent a lot of time on the education part. We set up a 
web site. It is called Just Think Twice and it is a teen web 
site. And last month I announced another web site which is the 
bookend of that and that is for parents.
    Mr. Mollohan. Okay.
    Ms. Leonhart. And a lot of it is about pharmaceutical drugs 
and what to look for and how to get help. So we are looking at 
that education piece.
    We have gone out, like I said, with Google, Yahoo, AOL 
helping us on the Internet with banners. We have gone out to 
the wholesalers and--we are educating them about making sure 
that they know that they are actually supplying a brick and 
mortar store.
    Mr. Mollohan. I am looking for some sort of statistics, 
which maybe I should ask for you to submit for the record. I 
know it is always a balance between being oppressive with 
regard to the medical community, and we have heard complaints 
about that, and trying to identify those who are abusing 
authority. Why don't you submit for the record the number of 
arrests you've made in the medical community.
    Ms. Leonhart. We will do that.
    [The information follows:]

    How many arrests of the medical community--I don't know what kind 
of a measurement this is, but I am looking for some sort of statistics 
which maybe I should ask for you to submit for the record.
    Answer. The total number of doctors arrested by DEA in an average 
year amounts to less than one-tenth of one percent of all registered 
doctors. Annually, there are more than one million DEA registered 
medical doctors and doctors of osteopathy. Of those registered, DEA 
arrested the following number per calendar year: 2006--72; 2007--85; 
and 2008--80.
    DEA does not initiate any investigations based on a specific 
category of the registrant population. Our investigations are often 
initiated based upon information received from the state medical board, 
state pharmacy board, state and local law enforcement, an employee of 
the registrant, or a patient. DEA maintains a list of actions taken 
against doctors on its website.

    Mr. Mollohan. We are going to try to keep the hearing 
going, but we have a lot of five minutes votes here, so we may 
end up being in recess during that period.
    I will go down and vote. Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman. Thank you.
    A couple questions, and maybe there will be faster answers.
    Is drug use a problem in Afghanistan among the Afghans?
    Ms. Leonhart. It is, yes. They have got their own heroin 
problem.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Wolf. Has it always been a problem, or is it now just a 
problem?
    Ms. Leonhart. I don't know that.
    Mr. Wolf. Okay.
    Ms. Leonhart. Because we were not in the country until 
recently, I can't say that.

                           MORALE AT THE DEA

    Mr. Wolf. Tell me, how significant and what was the impact 
on morale, both of DEA and others, when the U.S. attorney in 
Texas prosecuted the border agents? That seemed to be an abuse 
to the point that if you were in law enforcement you would say, 
my goodness.
    Not knowing the full details of the case, but that person 
coming across the border had drugs, and it seemed the U.S. 
attorney down there was almost geared against the border--our 
border patrol people. Did that have any impact?
    And from my own perspective, almost regardless of what you 
say, I would think it would. It just seems to me that if you 
are in law enforcement and you see those two agents going to 
jail--one got beat up in jail I think--but has that had any 
impact on the morale of the people?
    Or second, you know, just don't step out so quick, be a 
little careful because you know, I don't want to go to jail?
    Ms. Leonhart. I don't know that that has had an impact on 
morale, and I don't believe that that has caused our agents to 
second guess or think twice about taking action.
    I have talked to a number of our agents about this 
situation, and I think they are actually a little mixed about 
how they see the issue. But I don't think it has affected 
morale. I think if anything, they feel sorry for the families.

                            MS-13 AND GANGS

    Mr. Wolf. Yeah.
    Thirdly, is MS-13 connected--MS-13 that operators here in 
the United States connected growing impact involvement with 
drugs? What are you seeing with regard to MS-13?
    Ms. Leonhart. MS-13 we have kept an eye on, because you 
would almost expect that we would see them taking a bigger role 
in drug trafficking. But actually we don't see it as much as we 
would expect----
    Mr. Wolf. Okay.
    Ms. Leonhart [continuing]. At a lower level.
    But that being said, we in 2009, we have opened 32 cases 
around the country on MS-13. Fourteen are actively being 
pursued now. So there is some activity out there because those 
are called priority target cases. So we must have cases on a 
higher echelon or the higher level of MS-13.
    Having worked in Los Angeles, I know that they had probably 
a larger role in street dealing in Los Angeles than maybe they 
do in some other places, but it differs around the country.
    Mr. Wolf. Okay.

                        POPULAR LEGAL DRUG ABUSE

    I have two last questions. One is on the question of Oxy. 
It was incredible that company just operated. They were 
convicted I think in a civil case. I know your people did a lot 
of work and everything else.
    But the Chairman was asking about convictions in other 
areas. That was amazing that they were able to kind of allow 
Oxycontin to spread the way it did.
    How is Oxycontin now? Has their conviction made a 
difference? And have there been any successes on rehabilitation 
and treatment of people involved in Oxycontin?
    Ms. Leonhart. Well, I won't say that there have been 
rehabilitation successes.
    Mr. Wolf. Right.
    Ms. Leonhart. I would say that people have maybe changed 
the drugs that they are using. Because where a few years back 
Oxy, Oxy looked like it was going to be the prescription drug 
of choice. It is no longer.
    Mr. Wolf. Did the conviction have a bearing on that or was 
that before the conviction?
    Ms. Leonhart. It started to change before the conviction, 
and I think it changed, because now the most popular legal drug 
is Hydrocodone, which is Vicodin. About 30 percent of the 
prescriptions written are controlled substance prescriptions 
for Hydrocodone. And what worries me--where we had a number of 
Oxycodone users years back--now it is estimated that one in ten 
high school seniors has abused Hydrocodone, which is Vicodin.
    Mr. Wolf. And where does that come from?
    Ms. Leonhart. The statistic?
    Mr. Wolf. No, the drug. Does it come from a legitimate 
manufactured company? And is there a parallel developing in 
this area that there was when that company that just, they 
pretty much promoted this to a certain extent. But tell me 
where it comes from and is there a parallel?
    Ms. Leonhart. I don't think it is a parallel. I think it is 
just heavily prescribed.
    Mr. Wolf. By?
    Ms. Leonhart. By doctors. It is a painkiller.
    Mr. Wolf. And do the doctors know that this is an 
increasing problem with regard to one and ten young people?
    Ms. Leonhart. I think that there has been a lot of 
education out there for doctors to--I believe they are aware.
    Mr. Wolf. And what company manufactures it?
    Ms. Leonhart. I don't know who has Hydrocodone. I believe 
that there are a lot of companies that produce Hydrocodone.
    Mr. Wolf. And where----
    Ms. Leonhart. By different brands.
    Mr. Wolf. Where are the kids getting it from?
    Ms. Leonhart. Primarily prescription forgery, doctor 
shopping, the Internet and----
    Mr. Wolf. So it is almost like Oxycontin, I mean it is just 
shifted from Oxycontin to this?
    Ms. Leonhart. There was more street dealing with Oxy. This, 
it is in their parent's medicine cabinet. When they go babysit. 
It is a very, very widely prescribed drug. More prescriptions 
are written for Hydrocodone than blood pressure medicine.
    Mr. Wolf. Wow. And you have a major program with regard to 
this now? I haven't seen anything in the paper about it, maybe 
I have missed it, but I----
    Ms. Leonhart. We----
    Mr. Wolf. Are you putting conferences on? Are you----
    Ms. Leonhart. We have had those ongoing for quite some 
time, and we really believe that it needs to be looked at, and 
we are hoping with new leadership at HHS----
    Mr. Wolf. Do you feel any pressure from the drug companies?
    Ms. Leonhart. No.
    Mr. Wolf. I mean, they hired some pretty big lobbyists the 
last time on the Oxycontin thing.
    Ms. Leonhart. No. We want them to look at this. DEA 
believes that that drug should be considered for Schedule 2.
    Mr. Wolf. Okay.
    The last question because we have done a second vote and I 
know the Chairman may have.
    Will you just put a statement in the record or tell me. I 
am opposed to legalization, but I want to hear what you think 
about legalization on drugs. I am opposed so the record shows, 
but tell me what you think what that would mean to us. And if 
you want to just say it in five sentences and submit a detailed 
response I would like to see it.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Leonhart. I would be glad to submit a detailed 
response, but for the record right now that is just a losing, 
losing solution, especially when you saw the rates here of 
illegal drug use drop. Twenty-five percent drop since 2001.
    Mr. Wolf. Well, if you could put that in writing that we 
could have for the record here, but I could also have, because 
I have been getting mail, and I make it very, very clear that I 
am opposed to it, but I think it would be helpful to put some 
authoritative comments in more than just my own opinions.
    Ms. Leonhart. Absolutely. We will respond.
    Mr. Wolf. Okay, thank you.
    Thank you, Mr. Chairman.

                           TARGETING DOCTORS

    Mr. Mollohan. Thank you, Mr. Wolf.
    Some patients and advocacy groups claim that DEA's attempts 
to reduce prescription drug abuse are unfairly targeting 
doctors, especially those who specialize in pain management. 
They argue this targeting makes doctors reluctant to prescribe 
controlled substances when needed.
    Is there any substance to that argument? Is DEA targeting 
doctors in any way?
    Ms. Leonhart. DEA does not target doctors, and we don't 
initiate investigations based on what kind of doctor they are.
    We have done a lot of work with the medical community over 
the last couple of years, and I don't see as many complaints or 
questions.
    We put up a web site, and we now list the doctors and 
situations that we take action on. And I think that helped the 
medical community understand that first of all, we arrest less 
than one-tenth of one percent of the practitioners every year. 
It is very low. And when they look at the web site and see the 
types of doctors that we have arrested, these doctors are 
selling prescriptions for money, for sex, for drugs. They are 
egregious violations, and I think that that has helped.
    We have a very good working relationship with the medical 
community. We have helped teach at some of their association 
seminars, and I think people now also understand that we are 
concerned about those rising numbers of kids and young adults 
using prescription drugs. And I think they are more committed 
to helping us and partnering with us to do something about the 
problem.
    Mr. Mollohan. Okay.
    I am going to go vote, and I am going to keep you here a 
little longer. There are a couple other questions I would like 
to get on the record.
    Thank you.
    Ms. Leonhart. Uh-huh.

                                SMURFING

    Mr. Wolf. One final question, Mr. Chairman.
    Would you describe for me and also for the record, what is 
smurfing exactly? And I think the staff just told me what they 
thought it was.
    And then how would you recommend that it be dealt with?
    Ms. Leonhart. Picture number seven, this is a smurfing 
operation. It is where these meth dealers hire a number of 
people to go out all day long and buy pseudo ephedrine. They 
will go into like 20 or 30 stores and buy Pseudoephedrine, the 
cold tablets, and they will sign the logbook, but they will 
just go from store to store to store, and then an hour later 
someone else will go in and buy Pseudoephedrine.
    So you get to the point where meth dealers, it is more time 
consuming than when they used to buy the bulk Pseudoephedrine, 
but they will pay these smurfers to go and get the tablets and 
then it will come back to a lab site and then that is how they 
are making methamphetamine, and that takes a lot of tabs.
    So most of these, these are not necessarily going to be 
your super labs, but this is how--this is why we are having lab 
increases around the country.
    There is another reason why we are having it though, that 
if you are interested in smurfing you may want to hear about.
    Mr. Wolf. Well maybe when you come by.
    I am going to go down to vote.
    Mr. Chairman, thank you for the hearing. It is a very good 
hearing. And I will come back, but it will be before I leave.
    Thank you and your people for the job you do.
    Mr. Mollohan. Well why don't you just go ahead and tell us, 
we are interested in smurfing. What else?

                               METH USERS

    Ms. Leonhart. This is new to me, but one of the things--one 
of the reasons why we might be seeing the lab numbers go up is 
that the meth user, it is not the most efficient method, but 
there is something now called the one pot method.
    And what you do is you take a two liter Coke bottle and you 
wrap it with masking tape. You put ammonium nitrate that you 
get from the ice packs, if you hurt your back or your neck, 
they take the ammonium nitrate out of that, throw it into the 
Coke bottle, throw the Ephedrine that they have smurfed, throw 
the Ephedrine in there--Pseudoephedrine in there, and then they 
take lithium strips from batteries, put it in there, shake it 
up--oh and lye--shake it up, and about every ten minutes vent 
it. And after an hour they have a substance, that although it 
only is making about a gram of methamphetamine, they pour it 
out and they synthesize it, and they have got their fix. And we 
are seeing more and more of that.
    And those are, even though it is just in this one two liter 
Coke bottle, those are still dangerous. They have to vent it 
because they can blow up. After it is discarded kids might be 
playing with it and touching it, so it is a new problem.
    I have just learned about it. And I think it is been around 
probably a couple, maybe four or five months, but more and more 
now they are starting to see those. And that is primarily the 
meth user, not necessarily the meth distributor. But that is 
how desperate they are to get their meth.
    Mr. Mollohan. Where does something like this start?
    Ms. Leonhart. Well there used to be something called the 
Nazi method that started in the Midwest, and I would suspect 
that this probably started there as well. I think it is in the 
Midwest and towards the Southeast.
    Mr. Mollohan. Clever.
    I would like for you to talk a little bit about your role 
versus the roles of INL or DODCN's programs.
    How does DEA's overseas role compare to the roles filled by 
INL, DODCN or other participating agencies?
    Ms. Leonhart. Well we have different missions. Ours is an 
enforcement mission, and INL is more of an assistance and 
training mission.
    So actually we work very well with INL in the different 
countries we are in. We depend on them. We depend on NAS 
funding sometimes for equipment for our in-country partners.
    Mr. Mollohan. What kind of activities are they willing to 
fund for you?
    Ms. Leonhart. It is not so much funding for us, it is 
funding to make sure that our partners get things.
    INL will, if there are things that will help the in-country 
team, INL can fund it. But I believe most of the time the 
funding is going directly to the in-country police 
organization.
    INL has flown missions for us. INL has done training for 
us. INL has bought computers and equipment for our in-country 
partners. That is usually the relationship.
    And like in Bolivia, they are still there. We are gone, 
they are there. They will be probably the only narcotics--U.S. 
government narcotics people there, so they may take on a bigger 
role there. More training, more advising. But it kind of 
differs from office to office.

                               TECHNOLOGY

    Mr. Mollohan. Let me ask you some questions about 
technologies, and technologies that drug dealers have compared 
to technology you have.
    Most of DEA's biggest, highest impact investigations hinge 
on your ability to effectively intercept and exploit 
communications between traffickers. We had a little bit of that 
testimony the other day.
    The pace of change in the telecommunications field, 
however, is extraordinary, and technologies that you may have 
successfully exploited in the past are not effective or might 
even be obsolete today.
    What kind of changes have you noticed over time in the 
trafficker's choice of communication technologies? How do you 
adjust to that? Where are you in relative terms from a 
technology standpoint with the people that you are 
investigating?
    Ms. Leonhart. I will have to be careful here, because if 
the traffickers know what troubles us, they would all go to 
that, so I will be careful.
    But I will say that our bread and butter, and the only way 
that we can do some of these cases where we have got the major 
seizures and can do the most damage to the organizations, are 
by way of our Title Three intercepts, our wiretaps. DEA has 
perfected it.
    Mr. Mollohan. I don't want to go into anything that might 
even touch on anything that would be sensitive or could impact 
your investigations, but what are your technology needs? Maybe 
your interoperable technology needs. To the extent you can talk 
about that, please help the Committee understand it.
    Ms. Leonhart. Well, I believe you actually have helped us 
on that. We have had radio problems. On average our radios are 
14 years old and we have 28 percent of them that are more than 
18 years old. But I believe in the '09 omnibus there is money 
that will be going to DOJ that will come to us and we can start 
replacing those radios.
    A year ago that was a major issue for us. Now we see light 
at the end of the tunnel. It is not going to be 100 percent. 
There won't be enough to complete it, but it is enough for us 
to get started. And we are the only agency still on UHF, so we 
need to move quickly and get off that.
    I believe about $9.5 million is going to DEA to start to 
address our radio issues.

                          AFGHANISTAN FUNDING

    Mr. Mollohan. Okay. I think Mr. Wolf is going to be coming 
back, and if he has anymore questions we will proceed. Until he 
does return, let me go back to this Afghanistan and this 
proposal relating to the State Department to see if you can 
answer it this way.
    What would you consider be the pros and cons of receiving 
your Afghanistan funds through the State Department? Just what 
are the pros and what are the cons.
    Ms. Leonhart. Well, I think any time that you can control 
your own budget there are better efficiencies. You can plan 
better. You know more of what you have in your account and how 
best to spend it. If you have your own money then you are most 
likely doing your own procuring as well and getting the actual 
equipment that you need, not that someone else has determined 
that you might need.
    Mr. Mollohan. You know, a lot of the concern, particularly 
the early days in Iraq, was the lack of coordination of the 
various entities that are operating there. There was a lot of 
freelancing.
    So wouldn't there be an argument that if you had one agency 
that was providing coordination that it would enhance 
efficiency and effectiveness?
    This is just for purposes of getting you to answer the 
question. Wouldn't State Department managing the coordination, 
and perhaps even the funds, create that better efficiency and 
perhaps give us better results?
    Ms. Leonhart. I, as an agency head, would always say it is 
better if the agency gets funding. However, the State 
Department does coordinate a number of things.
    I just wanted to continue that if we have the expertise in 
that area then of course we would want the money to be coming 
to us and there would be more efficiencies with that.
    Mr. Wolf. Well, I cut in at the end of the Chairman's 
question, but I think the point he was trying to make and I am 
sympathetic to a certain degree.
    The coordination, you used a word I had never heard before 
in government, deconflicting, and of course you can have an 
administration for deconflicting an agency, because there is 
confliction all over the government. I worked at Interior, and 
on coastal zone management this agency wanted it, Interior 
wanted it, CEQ wanted it, NOWA wanted it, and the only 
deconflictor was the secretary, who eventually went over to the 
White House, and so I think you are going to have those things.
    I think there is some merit for not robbing people's 
authority, because you certainly know more than anybody else in 
your area. But in anything, the more coordination you have, and 
in Iraq there was not a lot of coordination. I think part of 
the problem that we had in Iraq that Congress was sort of 
absent too. I mean the Congress, there was not that much 
oversight and you almost had operations going that no one knew 
about.
    And so I think when there is one person or one--not to use 
the word czar--but one place that coordinates to make sure that 
everything fits in with everything else that is going on, I 
think it, you know, it makes a lot of sense.
    But I think that is what he was referring to when he 
actually left. I don't know if you have any comments about 
that.
    Who was the deconflictor? Is it Eric Holder or is it 
President Obama who is to deconflict?
    Ms. Leonhart. I am sorry, because I didn't know exactly 
what he----
    Mr. Wolf. Well maybe I am wrong in what he meant, but I 
think that is what he meant.
    Ms. Leonhart. I think he was talking about funding and 
controlling money, is what I took it as.
    Mr. Wolf. Okay. Well maybe I didn't really connect on it.
    Coordination has always been a very important point.
    We had the whole situation with regard to 9/11. For a 
period of time certain agencies were not talking to each other. 
There are some people who believe that had all the agencies 
been talking to each other that maybe 9/11 may not have taken 
place. I mean, so I think that is part of what I would be 
concerned about.
    Ms. Leonhart. If that was what he was talking about, 
actually DEA and the interagency when it comes to narcotics is 
a success story.
    We have a mechanism, and would love you to visit the 
Special Operations Division.
    Mr. Wolf. Is that out in my area?
    Ms. Leonhart. Yes.
    Mr. Wolf. I was out there once. Well maybe some time I will 
do that.
    Let me just say. The Chairman's here, I am going to turn it 
back.
    There are some other questions, some I wouldn't want to ask 
you on the record in public, so when you come to tell me about 
Victor Bout or whoever is going to come by, we can just cover 
those.
    Thank you, Mr. Chairman.
    Ms. Leonhart. Okay.
    Mr. Mollohan. Mr. Wolf, I plan to end the hearing. Have you 
finished all your questions?
    Ms. Leonhart, thank you very much for appearing today. You 
have worn us out running up and down the steps, so we are going 
to submit the rest of the questions for the record. We are 
getting in good shape though.
    Thank you very much for being here. And let me repeat the 
sentiment everybody on the Subcommittee shares, that we very 
much appreciate the nature of your work and the danger that the 
agents are exposed to as they are working it. It's an 
incredible job you do for the nation, and we are very cognizant 
of that and appreciative of it.
    Thank you personally for your good service to the agency 
these past months. It is very appreciated and we thank you for 
the cooperation you have had with this Committee. We look 
forward to working with you and trying to empower DEA as best 
we can with the resources necessary to perform its mission.
    Thank you for your appearance here today.
    Ms. Leonhart. Thank you very much.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Wednesday, April 1, 2009.

                       LEGAL SERVICES CORPORATION

                               WITNESSES

HELAINE BARNETT, PRESIDENT, LSC
LILLIAN BEVIER, VICE-CHAIR, LSC BOARD OF DIRECTORS
    Mr. Mollohan. The hearing will come to order.

                 Opening Statement of Chairman Mollohan

    Well, good morning. The Subcommittee would like to welcome 
Helaine Barnett, President of the Legal Services Corporation, 
and Lillian BeVier, Vice-Chairman of the LSC Board, to discuss 
civil legal aid for the low-income community. We are pleased to 
have you both and thank you for your time.
    I would like to add that we are appreciative of the good 
work you do. In this economy, I can only imagine that your 
workload has increased significantly, and I know that there 
have been some challenges with regard to funding from various 
sources.
    Being able to pull that together and provide the services 
to those in our communities that need it desperately and do not 
have access is a wonderful service to the community and you are 
to be commended for that service.
    We are fortunate to have already seen your fiscal year 2010 
budget request, which many other agencies will not be 
delivering until later this spring. That means that this 
hearing will be able to address both thematic and budgetary 
issues and there is plenty of ground to cover.
    Your budget request proposes a funding level of $485 
million which is nearly a $100 million increase over fiscal 
year 2009. Although the President's budget will propose a 
smaller increase, this is the first time in many years that LSC 
and the Administration have both agreed that additional funds 
for legal services are needed. I certainly share that sentiment 
and, in fact, believe that it could not be more timely because 
of these conditions.
    The recession is driving more and more Americans below the 
poverty thresholds that establish eligibility for legal aid 
services. This growing population of eligible clients is 
confronted with legal needs that are increasing in both number 
and complexity. Many clients face the prospect of foreclosure 
or foreclosure-related eviction.
    With job losses increasing, there are more clients needing 
assistance gaining access to food stamp benefits, unemployment 
compensation, or Medicare services.
    There is also substantial evidence that economic distress 
increases family distress, including divorce and unfortunately 
domestic violence.
    All these factors are driving up demand for legal aid 
services at precisely the same time that the supply of those 
services is threatened.
    Legal aid providers across the country have been forced to 
make significant budget cuts due to state government deficits 
and diminishing charitable and private support. For many legal 
aid programs, federal assistance through this bill is the only 
thing that will keep them going.
    This morning's hearing will give us an opportunity to 
examine these issues in more detail. We will look at how LSC 
and its partner service providers around the country are both 
impacted by and responding to the current financial crisis.
    Within that context, we will discuss your proposed budget 
and your ideas for how you can make the best and most 
responsible use of these funds.
    Before we invite you to begin your remarks, and your 
written statements will be made a part of the record, I would 
like to call on Mr. Culberson for any comments that he might 
have.
    Mr. Culberson. Thank you, Mr. Chairman.

                   Opening Statement of Mr. Culberson

    On behalf of Mr. Wolf, I would welcome you to the hearing 
this morning and especially appreciate the fact that there is 
under the statute that created the Legal Services Corporation 
that you are given pass-through budget authority which is a 
unique and very special privilege because of the unique and 
very special services that you provide to the poor in this 
country.
    And the whole concept of a pass-through budget authority, 
Mr. Chairman, that bypasses OMB is something I think we ought 
to seriously consider for NASA and the National Science 
Foundation and our science funding, which is such an essential 
part of our nation's long-term security, so they do not have to 
go through OMB. I am charmed of the whole idea.
    Thank you very much.
    Mr. Mollohan. Thank you, Mr. Culberson.
    We will start with Ms. BeVier.
    Ms. BeVier. Thank you.

             Opening Statement of Vice Chair Lillian BeVier

    Chairman Mollohan, Congressman Culberson, Congressman 
Serrano, I am Professor Lillian BeVier, Vice-Chairman of the 
Board of Directors of the Legal Services Corporation.
    Thank you for holding this hearing today. The Legal 
Services Corporation is on the front lines of ensuring equal 
justice under law in this country and it is an honor to serve 
on its board.
    I bring you greetings today from Chairman Frank Strickland 
and from our entire bipartisan board. Each board member is 
eager to do the right thing by the people we serve. We listen 
to and respect one another's viewpoints about how best to 
fulfill LSC's mission.
    Providing civil legal assistance to individual indigent 
clients has never been more important. Equally important, of 
course, is the proper use of the funds that this Subcommittee 
has entrusted to our stewardship. That stewardship is the 
central mission of the board and of the corporation.
    And before President Barnett speaks about our appropriation 
request for fiscal year 2010, let me say a few words about what 
our board and the corporation have done to improve our 
stewardship and ensure that we fulfill our responsibilities.
    Prompted by two GAO reports, the board and LSC's management 
made concentrated efforts over the last two years to bring our 
board governance practices into alignment with Sarbanes-Oxley 
requirements, to improve the board's oversight of the 
corporation's financial and compliance responsibilities, and to 
focus the corporation's attention on improved internal 
cooperation and good management practices. In making these 
efforts, the board has had assistance from and cooperation of 
the corporation's management.
    My full statement provides a listing of our 
accomplishments, so I will mention only a few.
    The board adopted a Code of Ethics in Conduct for 
directors, officers, and employees of the corporation in March 
2008. The corporation has now conducted training for all 
employees, officers, and directors. In addition, training and 
compliance with the Code is now an important part of new 
employee orientation.
    The board has added a separate Audit Committee, has 
reconstituted the Governance and Performance Review Committee, 
and has approved charters for all permanent board committees. 
LSC worked with an ad hoc Committee of the board to clarify the 
rules and responsibilities of the various oversight activities 
within the corporation.
    In addition, LSC has revised and updated written guidelines 
for the fiscal component of the corporation's on-site grantee 
program reviews. Management is conducting expanded financial 
reviews that are designed specifically to address issues raised 
by GAO.
    I am pleased to report that for the fifth consecutive year, 
LSC received an opinion from outside auditors that the 
corporation's financial statements present fairly in all 
material respects the financial position of LSC.
    Management has this year established a rigorous and formal 
risk management program at the corporation. The risk management 
plan includes a full listing of the risks to LSC's strategic 
objectives, a delineation of strategies to be followed to 
mitigate these risks, a list of the offices responsible within 
the corporation for implementing each of these strategies, and 
dates for annual review.
    Oversight and emphasis on compliance with proper financial 
management practices and provisions of law and regulation will 
continue to be a priority of the board this year.
    President Barnett issued an advisory letter to all grantees 
in December on the subject of compliance guidance and indicated 
that this will be an annual alert on issues that have surfaced 
in the year's compliance reviews.
    Finally, as a board, we are making board training and 
transition a priority for 2009. We want to do what we can to 
facilitate a fully oriented and fully functioning board in the 
shortest possible interval after the President appoints and the 
Senate confirms the new board members.
    To ensure that our efforts to improve board governance are 
sustained, future boards need to know not only the written 
rules and procedures that we put in place but also the 
background and history of our actions and the benefits that the 
new policies and procedures provide in fulfilling the mission 
of LSC.
    Mr. Chairman, in closing, let me say again what an honor it 
has been and is to work with my board colleagues to support the 
mission of the Legal Services Corporation.
    And I want to emphasize that the corporation's management, 
President Barnett, and her able management team have the 
confidence and support of the board.
    My career has been devoted to training people to provide 
the best legal services possible to any client who needs them. 
The point of my professional life has been to preserve and 
maintain the rule of law, but the rule of law means little if 
access to justice is not maintained and available to all.
    The Legal Services Corporation embodies that principle, and 
I thank you for your continued support for this worthy 
endeavor. I will be happy to answer any questions that you 
might have at the appropriate time.
    Thank you.
    [Testimony of Vice Chair Lillian BeVier follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mollohan. Thank you, Ms. BeVier.
    President Barnett.
    Ms. Barnett. Thank you.

             Opening Statement of President Helaine Barnett

    Chairman Mollohan, Congressman Culberson, Congressman 
Serrano, thank you very much for holding this hearing and for 
giving me the opportunity to testify on the fiscal 2010 budget 
request for the Legal Services Corporation.
    I also want to thank the Subcommittee for its bipartisan 
support for LSC's mission of ensuring equal access to justice 
and the delivery of high-quality legal services to low-income 
Americans.
    Because of this Subcommittee, funding for LSC has increased 
for each of the last three years and your efforts are greatly 
appreciated throughout the legal services community.
    Let me also thank board Vice-Chairman, Lillian BeVier, 
board Chairman, Frank Strickland, and the entire board for 
their hard work on improving the governance and operations of 
the corporation.
    We will continue to build on these improvements as we carry 
out our important stewardship and oversight responsibilities.
    Our challenge is large. The nation is in a recession and 
this downward shift in the economy means that the number of 
low-income Americans eligible for LSC-funded services will 
continue to increase.
    As you are well aware, in an economic downturn, the poor 
are the first to feel the effects and the last to recover. In 
addition, millions of Americans for the first time are or will 
be finding themselves facing poverty.
    Many LSC-funded programs have reported a dramatic increase 
in requests for help because of the economic downturn, 
especially because of foreclosure actions threatening the loss 
of homes, including actions that affect renters.
    The rash of natural disasters across the country has added 
a new dimension to our caseload, creating legal problems for 
clients that can continue for years.
    In addition to the increased demand, unfortunately, many 
states are confronted by significantly reduced revenues because 
of the recession and cannot be counted on for additional 
funding of legal aid.
    In particular, an important source of nonfederal funding, 
interest on lawyers' trust accounts or IOLTA, is dropping 
because interest rates have plummeted.
    Some programs are reducing services and laying off 
attorneys because IOLTA funders have cut back grants or 
announced they intend to cut grants.
    My entire legal career has been devoted to providing legal 
assistance to low-income persons. I know firsthand what a 
meaningful difference legal assistance makes in the lives of 
our clients. Allow me to briefly summarize two cases.
    Imagine returning to Virginia from the Iraq War and being 
told that you, your wife, who suffers from epilepsy and severe 
depression, and three children, one of whom is disabled, are 
facing foreclosure and eviction after missing mortgage payments 
because you cannot find a job.
    Blue Ridge Legal Services helped the family avert 
foreclosure which was triggered by a default provision in the 
financing agreement through which the veteran had invested all 
$30,000 of his life savings. A legal aid attorney negotiated a 
new payment plan for the mortgage so that the family did not 
become homeless.
    Imagine that you are a mother of two and married to a man 
who has physically abused you for seven years. You finally seek 
help from a legal aid program, secure a protective order and 
begin divorce proceedings. And then it comes to light that your 
husband has been married several times and has other wives in 
four states.
    Legal aid of West Virginia helped this woman win freedom 
from her abusive husband and appealed a Social Security 
overpayment claim of more than $20,000 caused by her ex-
husband's improper actions. This direct quote says it all. 
``Legal aid has given my girls and me our life back. I thank 
God every day for you.''
    At a time when the demand is increasing from people who 
need civil legal assistance, at a time when major nonfederal 
funding sources are declining, it is more important than ever 
that Congress recognize the federal government's responsibility 
under the LSC Act, reaffirm the nation's bedrock principle of 
equal justice for all, and increase appropriations for LSC.
    With respect to fiscal year 2010, LSC requests an 
appropriation of $485.8 million. Of that, 95 percent, $460 
million, would be distributed to programs as basic field grants 
for the provision of civil legal assistance to low-income 
individuals and families.
    We are also seeking $3 million for technology grants, $1 
million for LSC's education loan repayment program, and 
increased funding for management and grants oversight to ensure 
improved grantee accountability and compliance.
    In adopting this budget request, the LSC Board of Directors 
recognized the increased need for assistance and took into 
account the difficult fiscal demands weighing on the Congress, 
but remained faithful to its goal of closing the justice gap. 
We urge you to support this budget request.
    Mr. Chairman, Congressman Culberson, Congressman Serrano, 
and Congressman Honda, you have provided crucial support for 
civil legal aid in past years and we want to thank you for that 
support. Through your efforts, we are closer to fulfilling the 
promise of our Constitution, equal justice under law.
    Thank you, and I would be pleased to answer your questions.
    [Testimony of President Helaine Barnett follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mollohan. Thank you, Madam President.

                        DEFINING THE JUSTICE GAP

    A few questions with regard to the gap. For some years now 
we have talked about the gap through a number of different 
hearings.
    How do you measure adequate legal service? Should we 
provide legal service to every single person who needs it? 
Should we provide some ratio, the availability of lawyers to 
the nonlegal service community versus the availability of 
lawyers to those who would be eligible for legal services? How 
should we think about that in the broadest terms?
    Ms. Barnett. Mr. Chairman, as you know, in 2005, LSC 
conducted the first national statistical study, the unable to 
serve study, from all 137 LSC-funded programs and at that time 
concluded that for every one eligible client that we were able 
to help, one eligible applicant who actually came to our 
offices, who actually fell within our office's priorities and 
were eligible for our services had to be turned away because of 
a lack of resources.
    Mr. Mollohan. So at one time you were able to serve 50 
percent of the demand?
    Ms. Barnett. That is correct. And even then, we knew that 
was an undercount. We know many people do not know they have a 
legal problem. We know many people do not know they can go to 
legal aid and they can help them with a problem and perhaps 
even many heard that LSC programs were turning away applicants.
    Since that time, there have been at least ten state studies 
of civil legal needs that have demonstrated that it is much 
closer to 80 percent of the need not being met.
    Mr. Mollohan. Does that mean it has grown from the first 
study, or the first study just undercounts it? What is the 
trend line?
    Ms. Barnett. I think the trend line certainly is going up 
or down depending the way you frame the answer to the question.
    I want to share with you that we are currently updating our 
justice gap report. As we speak, as a matter of fact, beginning 
March 16th, we have asked all our LSC-funded programs to once 
again with uniform instructions capture those eligible 
applicants they are unable to serve. And we expect to get the 
data sometime over the summer and issue an updated justice gap 
report in September of 2009.
    We sincerely believe that we are going to see a greater 
number of people, especially because of the economic 
depression, especially because millions more Americans for the 
first time are qualifying for legal aid assistance because of 
the loss of jobs, so that we expect that there will be, 
although we await the document, that the need is just 
increasing.
    Mr. Mollohan. Well, it appears your budget is anticipating 
an increase, so even before you get the results of your latest 
study, describe for the Committee how your budget is addressing 
the gap issue and the anticipated gap into the future.
    Ms. Barnett. Well, in 2007, the census data indicated there 
were 51 million Americans that qualified for LSC-funded 
assistance. We are estimating by the end of this year that 
there will be 62 million and we are basing that on an analysis 
of the unemployment rate in times of previous recessions and 
the spike in poverty at that time.
    In addition to the need that is being caused by the ongoing 
foreclosure crisis and the apparently recurring natural 
disasters, non-LSC funding is declining.
    The most significant source is IOLTA funding and the IOLTA 
funding, we are estimating a drop in 2009 of 21 percent. It is 
uneven throughout the country, but that is our projection of 
what the decline will be. In the past, IOLTA funding has 
provided 21 percent of the funding to our program.
    In addition, state budgets are facing deficits, as we all 
know, and private funding is down because of the recession and 
the stock market decline.
    So a combination of the increased need and the decrease in 
nonfederal funding makes it imperative that the federal 
government step up to address the gap.
    Now, in addressing the gap----
    Mr. Mollohan. Well, we are addressing two things now. We 
are addressing the gap and your decrease in funding, as you 
have just described.
    Ms. Barnett. Yes. But our justice gap report actually 
concluded in 2005 that we would have to double both federal and 
nonfederal funding to close the gap.
    Mr. Mollohan. Does your budget request this year and your 
budget projections for the next four or five years anticipate 
not only closing the gap but making up for decreased funding 
from other sources?
    Ms. Barnett. Well, I am not sure it makes up for the 
decreased funding from other sources. But on the federal side, 
in 2005, the basic field grant was $312 million. And the 
conclusion was it would have to go to $624 million.
    Our board----
    Mr. Mollohan. Six hundred and twenty to achieve a closing 
of the----
    Ms. Barnett. Of the gap--
    Mr. Mollohan [continuing]. Anticipated gap?
    Ms. Barnett [continuing]. In 2005.
    Mr. Mollohan. Yes.
    Ms. Barnett. What our board decided in making its budget 
request for fiscal year 2010 was that they would ask for $460 
million in basic field and look to close it in a four-year 
cycle.
    Mr. Mollohan. Okay.
    Ms. Barnett. So that is the basis for the board's request 
in fiscal year 2010.
    Mr. Mollohan. Okay. But the reality is that you are 
experiencing a decrease in funding from other sources and that 
the faster you run, the further you are getting behind, is that 
correct? Is that a fair assessment? And I want to hear you talk 
about that.
    Ms. Barnett. I think it is a very fair assessment that we 
ask our programs and encourage them to leverage the federal 
dollars and they have done a very good job in the past. The 
total in 2008 was something like $526 million of nonfederal 
funds. We anticipate another drop of 21 percent to $505 million 
for this year.
    So you are quite right. The demand is increasing and non-
federal funding is decreasing and I do not know whether the 
plan of getting to $624 million in four years will in effect 
take all of that into account.
    Mr. Mollohan. Well, you are either going to have to have a 
bigger request in each of the next four years or you are going 
to have to develop some strategy for increasing the nonfederal 
contribution. How are you dealing with that? I mean, it seems 
to be a really fundamental issue given the drying up, or maybe 
not drying up, but the decrease in nonfederal funds, as I 
understand your testimony. Am I right about that, and how are 
you going to address if it I am?
    Ms. Barnett. Well, I do not think we can do very much about 
the nonfederal funding and it may very well impel us to----
    Mr. Mollohan. Well, Ms. BeVier, do you have a comment on 
that?
    Ms. BeVier. Well, I do think that----
    Mr. Mollohan. Is the board dealing with this?
    Ms. BeVier [continuing]. One of the things that the board 
has concentrated on and tried to get information about is how 
to leverage pro bono activity. And I think that initiatives 
along those lines are possible. In particular, it strikes me 
that it is possible to think about the fact that there are a 
lot of unemployed lawyers out there and they could be helpful 
in this particular time.
    Mr. Mollohan. No.
    Ms. BeVier. Now.
    Mr. Mollohan. That is the worst testimony we have had this 
whole year.
    Ms. BeVier. Oh, I would think you would take it as a very 
good sign.
    Mr. Mollohan. No. I am a lawyer.
    Ms. BeVier. Yeah, right. But you are employed.
    Mr. Mollohan. Well, my point is, and I am going to go on, 
that with your plan four years from now and with the decrease 
in nonfederal funding, it does not look like you are going to 
achieve your objective. And so maybe we will talk about that a 
little more as the hearing goes on.
    Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.

            FINDING FEES OR OTHER SOURCES OF OUTSIDE FUNDING

    Let me stipulate for the record I am an attorney as well 
and came out of the State House in Texas. And I know many of my 
colleagues also came out of State Legislatures and remember as 
a legislature that the licensed professions in Texas are self-
supporting because of license fees.
    And it occurs to me, Mr. Chairman, listening to the 
testimony and the problem that the Legal Services Corporation 
faces, that one thing we should certainly, I think, consider 
very seriously is, for example, I do not know why there is not 
a fee attached to my annual renewal of my license, because I 
renew it, it is inactive. My license as an attorney in Texas, I 
pay dues to the State Bar. I know I set aside some, you know, 
make a contribution to the IOLTA, I-O-L-T-A, account.
    But being a lawyer is a privilege. I do not know why there 
is not a fee tacked on to my annual Bar dues. Why isn't there, 
for example, a fee attached to the license to practice in 
Federal District Court, in Federal Appellate Court, in the 
Supreme Court that would go to help fund the Legal Services 
Corporation?
    And then finally, why isn't there a fee attached to filing 
civil court documents? Any time you go down to--I mean, there 
are all kinds of fees that are attached to the filing in State 
Civil Court.
    And I wanted to throw that out as a suggestion because as a 
fiscal conservative--and I particularly admire the fact that 
you come from University of Virginia, Thomas Jefferson is my 
hero, and I do my very best to follow Jeffersonian principles 
in everything that I do. I describe myself often as a 
Jeffersonian Libertarian Republican at heart. And I really am. 
And Mr. Jefferson was right. You apply core Republican 
principles with a small ``r'', the knot will always untie 
itself.
    And what would you recommend? If a fee were to be created 
at those different levels, could you go back and look and tell 
us how much would the fee need to be? What would you recommend 
it be attached to and, you know, what level would the fee need 
to be in order for Legal Services Corporation to be self-
supporting, in particular, since the federal government is 
facing one of the biggest deficits, an era of record debt, 
record deficit, a particularly scary time because the amount of 
unfunded liabilities of the United States is accelerating?
    And the Comptroller actually told us that in about 12 
years, if we are not careful and do not quit growing the 
federal budget and quit deficit spending, the Comptroller 
notified us last year that in 12 years, Treasury bonds could be 
graded as junk bonds. So we need to find ways, creative ways to 
think outside the box.
    And I would like to, if I could, ask you to think about 
what kind of fee and how much would be necessary to make legal 
services largely self-supporting, Mr. Chairman, as our state 
licensing boards are in West Virginia and New York and 
California and in Texas, for example.
    What do you think about that concept, number one, and are 
there other--because it certainly is a privilege for a lawyer 
to practice law and this is an essential part of our job, to 
provide legal services for the poor, and what do you think of 
the concept and what sort of fee would be necessary, to get 
away from federal appropriations because we have just got to 
find ways to save money at the federal level?
    Ms. BeVier. It is a very interesting idea, and I think that 
many State Bar associations have considered something like that 
with respect to their dues--their annual dues--a checkoff or a 
mandatory checkoff and you opt into it or you opt out of it. 
Issues like that have arisen at the state level.
    There is a question of federal versus state regulation of 
the practice of law, so to the extent that that is true, we 
could certainly encourage State Bars to consider something in 
the nature of your suggestion in terms of Bar licensing.
    Mr. Culberson. I agree with you on the Bar fees. I had not 
thought about the--and I notice you are a member of the 
Federalist Society.
    Ms. BeVier. Right.
    Mr. Culberson. It is a great organization. I appreciate 
your recognition of the 10th Amendment.
    Ms. BeVier. Yeah.
    Mr. Culberson. What about filing in Federal Court?
    Ms. BeVier. Well, that is a different issue and I do not 
know the answer to that.
    Mr. Culberson. Practice in Federal Court.
    Ms. BeVier. Right. There are certainly filing fees, but I 
am not familiar with those. And I am sure we can get some 
information about that.
    Mr. Culberson. What is your recommendation? What would be 
necessary? What level of fee would be necessary because when I 
go practice--I know the Chairman is probably licensed and any 
other members who--I know my good friend, Adam Schiff from 
California, was a federal prosecutor and to have the privilege 
of practicing in Federal Court, there is a fee. You have to go 
down and take a course to practice in the southern district and 
the 5th Circuit Court of Appeals and then the U.S. Supreme 
Court.
    I really would like you to tell us what level of fee would 
be necessary to practice in each of the District Courts, 
Federal Appellate Courts, Supreme Court, and then finally what 
kind of a filing fee on civil documents, civil cases would be 
necessary, and Federal Court, because, Professor, you are 
exactly right. We have got to respect the 10th Amendment and 
that is up to the states to license attorneys. What would be 
necessary?
    Ms. Barnett. We would be pleased to get back to you, 
Congressman. I do believe there are some states that have 
filing fees already supporting the civil legal aid programs in 
those states. So we would like to gather the information----
    Mr. Culberson. State fees?
    Ms. Barnett. State fees. I am not sure on the Federal Court 
fees that you raise. But we would like to look into that and 
with your permission get back to you.
    Mr. Culberson. Thank you, because, again, as everyone 
knows, those fees are recoverable. I mean, if it is a plaintiff 
case, you typically can recover those fees as part of your 
costs of court.
    But you do provide an absolutely essential service and one 
we need to continue to fund. And I just hope we can find 
creative ways thinking outside of the box to do so.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Culberson.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.

                RESTRICTION ON SERVING IMMIGRANT CLIENTS

    It is a pleasure and honor to see both of you here. I have 
always been, as you well know, a big fan in every capacity I 
have been on this Committee of the Legal Services Corporation.
    It strikes right, I believe, at the center of our 
democracy, the ability for people of lower income and no 
financial means at times to be able to get legal 
representation. So with that in mind, I am part of that group 
that continues to want to be very supportive even during very 
difficult times.
    I am worried, however, at the fact that during another 
party's Administration in the House, very serious restrictions 
were placed on what you could do. Certainly you were not 
allowed to defend certain people and you were not allowed to 
ask for certain remedies.
    And I am wondering at this point how much that has hampered 
you. While I know you do not take sides, you simply follow the 
law, you know, what you could tell us about where you would 
want to go with that.
    And in the specific case of immigrants, do current LSC 
grant recipients have restrictions for representing--what 
problems do they have representing immigrants who are involved 
in immigration, deportation, or citizenship process? Are the 
LSC grant recipients able to represent families of mixed 
immigration status? That is, with some family members who are 
documented or citizens and some who are not. Surely we are 
missing a large class of low-income individuals if LSC grant 
recipients cannot represent these types of families.
    So in the time that I have, I would like to know if you 
know just how much the corporation has been held back in being 
able to help people in general over the last few years and what 
specific problems you face when dealing with immigrants.
    Ms. Barnett. As you know, it is the corporation's 
responsibility to carry out the will of Congress. We enforce 
the mandate of Congress. Our programs abide by it. And, in 
fact, we are defending in court two actions as we speak.
    Our programs, as you know, currently are unable to meet the 
need. We are turning away, as I indicated earlier, one, at 
least one, at least one eligible person for every one that we 
are able to handle.
    So we are clearly not meeting the need and have a great 
need for the additional resources accordingly.
    Mr. Serrano. Well, this is based on resources. And I know 
what you are telling me, that you follow the will of Congress, 
but if Congress had not imposed these restrictions on you, let 
us do it this way, how many other folks would you have been 
able to serve?
    Ms. Barnett. I do not think I am in a position to answer 
that question, Congressman. I can only tell you the number of 
cases we currently handle and are turning away with the given 
restrictions that are the law today.
    Mr. Serrano. Okay. Mr. Chairman, it is obvious, and my 
colleague said, that I could have put them in a very difficult 
situation and I do not want to do that, to answer questions 
that appear like they are disagreeing with Congress.
    But I think we have to revisit the fact that some years 
ago, Congress did impose very serious restrictions on who they 
could represent. And it was done purely for philosophical 
reasons, what you think public money should be used for. It is 
the same argument that we have had in terms of arts programs 
throughout the nation, what kind of art do we support, what 
kind of art do we not support.
    It is the same as what we have in my Subcommittee that I am 
trying to get rid of with the District of Columbia of testing 
every issue we have throughout the country in D.C., you know, 
be it vouchers or gay marriage or whatever. What we do not like 
in our districts, then we do not do in our districts. But we do 
it in D.C. just to test it.
    So all I would like to say is that this is one of the 
greatest programs in our federal budget and this one strikes at 
the essence of who we are as a country, the ability of all 
people to have representation.
    Some folks who did not like the program in general and did 
not care about some of the services in particular decided to 
put some restrictions that I think we should revisit. And 
little by little, I believe we should revisit those 
restrictions and wherever possible, use whatever power we have 
to undo them so that people can be serviced fully and so that 
next time, they will not be so uneasy when I ask a question 
like that, although it was not my intent.
    You know my record is as being a friend of the Corporation. 
It is not my intent to make it difficult for you. I just 
thought you could tell us, well, we could have served a lot 
more people if we did not have the restrictions. But you are 
not going to say that.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Serrano.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chair.

  IMPACT OF RESTRICTIONS ON PREDATORY LENDING AND MORTGAGE FRAUD CASES

    I would like to associate myself also with the words of Mr. 
Serrano. I think he is entirely correct.
    I am not an attorney, but I am a classroom teacher and it 
seems to me that--I was taught that justice was blind but not 
gagged. And so this is what it feels like. And I am not sure 
whether the restrictions that are placed upon LSC are 
constitutional.
    But not being a lawyer, this is a question that I would 
pose to you, and in addition to understanding that this kind of 
restriction also keeps you from being able to provide services 
to low income people who are victims of predatory lending and 
mortgage fraud and being victims of the economy, I was curious 
what your position was on, if it is an appropriate question, 
this constitutionality, and then the impact that this 
restriction has had on the folks that are out there suffering 
from predatory lending.
    Ms. Barnett. Let me tell you what our programs are doing 
with regard to predatory lending and foreclosure actions.
    I think we actually are taking a leadership position in 
trying to bring together national organizations and legal 
service programs, to identify the gaps, and the need for 
information sharing. There are a tremendous number of resources 
that we are sharing with our programs.
    Our programs are doing a tremendous amount of work in 
renegotiating the terms of the mortgage, whether it is reducing 
the interest rate, reducing the principal, whether asserting 
truth in lending protections in court, whether seeking 
bankruptcy, whether filing objections in court after the sale.
    So our programs are doing a tremendous amount of work in 
representing poor, minority, elderly, persons who have been the 
victim of predatory lending practices and the subprime mortgage 
debacle.
    Of course, if we have more funding, we could do more work 
in that area.
    Mr. Honda. If the restrictions were removed on things such 
as these class-action suits and collecting attorneys' fees, 
would that in some way benefit the clients that you are 
representing and also make litigation processes shorter?
    Ms. Barnett. I hope you understand that our position at the 
corporation is that we enforce the will of Congress. The will 
of Congress currently is reflected in the restrictions that are 
in place. Our programs abide by them. And as I indicated 
earlier, we are defending them in two actions at the moment on 
both coasts.
    Mr. Honda. Defending?
    Ms. Barnett. Defending the validity and constitutionality 
of the restrictions in two actions, one in the State of New 
York and one in the State of Oregon currently.
    Mr. Honda. I see.
    Mr. Culberson. Because you have no choice.
    Mr. Honda. God created us and he created free will. And I 
think God is probably a higher being than Congress.
    Thank you. I appreciate your testimony.
    Mr. Mollohan. Thank you, Mr. Honda.
    Mr. Schiff.

               RESTRICTION ON COLLECTING ATTORNEYS' FEES

    Mr. Schiff. Thank you, Mr. Chairman.
    And welcome. It is nice to see you and I appreciate your 
coming and the fine work that you do.
    Mr. Serrano. And he is a lawyer.
    Mr. Schiff. Yes, I am a lawyer.
    That reminds me of, a short digression, when I was first 
running for the State Legislature, I knocked on someone's door 
and told them about my background as a prosecutor. And, Mr. 
Chairman, they said prosecutor, does that mean you are a 
lawyer. I said, yes, it does. And he said, well, then I am not 
going to vote for you. Are you kidding, vote for a lawyer, 
which I responded in the only way I could under the 
circumstances, by saying, well, you know, my opponent is also a 
lawyer, to which the potential constituent responded, surely 
there is a third-party candidate. And I said actually there is. 
He is an insurance salesman. And he said that is who I am 
voting for. So just to tell you where we fit in the pecking 
order.
    I want to join my colleagues in expressing my concern about 
the restrictions that you have operated under. And in 
particular, I want to focus attention drawing on my colleague's 
question about finding additional revenue sources in difficult 
times.
    The restriction that you have in seeking attorneys' fees 
for the work you do, and I want to make sure that I understand 
the restriction correctly, but if Mr. Serrano and I were 
counsel representing two tenants being wrongly evicted and Mr. 
Serrano was a private attorney and I was a legal services 
attorney and we filed a case against the landlord, we had 
evidence that the landlord was taking this action knowing that 
it was improper and there were bases for the award of punitive 
damages or the award of attorneys' fees, my understanding is 
that Mr. Serrano on behalf of his client could make a claim for 
his attorneys' fees, but as a legal services attorney, I could 
not.
    And as I understand it, that has two consequences. One is 
that if I were successful in that claim and I obtained 
attorneys' fees, that would mean I would need less money from 
the government because I would have the attorneys' fees.
    But more than that, if we were both going to settle the 
case, the landlord would be looking at Mr. Serrano and saying 
if I lose this case to Mr. Serrano and his client, I am going 
to have to pay Mr. Serrano's attorneys' fees and he is an 
expensive attorney, I am going to settle the case.
    And that ends up being good for Mr. Serrano's client. In my 
case, attorney's fees are not on the table. There is a lot less 
reason for the defendant to settle because there is no worry 
that you are going to have to pay my attorneys' fees.
    Do I understand that correctly? Is that one of the 
restrictions that you operate under?
    Ms. Barnett. I believe you are correct in your assessment.
    Mr. Culberson. Will the gentleman yield for a quick 
question?
    Mr. Schiff. Yes.
    Mr. Culberson. What if the state statute under which Mr. 
Schiff is suing on behalf of the tenant entitles the prevailing 
attorney or the prevailing side to attorneys' fees by a statute 
and Mr. Schiff is a Legal Services Corporation attorney?
    Mr. Schiff. You know, my guess, and maybe you can correct 
me if I am wrong, is that we would not be able to collect 
attorneys' fees if legal services is prohibited from doing so.
    Ms. Barnett. They cannot accept it. I am being informed by 
my General Counsel.
    Ms. BeVier. Could not accept the case, so----
    Mr. Schiff. Could not accept the case? Well, is it that you 
could not accept the case----
    Ms. Barnett. Is that right?
    Mr. Schiff. Yeah, I would think you could accept the case, 
but----
    Ms. Barnett. The fee.
    Mr. Schiff [continuing]. You could not accept the fees.
    Ms. Barnett. The fee, just the fee.
    Ms. BeVier. Excuse me.
    Ms. Barnett. They could take the case, but they would not 
be entitled to the fee.
    Mr. Schiff. Yeah. Well, I mean, this is something that 
given our, you know, financial times is probably not--it may 
not have been a good policy to begin with, but now it is even 
more financially insupportable. So that is something I really 
think we should change.
    I also think, you know, that in terms of the issues that 
Mr. Serrano mentioned, as I understand it, you are not only 
restricted from handling certain cases that involve issues that 
are very difficult here for the Congress to deal with, you are 
precluded from using public funds to do it, but you are also 
precluded from using private funds to do it.
    So if there is a case that you are barred from using public 
funds to handle, you also cannot raise private funds for that 
and that inhibits your private fundraising, and as I understand 
it, because the private parties are not going to give you money 
if you are under those restrictions.
    So that, I think, has a financial consequence as well. 
That, you know, I think is another reason why we need to 
revisit and I hope repeal some of the restrictions that you are 
operating under.
    Now, I know that you both operate under the restrictions 
that the Congress sets and you are not here to lobby to change 
those restrictions. And you can testify as to the impact on 
you, but you are not here to advocate one way or another. But I 
am using my five minutes to at least express my view on the 
subject.
    So I would hope that we can make some of these changes. And 
I think that will alleviate some of the financial difficulty 
you are facing. I think it is the right policy for us to 
undertake as well.
    And, you know, I think my colleagues have acknowledged that 
you are facing what a lot of other nonprofits are facing right 
now, which is a greater demand than ever for your services and 
small revenues coming in from the charitable givers than ever. 
So it is sort of you are getting it in both directions.
    In any event, this is all to say that I appreciate the work 
you are doing. And I have got one of, I think, your best 
grantees in my district, Neighborhood Legal Services.
    And I just want to share one case and I will close. And 
this is sort of not uncommon. This was reported in the LA Times 
about a couple who always paid their rent on time, were good 
tenants, even as the conditions in their unit deteriorated.
    Their landlord was forced into foreclosure. And this is a 
sort of below-the-radar problem. We have people that are being 
foreclosed upon in their homes, the homes that they own and 
being forced out, but then we have a lot of renters whose 
owners are being foreclosed upon and they are being evicted 
because their--even though they made their rent payment every 
month on time, full amount, their owners are being foreclosed 
upon and so they are losing their homes.
    So this couple had their landlord forced into foreclosure. 
The bank holding the mortgage tried to evict the family. 
Someone who promised to help with the eviction ran off with 
$1,400 of this couple's money. This is another scam going on. 
And a legal aid group took the case, prevented the eviction, 
got the family's money back from the scammer.
    But this was only one couple and I guess the--in Orange 
County, California, which is a fairly wealthy county compared 
to many others, the wait times for the Legal Aid Society 
hotline have jumped from eight minutes to 45 minutes. And in an 
average year, we are seeing a million cases turned down, turned 
away due to funding shortages.
    So there is a lot of need out there. And we appreciate what 
you are doing. We will try to help.
    And, Mr. Chairman, I want to thank you for the important 
increase the Committee made last year and really appreciate 
your leadership.
    Mr. Mollohan. Thank you, Mr. Schiff.
    Ms. Barnett. If I might for one moment, Congressman Schiff, 
thank you very much for pointing out a third of the problems in 
foreclosures affect renters and they are often the last to 
know. So thank you for sharing that story.
    Mr. Mollohan. And that is the growing area, is it not, or 
what is the area of issues that is growing fastest now?
    Ms. Barnett. It depends on the part of the country, but it 
is both the home buyers and the renters.
    Mr. Mollohan. Okay.
    Mr. Wolf.

                   RESTRICTIONS ON POLITICAL ADVOCACY

    Mr. Wolf. Has Mr. Culberson----
    Mr. Culberson. I did. Thank you.
    Mr. Wolf. I did not want to jump ahead of Mr. Culberson.
    Mr. Mollohan. I would not let that happen.
    Mr. Wolf. Thank you. I am sorry. I was----
    Mr. Serrano. We already heard from him.
    Mr. Wolf. I was at an event. Well, I was at an event in my 
district and so I am sorry.
    Let me say something, and I am going to ask the staff to 
look at some of these things, for the record here. I think this 
was a Republican initiative proposal to set up legal services, 
a Congressman I used to work for, Congressman Pete Petster and 
Tom Ralesback. I am having my staff get all the history so that 
we can submit it for the record to make sure that it is 
accurate.
    Secondly, I have always--I am going to differ with some of 
the things that are said, but I think--I have always been 
supportive of legal services. And I think the Committee has to 
be careful because you are coming to a very slippery slope. The 
Democrats will not always control this Congress. And if this 
thing slips back in to where it was, I think there is going to 
be a serious problem.
    I believe deeply in legal services. The poor ought to have 
the help and they need it. But the legal services got involved 
in some very aggressive political activity. There was actually 
a tape, and I heard the tape, if you can go back in your files 
and find that, where legal services were meeting down somewhere 
in the south, I forget where, and naming members of Congress 
that they wanted to defeat.
    Can you go ask your archives to find that for us and submit 
it for the record so we can play it here or also put it in?
    Just so the Committee knows, John Erlenborn, may he rest in 
peace, who you knew very well, served in this House and was 
brought back to clean up the controversy. There was great 
controversy and politicizing and John Erlenborn, who was the 
Ranking Republican on the Labor Committee and was a 
conservative member of the Congress, I think you would agree 
did an outstanding job. Do you agree?
    And so I hear some of the comments from my colleagues and 
some of these things dealt with lobby and political advocacy. 
And I believe that if these restrictions are lifted, it will be 
the beginning of the destruction of legal services because I do 
not believe people on the other side will stand by.
    Now, I used to always oppose, and I hope I am not wrong, if 
I do, we can be corrected, the cuts that would come--I think, 
Mr. Serrano, we were on together at that time--and I always 
would defend legal services, tell my side and other sides that 
this is not a good thing that we cut it.
    So I tell you you are ready to get on a very slippery slope 
and I am not going to kind of have the rug pulled out twice. 
And so if I see something wrong, I am going to start speaking 
out because once you make a mistake, you say, okay, the second 
time--so I would ask you, one, if you would search your 
archives and find the tape whereby--you both remember that 
case? You remember hearing about it?
    Ms. Barnett. Personally I do not.
    Mr. Wolf. Is there anybody here who remembers it? It was in 
the early 1980s. That is one of the arguments against term 
limits as someone around who kind of remembers. But I would 
like you to go back into the archives and dig it out.
    And also if you would submit for the record some of the 
stories and I will ask CRS in my office to do the same, to get 
some of the stories about the politicalization of the legal 
services.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    I had a number of questions. I just wanted to put that out. 
And I will just ask two other questions. But be careful because 
even if I am the only one on the floor that will talk about it 
from here on in, I will talk about it because I remember what 
happened.
    And I think it is important to protect this program and 
keep it out of the political process where it becomes a 
lobbying effort, a political activity effort because then I 
think in essence those who want to help the poor will be in 
essence doing something that will, I think, do more to hurt the 
poor. And so we can submit that.
    And, Mr. Chairman, I will ask CRS to pull some of those 
articles together and we will submit them for the record. And I 
would ask the corporation, if you can go back and dig in your 
archives and have somebody come up and sit down with my staff 
so that when this comes up, we have everything on the record.
    If I can recall the tape that I did hear, just remember, I 
actually heard in the voice on the tape naming members of 
Congress that legal services wanted to defeat.
    And does anyone here out there remember that? I saw one or 
two of you shaking your heads, but I will not call on you.

            INTERACTION OF LSC AND THE LSC INSPECTOR GENERAL

    Second issue, Mr. Chairman, and I would ask this question 
and another one after that, your appropriation bill language 
carries restrictions on the activities that can be conducted by 
LSC grantees such as prohibition on class action and collection 
of attorneys' fees.
    We talked about general oversight that you have been asking 
for, I am sure a question, but how does, and compliance, how 
does the LSC and your IG specifically monitor grantees' 
compliance with these restrictions and are you confident that 
all grantees are in compliance with the law? That is the first 
question.
    The second one is I remember when during Mr. Erlenborn's 
time, we came in and they worked out the differences. And if 
you recall, there was a problem on the IG. If you will explain 
how your IG reports to you. I think IGs to be truly effective 
ought to be totally and completely independent of--for 
instance, at the Justice Department, the IG there is not under 
the Attorney General. That individual can go anywhere. The IG 
that the President has appointed for the stimulus package is 
not working for anyone. He and his office can go wherever they 
believe.
    The first question is here on monitoring and, second, if 
you would just explain for the members how your IG differs and 
why you think that is good or should that be changed whereby 
your IG can be truly independent.
    And I think, Ms. Barnett, has the IG that had the 
controversy, has he left?
    Ms. Barnett. We have a new IG and I thought I would ask 
Professor BeVier to talk about the relationship with the IG. 
And I am happy to talk about my relationship as well.
    Mr. Wolf. Okay.
    Ms. Barnett. The new IG just happens to be here. He is 
Jeffrey Schanz formerly from the Department of Justice.
    Mr. Wolf. But they are the three questions.
    Ms. BeVier. The board hires the IG and as it presently 
stands, the board can fire the IG. The board has not exercised 
that authority, but we do have a general----
    Mr. Wolf. If I may interrupt.
    Ms. BeVier. Sure.
    Mr. Wolf. Authority not exercised that may very well be is 
tremendous authority. It would appear to me--has there been any 
consideration of having a totally completely independent IG 
like the Interior has or something?
    Ms. BeVier. I think there has been some consideration of 
that, but I do not think that that legislation has passed. At 
least if it has, we have not been informed of it.
    You are completely right, Congressman Wolf. We hire and we 
review the performance. At the same time, the board is 
extraordinarily conscious and aware of and respectful of the 
nature of the IG to be independent in terms of what he chooses 
to investigate, how he chooses to investigate, what he reports 
to Congress, and that his job is indeed to monitor and to 
ensure that we comply and that to investigate complaints 
without us telling him what he should and should not 
investigate.
    And as much as you can promise that that is true and you 
can believe us, I believe that is the case. I think the board 
is extraordinarily sensitive to the need to keep the IG 
independent. Indeed, the board's view is that the IG helps us 
and helps the corporation.
    Mr. Wolf. If I may, pardon me, but the last IG was driven 
out.
    Ms. BeVier. The last I----
    Mr. Wolf. The IG used to come by the Committee and explain 
that he felt that he was being pressured by the board.
    Ms. BeVier. Well, as a member of the board----
    Mr. Wolf. Was that accurate or----
    Ms. BeVier. As a member of the board, I think that I would 
probably describe our actions with respect to the last IG in a 
very different way. And he was not pressed out. He had a very 
lucrative offer from a private firm. So that is----
    Mr. Wolf. But do you deny that there was great controversy?
    Ms. BeVier. No, I do not deny that there was tension.
    Mr. Wolf. If I could, Mr. Chairman, submit for the record 
any articles about that because there was great tension. The IG 
would come up and express differences with regard to the fact 
that he was being ignored and felt great pressure by the board.
    You can shrug your shoulders----
    Ms. BeVier. Well, no. What I--I am not----
    Mr. Wolf. The reality was I had the conversation with him. 
Would it not be better to have it totally and completely--if 
you have nothing to be concerned about, I think the IG has 
worked well--would it not be better to have a truly totally 
independent----
    Ms. BeVier. It might be better, Congressman. That is not an 
issue to which the board has given any focused attention. What 
we basically have--what we are trying to do now is abide by 
what our responsibilities are now and what our limitations are 
now and what the IG has to do now.
    It is very awkward, I hope you appreciate, with respect to 
a particular individual who engaged in particular activities, 
to go into the board's engagement with that individual, to go 
into particulars at a hearing like this.
    I understand that he had concerns and all I will say is 
that from the board's perspective, the situation could have 
been looked at in a different way.
    But as we speak now and the present IG, we started with an 
understanding with him that he is independent and that we 
respect his independence totally and completely. And that is 
the understanding that we began with.
    So I think it has clarified the IG's role for us to begin 
with this new IG and to make sure that we understand what the 
IG's role is.
    Mr. Wolf. But if there were a conflict, who has the 
ultimate decision making, the IG or the board?
    Ms. BeVier. If it is a conflict about what to investigate, 
it is the IG, absolutely, completely.
    Mr. Wolf. Well, that is not quite the answer. Who has the 
ultimate authority, the board or the IG?
    Ms. BeVier. With respect to what he investigates, the IG 
has complete authority over that. So the board has authority 
with respect, for example, to issues of the IG's employment 
practices and if there are issues with respect to whether the 
IG is treating his own employees fairly and that sort of thing 
because the board does review his performance annually.
    Mr. Wolf. So the board can fire the IG?
    Ms. BeVier. Yes. The board can fire the guy.
    Mr. Wolf. I rest my case.
    Ms. BeVier. Okay.

                     MONITORING GRANTEE COMPLIANCE

    Mr. Wolf. The last issue is, how do you monitor the 
grantees' compliance with the restrictions and are you 
confident that all grantees are in compliance with the law?
    Ms. BeVier. I think I am going to turn that one over to 
President Barnett.
    I will tell you before I do so, however, that compliance 
has been increasingly an issue that the board has felt strongly 
about and has attempted to assure takes place.
    In particular, with respect to our response to the GAO 
report which enabled us to take a close look at particular 
compliance issues has, our response to that has strengthened 
both the board's own governance and the internal compliance 
procedures that management follows.
    And I will turn that one over to the President and she can 
tell you a little bit more specifically perhaps how that has 
worked.
    Ms. Barnett. I think as a result of the GAO recommendations 
with regard to grant oversight and management, we have 
strengthened our ability to provide oversight and ensure 
compliance and ensure high quality legal services. Our 
procedures are in writing today. We have risk factors that we 
use in determining when to make a program visit. We also 
consult with the Office of the Inspector General in making 
those decisions.
    We do program visits and, in fact, our budget request is 
for additional staff, the vast majority of whom would be staff 
that would go out to program visits and provide the oversight 
review. We are looking for 13 additional positions that would 
help us go from 57 site visits to 84 in 2010.
    GAO found problems in nine of our programs. We referred 
eight of them to the Office of Inspector General. They have 
given us the reports. The last one we got yesterday afternoon, 
so I cannot refer to that one, but the other seven we have 
followed up with and there is only one program which we are 
still in the process of following up with with an issue.
    The ninth program we kept for ourselves which was the 
Nevada program and I think there were definitely issues there. 
We have worked closely with the program that now has a new 
board chair and has a new Executive Director and, in fact, is 
now on two-month funding and we are very pleased with the 
progress that they have made.
    I think our programs want to comply. I sent two advisories 
to all the programs, one in March of 2008 where I reminded them 
of the need to have supporting documentation, of what 
expenditures cannot be used with federal funds such as the 
purchase of alcohol and lobbying, to remind them of the 
regulation governing derivative income, to remind them if they 
have salary advances, they have to have written policies.
    And then in December of 2008, I sent a reminder to all the 
programs where we highlighted issues that we found in our 
visits during the course of the year as a reminder. We think 
all the programs are following them, but we wanted to remind 
them of the need for certain procedures--to have 
reconciliations on a monthly basis, to have separation and 
segregation of duties, and we outlined a number of procedures 
just to remind the programs to be alert to these issues.
    So I think we are taking a very proactive role in trying to 
ensure that our programs are complying with all the rules, 
regulations, and LSC Act requirements. And I think that we feel 
quite confident that the vast majority of our programs surely 
are doing so.
    Mr. Wolf. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Wolf.
    Mr. Fattah.

                        LSC SERVICES TO VETERANS

    Mr. Fattah. Thank you, Mr. Chairman.
    And let me thank the Chairman. We worked very hard in the 
last budget to provide an increase for legal services and it 
was needed, but obviously there is still a very significant 
justice gap, if you would.
    And I would like to thank the Vice-Chair for her testimony 
and your service on the board.
    But I wanted to ask a question. I really want to talk about 
two things. One is support and help for veterans, returning 
veterans. I note that a number of your programs in California, 
Tennessee, and other places are now working aggressively with 
veterans, particularly those returning from Iraq and 
Afghanistan, on a host of legal issues.
    And I wonder whether or not in this appropriations request 
you foresee that those services could be provided in other 
locations, in other states. So if you could talk a little bit 
about that.
    Ms. Barnett. There is no question that we are seeing an 
increased need of returning military personnel from Iraq and 
Afghanistan, not just with veteran benefits problems and we do 
have a veterans' pro bono consortium that works on veterans' 
benefits at the U.S. Court of Claims for Veterans, but housing 
matters, family law matters, debt-related matters such as 
evictions, foreclosure, unemployment insurance problems.
    We do not feel that we are actually, Congressman Fattah, 
capturing the full range of services and we are looking at ways 
in which we can better capture so we can tell you more 
accurately how many cases we are handling that involve 
returning veterans.
    Also, you should know that with our technology initiative 
grants program for 2010, we indicated a particular area of 
interest that we would make grants in is if they concentrated 
on ways in which we can help veterans, either help themselves, 
help advocates who are representing them, or pro bono attorneys 
who want to represent them.
    So in this round of TIG grants, we will be making specific 
grants to programs that focus on meeting the needs of veterans.
    Mr. Fattah. And, secondly, the foreclosure challenges which 
are gripping the nation--I am later in the day participating in 
an activity where we are looking at what we have done in 
Philadelphia in terms of mandatory mediation efforts and 
looking at whether that is applicable in other places.
    But I know that a lot of your grantees have been working 
very hard, but you are still not able to provide--there is a 
significant gap in terms of the services needed and services 
being provided to help families cope with the foreclosure 
crisis nationwide.
    Would part of this request help you better respond to that?
    Ms. Barnett. Clearly that is part of the increased need 
upon which we are basing this request without a question of a 
doubt, that the foreclosure crisis is affecting families, home 
buyers and renters in properties that are being foreclosed. And 
we are not able to meet the increased need which has been 
documented practically across the country.
    I will just tell you I visited our Cleveland program last 
week. One out of thirteen homes are vacant. They get more than 
six calls a day. They are turning away 40 percent of those that 
are seeking their relief and it is two and a half times as many 
requests as last year just as an example.
    Mr. Fattah. Well, now, if we were able to meet this 
request, where would that put you relative to, guess the last 
ten years in terms of your overall financial capacity as an 
entity?
    Ms. Barnett. Well, if I could just make a small comparison 
to put things in perspective, our request is $485.8 million. In 
1995, LSC received its largest appropriation which was $400 
million. In inflation adjusted dollars today, that would be 
$550 million.
    If we went back to 1981 where the appropriation was $312 
million, where it was thought that was to meet the need, today 
in inflation adjusted dollars would be $770 million just to put 
our request in perspective over the last at least ten years.
    Mr. Fattah. And let me return to this issue of veterans. 
For active-duty military, Congressman Murtha was talking 
yesterday about a young lady from his district who faced a 
child support procedure back home in Pennsylvania while she was 
on duty in Iraq and was not represented. And there was in the 
Congressman's mind significant injustice to the entire process.
    Do your grantees also provide services not just like your 
California or Tennessee veterans but to active-duty military?
    Ms. Barnett. To their family----
    Mr. Fattah. If they have----
    Ms. Barnett. If they have a family problem----
    Mr. Fattah. Right.
    Ms. Barnett [continuing]. Here, I am sure that they do and 
we just are not capturing that sufficiently to be able to 
report the numbers to you. But I am hoping next year at this 
time, we will be in a position to do so.
    Mr. Fattah. But in 40 or 50 percent of the cases, no matter 
a veteran or not, you are just not in a position to----
    Ms. Barnett. Exactly.
    Mr. Fattah [continuing]. To respond to the need?
    Ms. Barnett. Exactly. We are turning away as--in 2005, we 
documented 50 percent of those that come to us. And as I 
indicated prior to your joining us, we are updating that 
justice gap report right now and hope to reissue the report in 
September of 2009. And we expect that we will be turning away 
far more than we did in 2005.
    Mr. Fattah. And the veterans initiative, particularly in 
California, focus on reemployment issues, family issues, 
housing. We have seen reports that one out of three veterans 
are homeless. So the issues of your support for veterans and 
some of these legal challenges is critical. And I think that 
the Committee should appropriately take that into 
consideration.
    I thank you for your testimony.
    Ms. Barnett. Thank you.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Fattah.

            IMPACT OF FEDERAL AND NONFEDERAL FUNDING TRENDS

    Well, there are a number of bottom lines here. There is the 
bottom line that you request. There is the bottom line of how 
much nonfederal funding you receive. And then there is the 
bottom line of how many eligible and needy clients you serve.
    It is clear that the bottom line that you are requesting 
from the Committee and even your projections over four years 
are not going to achieve the bottom line we should achieve with 
regard to servicing clients.
    So picking up where I had left off in my questioning and 
talking about how we can improve the bottom line of eligible 
clients needing to be served, given the constraints on the 
federal budget and the declining funding from outside federal 
sources, I would like to explore how you all are thinking about 
it.
    First, I would like to ask Ms. BeVier if I could get 
insights on how the board is dealing with this problem. What 
are your goals in the future, recognizing that the federal 
budget cannot close this gap all by itself?
    Ms. BeVier. The board----
    Mr. Mollohan. Speaking strategically here.
    Ms. BeVier. Yes. I understand that, Congressman, and I 
appreciate it.
    What the board has established as its goal to close the 
justice gap that we have discovered within four years. Now, our 
requests, our budget requests have never completely matched 
what Congress was willing to appropriate.
    But in terms more of your question for the future----
    Mr. Mollohan. Can I just say something? I mean, it does not 
close the gap, your plan. I mean, tell me. To say closing the 
gap within four years, your plan does not do that. Am I wrong 
about that?
    Ms. BeVier. I do not think you are wrong about that, no. 
What----
    Mr. Mollohan. So how should we be talking? In what terms? 
Are we starting to close the gap to 40 percent or 60 percent, 
to get real about this for the Committee?
    This Committee is going to be committed to closing it as 
much as possible. I can tell you that. But it is a reality. We 
are not going to be able to come up with the dollars to close 
it completely. So talking about closing the gap is almost happy 
talk.
    I just want to get real here and see what you all can do on 
the outside incentivizing pro bono and law graduates or law 
school students or however you can increase participation from 
whatever source. You are dealing more closely, far more 
closely, with it than we are. But let us talk about the gap as 
realistically here as possible.
    Ms. BeVier. Well, I think that in terms of the funding 
source, our funding does come from Congress and so we look at 
that funding as being our major funding source.
    We have attempted during the course of my service on the 
board to be proactive with respect to pro bono, to really try 
to see what initiatives can be taken with respect to pro bono.

                      PRIVATE ATTORNEY INVOLVEMENT

    Mr. Mollohan. But private attorney participation decreased 
instead of increased.
    Ms. BeVier. That is a fact. I wish it were a different 
fact.
    We have been working with State Justice Commissions to 
attempt to encourage state courts and at the state level to get 
their Bar associations involved. There is only so much that the 
board of the Legal Services Corporation can do. But certainly 
in terms of engaging attorneys and State Bar associations and 
State Supreme Courts, we have made a real effort to engage them 
and to prod them into more active involvement with the 
provision of legal services.
    And we have talked about the possibility of private 
fundraising, but that, I think, is an issue that we have not 
really undertaken ourselves, to engage the activity of trying 
to go out and raise money ourselves from private sources.
    Mr. Mollohan. President Barnett, you know, we talked about 
this with Chairman Strickland, I think, last year, did we not? 
He is very active in the Bar, right?
    Ms. Barnett. Yes.
    Mr. Mollohan. What progress has been made since our 
discussions last year with regard to the Bar Association? For 
example, trying to encourage its membership to participate more 
actively in legal services?
    Ms. Barnett. Perhaps a better way to talk about the justice 
gap in light of your very real comments is to address the 
justice gap. I am not sure myself what actually would it take 
to close the justice gap since I think the gap is widening as 
we speak rather than being narrowed.
    But I think certainly private attorney involvement. We 
have----
    Mr. Mollohan. I am sorry to interrupt you. Please forgive 
me for doing it--but it is going to be really disappointing 
when we sit here and talk about increased funding, closing the 
justice gap and having all that talk here today, and one year 
from now when you all come up, and I know you are working hard, 
you are doing everything, you are doing a terrific job, you and 
the board both, but when you come up here next year and it is 
the same situation. We really have not closed the gap.
    So if we are serious about doing it, I think we have to get 
serious about what all the resources are that can be brought to 
bear. It seems to me the American Bar Association ought to be 
standing up or leaning forward considerably more than they are. 
These are all smart men and women in every community. They 
ought to be able to figure this out in their own community.
    I am sorry to interrupt you and make a speech on that, but 
please go ahead.
    Ms. Barnett. I certainly respect the point that you made.
    Private attorney involvement, we are working with the 
American Bar Association right now on the deferred lawyers, 
seeing if they would work in our programs.
    I was just up at Yale Law School talking to those involved 
in the clinical programs and suggesting adopting a local legal 
services program in the community and instilling a pro bono 
ethic no matter how students choose to practice in their 
careers.
    I think we are very much involved with state access to 
justice commissions. They are proliferating in states now. They 
have the involvement not only of the Judiciary, the State Bar 
leaders, the business community, and we are actively involved 
in those efforts trying to raise additional funds, to leverage 
the federal dollars, to increase pro bono, to increase self-
help initiatives.
    That is another thing we are working on and with the court 
system and our technology grants and web sites to provide 
information so that people who are unable to get our assistance 
can hopefully in those areas that it is appropriate handle it 
themselves with pro se initiatives being supported by the court 
system.
    So we are working on the court level. We are working with 
the private Bar. We are working with the access to state 
justice commissions throughout the states, looking to establish 
them where they are not and working with those that are there, 
all looking at ways in which to leverage the federal dollars, 
recognizing that it is the federal government that is the heart 
of it. We are happy to look at other sources of state and local 
government initiatives, whether it is the filing fees in 
federal court, and see if there can not be a comprehensive 
package of initiatives to pursue to leverage the federal 
dollars as we go forward.
    Mr. Mollohan. Well, there is no question the Committee is 
going to be increasingly interested in funding LSC. We are also 
increasingly interested in achieving the goals which you are 
talking about in terms of closing the gap.
    But as we increase our commitment, which will surely 
happen, I think we need to work with you in real time 
throughout the year with our staffs and with members in 
understanding how you are really going to enhance funding 
outside the federal government. We will have push-back on some 
of these things.
    But I think there is a lot of sentiment on a bipartisan 
basis to fund the basic core functions of legal services. So I 
think that is going to happen. Repeating myself, we want to 
work with you on that.

                                OUTREACH

    Now, there are two parts of this. One is serving indigent 
folks, or those who are eligible for legal services. Obviously 
resources and funding is part of that. The other part that 
disturbs me, and one of the witnesses alluded to it or 
mentioned it in their testimony, is the lack of knowledge of 
those who would be eligible for legal services about the fact 
that they do have eligibility.
    Now, you have got a restriction against soliciting and I 
would like for you to talk about that in terms of making people 
aware of their eligibility. I would call it advertising. That 
may be the wrong word in the legal community, although I notice 
it is happening a lot more since I graduated.
    What is the difference between soliciting and informing 
people that they have eligibility? Is there a difference and 
how do you go about telling people that there are folks out 
here that can help you with foreclosures, can help you with 
being battered and can help you with all these problems? How do 
you inform people, or do you? Does this soliciting restriction 
keep you from doing that?
    Ms. Barnett. No, no. Certainly we have statewide web sites 
that have information for people needing assistance on it. In 
our offices, there is information in the waiting rooms on the 
kind of services that can be provided. We can go to community 
education trainings and do sessions on know your rights.
    What we cannot do is then take a client, solicit a client 
to come to us who has a particular issue that we want to raise. 
But we certainly want to let it be well known, and I think it 
probably is fairly well known, our existence in so many areas 
of the country have been for so many years and the programs 
have such a wonderful----
    Mr. Mollohan. Well, it was your reference that there are 
those out there who do not know. I do not----
    Ms. Barnett. It was.
    Mr. Mollohan. Was it President----
    Ms. Barnett. I definitely said it was an undercount because 
we are sure everybody who--not everybody who comes to an 
office--anybody who does not come to an office does not mean 
they do not have a problem.
    Mr. Mollohan. Is advertising a bad word? Can you advertise? 
Can you put an advertisement in the paper saying that if you 
can not afford a lawyer and are you having foreclosure 
problems----
    Ms. Barnett. Actually, we have on Google, if you Google I 
need a lawyer----
    Mr. Mollohan. How many poor people Google ``I need a 
lawyer''?
    Ms. Barnett. Well, you would be surprised.
    Mr. Mollohan. A lot?
    Ms. Barnett. Yes.
    Mr. Mollohan. All right.
    Ms. Barnett. You would be surprised at the number of----
    Mr. Mollohan. Okay. Maybe it is just because that would 
probably be the last thing I would be able to do.
    Mr. Serrano. But you do make a point, Mr. Chairman, still a 
big issue in this country.
    Mr. Mollohan. Yes, it is bound to be. Well, do we have a 
problem in this area?
    Ms. Barnett. You know, we are----
    Mr. Mollohan. Are we getting to everybody----
    Ms. Barnett. We are not.
    Mr. Mollohan [continuing]. And letting them know?
    Ms. Barnett. We are not getting to everybody.
    Mr. Mollohan. How can we do it better?
    Ms. Barnett. We can do it better by what some of the 
programs are talking about, going out to where potential 
clients will be, going to schools and meeting with parents 
there who might have problems with school suspension or special 
legal ed needs or going to health centers. Forty of our 
programs are partnering in medical/legal partnerships.
    Mr. Mollohan. Do you advertise in community newspapers, or 
with Spanish community? Do you advertise in newspapers for 
legal aid?
    Ms. Barnett. What is being shared with me is not an 
advertisement, but news stories in newspapers every day on what 
legal aid has done to help a particular client with a 
particular problem. And as I said, we do community know your 
rights sessions. I believe all our programs are in engaged in 
community outreach and training sessions trying to get the word 
out that you have certain rights if these conditions occur and 
we can help you if we have available resources.
    Mr. Mollohan. Well, people out there are alone and 
desperate in many cases and they need to know they have this 
resource available. Nothing is better than a good lawyer.
    Mr. Serrano, you believe that; do you not?
    Mr. Serrano. Yes. I am not a lawyer. I played a judge once 
on Law and Order, but I am not a lawyer. I did really.
    When they called me up, they said we have this role, here, 
you want to play. On our show, we have a role for you, but 
there is a problem with it. I said, oh no. They said you are 
going to play a Hispanic judge, but there is a problem with it. 
I said, oh, God. I said I do not want to play a drug dealing, 
corrupt Hispanic judge. He said, no, this guy is very liberal. 
I said, oh. The part was written for me.

               SUPPORT FOR LSC IN THE LEGISLATIVE PROCESS

    Mr. Chairman, I want to use my time not to ask a question, 
but rather continue my comments in support of this organization 
and to do a little clarification on the presentation by Mr. 
Wolf.
    You know, I was Ranking Member under Frank Wolf and he did 
something that I think is one of the best things that ever 
happened to the Legal Services Corporation. He may not remember 
that he did it. He may not take credit for it, but he did.
    Legal Services Corporation used to leave Subcommittee when 
I was Ranking Member sort of having been tinkered with but not 
dealing with full funding of it with a full understanding that 
the minute it got to the House floor, Mr. Ramstad from 
Minnesota and other members would team up, remind the world 
what a great program it was and honestly, remind Republicans 
that it was Richard Nixon's baby, President Nixon's baby, and 
it would be amended on the floor by millions of dollars, you 
remember that, by millions of dollars to reach the goal.
    And that just did not make sense and it was dangerous to 
send it on the floor that way. Well, he changed that. Frank 
Wolf changed that and it would leave Committee with the funding 
that it was supposed to get. If it got more funding on the 
floor, so be it.
    But he brings up an interesting point that may turn out to 
be an issue again and that is as we return to regular order and 
for those in the audience, I know I am not supposed to direct 
any comments to those in the audience, who do not know what 
regular order means, that means this bill will be debated on 
the House floor as a bill by itself with opportunities for 
people to amend and get rid of programs and so on.
    And he may be alerting us to the fact that some folks still 
have some issues with Legal Services Corporation that will be 
debated on the floor. And while he may be right, that some 
people felt that the Corporation had engaged in some activities 
that are political in nature, that some of the restrictions 
that were placed on them were political statements also about 
abortion, about the census, about redistricting, and some other 
issues. And people used that opportunity. So perhaps at that 
point, both sides had some explaining to do.
    The restrictions are in place. In my opinion, the 
restrictions have to be modified. We have to be ready to defend 
Legal Services Corporation during a difficult budget period on 
the House floor. It will be an easy target for people who want 
to put money elsewhere. And you can make an argument within our 
bill in this Committee to put money elsewhere. You can make 
that argument in any bill.
    But I wanted to make two points, the one I made that Frank 
Wolf appeared to be very strong in his comments and he 
certainly is, but he is also a fair man. And I remember when he 
did a lot to put this corporation's funding where it should be.
    And, secondly, I really think that in reviewing the 
restrictions, we should just look at it in terms of what it is 
that the Corporation is supposed to do, what poor people are 
supposed to get in services, and begin to discuss the issues 
that I brought up, the issue of immigrants, which immigrant can 
you-- okay.
    So a person that is in this country and is not a citizen 
yet, but that person is still protected by our Constitution. In 
fact, I would argue much to the dismay of Lou Dobbs and others 
that a person who is in this country not documented still has 
the protection of our Constitution. If you assault an 
undocumented alien, the court does not look the other way and 
say, well, the guy is not a citizen or he is not here legally.
    Therefore, people who need services should be looked at as 
people living within the country. I do not think the idea of 
you do not get that service because you are not here legally, 
that is a question, you know. There is an immigration issue. I 
do not call it a problem, but there is an immigration issue.
    Once that person is inside our borders, I think there are 
other issues you deal with and that is do you allow that person 
to be sick and not to go to an emergency room in a hospital? Do 
you tell the children of undocumented parents that the child 
cannot attend school? Do you not give them the ability to have 
a lawyer?
    So that is what we have to look at. And I think we have to 
be ready for what could be an assault on the Corporation, not 
for any of the issues that we have discussed now, but certainly 
it is a very difficult budget period. It may not be one of 
those that has a lot of constituents on the floor, although it 
did in the past and we have to be careful.
    And I will continue to be as you are and most members here 
are, all members are advocates because, again, it is at the 
essence of who we are as a country, the ability to have a 
lawyer even though you do not have the money to hire a private 
lawyer with a lot of money.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Serrano.
    Mr. Wolf.
    Mr. Wolf. I have no questions.
    Mr. Mollohan. Mr. Fattah.
    Mr. Fattah. No further questions.
    Mr. Serrano. Gee, did I leave some silence in this?
    Mr. Mollohan. I do not know. You may have gotten us to an 
end point though.

                            closing remarks

    If there are no more questions by members of the Committee, 
I would like to give the witnesses an opportunity to make 
whatever concluding comments they would like to make.
    Ms. Barnett. I would just like to emphasize that we believe 
providing civil legal assistance to low-income individuals and 
families is part of the solution to the problems facing this 
country in an economic downturn.
    When we help someone stay in their home, we are preventing 
them from becoming homeless.
    When we help families stay together and children stay with 
their families, we are preventing them going into the foster 
care system.
    When we help somebody get access to needed medical care, we 
are avoiding costly hospitalization.
    When we help somebody get disability benefits to which they 
are entitled or food stamps to which they are entitled, we are 
helping to make them more productive workers in our society.
    So we believe very strongly that we are the front line, 
first responders for many low-income individuals and that they 
have nowhere else to turn and that we are really part of the 
solution and not the problem.
    Mr. Mollohan. Vice-Chair BeVier.
    Ms. BeVier. I echo President Barnett's comments.
    And I appreciate what I took to be your sort of prodding 
the board to be a little bit more proactive with respect to 
marshaling other resources that we might do.
    And I appreciate President Barnett describing some of the 
things that are done already. And I think it is quite true that 
we can be doing more going into the future. I hope that we will 
be.
    So I appreciate that very much. Thank you.
    Mr. Mollohan. Well, we look forward to working with you in 
that regard to really do as much as we can to close the gap.
    Let me again, on behalf of myself and the Committee, thank 
you both and the very fine organization that you represent for 
the good work that you do. We look forward to working with you 
and supporting you as best we can.
    Thank you.
    Ms. Barnett. Thank you very much.
    Mr. Mollohan. The hearing is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                          Thursday, April 23, 2009.

                         DEPARTMENT OF JUSTICE

                                WITNESS

ERIC H. HOLDER, JR., ATTORNEY GENERAL OF THE UNITED STATES

                   Opening Statement of Chairman Obey

    Mr. Obey. The room will please come to order.
    This afternoon we will hear from the Attorney General, 
testifying on behalf of his budget for the coming year. Before 
we begin, let me simply say that, as always, the committee 
welcomes everyone in attendance at this hearing. We expect only 
one thing, and that is that people respect the prerogatives and 
needs of this committee. People are obviously in a free 
country. They are perfectly within their rights to make their 
views known, but they are not within their rights to disrupt 
any hearing of this committee. So we will conduct this hearing 
accordingly.
    Mr. Attorney General, we welcome you to the committee. I 
frankly do not know where to begin. I do not know which Cabinet 
offices people regard as being the premier Cabinet offices in 
the country. I know that there are some who feel that Secretary 
of State is the top dog, so to speak, and others may feel 
Secretary of Defense or some other. To me, the most important 
job in the Cabinet is that of the Attorney General, because he 
is the number one person in the Department of Justice for the 
United States of America.
    The Defense Department defends the country, the Education 
Department helps to educate our children, and that is all 
important. But the most important thing that any government 
official can do is to defend the Constitution, to defend the 
liberty of each and every citizen, and to do their damndest to 
deliver justice to every citizen.
    I know that today Members will focus largely on the news 
reports about the interrogation reports that were released 
recently, but I hope you will forgive me if I, in my 
introductory remarks, tell you what I am focused on today. It 
is not that I do not think those other issues are important. I 
think they are excruciatingly important. But I just want to 
tell you a little story about something that happened in my 
State so that you understand what my focus is.
    There is a woman in the State of Wisconsin by the name of 
Georgia Thompson, who was a low-level, nonpolitical civil 
servant at the Wisconsin Department of Administration and had 
never met our Governor in her life. She was hired by the State 
civil service during a prior Republican administration. She was 
one of those whose job it was to determine who had the State 
contract for State employee travel. As I understand events, 
that body wound up accepting the bid of the party that turned 
out to be the low bidder, but somehow allegations began to 
arise that she had done something improper in deciding who was 
going to get that contract.
    The State Republican Party put out press releases demanding 
that the U.S. Attorney investigate the situation. The U.S. 
Attorney had a public press conference announcing that he was 
going to undertake an investigation of that item. My 
understanding is that it was counter to Justice Department 
policy to have a press conference on something like that. To 
make a long story short, she was called before the grand jury 
and eventually, despite the fact that she testified that she 
had no political dealings whatsoever with Wisconsin's Governor, 
she was convicted and sent to prison.
    The case was then appealed, and when it went to the three-
judge court of appeals, something extraordinary happened. 
Before the court was even finished with the hearing, they 
decided that the case was so flimsy that they threw it out, and 
they ordered her released immediately from prison. From the 
bench one of the judges told the prosecutor that his case was 
worse than flimsy and questioned why on Earth they would even 
bring that case.
    She spent over $300,000 defending herself. She lost her 
home. She lost her reputation. The Court restored her good 
name, but it was still soiled, in her eyes, by events.
    It later came to light that that Federal attorney had 
initially been on the infamous list of prosecutors who should 
be considered for firing because they were not sufficiently 
aggressive to suit the higher-ups in the administration. So I 
think it raises an interesting question as to whether or not 
that attorney felt pressured to go after a case that he 
certainly should not have gone after.
    What makes this even more insidious is that immediately 
after she was convicted, the opponent of Wisconsin's Governor 
in the next election spent almost $4 million on television ads 
attacking the Governor as being corrupt, citing this case as 
illustration number one of why he was unfit for public office. 
It was a scurrilous smear.
    When your predecessor was before this subcommittee a year 
ago, I asked him whether or not Justice was looking into this. 
I presume they are. I hope they are. Obviously I am not 
qualified in any way to determine what the outcome ought to be. 
But I think you have a special responsibility, given some of 
the things that have happened in the Department, to dig into 
cases like this and to make crystal clear to the country that 
at the Justice Department politics is out and justice is back. 
That, to me, is the most important thing that any government 
official, from the President on down, can do.
    Every American citizen has to know that whether you are a 
humble civil servant, or if you are a very visible politician, 
you are going to get justice. In that regard, I simply want to 
congratulate you for the action that you took in the case 
involving Senator Stevens. Now, Ted and I agreed with each 
other about once a century. He fought everything that I 
believed in, and I fought a lot of things that he believed in. 
I have no idea what the facts are in his case, but it was 
appalling to see revealed the actions and missteps of those who 
were prosecuting that case. While I have no idea what the 
outcome would have been had there been a fair prosecution, I 
want to thank you for standing up for due process and for 
recognizing that the job of prosecutors in this country is not 
to win a high conviction rate, it is to do justice, whether 
that means that you win the case or not. So I want to thank you 
for what you have done so far.
    I apologize to the committee for taking this much time, but 
ain't nothing more important than justice. And I personally am 
glad to see a person of your integrity in that chair.
    With that, let me turn to Mr. Wolf for any comments he 
might have before we take your testimony.

                Opening Statement of Ranking Member Wolf

    Mr. Wolf. Thank you, Mr. Chairman.
    And, Mr. Holder, we welcome you to the committee, and I 
thank you for your appearance today. I understand, I hope I do, 
I think I do, the difficulty of the tasks you have been 
assigned to complete by the President, especially your 
assignment to deal with the closing of the Guantanamo Bay 
facility and the issues connected with the recent memos on the 
interrogation methods.
    These are very dangerous detainees at Guantanamo Bay, 
including Khalid Sheikh Mohammed, who masterminded the 9/11 
attacks that took the lives of 3,000 people, 30 people from my 
congressional district, and brutally beheaded journalist Daniel 
Pearl.
    I am extremely concerned that the hard lessons from the 
first World Trade Center bombing in 1993, the U.S. embassy 
bombings in Kenya and Tanzania, the USS Cole attack, and the 9/
11 atrocities could be ignored, which could put our country at 
risk of another attack, which I sent you a letter, I do not 
know if you saw it the other day, recommending you read the 
book called The Seven Deadly Scenarios. Did you get the letter?
    Attorney General Holder. I am not sure I have seen it yet.
    Mr. Wolf. I sent it. And if not, we can get you another 
copy. Potentially other nuclear, chemical, or biological 
weapons.
    Shortly after I returned from a trip to Algeria in 1998--
and, Mr. Secretary, in Algeria about 150,000 people have been 
killed from terrorist activities. We then went to Egypt, and as 
I landed the plane, we then found that the bombings had taken 
place in the two embassies in both Tanzania and in Nairobi, 
where 267 people were killed, including one from my 
congressional district, a person that lived in McLean. And as 
you know, more than 5,000 were injured.
    I then authored--and was ridiculed by, quite frankly, both 
sides of the aisle--the bill to set up the National Commission 
on Terror. In fact, as many Members on both sides said, what is 
this about terror? When I put the bill in, I mentioned Osama 
bin Laden. We passed the bill. And the Commission report came 
out in the year 2000, provided evidence of a growing threat of 
international terrorism and the steps needed to combat it.
    I was disappointed that both the Clinton administration, 
where you had served in the Justice Department, and the Bush 
administration, both administrations, the Clinton 
administration and the Bush administration ignored it and did 
not take seriously the recommendations that were in the 
terrorist commission report.
    What followed were the devastating attacks on September 
11th of 2001. Thirty, as I said, of my constituents died in the 
attack on the Pentagon. On that day I left the Capitol and went 
out to the Pentagon and sat up on the hill and watched the 
scene of what took place. The first person that was killed, 
American employee, American citizen that was killed in 
Afghanistan, was a CIA employee of mine that lived in Manassas 
Park.
    Now our country could be faced with the real prospects that 
those associated with the terrorist attacks on our country 
could very well be brought to a large urban center in eye's 
view of where a commercial jet turned into a missile exploded 
into the Pentagon on 9/11. On March 13, I sent a letter to you 
asking a series of questions regarding the security and 
logistical concerns associated with transferring Guantanamo Bay 
detainees to the jail and courthouse in Alexandria, Virginia. 
And I met with your team yesterday, and they tell me you are 
still working on the letter, and I appreciate that, but we look 
forward to receiving the response.
    As you know, the Zacharias Moussaoui trial in Alexandria 
took over 4 years, at a public expense in multimillion dollars, 
represented a nightmare scenario. An equally difficult 
situation would exist in the Southern District of New York if 
trials were to occur there.
    Today we are going to be giving you a second letter asking 
additional questions on the possible dangers the administration 
should consider if you decide to transfer Guantanamo detainees 
to population centers, and also the ramifications of granting 
these individuals access to civilian courts. I am also 
submitting both letters for the committee record, and would ask 
as you submit the response to me, you could also send the 
answers to the committee.
    As you move forward in responding to the President's 
Executive Order and present policy options for the release or 
transfer of the prosecution of detainees, I believe there are 
serious issues involving the safety and the security of a lot 
of people in urban and metropolitan and other districts that 
really have to be addressed.
    Before making your decisions, I would ask and respectfully 
urge, and it is in the letter, but I wanted to say it, that the 
Justice Department and even you, if possible, should meet with 
those whose loved ones were killed in the 9/11 attacks both in 
New York and in the other localities, and here and 
Pennsylvania, and I know you knew people that were on those 
planes, too, including the families of our military members 
killed in Iraq and Afghanistan, and ask their perspective on 
the fate of these detainees, especially the detainees who 
played a lead role in carrying out the attacks.
    I read the memorandum on Khalid Sheikh Mohammed, what he 
said brutally with regard to Daniel Pearl. You should probably 
meet with Daniel Pearl's family, too.
    It is troubling to me that an option of transferring 
detainees to Federal court sites in urban areas such as 
Alexandria would even be considered. I went to Alexandria this 
past Tuesday. We parked the car. I walked out from the 
courthouse across the street to the Westin and off to the hotel 
on the other side and the apartment. You know the location as 
well as I do. And since that time, having been down there 
during the Moussaoui trial, the Patent and Trademark Office is 
now there, the Westin hotel is now there, the apartments are 
there now, and there is also a ramp as you come down off of the 
Beltway.
    So there are a number of issues like this we would like to 
raise with you both at the hearing here today and, equally 
important, in the letter that I am sending. And before you make 
any of these decisions, I would appreciate having the 
opportunity to talk to you about it.
    And with that, Mr. Chairman, I yield back the balance.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Obey. Mr. Lewis.
    Mr. Lewis. I will wait for questions, Mr. Chairman.
    Mr. Obey. All right.
    Mr. Attorney General, I forgot to mention one thing in my 
comments. The head of the Wisconsin Employees Union, in 
commenting on the Thompson case, simply said the following: 
Prosecution of innocent civil servants to win elections should 
not become the standard in this State or this country. If this 
conviction had been upheld, no State employee exercising 
discretion would have felt secure from Federal criminal 
prosecution. This was an innocent woman put in prison for doing 
her job. She lost her income, her house, her reputation, and 4 
months of her life.
    I just want to put that in for a sense of perspective. With 
that, please proceed with your testimony.

               Attorney General Holder's Opening Remarks

    Attorney General Holder. Good afternoon, Chairman Obey, 
Ranking Member Wolf, other members of the subcommittee. Thank 
you very much for the opportunity to come before you and 
testify today.
    Before I get into my remarks concerning the fiscal year 
2010 budget, let me just say that with regard to the matter 
that you have raised, Mr. Chairman, there is, in fact, a 
Justice Department investigation under way. It is being 
conducted by the Office of Professional Responsibility. It was 
begun by my predecessors. I expect that investigation should be 
completed relatively soon, and it is my hope that we will be in 
a position to share the results of that investigation.
    One of the things I want to do with the Office of 
Professional Responsibility, is to make more transparent the 
work that it does so that the people of the United States will 
see in the vast majority of cases how our lawyers conduct 
themselves, I think, in appropriate ways; but to the extent 
that we make mistakes, that we own up to them and make clear to 
the people that we have made those mistakes, and then take 
actions that I think are appropriate, as I did in the Stevens 
case.
    But getting back to that which has brought me here today, 
due to the Presidential transition, the fiscal year 2010 budget 
request is being released in two parts. In February, the 
administration announced the top-line request for each agency, 
including the Department of Justice. Once released, the full 
submission will provide detailed budget proposals and the 
traditional congressional justification materials necessary for 
your committee to do its very important work. I appreciate the 
opportunity to appear before you today to highlight certain 
aspects of our current submission and further discuss key 
priorities for the Department of Justice.
    The President promised that from the day he took office, 
America will have a Justice Department that is truly dedicated 
to justice. The fiscal year 2010 budget that will be 
transmitted soon supports this vital task by investing a total 
of $26.7 billion in our critical law enforcement mission, 
including protecting Americans from terrorism, fighting 
financial and mortgage fraud, getting more police officers on 
the beat, reinvigorating civil rights enforcement, and 
providing essential resources for our prisons.
    As I testified during my confirmation hearing earlier this 
year, I will also pursue a very specific set of priorities. 
First, I will work to strengthen the activities of the Federal 
Government that protect the American people from terrorism. I 
will use every available tactic to defeat our adversaries, and 
I will do so within the letter and the spirit of our 
Constitution. Adherence to the rule of law strengthens security 
by depriving terrorist organizations of one of their prime 
recruiting tools. America must be a beacon to the world. We 
will lead by strength, we will lead by wisdom, and we will lead 
by example.
    Second, I will ensure that law enforcement decisions and 
personnel actions are untainted by partisanship.
    Third, I will revive the traditional missions of the 
Department of Justice. Without ever relaxing our guard in the 
fight against global terrorism, the Department must also 
embrace its historic role in fighting crime, protecting civil 
rights, preserving the environment, and ensuring fairness in 
the marketplace.
    The Department's work does not end with these priorities. 
On January the 22nd, President Obama issued three Executive 
Orders and a Presidential memorandum that gave significant 
responsibility to the Department of Justice. These orders 
require immediate agency action regarding Guantanamo Bay 
detainees, specifically to review the appropriate disposition 
of individuals currently detained there, to develop policies 
for handling individuals captured or apprehended in connection 
with armed conflicts and terrorist activities, and also to 
evaluate current interrogation practices and make 
recommendations as necessary.
    While implementing these orders, the Department will take 
necessary precautions to ensure decisions regarding Guantanamo 
Bay detainees account for safety concerns of all Americans. 
Executing these orders will have a significant workload and 
cost impact on the Department, and this budget reflects that 
need.
    Earlier this month, I, along with other U.S. Government 
officials, attended the Mexico-United States Arms Trafficking 
Conference in Mexico. This was my first foreign trip as 
Attorney General. My attendance at this conference reflects my 
commitment to continuing the fight against the drug cartels. 
The United States shares responsibility to find solutions to 
this problem, and we will join with our very courageous Mexican 
counterparts in every step of that fight.
    $26.7 billion is a significant amount of money that comes 
with a commensurate amount of responsibility. We will use these 
funds wisely and with transparency. Our internal efforts, which 
range from implementing the Department's new United Financial 
Management System to establishing internal controls to ensure 
the proper expenditure of Recovery Act funds, will demonstrate 
our commitment to accountability at the highest level.
    Chairman Obey, Congressman Wolf, and members of the 
subcommittee, I want to thank you for the opportunity to 
discuss the Department's priorities and for your support of our 
programs. I appreciate your recognition of the Department's 
mission and the important work that we do. I look forward to 
working in partnership with this subcommittee and with the 
Congress as a whole. I am pleased to answer any questions that 
you might have.
    Mr. Obey. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                        INTERROGATION TECHNIQUES

    Mr. Obey. A week ago today, the Department released the 
full text of four Bush-era OLC memoranda that provided the 
legal justifications for the use of interrogation techniques 
that many consider torture. I certainly do. The question arises 
whether or not the Department of Justice lawyers who wrote the 
memos could be subject to some kind of sanction for their role 
in the interrogation program. President Obama indicated that 
decisions about the fate of those lawyers would ultimately be 
made by you as the chief law enforcement officer of the 
country.
    I have got a series of questions for you, and I do not 
expect you to answer all of them today. I would expect you to 
make a comment when I have finished with the questions, because 
I would like you to respond after you have had a chance to 
think through carefully what your plans are. But these are 
roughly the questions that I am sure everybody is asking.
    What will your policy be with respect to sanctions or 
prosecution for those individuals who offered those memos? What 
is the status of the Office of Professional Responsibility 
review of the authors of those memos? When do you expect this 
review to be completed, and will the results be made public? 
While the President has repeatedly said that CIA employees who 
followed the legal advice provided by DOJ will not be 
prosecuted, will you proactively pursue investigations of 
individuals who acted prior to the issuance of DOJ's memos or 
who deviated from the specific tactics and methods approved by 
DOJ? Lastly, a DOJ-led task force has been formed to craft a 
new comprehensive policy on interrogation methods and 
rendition. Can you tell us anything at this stage about the 
work of this task force, when its work might be concluded, and 
whether its findings will be shared with the Congress?
    Attorney General Holder. Mr. Chairman. I am not sure where 
to start. With regard to the task forces that the President 
placed me in charge of, we are charged with making 
individualized determinations about how the current detainees 
held at Guantanamo are to be treated. We expect that some 
people will be released, when determinations are made that they 
can be sent to other countries. With regard to a second group, 
we expect that we will be trying them in Article 3 courts, in 
Federal courts, perhaps also in military courts, and perhaps 
also under military tribunals that have significant changes 
made to the manner in which they would be conducted.
    With regard to the second task force, we are also looking 
at interrogation policy and coming up with what we think are 
the best interrogation policies, that are consistent with our 
values, and yet effective in getting information from those who 
would do harm to this Nation.
    With regard to that first task force, our responsibility is 
to report by next January. With regard to the question of 
interrogation, we are to report by July. And with regard to a 
third task force that has to deal with detention policies and 
how people are to be detained who are presently in Guantanamo, 
or people who might be apprehended on the battlefields around 
this world, that task force is due to make a response in July 
of this year as well. So we have two that have a 6-month 
reporting time, and one that has the full year to make its 
determinations.
    Mr. Obey. What is the process you will go through to make 
those determinations, who would be consulted, and who would 
play a role in making those eventual decisions?
    Attorney General Holder. All three efforts are interagency 
efforts that involve the CIA, the Department of Defense, the 
Department of State, the Director of National Intelligence, the 
Justice Department, various members of the National Security 
Council. There are representatives from all of those 
organizations who are on a working group level. They report to 
a larger group, who ultimately report to a principals group. We 
have had two principals meetings thus far with regard to the 
work of the task forces.
    And so it is truly an interagency effort that will draw on 
the expertise of various agencies so that we can make the 
decisions that we think are in the best interests of this 
country and consistent, as I said, with the values that have 
always made this Nation great.
    Mr. Obey. Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.

                    PROSECUTION OF FEDERAL OFFICIALS

    Mr. Obey raised a couple of the issues, but I will come at 
them perhaps in a little different way.
    President Obama has stated that he will defer to you, as 
the Chairman said, in determining whether or not to prosecute 
Federal officials. I think this represents, most Americans 
believe it represents, a dramatic shift from the President and 
his Chief of Staff's earlier statements that I worry will have 
a chilling effect on current and future administration 
officials and our Federal workforce.
    I personally agree with the statement of Senators McCain 
and Lieberman and Graham that, quote, and they said, pursuing 
such prosecutions would have serious and negative effects on 
the candor with which officials in any administration provide 
their best advice, and would take our country in a backward-
looking direction at a time when our detainee-related 
challenges demand that we look forward.
    Insofar as that, the questions are several, and one, will 
you pursue the prosecutions? And can you tell us what the 
criteria will be? And if you have anything you can tell us now, 
and we can wait for what you tell the Chairman.
    Secondly, is it true that there were additional memos or 
documents that have not been released that show that the 
interrogations resulted in invaluable intelligence, perhaps 
saving lives? I think if there are other ones, and the first 
ones were released, the second ones should be released. And 
with regard to that, can you just comment?
    Attorney General Holder. First, I will reiterate what I 
said, last week, and it is consistent with what the President 
has said as well. Those Intelligence Community officials who 
acted reasonably and in good faith and in reliance on 
Department of Justice opinions are not going to be prosecuted. 
It would not be fair, in my view, to bring such prosecutions. 
But I also want to be clear that I will not permit the 
criminalization of policy differences. However, it is my 
responsibility, as the Attorney General, to enforce the law. It 
is my duty to enforce the law. If I see evidence of wrongdoing, 
I will pursue it to the full extent of the law, and I will do 
that in an appropriate way. As I think I have shown throughout 
my career, I am prepared to make tough decisions that are, in 
fact, fair decisions.
    I want to end this response with where I started. With 
regard to those members of the Intelligence Community who acted 
in good faith and on reliance of Justice Department opinions 
that were shared with them, it is not our intention to 
prosecute those individuals.
    Mr. Wolf. And the second part, of the other memos that have 
not been released.

                        RELEASE OF OLC MEMORANDA

    Attorney General Holder. There are other Office of Legal 
Counsel memoranda and opinions that have not been released. It 
has been my hope that as this process goes on, we can make 
those opinions, those memoranda, available, and make OLC a much 
more transparent place, consistent with our need to protect 
national security and to protect the ability of the President 
to have unfettered, unchilled communication with members of 
that office.
    Mr. Wolf. But with regard to any results of the 
interrogations. That is the question that I was asking.
    Attorney General Holder. I am not familiar with those 
memos. I have heard Vice President Cheney indicated such memos 
exist. I, frankly, have not seen them. I do not know if they 
exist. But I will say that generally my hope is we will make 
available to the American people the opinions of OLC so that 
they will have a full understanding of what the Justice 
Department thought about the questions that were put to it.
    Mr. Wolf. Okay. So if there are, that information will be 
released?
    Attorney General Holder. Again, as I said, I would hope 
that we would be able to be in a position to release all of the 
material that I have described, these OLC memoranda.
    Mr. Wolf. See, pardon me, I am not aware if that is OLC. I 
do not know that. So I am just saying the other memos. I think 
once a decision was made to release the existing memos--and I 
saw today Secretary Gates favored it, and I have great 
admiration for Secretary Gates, he was on the Iraq Study Group 
that we helped put together, and I admire him--but I think once 
you have taken that step, I think all of the memos--and, of 
course, those of us who are not on the Intelligence Committee, 
I just read today Pete Hoekstra had an article in the Wall 
Street Journal--there are things like that that go on in the 
Intelligence Committee that many Members do not know about. So 
there may be memos.
    I would not want to get in a situation where I am asking 
you and you say, well, Wolf, you just said Office of 
Legislative, and it was really there, but you didn't ask me 
there. I just think in fairness to the American people, once 
you made a decision, once the administration made a decision to 
release the existing memos that you put out, then I think you 
have an obligation to release the rest of the memos. That is 
the point I am trying to make.
    The question that I wanted to ask----
    Attorney General Holder. Well, Congressman, with regard to 
that, I am the Attorney General, and I do not control many of 
the memos that you might be talking about. I was referring to 
those memos that originated in the Justice Department. Now, to 
the extent that they do, as I said before, my hope would be to 
make those available, again consistent with our national 
security interests.
    Mr. Wolf. Well, the time is up, and I will not abuse my 
time, but I think in fairness everyone has to know, and just to 
say if it is not in this building, it may be in another 
building, so therefore that building, I think this is a 
decision, quite frankly, that not only you are responsible for, 
but whatever decision is made is really the decision of the 
President of the United States. Harry Truman had a sign on his 
desk that said ``The Buck Stops Here.'' So the President is 
over all of the agencies. So whatever you do, it cannot just be 
it is not in this building, it may be in another building, and 
I do not control that building.
    Thank you, Mr. Chairman.
    Attorney General Holder. Let me just say this: It is 
certainly the intention of this administration not to play hide 
and seek or not to release certain things in a way that is not 
consistent with other things. It is not our intention to try to 
advance a political agenda or to hide things from the American 
people.
    There has been much said, I guess, in the last couple of 
days about the effectiveness of these enhanced interrogation 
techniques. I have also seen articles written by people who 
were involved in the use of these techniques who say those 
techniques, in fact, were not particularly effective, that the 
information could have been gotten by more traditional means. 
So that is something I guess we will have to debate.
    One of the things that I think this administration wants to 
do, though, is to put in front of the American people as much 
of this information as we can so that a good, healthy debate 
can ensue, and we can come up with interrogation policies, 
among other things, that are consistent with our values and 
that can be supported by the American people.
    Mr. Obey. Mr. Fattah.
    Mr. Fattah. Thank you. And let me welcome the Attorney 
General.
    I want to go for a minute to the substance of what brings 
you here, which is your appropriations process for this year. 
So the top line is $26.7 billion, and that would include $7.9 
billion for the FBI, and then there is 50,000 additional cops 
on the street, and $145 million for civil rights. There is 
border enforcement and immigration enforcement. And then we 
come down to Federal prisons. There seems to be $7.5 billion 
for Federal prisons and only $75 million for reentry.
    I am interested in whether or not you think we might ought 
to be investing a little bit more in reentry programs, given 
$7.5 billion spent on incarceration. And we know about some of 
the challenges on reentry.
    But before I go to that, I noticed that you are going to 
invest more effort in going after mortgage fraud. I sent a 
letter to the Department under its previous leadership in 
August of last year challenging why more resources were not 
made available to go after mortgage fraud since it was apparent 
that the FBI knew, or was informed about, some significant 
widespread mortgage fraud. This is not under your watch, I am 
not asking you to take responsibility. I am pleased that in the 
budget request before the committee that you are going to 
invest considerable resources. And I note your public 
statements on the matter.
    So, welcome. I am interested in those two issues, and I 
appreciate an opportunity to hear you comment.

                             MORTGAGE FRAUD

    Attorney General Holder. We are committed to dealing with 
the problem of mortgage fraud. The FBI has dedicated fairly 
significant resources in that regard, and has opened a mortgage 
fraud task force that is headquartered in Washington. I believe 
that there are about 2,100 cases that are presently being 
examined. We have asked for additional funds to look at that 
very important criminal justice topic not only from a criminal 
perspective, but also from a civil rights perspective. And to 
the extent that this fraud was perpetrated in particular 
communities, having the effect of destabilizing those 
communities--and I am talking about communities that contain 
people who are poor or people of color--that is something of 
great concern to us.
    So our look at the mortgage problem is really twofold: One, 
to detect fraud to the extent possible, and then to look at the 
discriminatory impact of that fraudulent activity. We are going 
to be talking very soon about a financial fraud task force that 
will look at a variety of things given the situation in which 
our Nation finds itself and the fraudulent activity we have 
been talking about. I think there needs to be a more 
comprehensive view of this. We need to look at this with our 
State and local partners, and a key component of that effort 
will involve the mortgage industry.
    Mr. Fattah. Well, as a member of the subcommittee, you 
know, obviously, whatever additional resources that need to be 
put into place. I mean, there are problems with this warranty 
scam that is going on. You have, you know, the mortgage fraud 
issues. There are a lot of problems in this whole financial 
fraud area that have not gotten a great deal of attention, or 
at least not the appropriate level of attention from the 
Justice Department, FBI in particular. And I am happy to see 
that you are going to go at that.

                           SECOND CHANCE ACT

    I would like you to comment on the commitment that the 
Department is going to pursue, given your budget request on 
reentry. I know that Ranking Member Wolf and others have had 
similar concerns that we do as much as we possibly can inasmuch 
as we incarcerate a great many people, almost all of whom are 
going to be returned to these communities at some point, to 
make sure that we do not create more problems than we are 
solving.
    Attorney General Holder. Right. We are fully in support of 
the Second Chance Act, to try to give people who are coming out 
of prisons an opportunity to become productive citizens once 
again. And we are also going to be dedicating attention, 
through our Office of Justice Programs, to ways in which we can 
deal with that whole reentry problem.
    But I think we have to look at this whole crime problem in 
a holistic way, and that is to see if there are ways in which 
we can prevent people from becoming involved in the criminal 
justice system. It is not a coincidence that we see the 
greatest amount of violent crime where we see schools that do 
not educate, where we see the highest levels of unemployment, 
and where we see men who are not meaningfully engaged in the 
raising of their children. We have to deal with those social 
conditions. Those are crime issues in addition to social 
issues.
    We also have to make sure that those people who are 
incarcerated are simply not warehoused; that somehow we are 
able to make them better than when they came in through 
educational opportunities, vocational opportunities; and then 
to come up with ways in which we make the reentry of those 
people from prisons into regular society more successful than 
it has been in the past. Substantial numbers of people are 
recidivists. I think two-thirds or so is the number that you 
see within 3 to 5 years. And I think that is an indication that 
the system that we now have in place is failing in many ways.
    I think it is time for us to ask really tough questions of 
ourselves when we look at this criminal justice system that we 
have, and challenge some of the assumptions that we have made. 
It does not mean we are not going to be tough against people 
who would do harm to citizens who only want the things that we 
all do, but I think we have to be smart as well. And so I hope 
that as Attorney General I will lead a Justice Department, 
working with members of this committee, that will ask those 
tough questions and come up with some different solutions.
    Mr. Obey. Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    Attorney General Holder, welcome.
    Attorney General Holder. Thank you.
    Mr. Lewis. I reviewed pretty carefully your background and 
the experience that you have had in the Department. I am very 
comfortable with the direction and the leadership, I believe, 
that you will provide for us.

                              DRUG COURTS

    Two subject areas of interest. You may not be aware that a 
program called Drug Court, one of the first drug courts in the 
country, was developed in San Bernardino County and sponsored 
by then-Judge Pat Morris, who is now the mayor of San 
Bernardino. I think he probably felt much more comfortable in 
that other frying pan than the one he is in right now. But in 
the meantime his work is being carried forward by Judge Stephen 
Manley. And they are doing a fabulous job in our State, where 
we have sizable--the country has, but we especially have 
sizable numbers of men and women, especially young people, who 
need a way to find a different path for their life. And Drug 
Court is having a tremendous impact. I have had some indication 
of support from the administration for the Drug Court model, 
and I am presuming we might even enjoy some increased funding 
there. Could you comment on that?
    Attorney General Holder. Yes. There is contained in the 
budget a very substantial increase to support the Drug Court 
effort. Congressman, I think you are 100 percent right that 
that is one of those novel approaches that we need to start 
thinking about. We had a drug court here in Washington, D.C., 
when I was the United States Attorney, patterned after the one 
that you have described. We tried a three-track system here, 
found that one of the tracks actually worked better than the 
other two, and that was the one that held the possibility of 
incarceration over somebody's head if they did not stay off 
drugs.
    But the recidivism rate of people who go through drug 
courts is substantially lower than it is for people who simply 
are incarcerated, and our administration has given substantial 
resources for the expansion of that program. So I totally agree 
with you.

                STATE CRIMINAL ALIEN ASSISTANCE PROGRAM

    Mr. Lewis. I appreciate that very much.
    The other area of questioning I may not get exactly the 
same kind of response, but I have an interest in, and my State 
has a great interest in, the State Criminal Alien Assistance 
Program, SCAAP. In the 2009 package there was a reduction of 
about $10 million in that programming. I do not have any idea 
what your thoughts are or the plans you may have for the fiscal 
year ahead of us. I would like to hear from you if you intend 
to see SCAAP funding either reduced significantly or 
terminated, and if so, why.
    Attorney General Holder. I think that on this one we may 
have a slightly different view. The program is one that I do 
not think we are intending to support to the extent I think 
that you would--and we are talking about the State Criminal 
Alien Assistance Program?
    Mr. Lewis. Yes.
    Attorney General Holder. I do not think we are looking at 
that with the degree of support that you might want. One of our 
top priorities is to secure our borders and address threats 
that are posed by criminal aliens. It is our thought that money 
that we have coming from our JAG grants, our Byrne grants, can 
actually be more effective in dealing with the issues than the 
SCAAP program. The budget that we are proposing eliminates 
funding for a program that we think does not help communities 
directly address crime in the way that the JAG-Byrne grants do.
    I think our aim is the same. I think we have different view 
as to what can be most effective. But I am always open to 
hearing a different view. And to the extent that you think that 
our view of this program is not necessarily a correct one, I 
would be more than glad to speak with you about it.
    Mr. Lewis. Attorney General Holder, I very much appreciate 
that. The border States that have lots of impact from people 
who are here illegally, may have been involved in violations of 
the law, puts pressure on our budgets.
    I must share with you that I really asked that question 
because of the priority given to it by our Governor in 
California. It is not the highest priority that I have in these 
things, and there could be better approaches to deal with this 
circumstance. But in the meantime, I may very well get 
communication from the Governor's office and share that with 
your people.
    Attorney General Holder. I would be glad to talk to you 
about that, Congressman.
    Mr. Obey. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Attorney General, it is a great privilege to have you 
here. I spent 6 years in the Department, and I have a great 
fondness for it, and it broke my heart to see what the 
Department went through under the leadership of Mr. Gonzales. I 
think your immediate predecessor Mr. Mukasey did an admirable 
job turning around the management and morale of the Department, 
but nevertheless, there is quite a mess left to be cleaned up, 
and it is your unhappy task to do it. But I cannot imagine 
anyone more capable, and it gives me great confidence to have 
someone of your intellect at the job.

                                TORTURE

    I want to raise two issues with you, the first that my 
colleagues have already touched on, and that is the torture 
issue. If we start out with your testimony in the Senate, and I 
start off from the same place, that waterboarding is torture, 
we know that waterboarding occurred, we therefore know that 
torture occurred. I don't think we can have a policy in this 
country that, notwithstanding the knowledge that people have 
been tortured, that it is impossible to hold anyone 
accountable. You cannot hold accountable people who follow 
legal opinions, you cannot hold accountable people who wrote 
legal opinions, so we have people torture, but no one is 
responsible.
    I do not think that is good policy. I do not think that 
lives up to our ideals and values as a Nation. What I would 
hope we would do is do a thorough investigation of exactly what 
happened, what laws were violated. Before we make any decision 
about prosecuting or not prosecuting, determine what the 
culpability is and what the legal avenues are. And then you 
have the tough decision to make do we decide not to prosecute 
because of the mitigating factors, people operated in good 
faith on a legal opinion, or maybe they did not have the mens 
rea.
    But particularly in the case of the attorneys who wrote 
these memos, the fact that they have a law degree should not 
immunize them. And if there is evidence that these attorneys 
knew what they were writing were flawed opinions, that they 
merely sought to give a legal patina to conduct which they knew 
to be violative of the criminal laws, they should not be held 
immune from prosecution.
    I think part of the problem--and this gets me to my first 
question--part of the problem is that the last administration 
had an attitude that if the Commander in Chief felt something 
was necessary in the war on terror, his authority as Commander 
in Chief overrode everything else. And this idea is embodied, I 
think, most graphically in the March 2003 OLC opinion when the 
author wrote, even if an interrogation method arguably were to 
violate a criminal statute, the Justice Department could not 
bring a prosecution because the statute would be 
unconstitutional as applied in this context. So we can violate 
criminal laws, the former administration seemed to say, as long 
as it is pursuant to our authority as Commander in Chief.
    And I would ask you today if you are able to disavow that 
view, because that view not only affected the interrogation 
issue, it also infected the surveillance issue. We heard the 
same argument on surveillance. If the President says we need to 
surveil people, notwithstanding what FISA says, he has the 
authority as Commander in Chief. And if there is a conflict 
between what he says and the laws as passed by Congress, the 
laws must be unconstitutional. Can you tell us today that you 
disavow that point of view?
    Attorney General Holder. It is the Administration's view, 
consistent with Justice Jackson's, concurring opinion in the 
Youngstown Steel cases, that the President's power is at his 
greatest when he is acting in a manner that is consistent with 
congressional authorizations. To the extent that there is an 
existing law, FISA, as you indicated, it is incumbent, in our 
view, for the President to conform his conduct to that statute 
unless the statute is unconstitutional. There is no basis, from 
my perspective and from President Obama's perspective, to view 
the FISA statute as one that was unconstitutional. And so 
programs that were designed to deal with the issues that FISA 
specifically was passed by Congress to deal with, efforts by 
the Administration, should conform themselves to the law that 
is passed by Congress.
    Mr. Schiff. Would you agree that that is also more true 
than ever in the context of interrogation in that if Congress 
prohibits conduct which it defines as torture, the President is 
not entitled to disregard that law because the President 
believes that as Commander in Chief he must engage in torture, 
and therefore Congress cannot prohibit it?
    Attorney General Holder. It is our view that the expansive 
view that the prior Administration took of the Commander in 
Chief's authority is one that we will not embrace when it comes 
to the question of interrogation techniques. That is one of the 
reasons why the President has put me in charge of this 
interrogation policy group. We will share those results with 
the Members of Congress with the hope that we can come up with 
techniques that are both effective, consistent with our values, 
and supported by Congress. Because when that happens, the 
President, the Administration, is acting with its greatest 
authority.
    Mr. Obey. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Attorney General, thank you for appearing before us 
today.

                  PROSECUTION OF INTELLIGENCE OFFICERS

    I want a quick clarification, if I could. I understood you 
to testify earlier in response to Mr. Wolf's question that 
essentially the Department will prosecute DOJ employees if you 
determine they did not act reasonably or in accordance with DOJ 
policy, and that you would prosecute intelligence officers who 
did not act in good faith reliance on DOJ memos.
    Attorney General Holder. No, I did not say that. I put it 
in the affirmative, that those people who acted in a manner 
that was consistent with Department of Justice guidance, who 
relied on that guidance and acted in good faith, those would be 
people who we would not prosecute or investigate.
    Mr. Culberson. Right. But if they did not act in good 
faith, the flip side of that is they are open to investigation 
and prosecution.
    Attorney General Holder. Well, there is always 
prosecutorial discretion. And one has to look at the particular 
facts.
    Mr. Culberson. Sure. I just wanted to make sure I 
understood, because what is reasonable and what is good faith 
are subjective terms. And you will make that determination as 
to what is reasonable and what is good faith.
    Attorney General Holder. I will try to apply the law and 
the facts as best I can, working with the career prosecutors 
and men and women in the Justice Department in making those 
kinds of determinations.
    Mr. Culberson. Okay. I just wanted to make sure I 
understood that. So you have left that door open.

                      DHS INTELLIGENCE ASSESSMENT

    I also wanted to ask, Mr. Holder, if I could, you work, I 
know, very closely with the Department of Homeland Security. It 
is essential that the Department of Justice work very closely 
with the Department of Homeland Security. I serve on the 
Homeland Security Subcommittee. And DOJ works arm in arm, your 
law enforcement officers, with the Homeland Security officials 
in attempting to identify potential threats to the people of 
the United States and to our government. And I wanted to ask, 
if I could, to the extent you agree or disagree with the 
intelligence assessment that the Department of Homeland 
Security has just put out that to attempt to identify and to 
quote from--this is--as all intelligence assessments, this is 
designed to help Federal, State, and--Federal, State, and local 
law enforcement officials identify potential terrorist threats 
and effectively deter, prevent, preempt or respond to terrorist 
attacks. And in this Department of Homeland Security 
intelligence assessment on right-wing extremists, the memo 
identifies right-wing extremists as groups or individuals--
adherents, rather, that are mainly antigovernment, who reject 
Federal authority in favor of State or local authority.
    Do you agree or disagree that an individual who rejects 
Federal authority in favor of State or local authority is a 
right-wing extremist and subject to heightened scrutiny and 
suspicion?
    Attorney General Holder. Well, there is a spectrum of 
people who, I think, could fit the category that you have 
described. There are people who certainly disagree with tax 
policies and think that certain parts of our tax system should 
be made more fair, and more responsibility should be given to 
the States. On the extreme end there are people who do not 
recognize our Federal system and who think that the Federal 
Government----
    Mr. Culberson. Sure.
    Attorney General Holder [continuing]. Is illegitimate.
    Mr. Culberson. You are familiar with the memo that I am 
referring to. This Department of Homeland Security intelligence 
assessment, Mr. Attorney General, goes on to even classify 
returning veterans as potential problems that need to be 
watched closely. People who purchase high volumes of weapons 
and ammunition are a source of concern to Homeland Security. 
The veterans. The people that--and even the memo, I think, even 
goes on to say those people who oppose the administration are a 
source of concern.
    Do you agree or disagree with this memorandum? And if you 
disagree with it, to what extent do you disagree with it? Do 
you think the memo is too broad, goes too far? And in 
particular, what is your reaction to the classification of 
returning veterans as a potential threat to the security of the 
United States? I find that just appalling and absolutely 
unacceptable.
    Attorney General Holder. In coming up with enforcement 
policies, it seems to me we have to make individualized 
determinations, to the extent we can, and when you start to 
cast too broad a net, you end up with ineffective law 
enforcement.
    In some ways, it is the same thing you see with profiling. 
You want to focus on people who are truly threats. And to the 
extent that that memo is read as characterizing returning 
veterans, people who have put their lives on the line to 
protect our Nation, as threats clearly that is wrong.
    I don't think that was the intention of the memo. If the 
language used there was not as exact as it should have been, I 
am sure that Secretary Napolitano would walk back from it.
    Mr. Culberson. One last question on this line, because our 
time is brief, and I have a second round. Are you aware of any 
lists that are being developed by DOJ to identify what this 
memo calls right-wing extremists who favor State and local 
authority, returning veterans, people who disagree with the 
administration--is there a list being developed of people like 
that in your Department?
    Attorney General Holder. No, not that I am aware of. As 
long as I am Attorney General, that would not be the policy of 
the Department of Justice.
    Mr. Obey. Mr. Serrano.
    Mr. Serrano. Thank you.
    Thank you, Mr. Attorney General, for your past service and 
what I know will be excellent service in the future.
    So much has been discussed already and should be discussed 
in the future about the area of torture. I want to take you to 
another subject, but prefacing my comments by saying that I 
join my colleagues in saying that something has to be done 
about what happened in the past. I know the President has said 
let us put the past behind us, and I think in some ways there 
are many issues that have to be left behind. This cannot be one 
of them. And I take a different view from some people on this.
    Notwithstanding some of our enemies who will always try to 
hurt us, there are others who would use this behavior of ours, 
if it goes unpunished or uninvestigated or undealt with, as 
well as you know, as a recruiting tool to bring more people to 
hate us.
    Secondly, and this is not a frivolous or a funny remark, 
but if we don't do something, there are some folks who will 
never be able to travel out of this country because in other 
countries there are people ready to arrest them and prosecute 
them. And we have never had that kind of behavior put on us. 
And so we have to pay attention to that seriously. I want to 
just identify myself with the comments made before and put that 
before you.

                       DEFINITION OF HATE CRIMES

    Another area of concern that I have is during the last 
administration civil rights groups and local groups complained 
about the fact that the decline that existed in numbers of hate 
crimes reported or dealt with by the Civil Rights Department 
was just a bad situation. I see in the President's comments and 
I see in your comments a desire to do something about the 
border and about illegal immigration. So be it. But there is 
another side to the immigration issue, and that is immigrants 
who are being targeted for hate crimes in this country, that 
even happen--and I say ``even''--in a city like New York, which 
is known to traditionally be a pro-immigrant, very tolerant 
city, and yet we saw people killed and abused and hurt 
physically.
    Will the Department, in its desire to deal with the border 
and the immigration issue, also deal with the issue of hate 
crimes and identifying this new community, if you will, that is 
included in the hate crime category?
    Attorney General Holder. Yes. In fact, one of the things 
that we want to do is expand the Federal definition of hate 
crimes. We unsuccessfully tried to do that during the Clinton 
Administration. We are going to try to do that again during the 
Obama Administration.
    The focus should not be on the status of the victim, but on 
the conduct of the perpetrator, and that is what I think good 
law enforcement is all about. If a person is here 
inappropriately and is nevertheless the victim of a crime, that 
crime is just as serious as a crime committed upon somebody who 
is a citizen of this country, and is worthy of the attention of 
those of us in law enforcement.
    To the extent people are being singled out because of their 
ethnicity, their status, that is something that deserves 
special attention and will get it from any Justice Department 
that I lead.
    Mr. Serrano. And I thank you for that comment.

                  WEAPONS CROSSING THE MEXICAN BORDER

    I would also hope that we deal with probably the most 
difficult issue to deal with here. President Calderon has made 
it clear to us that he understands there is a serious problem 
in his country and, therefore, a serious problem that spills 
over on the border. But he has also told us that most of the 
weapons used in Mexico in those crimes come from this country.
    I am politically savvy enough to know that that is one of 
the most difficult issues in this country. But there has got to 
be a way that, through our leadership, we show that there is a 
big difference between having a right to own a weapon--
constitutional right--and allowing people to just sell 
indiscriminately these weapons that then come to haunt us, 
because, as we all know, that violence is beginning to spill 
over into the borders, and it is reaching other areas where 
they are recruiting folks to join those gangs.
    So what hope can we have that within what you are allowed 
to do, within what the Department and the administration is 
allowed to do, knowing the difficult waters that you travel, 
that we can see something said and done about these weapons 
that end up going somewhere else?
    Attorney General Holder. With regard to the problem in 
Mexico, what we have done with ATF, which is now a part of the 
Justice Department--it wasn't when I left it--is move 100 ATF 
agents to the border area to try to stop the flow of these 
high-powered weapons into Mexico.
    I had a chance to speak to President Calderon and Attorney 
General Medina Mora during my visit there. I indicated to them 
that we needed to get more information about the weapons that 
they seize to have an ability to look at things as simple as 
serial numbers so that we can trace those back to places they 
may be bought in the United States and identify those dealers 
of these guns who are problematic.
    A lot of these purchases, from what we know, are made by 
straw purchasers, people who come in who have an ability to buy 
a weapon, but then transfer it to somebody who then takes it 
south of the border.
    I have also talked to Secretary Napolitano, who is coming 
up with innovative ways in which searches can be done of cars 
that are going across the border. We have asked our Mexican 
counterparts to help us to inspect vehicles coming into Mexico 
to a greater degree than they presently do, because we think 
that is probably the main mechanism by which these weapons are 
smuggled into Mexico.
    Mr. Serrano. Thank you.
    Mr. Obey. Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you for being here.

                        INTERROGATION GUIDELINES

    The area that I want to get into again is torture, but I 
want to talk about going forward and guidelines.
    I happen to represent NSA in my district, and I am on the 
Intelligence Committee with Mr. Schiff. When we were debating 
the FISA issue, I felt, and a lot of us felt, very strongly--
and we were glad that we were able to prevail--that we needed 
the court involved, the checks and balances. Our forefathers 
created a great system of government, and it has worked for us 
for a long time, and that is the checks and balances between 
administration, judiciary, and Congress.
    The issue, though, about going forward and with the 
torture, though, as it relates to the CIA and NSA or any 
military whatever is the front line. These are really 
courageous men and women that are all over the world. They are 
in all of these different countries, and their job, especially 
in the CIA, as an example, is to collect and to get 
information, and that information is analyzed and then goes to 
the President or whatever decisionmakers are there.
    They are subjected, though, to the orders and the rules and 
regulations and standards from the top. It all stops at the 
top.
    I would hope that when you are evaluating the issue we are 
talking about with torture now, that whatever you come up with, 
and that you do come up with, with strict guidelines so that 
the men and women in the front line know exactly what the rules 
and regulations are, and they would not receive orders to do 
something that they don't know.
    Now, you said that you are only going to move forward with 
the consent--if they are doing their job consistent with the 
Department of Justice guidelines and upholding fundamental 
American principles, that you are not going to move forward. 
And that is your call as the Attorney General.
    But I think we have to really focus on strict guidelines 
now which would go into training. When our CIA people go out 
into the world to protect us, they are trained, and they 
receive orders, and they follow those orders. Of course, a lot 
of these people or the people that work for us--thank God for 
this--they are some of the best in what they do in the world, 
and they are very intelligent, and they should know right and 
wrong. But when it comes to the gray areas, that is where there 
is a problem.
    So I would hope we could work with you, those of us on the 
Intelligence Committee, these different committees, Judiciary, 
whatever, to make sure that those are guidelines that will 
never be another Abu Ghraib, and we never have to deal with the 
issue we are dealing with now.
    The other thing is that we always have a change in 
administrations, and the new President will bring in their 
people. And we have different policies, different ways that a 
President will look at governing. And the President has the 
opportunity, subject to the Senate a lot, to have their own 
people.
    But in this situation I would hope that you would look in 
your investigation, which I would hope that you could use so we 
can set these guidelines in the future, the role of political 
appointees. We have, as you know, in the Justice Department--I 
think you have been there for a lot--we have career prosecutors 
or career people that work in Justice. But then you have the 
political appointees that every President does bring in. And I 
would hope that you could look and see how far where it goes. 
Were these political appointees involved; were they involved 
and given orders to make something happen, and then that all of 
a sudden, because that is where the mandate or that is the 
ruling, that then that means it's open season?
    Because if you look at torture, torture doesn't really get 
us any more information. There could be a case or two. Most of 
the time, from what we understand, is that when someone is 
tortured, they will tell you whatever they want, or, in an al 
Qaeda situation, they will be trained to deal with that. Abu 
Ghraib set us back in terrorism for a long time.
    So my point, and then I would like you to respond--I know I 
am asking a long question--but how do you see your 
investigation with respect to where we are now? And the end 
game, I would hope, would be strict guidelines that everyone 
can understand, and that we make sure that if there is a 
violation of those guidelines, then there should be 
retribution.
    Attorney General Holder. Congressman, I think you raise a 
very good point that I hope will be the outcome of the effort 
with regard to those two task forces--the detention task force 
as well as the interrogation task force. The interrogation task 
force is looking at the Army Field Manual to make a 
determination if that is sufficient to have the abilities that 
we need to get information, good, useful information, from our 
adversaries, or are there things beyond that that we need to 
do.
    Our hope would be that we will come up with some 
conclusions that we will share with the Congress, and with the 
American people. Undoubtedly, we would respond in a hearing 
setting to what we have found, with the hope that we can come 
up with good interrogation techniques that can be supported by 
the Nation, that are effective, and that ultimately are the 
bright lines that you talk about, so that everybody will know 
these are the techniques that are acceptable; and if you go 
beyond that, you do so at your peril.
    We owe that, it seems to me, to the people in the field who 
do these very dangerous things oftentimes--and I think the 
point you make is a very good one--too often without sufficient 
guidance from those of us who are the heads of their 
organizations. That is one of the things that we are bound and 
determined to try to end with the formation of these two task 
forces, and then the sharing of the information, the findings 
of those task forces.
    Mr. Obey. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.

                        IMMIGRATION CASE REVIEWS

    Welcome. Quite a few items have been already discussed. And 
I appreciate your comments on the drug courts and the items 
around legal orientation programs, and hopefully that will 
continue to grow, and the training for immigration judges that 
your office will look at, and engaging NGOs as part of the 
training for a more precise training program.
    The question I had is something that has been bothering me 
for 8 or 9 years, is the folks who are caught in the 
immigration system where an INS officer who was involved in 
graft and corruption, giving out green cards to contractors who 
were in cahoots with them, they being dealt with through the 
legal system and being tried and sentenced. But when the 
cardholders, who are supposedly the customers of the 
contractors--in this case, I think about 250 individuals and 
families--when they came back for renewals, they ended up being 
put into a deportation process under this last administration, 
and, through no fault of their own, they became victims again.
    Is there any work and any effort being placed in reviewing 
some of these cases where there may be some remediation of 
administration decisions to either return them back to their 
original status or review them quickly and making sure that the 
9 years that they spent waiting for this process to go through 
would be terminated or at least come to some finalization?
    These folks have just been suffering for 8 or 9 years, 
putting their lives on hold, and it just seems to be patently 
unfair. And we have not been able to get a response from the 
last administration. We are going to be sending a letter to you 
requesting that consideration.
    Is that something that your office is looking at or would 
be willing to spend some time so that we can bring some justice 
to some of these folks?
    Attorney General Holder. Congressman, that is not something 
that I am familiar with, but I would be more than glad to look 
at the letter that you say you are going to send and examine 
the situation. To the extent that people were acting in good 
faith and were taken advantage of, I certainly want to look at 
all the facts.
    Mr. Honda. I would expect that.
    Attorney General Holder. I would be more than glad to look 
at that, and I promise you I will respond to you with what we 
think we can do in that situation.
    Mr. Honda. That would be greatly appreciated. Thank you.
    Mr. Obey. Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.

                             PRISON REFORM

    If you could give me an update on prison rape. Bobby Scott 
and I authored the bill on prison rape. I sense a delay in the 
Justice Department. If somebody could come up and tell us what 
the status of that is.
    Secondly, there was a little bit of inconsistency in your 
statement when you talked about--I have worked in prison 
reform, and I agree with you about keeping young kids out of 
prison. But this administration opposing the D.C. vouchers is 
an inconsistency. Quite frankly, my daughter worked in the 
Community of Hope at 14th and Belmont for 5 years. I have 
talked to some of these young people who are going to these 
schools. You are splitting families up, you are dividing 
families. A sister may be in a school, and a young brother may 
not be able to go to school.
    If you really care about these young people, you will do 
what the Washington Post has recommended. For this 
administration to look at this--and for you, particularly you--
you live in the District of Columbia. You are a man of wealth. 
You can send your children to great schools, and that is fine. 
That is wonderful. My five kids went to public schools. But I 
think wherever any parent wants their kids to go.
    But do not negate the opportunity for these young kids that 
live in the inner city. I have spoken to many of them that tell 
me they have been beaten up in school. I had a daughter that 
taught at Eckington Gage. And some of the life stories there.
    So if you want to really make a difference to do what you 
said, to keep young people out of prisons, then you have this 
administration support the voucher program where young kids in 
the inner city can go to private schools.
    Having said that, amen. Let me ask you the question here. 
Will you meet with the families of the loved ones who were 
involved in 9/11, as I put in my statement?
    Attorney General Holder. I am sorry, I didn't hear that.
    Mr. Wolf. Will you meet with the families of those who lost 
individuals, loved ones, in the 9/11 attacks, and also those 
families who have lost loved ones in Iraq and Afghanistan, 
including someone like Daniel Pearl's family----
    Attorney General Holder. Sure. In fact----
    Mr. Wolf [continuing]. Before you make any decisions?
    Attorney General Holder. Sure.
    Mr. Wolf. That is enough.
    Attorney General Holder. I was going to say that Daniel 
Pearl's widow was represented by my law firm, and I met her in 
private practice.
    Mr. Wolf. I think the ones from my congressional district 
and all the others. Mrs. Burlingame. All of them, I think. I 
appreciate that.
    Attorney General Holder. That is fair. That is fine.

                       GUANTANAMO DETAINEE TRIALS

    Mr. Wolf. For those who may be transferred for U.S. 
prosecution, where do you think such trials will be held, and 
how long do you envision the trials to go on? Moussaoui was in 
Alexandria for 4 to 4\1/2\ years. Khalid Sheikh Mohammed, who 
has said what he has done, lawyers who know tell me he could be 
there for 4 to 5, to even longer perhaps.
    How long do you think these trials would go, and where are 
you now looking to hold the trials?
    Attorney General Holder. We have not made any decisions yet 
about where the trials would be held. That is part of the 
process that we are going through, to first identify how large 
that universe of people will be who we have to try, and then 
make determinations about whether they will be tried in Article 
3 courts, military courts, or in some other proceeding. But no 
decisions have been made yet as to where those proceedings 
would occur.
    Mr. Wolf. The system of military tribunals was designed to 
avoid the difficulties inherent in civilian trials. If the 
military is trusted to run a system of justice good enough for 
a 19-year-old service person who may have crossed the line, why 
should somebody, Khalid Sheikh Mohammed, get a better 
opportunity than, say, a 19-year-old military person who has 
crossed the line and faces it through the military system?
    Attorney General Holder. I have great faith in our system 
of justice and its ability to hold accountable those who have 
committed the most heinous acts. My faith in that system means 
that it is capable of handling in a fair way the 19-year-old 
who you describe or somebody as awful as Khalid Sheikh 
Mohammed.
    The system and how we deal with those people, let's say 
those people at different ends of that spectrum, says a lot 
about who we are as Americans; and it seems to me that if we 
have faith in that system, as I do, we should have confidence 
that that system can handle in a fair way Khalid Sheikh 
Mohammed and deal with him appropriately.
    Mr. Wolf. But with due deference, that was not the 
question. The question was: If you were to treat a 19-year-old 
military personnel who crossed the line in a military court, 
why would you then give Khalid Sheikh Mohammed in a civilian 
court a higher status, if you will?
    Attorney General Holder. I don't necessarily agree with 
that premise. I don't think that.
    Mr. Wolf. Well, discovery and things like that. Are you 
going to call servicemen back in off the field?
    The other question was: For those who stand trial in the 
U.S. courts, if they were not apprehended by law enforcement 
officials, do we run the risk of having the evidence against 
them deemed inadmissible? Will we release them?
    I led the first delegation to Afghanistan. Our young men 
and women who were there--and also in Iraq--were doing 
incredible things. They were not necessarily operating under 
the same Miranda standards as somebody would in the city of 
Philadelphia, the city of Washington, D.C. That is kind of what 
I am talking about.
    So do you run the risk of having the evidence against them 
deemed inadmissible, and would they be released no matter how 
dangerous they are?
    Attorney General Holder. The systems that I think that we 
will use or have to put in place will be ones that will be 
fair, that will be consistent with our notions of due process, 
and that ultimately will protect the American people.
    I don't want anybody to leave with the misimpression that 
somehow, some way we are going to be soft on people who are 
responsible for the horrors of 9/11. They are going to be held 
accountable. But we will do so in a way that is consistent with 
who we are as Americans.
    George Washington--it was interesting. I gave a speech at 
West Point, I guess, last week. He said after the Victory at 
Trenton on Christmas--and I should know the year, but I don't--
he told his troops that the British soldiers who were captured 
had to be treated in a certain way even though our soldiers 
were not being treated in an appropriate way by the British.
    So even our Founding Father, one of our greatest 
Presidents, realized that what makes this country great is that 
ability to do what was done back in the 1700s, and what I am 
bound and determined to do in the 21st century with regard to 
even people as reprehensible as Khalid Sheikh Mohammed.
    Mr. Obey. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.

                       GUANTANAMO DETAINEE STATUS

    I want to follow up on my colleague's question. And, Mr. 
Attorney General, we had a chance to talk about the detainee 
issue a couple of weeks ago. I guess I would phrase it a little 
differently than my colleague, but much along the same 
thinking, and that is that I think the military courts martial 
are really the best venue for proceedings involving the vast 
majority of the detainees. There may be some--and, ironically, 
it may be some like Khalid Sheikh Mohammed--who you decide to 
try in a district court for other reasons, because you want an 
even more public venue.
    But I think for balancing the national security needs, as 
well as the due process concerns, the military courts have got 
a history longer than our country has been around of doing that 
very well. And I like the idea, frankly, of being able to hold 
up to the rest of the world and say, much as my colleague said, 
but in reverse, that we are giving the same due process to 
these people accused of acts of terror that we give to our own 
troops who are brought up on court martial charges.
    I have introduced a bill along these lines, and I would 
love to share it with my colleague. And I have talked with many 
of your staff about it. One of the features of it, though, in 
addition to trying most of these people in military courts 
martial, is a threshold question, and that is: Are you going to 
be relying on the status determinations that were made under 
the prior flawed regime?
    There are two determinations that have to be made: One, are 
they unlawful combatants or unprivileged belligerents; and, 
two, if they are, should we prosecute them, and where?
    But on that threshold question I would say that the prior 
proceedings were so flawed that they need to be redone. That 
threshold decision has to be remade about whether they are, in 
fact, unprivileged combatants. And I think that you can use the 
military courts martial and modify the UCMJ for that purpose. 
And I have got a bill that accomplishes that.
    My question is: Do you believe that you will have to redo 
the status determinations, or do you intend to accept status 
determinations made under the tribunals that were set up by the 
Bush administration?
    Attorney General Holder. We are actually making new 
determinations. We are looking at all of the people who are at 
Guantanamo, taking a fresh look. With regard to those who the 
prior administration said could be released, we are looking at 
those as well to make sure that in applying the standards we 
think are applicable, we are being uniform in making those 
determinations. And so all of the people are being examined.
    Mr. Schiff. I can ask more specifically though. I know you 
are doing a case-by-case determination. But in those cases 
where you decide you are not going to send them elsewhere, and 
that they are going to be tried, the threshold determination 
that has to be made is are they an unlawful belligerent. And 
will you be adopting what the Bush tribunal's conclusion was, 
or will you be establishing a tribunal to make that decision de 
novo?
    Attorney General Holder. I think as we make the individual 
determinations for that group of people who should be tried, we 
will decide where they should be tried. It could be in Article 
3 courts, it could be under the Uniform Code of Military 
Justice, a great system, or it could be under military 
tribunals that would be different from those that were 
previously in place--that would have, from my perspective, 
greater due process components.
    Mr. Schiff. Let me just take this another way, and that is 
there is a separate question from where will they be tried, and 
that is the question of are they unprivileged belligerents to 
begin with. If they are not unprivileged belligerents--if they 
are prisoners of wars, for example, they are immune from 
prosecution as a prisoner of war in most circumstances. But if 
they are an unprivileged combatant under the laws of war, they 
can be prosecuted.
    The Bush administration had tribunals that decided that 
they were unlawful combatants, but they were terribly flawed. 
Once they got through the tribunals, then they were brought 
before military commissions, where some of them were 
prosecuted, mostly without success, and overturned by the 
courts. But that first decision still needs to be made. On 
anyone that you don't want to send back to their home country 
or release, I think the decision still has to be made: Are they 
an unlawful combatant.
    That is not an issue of whether it goes to--well, the 
threshold question, I guess, is: Do you accept any of the 
determinations made by the Bush administration? And I will just 
advocate here: I would suggest that you don't.
    I would suggest that on the question of whether they are 
unprivileged, that that should be reviewed de novo by a more 
competent tribunal. And then the decision should be made where 
do they get prosecuted.
    So I would just commend that to you and thank you again for 
your diligence on this.
    Attorney General Holder. I have tried to say that I think I 
agree with what you are saying; that we will be making new 
determinations, both with regard to what courts they are to be 
tried in and what their status is. We are not, for instance, 
using the term ``enemy combatant'' anymore. We indicated that 
in a court filing a couple of weeks ago.
    So that the determinations that we are making are on the 
basis of a fresh look that we are taking, and based on the 
evidence we can get from the various agencies that are involved 
in this process. That fresh look really starts from the 
beginning and goes all the way through.
    I hope I answered your question.
    Mr. Obey. Mr. Lewis.

                           DETENTION SECURITY

    Mr. Lewis. Mr. Chairman, thank you. I think the Attorney 
General has been very generous with his time. I am not going to 
take any more of his time, but I believe my friend Frank Wolf 
wants to use a bit of my time to clarify the same line of 
questions that he was involved in earlier.
    Mr. Wolf. I thank the Chairman.
    This is an issue that I care deeply about, and I am not 
going to let it go. We are going to stay with it. I can still 
remember the people ridiculing us when we wanted to pass the 
National Commission on Terror.
    Let me ask you this question: I have been led to believe--
and there was a report here with regard to the other trials. It 
says here, ``Earlier trials of terrorists in the U.S. 
demonstrated the necessity for extraordinary security resources 
that would be needed if some of those at Guantanamo are 
transferred here. Newsday and the Buffalo News reported that 
during the 1995 trial in New York of Omar Abdul Rahman''--
Sheikh Rahman--``mastermind of the 1993 World Trade Center 
bombing,'' then they go on to say, ``There were signals going 
back and forth.'' And you remember his attorney was taking 
information out.
    Where you hold these people is very, very important. And I 
wanted to ask you to tell us a little bit about that, when they 
come here to the United States and after the disposition of the 
trials.
    Secondly, are you aware of--you remember Officer Pepe who 
was stabbed in the eye? Do you remember that case? ``There were 
also indications here,'' it said here, ``that in many cases 
that the capturers were given word by their colleagues that 
they would work to free them. In addition, during the 2000 
trial of Mahmud Salim, one of the terrorists accused in the 
1998 bombing of the U.S. Embassy in Kenya, he stabbed New York 
prison guard Pepe in the eye during an escape attempt.
    ``Al Qaeda saw the rights given to its members to meet with 
counsel as an opportunity to carry out a violent escape 
attempt. Mr. Salim was one of the original followers of Osama 
bin Laden and the highest-ranking member held in the U.S. at 
that time.''
    It goes on to say, ``In addition to trying to escape from 
prison, al Qaeda members have communicated with confederates 
while in prison. It is my understanding that El Sayyid Nosair 
was involved in plotting the 1993 World Trade Center bombing 
while in custody at Attica State Prison. And, in addition, 
Osama bin Laden has publicly credited Sheikh Abdul Rahman with 
issuing the fatwa that approved the 9/11 attacks while he was 
in Federal prison, despite the high-security confinement 
conditions imposed on him.'' It emerged later that, with the 
assistance of his lawyer, Rahman continued to send 
instructional messages.
    If you recall, on the bombing of the trains in Spain, there 
was actually communication from some of the terrorists that 
were in American prisons. Because I was Chairman of this 
committee, and we then set up a program that you now have in 
the prison department to read the mail to make sure that there 
are not any communications.
    So it is a long issue, and I am not going to ask you to get 
into it now, but I want you to tell us how precisely this is 
going to work. I met with your team the other day. Some of 
them, I thought, were good. Others I left without having the 
best feeling. One person didn't even know some of the most 
elementary things that I thought for somebody to be head of the 
team that he would have known. He didn't even know about it. I 
am not going to put you in a spot.
    Does al Qaeda have a policy that they will try to release 
the people if they are in prison? If so, if they are in 
Alexandria in an urban area, that is not very, very good.
    And so there are a whole series of questions, and they are 
all in the letter. And I think out of deference to you--and I 
am not trying to ask you a question that you don't know--would 
you look at this thing carefully? I would like to talk to you 
and your team about all of these.
    And I would ask you to go down to Alexandria, and I know 
you have been to the courthouse. Go to the courthouse and walk 
out and look around and try to get somebody to give you an 
overview of how conditions were there when the Moussaoui trial 
took place.
    The other question that I have, if I can, is would you 
update us on what the Department plans to do with growing gang 
violence? I was the author of provisions setting up the 
Intelligence Gang Section over at the FBI now. Can you bring us 
an update on gang violence in this Nation? Do you expect MS-
13--is it growing, is it diminishing? What is the impact with 
regard to gangs in the United States now, and what are your 
expectations for this summer?
    Attorney General Holder. With regard to the question of 
where these trials might take place, as I said previously, no 
decision has been made. But the concerns that you raise are 
legitimate ones. You need not apologize for raising them. We 
are not naive. We understand the people we are dealing with. We 
understand that they are a part of a worldwide group that wants 
to do us harm.
    As Deputy Attorney General, I signed a number of Special 
Administrative Measures to try to ensure that certain steps 
were taken to minimize the possibility that a particular 
prisoner could have any influence, any impact, outside of the 
prison in which that person was kept. And we would obviously 
take into account the danger that person presented, that 
person's role in the organization, that person's ability or 
desire to try to communicate with others who are maybe not in 
this country, and come up with a way in which we try these 
people in a way that it is safe for the environment for the 
jurisdiction in which it occurs. We have to be sensitive to 
that.
    The questions that you have asked are the very ones that we 
will be asking ourselves as we try to make this decision about 
where these trials might occur; to put these trials in places 
where we think we are most capable of ensuring that the 
surrounding areas will be kept safe. This will be a primary 
concern that we will have.

                             GANG VIOLENCE

    Mr. Wolf. MS-13; gangs. You didn't answer. MS-13 gang 
violence, what are you doing, what is your program?
    Mr. Obey. Briefly, please.
    Attorney General Holder. If you look at the crime rate, it 
has gone down pretty dramatically over the past few years. An 
exception to that is the violence that we see in a lot of 
communities with regard to gangs. There are task forces that 
have been set up within the Federal investigative agencies 
within the Justice Department to deal with the special problems 
that gangs present, and we will be giving that special 
attention.
    Mr. Obey. Mr. Ruppersberger.
    Mr. Ruppersberger. Following through on the issue of gangs, 
I think a lot of what needs to be done--and we have been 
working on with this committee, and Congressman Wolf has 
probably been the leader in MS-13, Crips, Bloods, whatever--but 
there is a new strike force concept, which seems to be a 
positive concept, and a lot of things we do to fight terrorism 
or crime generally.
    We know there have been serious gang problems in 
California. Now we have a lot of that on the east coast in the 
greater Washington area. There has been established a gang 
strike force from Philadelphia to North Carolina, including 
West Virginia, with technology and getting real-time 
information. But what has been very successful there is that it 
is Federal, State and local.
    I am wondering if you are aware of this, or if you could 
try to prioritize, because we are having children in middle 
school now being recruited for gangs. Normally, the situation 
with a gang is that the gang becomes their family because their 
family life isn't any better.
    Attorney General Holder. The gang problem is not one that 
is going to be solved by the Federal Government, alone. It is 
going to have to be solved by an effort that involves our State 
and local partners.
    We just had a summit meeting of State and local law 
enforcement at the Justice Department 3 days ago. It is part of 
my attempt to reach out to our compatriots, our colleagues on 
the State and local side and establish ties that, frankly, I 
think have frayed in the past few years, and get back to what I 
think existed in the 1990s where the relationship between those 
of us here in Washington on the Federal side and our State and 
local partners was seen as a more productive one.
    The gang problem is something that the Federal Government 
can help because we have unique tools that can be used, be they 
electronic surveillance, other kinds----
    Mr. Ruppersberger. And more money.
    Attorney General Holder. And more money. That is true. And 
the budget is there for that. But there is a knowledge base 
that exists on the State and local side, especially the local 
side, that is particularly useful in trying to identify what 
gangs are into what activities, who are the leaders of these 
gangs. There is intelligence that you can get from the local 
side and from the State side that has to be a part of this 
process.
    States can't do it by themselves; local jurisdictions can't 
do it by themselves; the Federal Government, we can't do it by 
ourselves.

                      FBI NATIONAL SECURITY BRANCH

    Mr. Ruppersberger. I want to get into another area: the 
national security branch, which is basically the FBI, going 
more into the intelligence business. We know the CIA does not 
have jurisdiction within the United States. Again, intelligence 
is sometimes the best defense against terrorism and other 
crimes.
    I know that the FBI is standing up a national security 
branch. But the FBI for years, since the Elliott Ness days, has 
been arrest, convict, and investigate. When you are in 
intelligence, you are really collecting and analyzing. It is 
almost a different profession.
    But it has taken a while for the FBI to stand up this 
national security branch. I think in the last year they have 
made a lot of progress. Part of it is to have that career path, 
kind of like in a fire department, where you have the 
suppression side, and you have the paramedic side.
    Are you working on or are you aware of the national 
security branch? Where do you see it going right now? Because 
they do need financial support.
    Attorney General Holder. The FBI, when you are dealing with 
gangs that are of national reach, MS-13, Crips, Bloods----
    Mr. Ruppersberger. I am also talking terrorism now, too; 
more so at the national security branch with the issue of 
terrorism.
    Attorney General Holder. The FBI really has transformed 
itself from the agency that was there when I left government, 
say, in 2001. It is, I believe, in a way that it was not 
before, a national security agency in that it has as a primary 
mission the gathering of intelligence, the analysis of 
intelligence.
    I go at 8:30 every morning to meet with the FBI Director, 
members of the CIA, members from other agencies, where we go 
over the past 24 hours' intelligence, and that is a primary 
role now.
    Mr. Ruppersberger. One other thing now is JTTF, the Joint 
Terrorism Task Force, which, I believe, and everyone takes 
credit for not having another attack. I think one of the major 
issues domestically is the Joint Terrorism Task Force, where 
the FBI coordinates it basically, but you have ICE, you have 
NSA, CIA, State and local not only collecting information, 
getting information from the CIA on bad guys that might be 
coming over into the United States, and I think as they have 
grown, we have a lot more of JTTFs all over the country right 
now.
    I would hope you would focus on that and make sure that 
they continue to get the funding that they need, because they 
have been very effective.
    Here is another example of what I talked about in my first 
line of questioning of making sure that those collectors have 
the guidelines that are necessary, and to make sure that there 
are not mistakes made like the one with Napolitano or whatever, 
which I am sure was just a mistake, but these are things that 
really take our eye off the ball.
    Attorney General Holder. I would agree with you that the 
Joint Terrorism Task Forces are particularly effective and will 
be supported.
    Mr. Ruppersberger. Thank you.
    Mr. Obey. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.

                          OPERATION STREAMLINE

    Mr. Attorney General, in my 5 minutes I wanted to bring to 
your attention on behalf of my colleagues in Texas that 
represent the southern border a very successful program that is 
a win-win that you may not be aware of. It is called Operation 
Streamline. And we do need your help, the support of the 
Department, in expanding it up and down the river. It is a 
truly successful program supported by the local community.
    It has had tremendous results in bringing down the crime 
rate. In the Del Rio sector, crime rates have dropped by over 
70 percent. They have had a 60 percent drop in the crime rate 
in the Laredo sector. The level of illegal crossings in Laredo 
and Del Rio are at the lowest level since they began to keep 
records, which is astonishing. And the Val Verde County jail, 
which contracts with the Marshal Service, actually has 
vacancies in it. That is a result, again, that the certainty of 
swift and sure punishment has led people to try to attempt to 
cross the border elsewhere.
    And I am working with my colleagues, Ciro Rodriguez and 
Henry Cuellar, and Congressman Solomon Ortiz. We are working 
with him to extend this into the Rio Grande Valley. I wanted to 
be sure to bring it to your attention and work with whoever on 
your staff that you could designate to help us on this 
committee.
    But we are working together in a bipartisan way to get this 
program extended up and down the entire southern border. It is 
essentially enforcing existing law, the existing criminal 
statute. It is up to 6 months in jail for crossing the border 
illegally. But obviously being prosecutorial discretion, law 
enforcement officers using their good judgment, some folks get 
a few days, some folks a few weeks, and then they are deported. 
The program is very, very successful.
    There is also, Mr. Attorney General, wildly different 
levels of enforcement up and down the southern border. In Texas 
in Del Rio and Laredo, the arrest rate is over 90 percent, 
nearing 100 percent in some areas. In the Yuma sector they also 
have the Operation Streamline program in place. Again, the 
crime rate has plummeted. It is very successful, very popular 
locally.
    Right next door in the Tucson, Arizona, sector is where I 
am going to really need your help. The local U.S. attorney who 
was there before, and she is no longer there, refuses to 
prosecute most of the cases. The Border Patrol has provided 
numbers, which we can share with your staff, that 99.6 percent 
of the people arrested by the Border Patrol in the Tucson 
sector are never prosecuted, and they are generally home in 
time for dinner, even if they are carrying a load of up to 500 
pounds.
    We asked the Border Patrol agents how long did it take the 
smugglers to get the memo, so to speak, that if you carried 
less than 500 pounds, you weren't going to be prosecuted? They 
said it was about 48 hours. These guys are no dummies.
    And the judges are ready to help you in that sector. We 
have got the cooperation of the Border Patrol. I know the 
subcommittee is ready to help. It is a bipartisan effort. We 
are really going to need your help to focus the attention of 
whoever the new U.S. attorney is in that sector to make sure 
that the law is enforced there, obviously in accordance with 
what your local capacity needs are. But, in any event, I want 
to put it on your radar screen.
    I look forward to working you, sir. And if you can 
designate someone on your staff to work with us. And I want to 
ask if you would support the expansion of that very successful 
program and work with us to help in a bipartisan way to see it 
is extended up and down the border.
    Attorney General Holder. I have read a lot about 
Streamline, and I agree with you that it has had some pretty 
remarkable success. It is interesting that Streamline is 
different as you go from one part of the border to another; the 
same basic concept, but it really has different versions.
    One of the concerns I have about it is that I don't think 
we have given enough attention to the downstream impact of 
Streamline in terms of detention capacity and court capacity to 
try the cases that it generates.
    That doesn't mean it is not a good idea, it just means if 
we are really going to do it, we really ought to do it and 
support it so that we can make sure that it is as successful as 
it possibly can be.
    Mr. Culberson. I have got a lot of information on this. I 
look forward to working with you.

                    INDIVIDUAL'S RIGHT TO BEAR ARMS

    I have just got a couple of minutes left, but I want to 
tell you that there are vacancy--do I have 1 minute left?
    Let me ask Mr. Holder, if I could, could you explain your 
own personal position, the position of the Department of 
Justice, on whether the D.C. V. Heller case was correctly 
decided, and do American citizens have an individual right to 
keep and bear arms under the second amendment?
    Attorney General Holder. Under our system of laws, the 
Supreme Court has spoken, and they indicated that the second 
amendment does confer an individualized right. As a law 
enforcement officer, as a lawyer, I am bound to follow what the 
Supreme Court has said.
    Mr. Culberson. So the Department will support that opinion 
and not seek to overturn it?
    Attorney General Holder. I don't think there is a basis to 
try to overturn it. The Supreme Court has spoken.
    Mr. Culberson. Thank you.
    Mr. Obey. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.

                            TIAHRT AMENDMENT

    Again, thank you for your time and your insights. I have 
three questions regarding the trace data restrictions. I 
applaud you and President Obama for the administration's pledge 
to repeal the Tiahrt amendment, which is on your urban policy 
agenda. You know that the Tiahrt amendment restricts the 
ability of local law enforcement to access important gun trace 
information and give police officers across the Nation the 
tools they need to solve gun crimes and fight illegal arms 
trade.
    So one question is: Can you talk about the administration's 
commitment to repealing these restrictions, and will the 
administration's budget recommendations include reform of the 
Tiahrt amendment?
    The second one is: The reason that was given not to repeal 
the amendment is that the restrictions protect the identities 
of Federal undercover law enforcements, and I believe that 
President Obama as a Senator, when he cosponsored with Senator 
Menendez, their bill had taken care of that, to allow the ATF 
to withhold specific trace information if it identifies any 
undercover law enforcement officer.
    I was just curious whether you believe that these 
protections could deal with the hypothetical risks posed by 
removing these restrictions.
    The third is the background check record destruction. The 
third key element of the Tiahrt amendment is a requirement that 
the FBI destroy firearms background check records within 24 
hours of a completed transaction. I have a concern about that 
short timeline. And I believe that past administrations have 
maintained 180 days, reduced to about 90, and then the Tiahrt 
would say within 24 hours.
    Director Mueller of the FBI had testified in 2007 that he 
believed that there should have been a more substantial period 
of time relative to these records being kept. Do you agree with 
the Director Mueller's comments, and what would be, in your 
opinion, a reasonable amount of time?
    Attorney General Holder. Let me go through those. The 
administration is in the process of finalizing its position on 
the Tiahrt amendment, and we will be setting forth the 
administration's position when we submit the 2010 budget. I 
think it is our view, though, that we are concerned about the 
impact that the amendment has had on the ability to share 
information that is needed by State and local authorities.
    The second question with regard to protecting informants, I 
think there are ways--if the administration decides to support 
repeal--that those concerns can be dealt with so that the 
information sharing does not put anybody at risk.
    Then with regard to the question of records and the amount 
of time that they are kept, I would agree with the Director 
that the period that we now have is a little short. I am not 
sure where that number ought to be set, but I think there ought 
to be some period of time that would give law enforcement an 
opportunity to do its job, while respecting the concerns that 
people might have as a result of the second amendment.
    I don't think there is necessarily a tension there, just a 
question of figuring out where we set that number.
    Mr. Honda. These amendments and the destruction of records 
so quickly, is there a role, if any, played in the availability 
of these arms being traded over the border in our efforts to 
combat the drug cartels and the incidence of so many firearms? 
The consul general from Mexico in my area says that these high-
powered arms are more relevant and more prevalent among the 
gangsters than among law enforcement. And I was wondering 
whether these kinds of information are necessary and play a 
part in the inability or the difficulty of tracing these arms.
    Attorney General Holder. I think that if we had a longer 
period of time, we probably could be more effective in doing 
that tracing. That was a particular concern as I talked to 
Attorney General Mora. He indicated about 63 percent of the 
guns that they are getting in Mexico now are high-powered 
assault weapons, and that is going up pretty dramatically from 
where it was a few years before.
    And so anything that we can do to help our Mexican 
counterparts in that regard I think is appropriate, although I 
think it also has potential benefit for law enforcement on our 
side of the border as well.

                       SALES OF ARMS AT GUN SHOWS

    Mr. Honda. A related question relative to gun shows and the 
sales of arms at gun shows, and the restrictions or the 
regulations we put behind the sales of firearms at gun shows. 
Are they different from the requirements that we have for 
retail sources who are selling arms in the stores? If they are 
the same, I would like to know that. If they are not, why not? 
And is there a role that your office can play in bringing some 
consistency so that it appears that these guns over the border 
appear to come from particular States that have certain rules 
that maybe could be more consistent?
    Attorney General Holder. The rules are different with 
regard to the sale of weapons by federally licensed firearms 
dealers and at least some who can sell weapons at gun shows. I 
think that is a question that we in law enforcement, in 
conjunction with people in the advocacy community, need to talk 
about and see if there are ways in which we can reach a middle 
ground, something that I think will benefit those of us who are 
in law enforcement trying to do a job while being respectful of 
the second amendment rights that everybody in this Nation has.
    It would seem to me that a dialog between many of us in law 
enforcement and those, for instance, at the NRA--I am just 
picking that organization--it might be a good thing to sit down 
and talk about these issues and see if there is a way in which 
we can resolve them, respecting the concerns that they have and 
the concerns that we have. Too often there is conversation and 
shouting at each other without any kind of meaningful dialog. 
So I think that is at least a possibility.
    Mr. Obey. The gentleman's time has expired.
    Mr. Kennedy.
    Mr. Kennedy. Thank you.
    Welcome, Mr. Attorney General. It is an honor to have you. 
Thank you for your service to our country.

                          REDUCING RECIDIVISM

    Last year, the Urban Institute's Policy Center released a 
study on drug courts titled: To Treat Or Not to Treat: Evidence 
on the Prospects of Expanding Treatment to Drug-Involved 
Offenders.
    I know you spoke earlier a little bit about expanding the 
budget for drug courts. What are your efforts going to be to 
ensure proper funding for our Nation's drug courts in fiscal 
2010 in order to serve the estimated 1.2 million individuals 
identified in the study that the Urban Institute was citing 
from their model? And, in doing so, what do you think the 
Justice Department should be doing more in that effort to 
reduce recidivism in the context of the Second Chance Act and 
in the context of dealing with the mentally ill in our prisons, 
specifically, for example, making sure that they get their 
medications when they are about to be released so that they 
don't end up self-medicating when they get released?
    As you know, they don't even get on Medicaid when they get 
released, and that forces many of them to go out and self-
medicate. It is a vicious cycle.
    I would encourage you to look at that piece of legislation. 
It was previously sponsored by Julia Carson out of 
Indianapolis. I am proud to sponsor it today. But I would love 
to get you to look at it. 

                              DNA ANALYSIS

    Mr. Kennedy. In addition to that, one of the things that 
has always boggled my mind in terms of Justice is the fact that 
we have this backlog of rape kits. You know, we never get 
caught up in our DNA testing. You know, the American public 
watches CSI, you know, Miami, CSI New York, they watch all 
these things, and they assume that all of our departments and 
all of our DOJ is just--you know, we got the most modern 
laboratories, and we are just doing all these great tests on 
forensic evidence all the time. If they only knew, if they only 
knew how many crimes are going unsolved in this country simply 
because these DNA tests were sitting on the shelves, but for 
the lack of money to just do the test. And if we simply did the 
test, we could actually solve crimes, literally solve crimes, 
because we have done the DNA tests on all these other criminals 
who have come into our judicial system from around the country. 
Now we are requiring it for all these prisoners around the 
country in their prison systems. And if at the very least we 
could just match existing DNA samples with people that are 
already in prison for other crimes, you would bring closure to 
those victims. But what happens? We are letting them sit out 
there. A lot of this material is becoming degredated so it is 
not becoming useful for future testing.
    How in the world can we justify the lack of funding for 
these rape kits? And how can we justify lack of funding for 
recidivism reduction in things like drug courts and paying for 
medication for the mentally ill, which we know is going to mean 
they are going to be less mentally ill coming back to prison?
    Attorney General Holder. You raise a lot of good points. 
And actually, I was trying to find the numbers. They have now 
been shared with me. There is in this budget $150 million for 
DNA analysis and related programs. And you are right, there is 
a substantial amount of DNA evidence that really sits, for 
instance, in the FBI that has not been analyzed.
    As a D.C. resident, at least one of the things I would 
point out is about a third of that comes from Washington, D.C., 
where we have been trying to get funding for our own forensic 
crime lab so that we would have an ability to do that and take 
that off the hands of the FBI. There is also $60 million in the 
budget for drug courts for next year, an expansion of a program 
that worked well here in Washington, D.C. I had personal 
experience with it when I was the U.S. attorney.
    And you have touched on something that I think is a really 
troubling thing that I saw as a judge when I was here in D.C. I 
saw substantial numbers of people who had mental issues and who 
were in the criminal justice system, and they were clearly in 
the wrong place. There is no dispute that they had committed 
petty crimes, but they were clearly in the wrong place and not 
getting the kind of treatment that they needed.
    And so I think we as a Nation have to understand that and 
look at who is in the jail for what reason, and expand the 
resources for those who have mental issues. It is something 
that, again, if we spend that money there, we will actually 
save money, I think, over the long haul, and use our limited 
criminal resources for people who truly deserve to be there.

                           JUVENILE DETENTION

    Mr. Kennedy. Well, if I could, I would also like to press 
you on the case of kids in jail. In Rhode Island we just put a 
16-year-old into an adult corrections institution. Now, granted 
it was for a murder, but, I mean, even if he committed murder, 
there is no reason why anywhere in this country a child ought 
to be housed with an adult, period. I do not know, what is your 
opinion on that?
    Attorney General Holder. Yes, there are instances, rare 
instances, where the prosecution of juveniles or people less 
than 18 years of age can be tried appropriately as adults. But 
in terms of how they are housed in the criminal justice system 
while they are awaiting trial or while they are serving 
sentences, they should be kept separate. It is simply not 
appropriate to mix those two populations.
    Mr. Kennedy. Well, maybe we could work together on trying 
to make sure that we make that stipulation to States; if they 
expect to receive juvenile justice dollars, that they are not 
mixing kids with adults. We know that those kids are going to 
come out psychologically damaged and worse offenders if they go 
in with adults at all.
    And I might add, I do not know what we are doing in this 
country when we have 2,500 kids who have been handed down life 
without parole. That is an indictment on this country. These 
are kids that have not even reached their 18th birthday. And 
all neuroscientists will tell you their frontal lobe has not 
even been fully developed.
    And we are saying, you know, three strikes and you are out. 
They are already out, and they have not even been able to get 
to first base in life. It is a pretty sad indictment on our 
country. I mean, I think those three strikes are on us as a 
society for not coming up with a better mousetrap.
    And I guarantee you when I was up in the juvenile 
correction hall in my State, three-quarters of the kids, when I 
asked them if their parents were in jail at the time that they 
were there, they put their hands up.
    This is not a mystery where these kids come from. And why 
we do not think that early intervention should not make more of 
a difference, and we are just waiting for a lot of these 
tragedies to take place, and we know how to do better, and yet 
we do not do it.
    Do you think you are going to do more with the JPTA program 
and JABG and juvenile justice moneys that you have in your 
budget? Are you going to focus a lot on kids as Attorney 
General?
    Attorney General Holder. Yes. It was one of the things that 
I focused on when I was Deputy Attorney General, and we focused 
on a program that we started called Children Exposed to 
Violence, and the impact that had on kids, and how, when they 
are victimized or when they see violence, they are much more 
likely to become victims of violence when they are adults, 
which I thought was very interesting, and then also much more 
likely to commit crimes.
    And so, that is something that I really want to focus on. 
It is something I hope I will leave as a legacy as Attorney 
General, focusing on that prevention side----
    Mr. Kennedy. Great.
    Attorney General Holder [continuing]. So that we keep kids 
out of the system.
    Mr. Kennedy. Great. Well, I wish you luck and look forward 
to working with you on that. Thank you, Mr. Attorney General.
    Mr. Culberson. Mr. Chairman, 15 seconds just to add 
something to the record very quickly?
    Mr. Obey. Yeah.
    Mr. Culberson. I just wonder if I could for the record, Mr. 
Chairman, just to reiterate some sworn testimony we got from 
the ATF Director, Mr. Attorney General, that over 99 percent of 
the licensed gun dealers in America are following the law and 
are doing their jobs.
    Attorney General Holder. Oh, yeah.
    Mr. Culberson. Thank you. I want to make sure we get that 
for the record, because it is important.
    Attorney General Holder. I would not doubt that statistic 
at all. The focus needs to be on that very, very, very small 
number of dealers who are not following the law. But I think 
you are absolutely right.
    Mr. Culberson. Thank you.
    Mr. Obey. Mr. Attorney General, I know we need to get you 
out of here fairly soon. I have got to ask you a few basic 
questions, at least a few, which will actually be related to 
the budget.
    Attorney General Holder. Uh-oh.

                          WARRANTLESS WIRETAPS

    Mr. Obey. But first let me ask you about warrantless 
wiretapping. Last week the New York Times revealed some 
significant problems with the NSA's warrantless wiretapping 
program, including the charge that NSA illegally collected the 
domestic communications of Americans. Most of those problems 
were identified during a periodic review of the program by your 
Department.
    Some say these revelations are a sign that the system is 
broken because significant violations occurred. Others say that 
they are a sign the system is working because the violations 
were identified.
    How often does DOJ review the workings of these warrantless 
wiretapping programs? If the periodic review identified 
problems this severe, do you think the program would benefit 
from continuous DOJ oversight?
    Let me just pop the other questions at you on this subject 
also. The Times article says that part of the problem is NSA's 
inability to distinguish between domestic communications and 
international messages passed through American communications 
gateways. When the Congress passed the legislation authorizing 
NSA's programs, we did so with the understanding that they had 
those technical abilities. Are revisions necessary to the law 
to include additional safeguards now that it appears NSA has 
trouble distinguishing between these two types of messages?
    I have two other questions on this point that I will submit 
to you for the record.
    Attorney General Holder. The Justice Department and the NSA 
were conducting, I think, routine oversight of the activities 
that you were describing and made the determination that there 
were issues, there were problems. Those issues were brought to 
the attention of the FISA court. Changes were made after 
interacting with the judges, and reauthorization to use those 
techniques was not sought until the judges were satisfied that 
the proposed changes dealt with the problem.
    But there are periodic reviews that are done by Justice and 
by NSA that I could perhaps share with you by letter, or in a 
different forum I could give you a better sense of exactly the 
time period in which those reviews occur. But I actually think 
this is an indication of where the system worked. I mean, 
clearly it was a problem, but it was something that was 
discovered, was reported, and was modified, and the courts are 
now monitoring to make sure that the changes that have been put 
in place are, in fact, being carried out.
    With regard to the question about NSA having trouble making 
the distinction between foreign and domestic transmissions, 
that is one that I will have to get back to you on, 
Congressman, Mr. Chairman. I do not think I am steeped enough 
in that to speak intelligently about it.

                            FUNDING EARMARKS

    Mr. Obey. All right. Earmarks. As you know, there have been 
occasional discussions in this town about the advisability of 
congressional earmarks. Congress is routinely criticized for 
earmarking, even though congressionally directed projects 
represent only a fraction of the funding under the executive 
branch's discretion.
    The Congress has taken several steps in recent years to 
ensure transparency and accountability in our earmarking 
process, but it is not clear that the executive branch has had 
the same degree of transparency in its process for allocating 
funding. This committee directed the Office of Inspector 
General to review the award process for fiscal 2007 juvenile 
justice grants based upon allegations that award decisions may 
have circumvented the peer review process. In the omnibus 
spending bill enacted in March, the committee also directed the 
Department to report to this committee within 30 days on the 
results of the Department's internal review of that award 
process. That deadline has now passed; we do not have the 
report yet.
    Questions: When can the committee expect to receive the 
report? In general, what is the Department's policy on the role 
of peer review in the award of grants? Most specifically, under 
what circumstances might the Department award a grant to an 
applicant who is ranked lower according to peer review than an 
applicant who does not receive an award? What level of 
departmental authority is entitled to overrule a peer review 
decision? For cases in which peer review is overruled, what 
kind of disclosure is required to ensure that the decision is 
transparent?
    Attorney General Holder. Well, the way in which I would 
view this is I would advise the President and develop the 
Department's budget based upon the national priorities that we 
have identified without falling into the earmark way of doing 
things; to rely on the experts that we have in the Justice 
Department to come up with identifying programs that are worthy 
of funding, worthy of support. We have a lot of good people in 
the Office of Justice Programs and the various components that 
make up OJP, and I would rely on them so that we came up with 
fair competition and good decisions about what programs the 
Department would support.
    Now, with regard to the request that was made of the 
inspector general, of that I am not aware. I will relay to him 
the concern that you have expressed about the timeliness of 
that report. But the IG acts pretty independently of the 
Department. But I will relay to him the concern that you had.
    Mr. Obey. No, it is the report from your agency that is 
overdue.
    Attorney General Holder. From us?
    Mr. Obey. Yes.
    Attorney General Holder. All right. Well, in that case I 
will look into it and see what is going on.
    [The information follows:]

    Overdue reports on awarding grants.
    Answer:
    The OJJDP Report to Congress regarding the awarding of grants is in 
the final stages of clearance within the Department and should be 
transmitted to the Committee by the end of May.

    Mr. Obey. My point is simply that there are programs for 
which the executive branch establishes criteria for funding, 
and then there seem to be exceptions that are made for those 
criteria. There may be perfectly legitimate reasons why there 
are exceptions. But if one branch of government is going to be 
held to a formulaic standard, it seems to me that we ought to 
ask the other branch of government to do the same thing, which 
is why I ask the question.
    Mr. Wolf. Following up on the Chairman's issue, about 6 or 
7 years ago we had a problem in northern Virginia with violent 
gangs. They took Brenda Paz, who was in the witness protection 
program, down to the Shenandoah Valley and killed her, MS-13. 
The Justice Department person said--and I put an earmark in to 
deal with the gang issue in this region. And if you look at the 
reports, we are doing better than any other region. And yet the 
Justice Department career person said there is no gang problem 
in northern Virginia. And it just so happened that that person 
lived in northern Virginia.
    So I think what the Chairman may very well be saying, I 
think sometimes you can see things from this side, and maybe 
the Justice Department may not be always right in its decisions 
that it is making. Had we not done this, crime would have been 
rampant much more so. And on this whole issue of it, as the 
gentleman from Maryland was talking about, we have in this 
region now a crime antigang problem with FBI, DEA, ATF, Marshal 
Service, and every local law enforcement, Arlington, Fairfax, 
Loudoun, and yet the Justice Department person, along the lines 
what the Chairman says, we are not going to do that because 
they said it was not a problem. And we put an earmark in there, 
and I think it has made a big difference and saved a lot of 
lives.
    Attorney General Holder. I think we have to come up with 
funding schemes, resources, attention to problems that are 
real. And I do not know who you talked to, but, I mean, 
obviously there is a gang problem here that we have to deal 
with.
    I remember Jim Comey, when he was the U.S. Attorney in 
Richmond, came up with an idea about something he called 
Project Exile, and we found ways in which we funded that. I am 
not sure if that was an earmark or not, but it was an effective 
program that ultimately was replicated around the country.
    So I think we want to stay away from earmarks, but we want, 
to the extent we can, to identify programs that work, identify 
problems that exist and programs that work, and then, working 
together, fund them and support them.
    Mr. Obey. Mr. Attorney General, I know you have to leave, 
so let me simply say I will submit for the record a series of 
questions, some of them involving the question of the FBI's 
growth policy, others involving the question of staffing levels 
at prisons, and especially the committee's concern about 
whether or not we are sufficiently coordinating between Justice 
and Homeland Security in terms of budget growth, because some 
of those things intertwine.

                           COMMENT ON TORTURE

    Mr. Obey. Then I want to simply make one last comment on 
torture. I am not quite sure how to say this, but let me say we 
have already had prosecution of people for interrogation. When 
people ask whether or not we should have prosecutions, we have 
already had it. It has just been for some low-level grunts at 
Abu Ghraib. With a couple exceptions, we have not had any more.
    What bothers me, in addition to the fact that it occurred 
at all, is the fact that I have no question that Congress was 
lied to. I absolutely know that I was lied to in several 
closed-door meetings when I asked specific questions about 
torture from a variety of agencies. In terms of whether 
something is defined as torture or not, the Washington Post's 
editorial 2 days ago indicated that 1 person was waterboarded 
183 times in 1 month.
    [Disturbance in the hearing room.]
    Mr. Obey. With all due respect, this is a congressional 
committee hearing, and I will clear the room if there are any 
other comments. No editorializing.
    I am told that another person was waterboarded 83 times in 
1 month. Now, if that is not torture, then I am Alice in 
Wonderland. I can recall after the scandals in Chile, a good 
many of us in Congress wanted to have the full story told about 
what happened in that government. Or Egypt, where we have 
criticized their lack of human rights and the way they deal 
with prisoners as well as their own political opposition.
    So it seems to me that we have complained many times about 
torture when it is engaged in by other countries. I have to 
confess that I have been very reluctant to support the idea of 
any significant widespread prosecution of people, even though I 
vehemently disagree with the idea of torture, because I do not 
believe in politicizing prosecutorial judgments. So I 
instinctively lean over backwards in preferring that we not 
have a wholesale sweep of past conduct.
    But having said that, I have to say that I get increasingly 
disturbed when I watch television, when I watch C-SPAN, as I 
have a couple mornings this week, and I see people on the tube, 
former government officials, enthusiastically defending what 
they did and playing word games with the national television 
audience.
    So it seems to me that the important question is not 
whether there is widespread prosecution of people who either 
carried out or originated instructions or legal opinions. It 
seems to me the important question is whether we are going to 
strike the right balance between pursuing personal wrongdoing 
and making sure that the country has the correct narrative 
about what did happen so that we understand who did what, what 
did constitute overstepping of the line, because, with this 
news being out, I think we have an obligation to say to the 
world what we think goes beyond the line and what does not.
    So you have got a tough job to do, as do others in the 
administration, in determining how to proceed with this issue. 
But it is important that we get it right. I hope that in the 
end we can produce a balanced, disciplined approach to this 
problem. I do not want things swept under the rug. Having come 
from the State of Joe McCarthy, I also do not want to see 
people in their zeal to go after wrongdoing wind up catching 
people in the net who really do not belong there. It requires a 
great deal of discretion. I have a lot of confidence in your 
ability to help find that.
    Attorney General Holder. Thank you.
    Mr. Obey. Mr. Wolf, I do not know if you have any other 
comments.
    With that, thank you very much for coming. Because we have 
not yet received the President's complete budget for fiscal 
2010, the hearing record will remain open for 2 weeks following 
the budget submission so that Members have the opportunity to 
provide questions for the record related to the budget's 
details.
    Mr. Obey. Thanks for coming.
    Attorney General Holder. Thank you.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                           Tuesday, April 28, 2009.

                         DEPARTMENT OF COMMERCE

                                WITNESS

GARY LOCKE, SECRETARY OF COMMERCE

                            Opening Remarks

    Mr. Mollohan. The hearing will come to order.
    Good morning, Secretary Locke. Welcome to the other 
Washington. You have unique qualifications to tackle the 
problems that you are inheriting. As Chair of the Subcommittee 
charged with funding your Department and its several agencies, 
I look forward to working with you on the increasingly 
significant challenges facing the Department of Commerce. In 
fact, the Department faces so many formidable challenges that 
we will not be able to discuss all the issues facing all of its 
agencies today. This is not because the committee is 
uninterested in tackling the issues that beset the smaller 
agencies. There is simply not enough time in one day to do 
justice to all the concerns. And today we choose to focus on 
the most fiscally significant. It is sometimes unfortunately 
true that the squeaky wheel gets the grease.
    From the fiscal behemoth that is Census during its 
decennial year through the critical research and operations of 
NOAA, the burgeoning broadband issue, the backlog of 
intellectual property applications, the challenge of ensuring 
science and technical rigor for economic expansion, the 
complexity of international trade and all of its ramifications, 
and the necessity for economic development, to the smallest 
individual agency, the Minority Business Development Agency, 
the Department is challenged by diversity of missions and 
perceived lack of cohesion. It is this committee's expectation 
that you, Secretary Locke, will find the common thread among 
all of the these diverse agencies and align their interests to 
bring the Department into the 21st century. If we ever needed a 
unified Department of Commerce, obviously it is now.
    The 2010 decennial has been beset by lack of management and 
oversight, the lack of acquisitions expertise, and lack of 
transparency by an agency whose culture is perceived as so 
impenetrable as to be self-defeating. Recent contract 
modifications have reframed the concerns and renewed some 
confidence in this agency, but great risks remain; and so much 
depends on the success of the Bureau's diligent employees to 
overcome the obstacles that--in many--ways were self-created. 
It certainly doesn't help that leadership in the form of a new 
Director is delayed, that there will have been three different 
Directors in the three years leading up to the decennial, and 
that a new Secretary must guide the process.
    Recently this committee has heard testimony on the state of 
the climate, and it is disturbing. The Nation, indeed the 
planet, is at a crossroads. Scientific consensus exists that 
humans are altering Earth's climate. Humans are at risk because 
the climate is affecting the organisms on which we all depend. 
Carbon dioxide remains in the atmosphere for 1,000 years, and 
no matter what we do now, a projected \1/2\ to 1 degree further 
warming will occur due to a lag in the atmosphere. As Dr. Susan 
Solomon testified, ``We can only crank the dial one way, and we 
have got to decide how far.''
    There is already 30 percent more CO<INF>2</INF> in the 
atmosphere than there has been in the past 500,000 years. 
Temperature increased 1.3 degrees Fahrenheit. More rain is 
falling as heavy rain. Ocean acidification is becoming a 
serious threat as the ocean is a carbon sink. The atmosphere is 
currently at 385 parts per million CO<INF>2</INF> and on its 
way to 450 parts per million.
    As a consequence, the oceans have become 30 percent more 
acidic already, and another 30 percent change appears likely. 
The organisms we depend on have not evolved to deal with the 
increasing acidity. Coral reefs are a good metric, and more 
will dissolve than evolve by 2050. This negatively affects our 
fisheries and our coasts, where the vast majority of people 
live.
    Rising sea levels will compound the problem, and this 
committee heard testimony that sea levels were very likely to 
rise by 1 meter by 2100 as a result of melting ice sheets. In 
some areas, given the slope of the coast, that means that seas 
could move inland by more than half a mile. This could 
drastically alter the coastline worldwide as beach erosion will 
be highly sensitive to increasing sea levels and is projected 
to cost as much as $1 trillion in GDP.
    The Nation needs an agency that can provide the data needed 
for citizens and communities to adapt to these changes and to 
mitigate them as much as possible. There is only one agency 
that is capable of providing this leadership role, but it is 
not structured or funded for this Herculean task. This 
committee expects you and your Administrator, Dr. Jane 
Lubchenco, to ensure the creation of a National Climate 
Service, analogous to the National Weather Service within NOAA, 
and to do everything in your power to fund it commensurate with 
its mission. This includes all of NOAA's line offices, not just 
the NCS, because the agency is uniquely suited and tasked to 
research, monitor, regulate, produce and archive the data, and 
to collaborate with other Federal and international agencies, 
States and local governments in combating these enormous 
challenges.
    However, in order to ensure that both the NCS and the NWS 
receive all the data they depend on, you and your new 
Administrator will have to first fix the National Polar 
Orbiting Satellite System, NPOESS. The agency appears to have 
had some somewhat more success with the next generation of 
GOES, GOES-R, although GAO still found some cause for concern, 
and this committee will rely on you and Dr. Lubchenco to ensure 
it does not duplicate the messy path of NPOESS.
    Underpinning all of these challenges is the need to ensure 
the science and technical expertise exists and is fostered for 
future generations; that measurements are reliable so that 
industry can move forward with innovations to combat climate 
change and meet energy needs; and that the acquisition and 
procurement process is transparent, technically feasible, and 
does not bankrupt the Nation in the process.
    Other critical needs include ensuring a safety culture; 
modernizing information technology systems to bring them into 
the 21st century; ensuring the Nation is safe from cyberattack; 
and maintaining fisheries at sustainable levels so that they 
provide both sustenance and reliable economies for the 
communities that depend upon them.
    As we all know, we have not yet received the President's 
complete budget submission. Accordingly, we don't know many of 
the details of the request. We will be anxious to see those 
details when the budget is submitted, and we are sure to have 
additional questions at that time.
    The hearing transcript will remain open two weeks after the 
budget submission so as to provide Members an opportunity to 
submit any budget-related questions.
    At this time, Mr. Secretary, I would like to invite you to 
make your opening statement. Your recorded statement will be 
made a part of the record. Before I do that, I call on the 
Ranking Member, Mr. Wolf, for any opening statement he would 
like to make.
    [Written statement by Chairman Alan Mollohan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                            Opening Remarks

    Mr. Wolf. Thank you, Mr. Chairman.
    Mr. Secretary, we welcome, welcome you. I think the 
Chairman has covered a lot of the points. I have a prepared 
statement and will just submit it for the record.
    There are several things that I am really concerned about, 
though, and the deficit that we are faced with the budget 
submission and what we are looking at now, the figure was 1.75 
trillion. Now, some have said as perhaps it could go to as high 
as $1.9 trillion. And I know I looked at your bio last night 
when I was going through the material. You have three young 
children. I have five children, and I have a number of 
grandchildren. And I just wonder what we are transferring or 
passing on to future generations.
    While I think a lot of this spending is necessary to a 
certain degree, and when I was Chairman of this committee, we 
dramatically increased the spending on sciences. But 
Congressman Cooper and I have a bill--we have 26 Republicans on 
it and 26 Democrats--that sets up a bipartisan national 
commission that puts every spending program, including 
entitlements and tax policy, on the table. With the deficit 
projections under this administration will continue through the 
year 2019, the projection is in that year the deficit will be 
$712 billion in 2019. No nation, no nation can continue this 
way.
    We had a group a month ago that released a new series of 
recommendations on education--it was chaired by former Governor 
Roemer, who you may or may not know; David Abshire, heading the 
Center for the Study of the Presidency; former Senator Brock--
that supported the concept that that Jim Cooper and I have. And 
at the unveiling of that, Norm Augustine got up and made the 
comment, he said, in the 16th century the Spaniards thought 
that they would always be the number one country; in the 17th 
century, the French believed that they would be number one; and 
in the 19th century, the British thought that they would be 
number one. The sun never set on the British Empire, they would 
say. Well, in the 20th century, we know they did not maintain 
it. In the 20th century, Augustine makes a very scary 
prediction that if we don't deal with both these deficits and 
also with increased areas in dealing on our economy, the U.S. 
could go the way of those other countries.
    The other issue--and there will be some questions as we get 
into it, and you are the key person, yet I haven't heard the 
administration say very, very much about it--is our 
manufacturing base is eroding before our eyes. There is a 
publication called Manufacturing News. Do you receive 
Manufacturing News?
    Secretary Locke. No, I don't.
    Mr. Wolf. You ought to get it. Your people can call my 
office, and we will give you the title, how to get it and get a 
copy. It comes out about every month.
    Our manufacturing base is almost gone. I know you are from 
the west coast, but if you get on the train in Washington and 
take it up to New York, you actually go through my old 
neighborhood in southwest Philadelphia. The factories are all 
closed. The windows are broken. There is graffiti all over the 
walls. There is a bridge that leaves Trenton, New Jersey, that 
goes into Pennsylvania that has a sign across that says, 
``Trenton makes. The world takes.'' Trenton does not make 
anything anymore. Trenton has a terrific gang problem, and is 
pretty much, from a manufacturing point, at the end of the 
case.
    I would hope that you could really put together a team to 
see what you can do there to rejuvenate, if you will, the 
manufacturing base, because we can no longer be a country that 
just buys things from other people, we have to begin to make 
them.
    With those two things, let me just say welcome to the 
committee, and look forward to working with you over the years.
    Mr. Mollohan. Secretary Locke, your opening statement.

                            Opening Remarks

    Secretary Locke. Thank you very much, Chairman Mollohan and 
Ranking Member Wolf. I am very pleased to join you today to 
talk about the Department of Commerce. I would like to make a 
brief opening statement and then, of course, submit written 
testimony for the record.
    It is my top priority to make certain that the Department 
of Commerce plays an integral role in President Obama's efforts 
to help America retool and reinvent. The President's budget 
reflects the Department's broad mandate to strengthen the 
Nation's economy, promote innovation and environmental 
stewardship, but I have also challenged our employees to 
establish the Department of Commerce in the eyes of America as 
the voice for Main Street businesses and family-wage jobs. And 
it is our intent to help grow local economies by fostering 
innovation and opening markets to U.S. products and services.
    To that end the President's fiscal year 2010 budget for the 
Department of Commerce includes some $13.8 billion in 
discretionary funds. This is an increase of $4.5 billion over 
the 2009 appropriation of $9.3 billion. Not counting Recovery 
Act appropriations, this is the large--a very large increase. 
The large increase is due primarily to the decennial census of 
some $4.1 billion.
    While most of the details of the 2010 request are still 
under development, I am happy to share highlights, and I look 
forward to providing the rest in the future and discussing 
those aspects with you and the other members of the Committee.
    This budget contains the resources necessary to complete 
the 2010 census effectively and on time, counting everyone 
once, only once, and in the right place. The allocation, 
combined with the $1 billion that the Congress provided in the 
Recovery Act, will enable us to hire nearly 1\1/2\ million 
temporary workers. We have also instituted numerous oversight 
changes in response to findings by the GAO and our own 
Inspector General.
    The request includes more than $1.3 billion for the 
National Oceanic and Atmospheric Administration satellite 
programs that capture key weather forecasting and climate data, 
as well as resources to advance climate and ocean research, and 
to support implementation of the Magnuson-Stevens Act. Our 
weather satellite programs have been the focus of much concern 
by the Congress and a variety of oversight agencies. Progress 
is being made to implement recommendations by GAO and the 
Inspector General's Office, and to apply those lessons, 
particularly with respect to the NPOESS program, into the GOES-
R program. But there still are significant challenges with 
respect to the NPOESS satellite program.
    The President's plan includes doubling the funding over 10 
years for the National Institute of Standards and Technology's 
research activities that are critical to the Nation's 
technology infrastructure, as well as $125 million for the 
Hollings Manufacturing Extension Partnership program and $70 
million for the Technology Innovation Program.
    The Economic Development Administration will provide some 
$50 million in grants to support the creation of regional 
innovation clusters, and use $50 million to create a nationwide 
network of public/private business incubators to promote 
entrepreneurial activities in distressed areas. It is also our 
intent to really lead an effort with respect to bringing back 
manufacturing and stabilizing manufacturing in the United 
States.
    The President's budget also supports the International 
Trade Administration's efforts to promote exports and eliminate 
barriers to the sale of U.S. products and goods abroad, but 
also continue to give the United States Patent and Trademark 
Office full access to its fee collections.
    I want to thank you for entrusting the Department with 
nearly $8 billion in Recovery Act funds. We have provided our 
proposed spend plans and will keep you informed of our 
progress.
    The National Telecommunications and Information 
Administration will have the biggest challenge, administering 
some $4.7 billion to improve broadband deployment throughout 
America.
    Besides planning for next year and making sure that we use 
current resources effectively, I am focused on addressing the 
key management issues facing the Department of Commerce, 
including conducting a successful 2010 census, and improving 
the patent process. We need to substantially reduce the backlog 
and the time frame by which patents and trademarks are 
approved. We need to manage our satellite development and 
acquisition programs, and we need to strengthen our overall 
information technologies infrastructure within the Department 
of Commerce, because key technology and many of our information 
technologies involve and deal with very sensitive issues of 
concern to national security.
    Your support has been and will be critical to our efforts. 
I appreciate the chance to hear your views on these subjects. I 
thank you for the opportunity to come before you today, and I 
look forward to your comments and questions not just today, but 
over the weeks and months to come. Thank you.
    Mr. Mollohan. Thank you, Mr. Secretary.
    [Written statement by Commerce Secretary Gary Locke 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Mollohan. In the first round, we are going to stick to 
the 5-minute rule and see how many Members come in and perhaps 
proceed differently after.

                            NOAA ORGANIC ACT

    NOAA was created, Mr. Secretary, in 1970 by consolidating 
programs from across the government. The consolidation was 
accomplished under an executive reorganization plan, leaving 
each program's original authorizing laws in place. Recently 
several NOAA ocean programs were authorized under the Omnibus 
Public Lands Act of 2009, Public Law 111-11. The U.S. 
Commission on Ocean Policy report stated that a NOAA organic 
act would strengthen the agency and would help to ensure that 
its structure is consistent with its primary functions of 
management, prediction, research and education. The Joint Ocean 
Commission Initiative calls for Congress, quote, to ``codify 
and strengthen NOAA to enhance its mission, improve its 
structure and better enable it to carry out new and exciting 
responsibilities.''
    Does this administration, Mr. Secretary, intend to pursue 
an organic act for NOAA?
    Secretary Locke. Chairman Mollohan, I have not yet had a 
chance to review the recommendations of the Commission on Ocean 
Policy. I do, in fact, know several of the members on that 
Commission and consider them very good friends. But I cannot 
comment and would have to get back to you as to our response to 
those recommendations.
    Mr. Mollohan. If you would.
    [The information follows:]

                            NOAA Organic Act

    At this time, the Administration has not determined whether or how 
to pursue a NOAA Organic Act. NOAA's Administrator, Dr. Jane Lubchenco, 
was a member of the Pew Ocean Commission and the Joint Ocean Commission 
Initiative. I will look to Dr. Lubchenco for recommendations on how to 
strengthen NOAA to ensure the agency can effectively carry out its 
mission.

                        NATIONAL CLIMATE SERVICE

    Mr. Mollohan. One of those new and exciting 
responsibilities should be the creation of the National Climate 
Service, Mr. Secretary. In fact, Dr. Jane Lubchenco, the new 
Under Secretary of Commerce for Oceans and Atmosphere and the 
Administrator of NOAA, has made it one of her priorities.
    Cities and States across the Nation are looking for 
information to help them make decisions on where to build, what 
type of construction, the required placement of transportation, 
wildlife corridors, and a myriad of other choices that will be 
affected by the increase in sea levels and changes in climate, 
and the world looks to this information and this Service. No 
single agency can meet all the Nation's need for climate 
services, but as the world's preeminent source of climate data 
and information, NOAA is uniquely positioned to coordinate 
climate information and service across the Federal Government.
    Secretary Locke, will you commit to the creation of a 
National Climate Service within NOAA and to ensure it is 
appropriately resourced to provide the Nation with the products 
and the services it needs to understand, monitor and adapt to 
climate change?
    Secretary Locke. Mr. Chairman, I am very supportive of what 
Dr. Lubchenco, Administrator of NOAA, has proposed by way of 
National Climate Service. And I think it is a natural extension 
to have it be part of NOAA, and it is a natural extension of 
our National Weather Service. And I clearly agree with you that 
we do need that type of service and entity, because farmers 
need that information, long-range information, about the 
impacts of climate change: communities that are affected by 
flooding; the concern about recreation and wildlife; what now 
falls as snow in the Cascade Mountains over the next several 
years in the future could fall as heavy rain, which has 
devastating impact not just on operations of the mountains and 
the use of the mountains for recreation, but also the impact on 
lowland areas.
    This country does need a service that provides that data 
about climate so that businesses, individuals, families, 
communities can plan and adapt accordingly. Hopefully the 
country will also make very pronounced efforts to reverse 
climate change, or at least prevent it from getting worse, but 
in the meantime we also need this climate service, and I 
support that.
    Mr. Mollohan. Thank you.
    Dr. Cicerone, president of the National Academy of 
Sciences, testified that we need an appropriate national 
strategy for climate change, and that NOAA should be in the 
center. He went on to name the big four in climate change: 
NOAA, NASA, NSF and DOE, with DOI and the USDA contributing.
    Given the fact that NOAA, NASA and NSF are all in the same 
Subcommittee as well as being the top three climate change 
agencies, should OMB coexamine their budgets to develop 
synergies and take advantage of these efficiencies?
    Secretary Locke. Well, I am not familiar with the structure 
in terms of the committees and as they relate to the Congress, 
but clearly I think that NOAA does work very well with all of 
these agencies, especially NASA, already. Again, I believe that 
there needs to be greater coordination, and I do believe that 
NOAA would be the appropriate agency to take the lead role with 
respect to a climate service.
    Mr. Mollohan. Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.
    How would the National Climate Service be set up? Would it 
be a division of NOAA? How would it be set up?
    Secretary Locke. No one has any details yet, and, of 
course, that needs to be coordinated with the White House. And 
I know that the White House and the President are very much 
concerned about climate change, and others within the White 
House have talked about a climate service. And I know that 
there are many Members of the Congress that are considering 
legislation.
    So we would be more than happy to work with the Members of 
Congress, along with the White House and OMB, on how a climate 
service would be established. But I would believe that it would 
be a part of NOAA, and I would be very supportive of having it 
be a part of NOAA, an extension of our National Weather Service 
activities already. What the exact appropriate, most cost-
effective, efficient and effective arrangement would be, I have 
no thoughts on that yet.

                           COMMERCE SPENDING

    Mr. Wolf. With regard to the spending, what is Commerce 
doing with regard to spending? Are there any programs that you 
are proposing to eliminate in fiscal year 2010 or any future 
years?
    Secretary Locke. Well, I don't have any proposals yet. I do 
know the President has charged us to be more efficient with the 
dollars that we do spend. And while I was Governor of the State 
of Washington, I prided myself in instituting a host of 
management changes that were able to accomplish our goals in a 
more cost-effective manner, having lofty goals, but using 
existing dollars to reorganize and to make our agencies more 
efficient and more effective, and to provide incentives for 
agencies to save money.
    I have already expressed some of those ideas to OMB and to 
the President in a Cabinet meeting, and I look forward to 
working with Members of Congress as well as the administration, 
OMB on how we can institutionalize budget savings so that there 
are incentives to save, and the agencies are not penalized for 
identifying areas for saving, but, in fact, are able to keep 
some of those dollars and then return some of those dollars 
back to the Treasury.
    Mr. Wolf. You know, the problem may very well be that in 
certain areas that you are in, there really are programs that 
you really may want to increase even. It is the entitlement 
issue, and the disappointment I have had with the Obama 
administration is they had that entitlement conference, and it 
just sort of evaporated and went away.
    Have you followed what David Walker has said, who was the 
former GAO, about the economic tsunami off the coast ready to 
come and swamp us?
    Secretary Locke. Yes, in fact I attended a conference put 
on by former Comptroller David Walker talking about the impact 
of the deficits, and this was about 2 years ago, and how, as 
you indicated in your opening statement, it is a mortgage on 
our children and our grandchildren. Of course, the President 
and the administration are really focused on economic stimulus. 
We have got so many people who are out of work. I think most of 
the observers indicate, and the economists have indicated, that 
in order to get us out of this recession, we have got to spend 
more.
    After accomplishing, hopefully, the economic stimulus and 
getting people back to work and our economy back on sound 
footing, we then have to really examine all the spending within 
the Federal Government. I know the President is committed to 
that, but we in the Department of Commerce need to look at our 
functions and decide what programs are effective, what are of a 
high priority, which are not effective and perhaps could be 
reduced or eliminated in order to free up dollars for other 
vital service.
    It has always been my belief and motto that regardless of 
the revenues that an agency or a department or a State or a 
government may have, we will never be able to do it all. We 
will never be able to satisfy everyone's wish lists; therefore, 
we need to establish priorities and focus on effective and 
efficient programs.
    Mr. Wolf. I thought you were reaching for your clock when I 
saw your hand.
    Mr. Mollohan. No, you have another minute.
    Mr. Wolf. Well, maybe I will save that question for another 
minute then. This may take more than a minute. You will bear 
with me, Mr. Chairman.

                     PROTECTING COMMERCE COMPUTERS

    The Secretary of Commerce's laptop computer was compromised 
when he went to Europe, when he went to China. Most of the 
people in his party, the same thing happened. A lot of Members 
of Congress haven't been aware, but when they go to China, 
their laptop is compromised, their BlackBerry is compromised, 
which comes back--my computer was stripped by the Chinese. 
There were 17 other Members of the House whose computers were 
stripped including the International Relations Committee. There 
are cyberattacks directed against a number of government 
agencies.
    What do you have planned with regard to protecting the 
computers and knowledge and information on the computers that 
you have in the Department of Commerce? And are you aware of 
what happened to Secretary Gutierrez?
    Secretary Locke. Yes, I am aware, and I have had a briefing 
with our inspector general, as well as some of the key agencies 
within--the bureaus within the Department of Commerce that are 
the repositories of very sensitive information dealing with 
national security, and our trade approaches, and the concerns 
that we have with respect to, for instance, exports of 
sensitive material to other countries.
    For instance, BIS, within the Department of Commerce, has 
very antiquated information technology systems for which they 
cannot even find replacement parts, and so they are truly 
surviving almost by a thread. It is my intent, as I indicated 
in the opening statement, to focus our energy on upgrading our 
technology systems and ensuring that we also have the utmost 
attention to cybersecurity. That has to be a top priority for 
the Department of Commerce because of the incidents that you 
have already referenced.
    Mr. Wolf. Thank you.
    Mr. Mollohan. Thank you, Mr. Wolf.
    For Members who have just arrived, we are proceeding under 
the 5-minute rule.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman, and welcome, Secretary 
Locke. It is good to see you.
    Just on the side, I just think that I don't know of anybody 
as well prepared as you are in terms of your background 
experience, so we look forward to working with you on the 
myriad of challenges you have in your office.

                                 CENSUS

    I heard that you spoke on the census, and my sense is that 
the work on the census is going to be very, very important. 
What I was hoping also was that the emphasis on communities of 
great need, communities that are difficult to assess have a 
higher tension, and because of our financial crisis now and 
trying to get information on folks would depend a lot on 
addresses.
    So I was wondering what thoughts you may have had on so 
many people losing their homes, how are you going to be able to 
get accurate information on our communities, on the census and 
on the community survey, which goes on as a continuous effort?
    The issue of language other than Spanish, Spanish has the 
sufficient numbers, but we usually look at percentage of a 
population before we look at the implementation of languages. 
Given that our communities are varied, and some are larger than 
others, but the need for communication in this arena is still 
important. Maybe you can speak a little bit about how you may 
want--how you may address the language issues with our 
communities that might be creative and unique.

                             CLIMATE CHANGE

    And the issues around NOAA and climate change, I support 
all the efforts that you have talked about. And I think that 
the coordination of the climate issues is going to be paramount 
in this climate change. So maybe you could talk a little bit 
about how you think you may be operating at the Cabinet level 
with the other Secretaries, given that they have issues and 
arenas they are responsible for, and how you may be working 
with them to make sure that the issue of climate change is 
coordinated and is in sync for the administration.
    Secretary Locke. Thank you very much, Congressman Honda. It 
is really a pleasure to be appearing before this subcommittee 
with you as a member of that. And I have always enjoyed our 
relationship and our partnership over the years in a variety of 
capacities.

                                 CENSUS

    With respect to the census, it is the number one challenge 
facing the Department right now. It is a monumental undertaking 
with a lifecycle cost for the entire 2010 census, which started 
many years ago, and when it finishes in a few years, estimated 
cost about $15 billion. And as I indicated earlier, we will be 
hiring almost 1\1/2\ million people, or 1.4 million people, 
temporary workers, to help conduct the census.
    Given the challenges we had with respect to the handheld 
computers, which had to be abandoned about a year or 2 ago, and 
the cost overruns associated with that and having to rely on 
pencil and paper for some of the aspects of the census, it will 
be even more important that we have outreach efforts to those 
who do not mail back the census forms come April 1, 2010. And 
so a lot of the people we will be hiring will be going door to 
door, apartment to apartment, homeless shelters, college dorms 
to enumerate and have an accurate count of the population of 
America.
    To be successful we have to rely on communities of color 
and community-based organizations, from churches to nonprofit 
organizations, to get the word out. Much of the budget calls 
for advertisements in nontraditional media, and to community 
organizations and language newspapers emphasizing the 
importance of the census, and making sure that people know that 
census forms are available in other languages. We will, in 
fact, be sending out census questionnaires in Spanish to 
selected households in areas with high Hispanic populations.
    But I also believe that we should be affirmatively sending 
out census questionnaires in other languages, for instance 
Asian languages; Vietnamese in certain parts of Houston where 
we know that there is a high concentration of people from 
Southeast Asia. We should not have to ask, or rely, or expect 
those families to call in or ask for a census form in another 
language, because if they can't really read English all that 
well to begin with, how will they know, how can they read the 
instructions to ask for a census form in another language? I 
think we need to be more proactive in that regard.

                             CLIMATE CHANGE

    With respect to NOAA and climate change, I do sit on some 
committees convened by the White House dealing with climate 
change. Clearly there will be costs to the American public, to 
the American taxpayer, and businesses in implementing climate-
change measures, but if we don't address climate change, the 
impact to people and businesses will be even far greater if we 
allow climate change to remain unabated.
    These task forces do have other agencies represented. And 
so Congress is trying to provide its viewpoint on the impact of 
businesses, but also committing all the agencies--it is a 
multiagency task force convened by the White House--to really 
look at it. But there are many other agencies involved, and 
Commerce is a key, integral part of that task force, of 
actually two task forces that I serve on.
    Mr. Honda. Thank you.
    Mr. Mollohan. Thank you, Mr. Honda.
    Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman.

                          MAGNUSON-STEVENS ACT

    Mr. Secretary, I represent Alabama's only coastal district, 
and I have great concerns concerning the Magnuson-Stevens Act 
and its requirement to end overfishing by 2011.
    While I agree that we need to preserve our valuable 
resources for future generations, I question whether this is 
the best time to engage in such strict fishing limits. And I 
would ask you to consider from where I sit the following: Our 
commercial seafood sector supports over $490 million in 
revenues from my home State, as well as some 11,000 jobs for 
Alabamians. Our recreation seafood sector supports over $630 
million in annual revenues for our State, and more than 6,500 
jobs for Alabamians.
    Before NOAA moves forward on its recommendations of 
limiting one catch over another, do you look at economic 
impacts that it will have on communities that are currently 
struggling just to stay afloat?
    Secretary Locke. Thank you very much, Congressman Bonner.
    These are tough economic times, and let me just say that as 
Governor of the State of Washington, we had to deal with the 
prospect of overfishing, and setting limits on catches, and 
understanding the significant economic impact it had on the 
entire fishing industry, and the businesses that depend on the 
fishing industry, and the families that are impacted as well.
    Let me be very clear, I support the Magnuson-Stevens Act. 
That is an act passed by Congress, and so if any changes have 
to be made, it must initiate with the Congress itself. But let 
me just say that if we allow overfishing to continue, we will 
soon face the prospect of no fishing, because once the stocks 
are depleted, and if they are fished to the point where they 
cannot replenish, where the salmon cannot spawn again, and we 
cannot have recovering or returning salmon or regeneration of 
various stocks to the point that they can be fished, then we 
face the prospect of complete elimination of fishing sectors in 
many parts of the country along our coastal communities. So it 
is either pay now or face the prospect of no fishing in the 
future.
    I do believe that once NOAA sets limits, that we need to be 
mindful of the economic impact, and therefore, it is important 
that we also have economic programs to help the fishing 
industry cope with those changes, whether it is buyout of their 
boats, whether it is financial assistance to move into other 
fields, or engaging the fishing industry to actually help 
engage or conduct some of the research that is necessary to 
continue to monitor the fishing stock or the affected industry.
    I will note that, for instance, NOAA recently took economic 
impact into account with respect to the Northeast fisheries 
when a rule was proposed that would have severely limited the 
fishery, and so NOAA took that into account and did not impose 
as strict a fishing restrictions as had been called for by 
other individuals and various agencies within NOAA, but at the 
same time provided some economic impact to the extent that we 
could to the affected industry.
    Mr. Bonner. I would appreciate that balanced response as we 
go forward to this, because, again, I am not disputing the 
benefits of the act itself, just appreciate hearing from you 
that economic impact should be a factor, and that we do need to 
consider how we help these families that have been in many 
cases involved in this industry for generations, that we not 
put them at the back of what is already a long unemployment 
line.

                              BUY AMERICAN

    Could I shift gears real quicklike to Buy American?
    Secretary Locke. I did not hear that.
    Mr. Bonner. If I could, I would like to shift gears to Buy 
American. Something that you may know, but others in the room 
may not know, we build cars in Alabama. There has been a big 
debate in our Nation about the state of the American automobile 
industry. We build cars in my home State as well. In the last 
10 years, we created more than 35,000 new jobs for Americans in 
the State of Alabama, and we are now the sixth largest 
automobile-producing State in the Nation. We build Navy ships 
and superferries, and hopefully if we can get through a little 
conflict with the Department of Defense, we will be in a 
position to help build refueling tankers for the Air Force in 
my home State.
    But because of companies who came to Alabama with names 
like Mercedes and Honda, Airbus, Austal, Thyssenkrupp, we 
believe we are poised to recover from this economic downturn 
perhaps more quickly than some of our sister States. Yet this 
whole debate on Buy American has come to Congress in the last 
few weeks and months.
    To me, Buy American means just that, that we are buying 
products that put Americans to work in States like Alabama and 
Washington, where you lead a very ambitious and successful 
agenda to sell American products overseas. We think that when 
you are creating jobs in America and creating products that can 
then be sold overseas, that that has a good win-win situation.
    The President has recognized, and I am paraphrasing here, 
that Buy American restrictions could violate WTO agreements or 
in other ways signal some form of protectionism, from his visit 
to Canada, as well as his trip recently to Europe. And I think 
he believes that such restrictions would be a mistake in these 
tough economic times as a potential source of a future 
international trade war. So my question is to you, what are 
your thoughts? How do you see the term ``Buy American'' in 
terms of what we are trying to accomplish and also what we want 
to do in terms of putting our focus on the overall economy both 
here and globally?
    Secretary Locke. Thank you very much, Congressman Bonner, 
for that question.
    I think all of us want to help promote our companies in our 
local communities, American companies. They make great products 
and services, and helping them grow, especially in the 
manufacturing sector, is key to our economic recovery. And we 
need to examine all of our national policies, whether it is tax 
policies to support services that would enable American 
manufacturing and American companies to grow and prosper. And I 
think we all want to help our local companies regardless of the 
nature of the content or the extent of the contact of truly 
American components.
    I think we need to be very, very careful as we try to 
promote American companies and as we try to stimulate our 
national economy that we do not engage in protectionism, and 
the line now between--is getting very blurred between purely 
protectionist measures and economic stimulus activities. But if 
we engage in protectionism, whether it starts in another 
country, once we engage in protectionism, then we will see 
responses by other countries, and pretty soon we get into a 
trade war. And oftentimes nobody wins in a trade war, and it 
can become mutually destructive. So I think we need to be very, 
very careful.
    One of the aspects of the Buy American provisions is that 
it has an impact especially on the States, because I think 
under the measure passed by the Congress, the Federal agencies 
and the Federal programs are not affected where there is an 
exemption to the Buy American clause if we have agreements, for 
instance, with other countries, such as WTO agreements and so 
forth. But the States themselves oftentimes don't have those 
types of agreements with other countries, and so material that 
they might be buying as part of the stimulus or Recovery Act, 
whether it is road construction or technology or what have you, 
building college campuses and universities, repairing dorms, 
equipping those dormitories or those laboratories with 
sophisticated equipment, may run afoul of the Buy American Act 
simply because the content is not sufficiently American.
    And so I think we need to be very, very careful when we 
enact some of those policies, but obviously the Congress and 
the administration are trying, focused on trying to stimulate 
our economy and trying to get as many American workers 
gainfully employed as possible. So those are all legitimate 
objectives. At the same time we did need to be mindful what 
impact it might have on the States, localities that are 
receiving these dollars, as well as the repercussions it may 
have around the world.
    Mr. Bonner. Thank you, Mr. Secretary.
    Mr. Mollohan. Than you, Mr. Bonner.
    Mr. Ruppersberger.

                                  ITAR

    Mr. Ruppersberger. Yes. There are two areas I would like to 
get at, but I think probably will hit one and this afternoon on 
the other. It is ITAR and NOAA satellites.
    You are familiar with ITAR, I am sure, and ITAR developed, 
I think, when one of our planes went down in China, and there 
was a lot of information that was received by--it was received 
by China, to our detriment. ITAR was then put in place, which 
basically was a regulation, and when Congress passes a law, we 
better watch what we are doing because it could have negative 
consequences after a period of time.
    And what happened basically because of ITAR regulation, it 
put a lot of our companies, American companies, at a strong 
disadvantage for a couple of reasons. First thing, Europe has 
now been able to develop businesses that are competing with our 
American businesses because we can't compete with ITAR. And 
part of the issue also, not only the law, but just our 
bureaucracy, that we are really behind in allowing our American 
companies to compete and to approve what they can do and not do 
as it relates to ITAR.
    And it is really getting serious to the point that some 
American companies may go out of business. Normally the world 
would buy American parts, but now they can't do it anymore. And 
it is putting us in a disadvantage in a lot of different areas, 
especially in our space industry, which we were the strongest 
in the world.
    My question is what do you think of ITAR? How do you think 
it affects our domestic industries? And I would like to get 
your thoughts on the matter of what you would like seeing done. 
It is my understanding that the Commerce Department is 
attempting to move these ITAR requests quickly, but I also feel 
that we are going to have to have some kind of major regulation 
or even a change in Congress on ITAR and how it is affecting 
our economy and our space industry.
    Secretary Locke. Thank you very much, Congressman. It is a 
very, very important question.
    The ITAR program is administered primarily by our BIS 
Bureau, and we have the dual-use export program that is making 
sure that very sensitive equipment, technology is not used for 
military purposes by certain countries around the world. And so 
basically it is a prohibition on the export of military 
technology, or technology or equipment that could be used for 
military purposes, adverse to the United States.
    [The information follows:]

    The Department of Commerce provided this clarification: The 
ITAR program is administered by the U.S. Department of State, 
which controls the export of defense articles, including 
satellites and many satellite components. The Bureau of 
Industry and Security (BIS), administers the Export 
Administration Regulations (EAR), which control strictly 
commercial and dual-use items.

    The problem is that regular pieces of equipment or supplies 
that could go into military equipment might be readily 
available in other countries. It could be a bolt, or it could 
be a screw. And as a result of the restrictions that we have, a 
lot of companies are losing sales of commonsense items to other 
countries. And so it is hurting the sales of American goods and 
products abroad, and those goods are being sold by other 
countries, to the detriment of American companies.
    The National Academy of Sciences has called for a 
significant review and reform of our export control systems, 
while still focusing on those components and equipment and 
items that truly are sensitive and important to the 
preservation of our military intelligence and our national 
security. It is my intent to look at that and to convene a task 
force to see what we can do to speed up the review of those 
items.
    We do have a program called Validated End User, where 
certain companies, for instance in China, who have demonstrated 
a track record of receiving American goods and not using them 
for inappropriate ends, are authorized to receive and to have 
items sold to them without having to go through the normal 
individual export license regime. I would point out, for 
instance, of all the exports, for instance, going to China, 
only less than \4/10\ of one percent are subject to the export 
control measures. And of that \4/10\ of 1 percent, virtually 80 
percent of items for which licenses are sought are given and 
granted. The problem is it is a very lengthy, laborious 
process, and the process often discourages American companies 
from trying to make the sale. So we are losing lots of sales 
opportunities for American companies.
    Regardless of the Validated End User Program and the 
progress in the growing list of companies that have been 
cleared in other countries to whom we can sell those materials, 
I still think we should look at reforming the entire system.
    Mr. Ruppersberger. Well, my suggestions is this: I think 
China is really not the issue as much as Europe is the issue. I 
think administration after administration understands this is a 
problem, but then they do a task force which takes a long 
period of time, and then nothing really happens.
    I would hope that you would make it a priority. I am going 
to be making it a priority from my perspective. I also am on 
the Intelligence Committee, so I understand the sensitivity of 
some of what we need to do, but we are way out of line, I 
think, as far as putting us at a competitive disadvantage not 
just competitively, but also from an intelligence and a defense 
and national security point of view.
    Jurisdiction in this area is also with our International 
Relations Committee, so it takes Commerce and International 
Relations to deal with it. Hopefully, if you have somebody from 
your staff contact me, and we are going to be making this a 
very high priority, because I think we have to move quicker 
than a task force and then we are way behind again. We have had 
a lot of studies, and I think we know the problem. Maybe we 
need more resources to speed up the process; that we have 
people waiting in line for years to determine whether it is 
ITAR-related or not, and that slows it down, too.
    So this should be something, I think, especially in the 
space area and the parts that we are dealing with space that we 
need to look at. I am sure my time is up by now, so this 
afternoon I will talk to you about the NOAA satellite issue.
    Secretary Locke. Thank you.
    Mr. Mollohan. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.

                             CENSUS BOYCOTT

    Mr. Chairman, in the interest of full disclosure, before I 
ask some questions, I have one brother who has been working at 
the Census Bureau for, I think, close to 30 years, or over 30 
years, which is 10 years longer than I have been in Congress. 
Having said that, let me ask some questions about the Census 
Bureau.
    And thank you for your testimony and for joining us today.
    Mr. Secretary, recently a group, especially the National 
Coalition of Latino Clergy and Christian Leaders, has called 
for a boycott of the census. I publicly have stated that that 
is one of the most irresponsible things I have heard, and it 
does not serve any purpose to tie immigration reform to the 
census count. I know that the Census Bureau goes out of its way 
to count everyone living within our borders, and that is the 
way it should be.
    In view of this now, and as we work to try to get them to 
take back that statement hopefully, what plans are in place to 
make sure that old folks, regardless of immigration status, are 
counted?
    And unfortunately, you now have added to you this new 
situation with these folks making that statement. What, if 
anything, is taking place to deal with that and to make sure 
that this doesn't happen? And again, I want to just be clear. I 
think that was horrible, it shouldn't happen, and it makes a 
very bad point. In fact, one of the arguments pro immigration 
has always been these folks want to be part of our society, so 
for this group to say, don't count yourself, runs counter to 
that statement.
    Secretary Locke. It is my intention to meet with the 
leaders of that coalition, and hopefully we will have members 
of the administration and other community leaders meeting with 
them as well to emphasize how important it is that everyone be 
counted. Especially in these tough economic times, it is 
important that every community receive its fair share of 
Federal dollars, and we are talking about some $300 billion a 
year in Federal dollars for education, human services and a 
variety of programs that flow to these communities. And so it 
is in their own economic self-interest and the future 
aspirations of minority communities, Hispanic communities, 
Latino communities, to be engaged in this census and to be 
fully counted.

                      CENSUS AND COMMUNITY GROUPS

    Mr. Serrano. Right. And in addition to that, the ongoing 
work of the census prior to this controversy does intend to 
reach out through the churches and community groups to the 
undocumented community.
    Secretary Locke. They are, in fact, critical partners to 
the success of the census. We have to rely on those community-
based organizations, faith-based organizations to get the word 
out, emphasizing how important it is that everyone be counted, 
and that the challenge is even tougher as the years go by with 
more and more Americans failing to respond to any survey that 
comes in the mail, let alone the census survey.

                         CENSUS AND IMMIGRATION

    Mr. Serrano. Let me ask you--one of the issues is always, 
well, if I count myself, then people will find out I am here 
undocumented. And I have always said those are two separate 
issues. There is an immigration issue, some people call it a 
problem; then there is the census count, we should count 
everyone.
    Is the Census Bureau empowered to make statements saying 
you are not going to be--this information is not going over 
anywhere else, it is just being held here? Are you empowered to 
say that?
    Secretary Locke. Yes, we are empowered to say it, and I 
have been saying it as well. And we need to--our community 
partners will need to say it, then the media, the newspapers, 
the TV/radio stations will have to say it as well.
    Mr. Serrano. Let me just say, I thank you for your 
comments. I feel confident that you will handle this the proper 
way.
    This is a very interesting situation. Even individuals in 
Congress who are, I would say, harsh on the issue of 
immigration, undocumented immigration, don't really want these 
folks not to be counted, because some of the toughest people on 
immigration are in States where there are a lot of undocumented 
immigrants, and if they don't get counted, they lose dollars. 
So this may be one time when even the critics of undocumented 
immigration, or immigrants in general, may actually be on the 
same side saying, make sure you get counted.
    But I thank you. And as every member of this committee, I 
stand ready to assist you on all issues, but especially on this 
very important issue of the next census. Thank you.
    Secretary Locke. Thank you very much.
    Mr. Mollohan. Thank you, Mr. Serrano.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Secretary, welcome to the committee. I appreciate your 
comments and was able to hear them prior to my arrival, on the 
census; and I also would like to indicate my interest in the 
work of NOAA and particularly in the life of oceans and what is 
going on in terms of the research, to some of the challenges 
facing oceans.

                           EDUCATION DEFICIT

    But I really want to focus my question today on the 
McKenzie report that just came out on education, the education 
deficit. And it said in this report, looking at the challenges 
that we face in terms of international competition, that we 
have really lost our way in terms of international competition 
with other developed countries or wealthy countries. We are 
really at the bottom in terms of international education 
disparities, and that this is, in the words of the report, has 
the economic effect of a permanent recession on our economy, 
that the GDP growth which would have been the case if we would 
have just held even since, for instance, the 1980 report, A 
Nation At Risk. You take Bill Gates', Microsoft which you know 
well, and Bill Gates says, I can't even hire the people I need 
to do the work that I need done; and if I can't hire them here, 
I have to find some other place to hire them.
    So I know this is a little, seemingly, off the beaten 
trail, because you are not the Secretary of Education. But I 
know you tackled this issue when you were Governor, and now you 
see it in a broader context and you see our economic 
competitors are really ratcheting up their educational effort. 
India has now set aside 50 percent of all seats in higher 
education institutions to classes of the public that heretofore 
were not allowed to go to college because they figure, if they 
get more people rowing, they can do even a better--China has 
ramped up its undergraduate and engineering programs quite 
significantly.
    So as the Commerce Secretary--and I guess you will have 
more information once the census is done, but it is apparently 
very clear across the breadth and width of the country, we have 
a dearth of Americans, native born, who are pursuing terminal 
degrees in any of the arts and sciences. We have a significant 
shortfall now in males pursuing, successfully, college degrees 
at the undergraduate level, whether African American, white, 
Hispanic.
    I mean, is this a challenge of some significance? I would 
like you to just suspend a moment--I know the administration 
has made significant investments and has a great many plans. If 
you would, comment to the committee about this educational 
deficit and how it impacts our competitive circumstances, vis-
a-vis commerce.
    Secretary Locke. Thank you very much, Congressman Fattah.
    I actually believe that the education agenda is very much a 
part of the Commerce agenda. And I think those of us who have 
worked at the local level know just how important a highly 
educated workforce is to the competitiveness and the viability 
of American businesses.
    The President yesterday gave a speech to the National 
Academy of Sciences, emphasizing the need for science and math 
education, emphasizing the need for research and development 
among companies, emphasizing the need for us to focus on 
innovation and technology as part of the future of America.
    And he gave a very interesting statistic that was very 
troubling, that America, students--American students rank very 
far behind other developing countries, and even the developed 
countries as well as the developing countries, in terms of math 
and science proficiency--it is; the developing countries have 
stronger math and science than America--and that the students 
in those developing countries have a higher achievement in math 
and science or higher proficiency in math and science than 
American kids.
    As much as we focus on economic recovery, we have got to 
focus--we have to include as a key component of that the 
education of our children, and emphasizing math and science and 
engineering.
    The President indicated that when Apollo 10 or one of the--
during one of the Apollo flights, that the average age of the 
people in mission control was 26 years old, 26 years old 
running our space program. And now we are having a dearth of 
qualified individuals, Americans, American students, American 
children into the engineering ranks and accomplishing some of 
the huge challenges that we face.
    And yet we see college-age students forming--creating 
Google or Microsoft; and so we have got to realize that the 
jobs of the future are in--high-wage jobs of the future are in 
some of these exciting technology fields.
    The President has committed significant dollars and 
proposed significant dollars and the Congress has responded 
with--in the Recovery Act with significant dollars for the 
Department of Education; and the President has talked about 
incentives for States to focus on math and science instruction, 
high academic standards.
    It would be very easy for all the States to lower their 
education standards in order to help meet the No Child Left 
Behind requirements. And it would be very easy for States to 
lower academic standards so that more children can graduate 
from high school and make the parents of the children feel 
good. But what have we done for their economic future if they 
are not skilled in critical thinking, reading, writing, math 
and in science?
    So I very much believe that American businesses need to 
help lead the charge and work with education officials in their 
respective communities to insist on high academic standards 
with attention to math and science.
    Mr. Fattah. Let me thank you and thank you for your work 
you have done in your previous role as Governor. I am quite 
familiar with the work that was done in Seattle with the 
business community to create real workplace internships and 
apprenticeship programs for our children to get a sense of what 
is available in real life.
    But there is more work to be done, and I think that is 
going to be very hard for us to compete internationally if we 
don't have the educational achievement level raised. And then 
what is amazing is that this challenge rests--this disparity 
rests between our best performing children and our 
international competitors; and as you know and I know, there 
are a lot of young people who have not yet been able to 
demonstrate their best for lack of educational opportunities.
    So thank you for your testimony. I look forward to working 
with you.
    Mr. Mollohan. Thank you, Mr. Fattah.
    Mr. Culberson.

               AMERICA'S COMPETITIVENESS IN THE SCIENCES

    Mr. Culberson. Thank you, Mr. Chairman. I could not agree 
more with my friend, Mr. Fattah. This entire Subcommittee, Mr. 
Secretary, is committed to investing in scientific research and 
ensuring that the United States maintains its technological 
edge. We are all strong supporters of the space program, and as 
concerned as I know you are and the administration is in the 
declining number of young people going into the engineering 
profession, going into the sciences, physics, mathematics, I 
wanted to ask if you could very quickly tell us a couple of 
specific things you will do as Secretary of Commerce, very 
specific things with short-term or long-term results, to help 
improve America's competitiveness in the sciences, encourage 
more young people to go into the sciences and help us keep that 
technological edge that we have always had.
    Secretary Locke. First of all, I have already been to 
several States where we have announced Economic Development 
Administration grants. Just a few weeks ago, 2 weeks ago, I was 
in Arkansas providing some--announcing some $5 million in 
grants for economic assistance.
    Mr. Culberson. To what type of organizations?
    Secretary Locke. These were to colleges and universities, 
helping create incubator sites; also some industrial parks, 
where we are providing some infrastructure. This was part of 
the disaster relief funds that the Congress appropriated in the 
wake of the hurricanes and the tornados and the flooding in the 
Southeast and throughout much of America.
    Mr. Culberson. Targeted grant money. How about to encourage 
young people to go into the sciences?
    Secretary Locke. Right. But in those--at, for instance, the 
colleges and the universities and even meeting with the local 
business people, I talked about the need for the business 
community to really focus on math and science and focus on 
academic standards, and for the business community to get 
involved in the education agenda and the education plans within 
their respective communities.
    With respect to Department of Commerce, we also have some 
funds that we are going to be providing through NIST, the 
National Institute of Standards and Technology, on fellowships, 
grants to colleges and universities, promoting more research 
and development, because we need to have a strong research 
innovation base throughout America, not just within the 
Department of Commerce.
    Mr. Culberson. That is where I was hoping you would be 
going, is through the investment and research through NIST, 
which has a terrific track record of investing in peer-reviewed 
specific research with great benefit.
    And if I could, also, I want to be sure that you are aware 
from the numbers that we have been--become familiar with, over 
the last several years working on this wonderful subcommittee, 
that the Chinese have about 200,000 people working in their 
space program. We have only got about 90,000 in ours. They 
graduate about 300,000 engineers a year, where we are, in the 
United States, graduating about 30,000.
    So it is an extraordinarily important question. And I 
appreciate your commitment to NIST. They do wonderful work.

                        WASHINGTON STATE BUDGET

    I wanted to ask, if I could, Mr. Secretary, as Governor of 
Washington State, did you have, as we have in Texas, a balanced 
budget requirement in your State constitution?
    Secretary Locke. Yes, we did. It is actually not in our 
constitution, but we have various statutes that, in effect, 
require us to have a balanced budget.
    Mr. Culberson. I know, as Governor, you dealt with that 
every year and made recommendations to the legislature. Did you 
make recommendations to the legislature about where to save 
money in the budget of Washington State in order to make sure 
the budget stayed balanced?
    Secretary Locke. Yes, we did. When we had a very severe 
recession, what we did was not to raise taxes, but instead 
institute what we called the ``priorities of government'' 
approach, which has been adopted by many other States--
Republican Governors, Democratic Governors. It has been written 
up in a variety of different textbooks.
    Mr. Culberson. How did that work?
    Secretary Locke. We went through every item in the State 
budget. We had people from the outside, different agencies, 
cross-sections of people, interdisciplinary teams. We set very 
broad spending parameters in various components or activities 
of State government, and then basically ranked every single 
program to determine what was most valuable. And then I and my 
advisors would sit down and go through these lists and say, we 
are going to go through items 1 through 15, or this is how much 
we wanted to spend in this particular area and----

                           GOVERNMENT SAVINGS

    Mr. Culberson. Save money on the ones that are of lower 
priority, sort of the Dave Ramsey approach, I guess, which is--
he is a guy I have been paying increasing attention to.
    We in the Federal Government, as I know you are aware, are 
on a path to, frankly, becoming Argentina if we are not 
careful. Medicare will be the bank--the trust fund of Medicare 
will be exhausted in 10 years. It is gone, empty, no more 
Medicare checks. Social Security is on a similar path; we are 
trying to get the number right now when it is exhausted.
    And I don't play favorites by the way. I voted against $2.3 
trillion in new spending under President Bush.
    I got here in 2001. I voted against the Medicare 
prescription drug program, the farm bills. I voted against 
virtually every major spending bill I could under President 
Bush in order to try to save money and, so far, had to vote 
against $1.6 trillion in spending just in this new Congress.
    And I wanted to ask if you could apply that--I really like 
that idea, the ``priorities of government'' approach--to the 
Department of Commerce. There are bound to be some areas in the 
Department of Commerce that you can identify for the 
subcommittee where we could save money.
    Do you think you could find 5 percent savings, 10 percent 
savings, if--if you applied the priorities of government 
approach to the Department of Commerce and show us where you 
could save a nickel on the dollar or a dime on the dollar?
    Secretary Locke. It is my intent to bring some of those 
principles to the Department of Commerce. I have only been here 
4 weeks. I am still trying to learn the nomenclature, the 
personnel nomenclature, the financial nomenclature of 
Washington, D.C., and the Federal Government.
    But the President does very much care about efficiency and 
effectiveness in government programs. He has asked all of us to 
go through our budgets and find savings. But the States--while 
we had--most of us have had to have balanced budgets, we also 
rely very much on the Federal Government to help carry out our 
programs. And I do believe that in these very, very tough 
economic times, the way to get out of a recession is, in fact, 
to spend more.
    Mr. Culberson. We are borrowing money to pay off borrowed 
money is the worry.
    And I wanted to ask if you could--because I only have a 
brief amount of time, would you be willing to apply that 
priorities-of-government approach to the Department of Commerce 
and tell us on the subcommittee where you think we could find 
some savings?
    Secretary Locke. I do intend to bring management 
efficiencies and changes to the Department of Commerce to 
identify programs that are perhaps not as effective or 
efficient as others. I believe that we in all of government 
should be trying to identify those savings and take those 
freed-up dollars, for instance, to put into more important or 
critical programs. As I said at the beginning, it is my belief 
that regardless of the revenue source, regardless of your type 
of agency, you will never have enough money to do it all and we 
need to prioritize.
    Mr. Culberson. Thank you. Because I know you recognize the 
urgency of the problem and actions essential.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Culberson.

                    NOAA SATELLITE DESIGN LIFE ISSUE

    Mr. Mollohan. Secretary Locke, Dr. Cicerone testified 
before this committee that the fleet of observational 
satellites needs quick attention. How many NOAA satellites are 
past their design lives?
    Secretary Locke. I do not know the exact number of 
satellites that are beyond their useful life. I think an 
interesting point, or a corollary to that, is we also have 
several satellites in the future that are approaching the end 
of their useful lives, and the challenge is to make sure, 
whether it is with NPOESS or the GOES-R system, that we have 
those satellites in place so that there is not a gap in the 
coverage and the capability of our satellite system.
    Mr. Mollohan. That is my question, if you would submit that 
answer for the record, and what is the risk of data continuity 
and delivery of NOAA forecasts and other products as a result 
of this design life issue.
    [The information follows:]

                               Satellites

    In the NOAA Geostationary Operational Environmental Satellites 
(GOES) constellation, two of three on-orbit satellites are operating 
beyond their design life. NOAA is preparing to launch the GOES-O 
satellite later this year, which will be available for operational use 
or to be placed in storage. NOAA is taking steps to avoid risks to data 
continuity based on a current assessment of the performance of NOAA's 
on-orbit satellites. However, such continuity is dependent on the 
success of planned launches and the continued development of the GOES-R 
series of spacecraft without significant delays.
    In the NOAA Polar-orbiting Operational Environmental Satellite 
(POES) constellation, two of four on-orbit operational satellites are 
operating beyond their design life. The NOAA-19 spacecraft was launched 
in February 2009 and is currently undergoing its initial testing post-
launch, though all components are operating as expected. The satellite 
will be placed into service once the tests are complete in the next few 
months. NOAA's on-orbit and recently launched satellites are performing 
well and there is no immediate risk to data continuity for NOAA's 
weather and climate missions. We are concerned about the fragility of 
the constellation as the tri-agency National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) satellites are scheduled to be 
launched in the 2014 timeframe. The continued challenges with 
developing a key NPOESS sensor are the major cause of this risk to data 
continuity. NOAA is placing highest priority on the acquisition of this 
system to mitigate this risk, and is working in collaboration with NASA 
and the Department of Defense.

                            NOAA SATELLITES

    Mr. Mollohan. Given the projected outyear budgets for 
NPOESS and GOES-R, existing satellite programs could exceed 30 
percent of NOAA's discretionary request as early as 2011 and 
remain at that level. And this assumes that NOAA's budget 
reaches 4.5 billion and that funding for the rest of NOAA 
remains flat. This obviously represents a major funding 
challenge for NOAA.
    Since NOAA has these responsibilities, national priority 
represented by climate and weather satellites, do you agree 
that NOAA's funding level should increase accordingly to 
accommodate this huge percentage out of their budget that 
satellites are going to represent?
    Secretary Locke. Because the satellite program is going to 
be costing more because you have to continue the development 
and the research until they are finally launched. And the 
longer it takes, the more we are spending. The various 
estimates for these programs go up, although we are hoping that 
the trajectory of those increased costs are flattening out, 
especially with some of the recommendations, whether the Nunn-
McCurdy recommendations, as well as reports by GAO that 
management changes are being made.
    But we still have concerns, and even though some of the 
past--even though the recommendations of the Nunn-McCurdy 
process have been incorporated, we are still finding delays, we 
are still finding increased costs. So that is very troubling 
because of the impact these increased costs will have on the 
other key functions of NOAA. So I think that if we--putting the 
cost of the satellite programs aside, then with some of the 
increased responsibilities of NOAA, it is going to be a 
challenge to accomplish that within the dollars that are 
available to us.
    And then, if the increased cost and if the satellite 
programs continue to increase in cost, then we are stuck with 
the problem of either cutting back on these other programs, 
vital programs of NOAA; and that, I think, wouldn't be in the 
best interest of the country.
    Mr. Mollohan. During the 1990s, two fateful decisions were 
made, first, to converge the civil and defense polar orbiting 
environmental satellite programs and, second, to abandon the 
long-term mission elements for NASA's EOS.
    In the transition to reliance on NOAA's polar orbiting 
system for continuity and numerous critical climate 
observations, the ensuing NPOESS implementation has proved to 
be disappointing in the extreme, with cost overruns that have 
jeopardized the overall health of NOAA and schedules that left 
the civil polar satellite system fragile and one satellite 
failure away from major gaps in the data, particularly for 
monitoring of climate change.
    The difficulty with the tri-agency's executive committee 
and the management for NPOESS has had a lot of study, a lot of 
comment. It comes as no surprise that NPOESS is routinely 
behind schedule and over budget. That is all very well 
documented, and this committee could have a whole day of 
hearings on NPOESS and what it means for your budget, what you 
are going to do to address the concern as you come into this 
responsibility. And you are the new person on the block, so 
that puts you in, maybe, a refreshing position to deal with it.
    But let me--instead of going through all of that in that 
kind of detail, let me give you an opportunity to assess the 
status of these programs, NPOESS and GOES-R, and discuss the 
management and funding challenges and how you, at this point, 
early in your tenure here, intend to address them and approach 
solutions.
    Secretary Locke. As a Governor, as a manager, I never liked 
cost overruns. I think that was----
    Mr. Mollohan. You are going to be very unhappy as you come 
into this program.
    Secretary Locke. And I think that clearly this committee 
knows much more than I about the tortured history of these 
satellite programs.
    I don't think the current system is effective. I don't 
think it works. As you indicated, it is a tri-agency ownership 
or tri-agency management structure; and it is well documented 
what has happened. And the cost overruns have triggered the 
Nunn-McCurdy review, which came up with a whole host of 
recommendations which the agencies have followed.
    But that still has not solved the problem. So I think there 
is really--I have mentioned this to OMB and to others within 
the administration. I have also mentioned to Secretary Gates my 
desire to sit down and talk with him. I think it needs to be 
resolved at a higher level, involving the White House Science 
and Technology Office, OMB and the Secretaries involved, and I 
intend to raise this issue.
    We need a change. We need a change in the method by which 
we approach the satellite system. Now, whether or not it can be 
changed given the contracts that have already been awarded and 
the way in which NPOESS is now being operated, that is 
debatable. But certainly, as we look at future satellite 
systems, I don't think we can repeat this type of management 
structure.
    Thank goodness, or thankfully, a lot of the lessons learned 
from NPOESS have been incorporated into the management regime 
for the GOES-R system. But GAO has also pointed out a few items 
where we can certainly do better, and so I intend to address 
those and make sure that the recommendations of the GAO are 
being followed with respect to GOES-R. But the GOES-R satellite 
system seems to be much farther along and with better cost 
controls than NPOESS.
    Mr. Mollohan. We understand that the GOES-R schedule for 
that series of satellites is being pushed out because of some 
protests. Provide us with a background on that issue and why 
the protest, and what does that mean for the launch schedule?
    Secretary Locke. I would have to get back to you in writing 
or at another time or even perhaps this afternoon with respect 
to that particular issue, as I am not fully apprised on that.
    Mr. Mollohan. That would be fine for the record, or if you 
are prepared to talk about it this afternoon, that would be 
good as well. So we will just jump that topic.
    [The information follows:]

                                 Goes-R

    The GOES-R spacecraft contract was awarded on December 4, 2008, and 
subsequently protested by Boeing on December 15, 2008. On February 20, 
2009, GAO dismissed the GOES-R protest as moot sonce NASA decided on 
February 17, 2008 to re-evaluate the proposals and make a new selection 
decision. The Source Evaluation Board (SEB) has reconvened and re-
evaluated the proposals as necessary. The new selection decision was 
made and announced on May 6, 2009.

    Mr. Mollohan. Mr. Wolf.
    Mr. Wolf. I thank you, Mr. Chairman.

                            SCHOOL VOUCHERS

    Mr. Secretary, I appreciate a number of your comments. I 
found myself agreeing with most of what you have said, and I 
have a couple of questions I want to ask you on the census. But 
before I do--maybe you should have been the Secretary of 
Education; I agree with your comments. We are now 24th and we 
are falling behind rapidly; and some the countries we are 
behind, it is really very, very troubling. And our space 
program, we are falling behind in many, many areas.
    I was disappointed and I want to take this opportunity--not 
to pressure you on it--but that you may become an advocate for 
the inconsistency of this administration on the issue of 
vouchers for children in the District of Columbia schools.
    I have a daughter that has been involved in teaching in the 
inner city who has worked in the inner city for a number of 
years. Many of those young people who use those voucher 
programs, it is their way to get out, to break out, to get an 
education. And I saw the Secretary of Education move to my 
former congressional district, Arlington, so he could have good 
schools. But if you are living in an inner city--and my 
daughter taught in the D.C. schools, too, and there is no 
education really; fundamentally you are getting beaten up 
almost every day.
    And now this administration wants to take away that voucher 
of 1,700 kids and then also prohibit any additional ones from 
coming in. The administration is splitting families up, because 
there are some families where the one child would be in a 
voucher program and the other child would be coming into the 
voucher program the following year and they are being knocked 
out.
    And so I would hope when this comes up in a Cabinet meeting 
that you would formally speak the way you spoke here and 
advocate for that. Because it is one thing to say we should 
improve the District schools, and I think Superintendent Rhee 
is--is doing a very good job. But in the interim, don't tell a 
parent her child should stay in a declining school where they 
are getting beaten up.
    I would hope when this comes up--the administration has 
been silent, the mayor has been silent, the Washington Post has 
advocated for it--and I would hope that you would speak out on 
behalf of those young students, all from the inner city, who 
are taking advantage of the voucher program.
    You don't have to comment on that unless you want to make a 
comment. But I do agree with your comments about what you said 
on education.

                          THE GATHERING STORM

    Secondly I would urge you, if you could, to meet with Norm 
Augustine, who put together the Gathering Storm. Do you know 
who Norm Augustine is?
    Secretary Locke. No, I don't.
    Mr. Wolf. Well, we will get a copy of it. Norm Augustine is 
a prominent business leader with Lockheed Martin. He was the 
author of--the chairman of the report, The Gathering Storm and 
I will get that to you. But I would urge you to meet with Norm 
and sort of get some ideas of where maybe we might want to go.

                      HUMAN AND RELIGIOUS FREEDOM

    The third issue before I get to the census is that I was 
critical of the previous administration for the failures to 
address and advocate at every opportunity human and religious 
freedom. In July of this past year, just before the Olympics, I 
was one that felt the President should not go to the Olympics 
and said so publicly.
    In July, Congressman Smith and I went to China, had a very 
difficult time getting a visa. It took about 3 weeks. And only 
at about 10:30 at night the night before did they grant the 
visa.
    We had meetings set up with a lot of religious leaders and, 
also, some dissidents who were lawyers, who had been given an 
award by the National Endowment for Democracy. Only one of them 
who was invited to dinner made it. Every other one was 
arrested, and the next morning the one who made it to the 
dinner was arrested. Secretary Rice, who was in town at that 
time never said a thing. In fact, in a press conference that 
she had with the Chinese foreign minister, they bantered and 
discussed what venue would be their favorite venue when the 
Olympics took place.
    And yet you had men that were taken away, beaten. One 
pastor's son's eye was beaten; whether he lost the eye or not, 
I am not sure.
    In China today--I don't know what faith you are. In China 
today, there are 30 Catholic bishops in jail. Congressman Chris 
Smith took Holy Communion from Bishop Su. He has never been 
seen since. He was seen once, they believed, being transferred 
from one automobile to another, but we don't know if he is 
alive or not, simply for granting Holy Communion to Congressman 
Smith.
    In 1989, I was in Beijing Prison No. 1 where they were 
making socks. These were Tiananmen Square demonstrators, making 
socks for export to the United States. Tiananmen demonstrators 
are still in prison today--20 years, still in prison today.
    I went to Tibet through a back door. We went in with a 
trekking group years ago; and what they have done to the 
Tibetan community--Lhasa is really no longer a Tibetan city. 
They are persecuting the Uyghurs. There is a woman in my 
district, Reba Kadeer, whose two children are now in prison, 
and there are public security police living in an apartment to 
make sure her daughter doesn't do anything.
    I have seen similar trends in this administration. I 
thought when Secretary Clinton went to Beijing, they missed an 
opportunity to speak out and advocate for them. I had urged 
Secretary Gutierrez and everyone in the Bush administration who 
had a political appointment to attend a house church in China. 
A number of house church leaders had asked us to attend the 
house church and said, could you get someone in the 
administration to attend the house church. So they, in essence, 
wanted someone to come. It isn't that they were going to be in 
danger; they felt this would actually protect them.
    I would urge you and others in the Department of Commerce, 
when given the opportunity of going to Beijing, that you 
worship, even though it may not be exactly your denomination 
and we don't have to get into what your religion or faith is. 
Just to stand with them, Sharansky said when people stood with 
him, advocated for him, his life got better. Solzhenitsyn said 
the same thing; Yelena Bonner said the same thing. So I would 
urge that.
    Perhaps the Secretary regrets the fact that she missed an 
opportunity. Because you were in politics before, you were 
Governor, you have run for office; and it is like someone 
saying, Gary, I am really for you privately, I just can't be 
for you publicly.
    Well, if we can't stand with the dissidents publicly, then 
we are really not for them.
    So I am hoping you are given an opportunity, and I will 
share with you the letter that we sent to the Bush people, and 
I would ask you to consider attending a house church where a 
pastor wants you to be. If--do you think you might want to do 
that?
    Secretary Locke. I will certainly consider it, and if you 
can give me some of that information, I will welcome it.
    Mr. Wolf. I will do that.

                      ADMINISTRATION OF THE CENSUS

    Now for the question. When Senator Gregg was nominated to 
the Secretary of Commerce, White House officials stated that 
the Census Bureau will be overseen directly by the White House 
instead of the Secretary of Commerce.
    We need a fair, accurate, trustworthy 2010 census, 
conducted by career professionals, not a 2010 census managed by 
political operatives. It was very troubling when I saw that 
Rahm Emanuel was going to kind of run the census or be 
operating it.
    Three questions:
    Do you believe the 2010 census should be managed by 
experienced professionals who are leaders in the field? And I 
think I know your answer, but I want to get it on the record.
    Two, what role will the White House have in execution of 
the 2010 census?
    Thirdly, if the White House attempted to change the 
administration of the 2010 census, such as add in a question or 
change the nonresponse follow-up process, how would that impact 
the costs and risks associated with the census?
    Secretary Locke. Congressman, let me just say that when I 
was asked by the President and the White House to take on the 
role of Secretary of Commerce, I, in fact, asked about the 
census, given the matter that it had received in the press. And 
the President and others in the White House have assured me 
that we will--that the White House will not be supervising or 
running the census. The census ultimately reports to me, and of 
course, I report to the White House and to the President and 
serve at his pleasure.
    But we have thousands of highly professional and dedicated 
people in the Census Bureau, and it is their job to carry out 
the census and there will be no political interference.
    But what is the role of the White House? Obviously, in 
every census, under Democratic and Republican administrations, 
we have always kept the White House and the Members of Congress 
apprised as to how the census was going, whether cost overruns, 
management issues, response rates, et cetera, et cetera. We 
will continue to report the progress of the census to the 
Members of Congress, Democrats and Republicans, House and 
Senate, and to the White House.
    But it is our intent, and I have been assured by the White 
House that they have no intention of supervising and running 
the census, that it is the purview and the province of the 
Census Bureau, the professionals there, along with the 
Secretary of Commerce.

                   STATISTICAL SAMPLING OF THE CENSUS

    Mr. Wolf. Thank you. One other question, then. Do you have 
any plans to use statistical sampling for the 2010 census 
figures for the purpose of apportioning congressional seats or 
allocating Federal funding?
    Secretary Locke. No.

                             CHINA MATERIAL

    Mr. Wolf. Well, I want to thank you very, very much. And I 
will get the China material to you, plus the names of any of 
the pastors. And if you feel comfortable, I plan on waiting 
until all of the political appointees are appointed in the 
administration and then sending them--and let me just say 
candidly, no one, no one, no political appointee in the Bush 
administration took me up on visiting a church.
    And so once most of the political appointees are appointed, 
I plan on sending a letter with the telephone number so that 
they can--and also with the acquiescence of the people involved 
that hopefully--it will be so refreshing to have a flooding of 
people from this administration and government--and, quite 
frankly, let me just say that I don't know that there are 
Members of Congress that really go to these services either.
    In the days of the Reagan administration, whenever Members 
of Congress went abroad or members of the administration went 
abroad, they generally carried a list of the dissidents they 
advocated; and for someone like you to raise a couple of these 
cases I think could go a long way.
    So I appreciate it. I will get you the material. And thank 
you for your testimony.
    Mr. Mollohan. Thank you, Mr. Wolf.
    Mr. Honda.

             CONCEPTUAL FRAMEWORK OF DEPARTMENT OF COMMERCE

    Mr. Honda. Thank you, Mr. Chairman. I think many times when 
we get new jobs and new positions, we generally have a 
conversation with ourselves, saying something like, geez, I 
didn't know that. I wish I knew this before or--maybe we should 
do a better job of teaching our youngsters some of the basics 
that we start to realize that exist here on the Hill and to run 
the government.
    Seeing the breadth of the responsibilities of the 
Department of Commerce that includes not only business, trade, 
but education, science and the other activities, will there be 
a time when you will be asking your Department to start looking 
at some of the things that they do and try to develop some sort 
of a conceptual framework of what it is that--without the title 
of Department of Commerce, but what the activities are and how 
they are related and how they can be converted into 
instructions so that somewhere along the line the education 
department can take that and sort of convert that into 
instruction? Because the more that our citizens are informed 
and cognizant of concepts and responsibilities, the better 
consumers they become, better consumers of information and 
better decision-makers they would be.

                             CLIMATE CHANGE

    And with this whole issue of climate change, I don't think 
there is anything under the sun that isn't affected by some 
activities of human behavior, whether it is understanding the 
climate--movement of air, carbon dioxide, water, the chemical 
processes and all these sorts of things; and then how change in 
climate might impact on different diseases that may occur 
because of the climate change, or different geography that 
might occur, predictable; and the kinds of things that NOAA and 
NASA and NIST can work on in terms of being better stewards and 
understand how to make decisions on what we do with our 
stewardship and our Earth, outside of the economics that we 
understand that we need to take care of this Earth with the 
whole idea that Earth first and figure out how to make a living 
from that later on.
    Is there any thought--have you had any thoughts about that 
or would that be something you would sort of look at in your 
future and sort of contemplate and see what can be done with 
that?

                ACTIVITIES OF THE DEPARTMENT OF COMMERCE

    Secretary Locke. Thank you very much, Congressman Honda. 
Being relatively new to the Department of Commerce, I am 
nonetheless very, very impressed and amazed at the wide array 
of resources and information and activities within the 
Department of Commerce from NOAA to the Census Bureau; and it 
is not just counting the population every 10 years or doing the 
American community survey every year, but all the incredible 
research that occurs in terms of business transactions, 
business behavior, consumer activities, consumer spending, what 
consumers, or Americans and how they spend when they visit 
other countries to even some of the characteristics of 
successful businesses over a period of time.
    And then, of course, we have all of our trade and economic 
activities. And we also have National Institute of Standards 
and Technology, which is really helping set the course for so 
much of the new technology that Americans take for granted 
every single day, whether it is cell phone standards to cyber 
security or even to the testing of sophisticated equipment that 
companies deploy, setting the standards for what basically will 
pass the test or pass muster and what doesn't pass muster.
    So I really think we have an opportunity to communicate a 
lot of these activities and this incredible breadth of 
knowledge to people across America so that they understand a 
lot of and can take advantage of this research, whether it is 
from the National Institute of Standards and Technology to some 
information from the Census Bureau and especially to NOAA.
    And I think we really have a challenge to try and impart 
this information, especially to our schools and children. And 
it would be great if children could almost view real time, some 
of the research that is going on, taking place on our NOAA 
ships or receiving some of the pictures from our NOAA 
satellites. So that they really have an understanding of the 
relevance of so many of these bureaus within the Department of 
Commerce, to them and really can get excited about a lot of 
this cutting edge activity. I want the people of America to 
view the Department of Commerce as a department of knowledge, 
innovation and economic growth.

               LONG-TERM IMPACT OF SHORT-TERM ACTIVITIES

    Mr. Honda. It would be important, I think, somehow that--
there is a tension, it seems to me, between science, good 
stewardship and making money; and sometimes we go to the most 
recent, the most short time line, that is, to make money first 
and not worry about the impact of how we make that money.
    For instance, when we scrape the bottom of the ocean 
looking for different kinds of foods, we destroy thousands of 
years of formation that was necessary for the propagation of 
different species and the balance and sustainability of our 
planet. So all that seems to be embodied in a lot of things 
that you do. So it would seem logical that somewhere along the 
line we would look at all these things and how this is embedded 
in creating some value that we internalize as a nation, as 
individuals; and I think that you understand that and this is 
something that our children and your children would probably 
be--it would be helpful for them, so that we can sustain the 
leadership that we have in this country.
    I appreciate--perhaps sometime in the near future we can 
have a more thorough discussion about that.
    Secretary Locke. Well, thank you, Congressman Honda. I 
think it is important that Americans--I think Americans are 
beginning to take a longer view on matters; as the current 
economic problems of the country have shown, we cannot just 
focus on short-term results, short-term corollary results and 
the drive for profit in the next quarter without thinking of 
the implications 2 or 3 years down the road.
    And I think clearly President Obama is trying to get our 
country back on sound economic footing, a strong economy 
creating more jobs, preserving jobs, sensible regulation of the 
financial market, knowing that without regulation, proper 
balance, that American consumers, American industries, 
financial practices can hurt those American families and 
American businesses.
    And the same thing goes to the environment, which is why 
the President is so committed to climate change, because it is 
going to cost us a lot more money if we simply allow emissions 
of greenhouse gases to continue unabated. The devastation to 
businesses, to communities, to farmers, to recreation, to daily 
lives with more flooding, severe heat waves, the list goes on. 
So--the human toll, let alone the political and economic toll 
will be disastrous, so it is either do something now or suffer 
the consequences later.
    Mr. Honda. Thank you.
    Mr. Mollohan. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.

                       CENSUS AND THE WHITE HOUSE

    Secretary Locke, as Governor, you always had a reputation 
as being a fair man and you always followed the law. And I 
wondered if I could to follow up on questions that Mr. Wolf 
asked you about the census.
    And, you know, the Department of Commerce has a statutory 
obligation, Federal law assigns the responsibility for running 
the census to the Department of Commerce and no other agency; 
and the law is unambiguous.
    We have as--I know Frank is familiar with the book; I 
haven't read completely myself, Rahm Emanuel's book, The 
Thumping. When Mr. Emanuel or someone from the White House--
because he is going to make a phone call. He is going to make a 
phone call or ask you verbally.
    When he asks you or makes suggestions, assuming that he 
does--I think he will. When the White House asks you to do one, 
two and three or attempts to give you specific direction on how 
to run the census, how will you respond to that?
    Secretary Locke. I have every confidence that the White 
House will want the census to be done as accurately as 
possible, and all within the legal parameters with which we are 
charged. So I have absolute confidence that there will be no 
attempts to interfere with the census.
    Mr. Culberson. So you will not accept any communications 
from the White House on how to run the census. You will do that 
entirely on your own, under the law, within the Department of 
Commerce, without outside interference from anywhere, including 
the White House?
    Secretary Locke. As I indicated to Congressman Wolf, the 
census has always communicated with the White House under 
Democratic and Republican administrations and to the Members of 
Congress. We are receiving suggestions on how to run the census 
from the Members of Congress, and I am sure that we will have 
ideas from the White House, ideas on how to have more effective 
outreach, how to use the media, paid and free media, to the 
whole notion of bilingual forms. We are having ideas from a 
variety of community groups and Members of Congress that we're 
not using enough bilingual forms.
    Mr. Culberson. Sure.
    And you will make all of those publicly available to the 
committee and the Congress?
    Secretary Locke. We are governed by the Freedom of 
Information Act, and President Obama very much believes in 
greater transparency.
    Let me just say that I intend to supervise the census, and 
we have chosen a census director who is a trained professional, 
highly respected in the academic field, who has worked in the 
Commerce Department, Census Bureau before. And it is my mission 
to make sure that we run the most accurate and effective census 
ever.
    Now, we have some huge management challenges given the 
problems that we had with the handhelds. We are on a very, very 
tight time frame. We are seeing a lower response, census after 
census, of Americans filling out the census form and sending it 
back, just as I think academicians will say that participation 
in surveys is dropping, it is harder and harder----
    Mr. Culberson. People are not required to fill out all the 
information. It is a free country. You will just have to count 
heads, essentially.
    And I appreciate your answer. I want to be sure you are 
running the census in an objective, independent, professional 
way under the statute without interference from anybody.
    Secretary Locke. I don't expect interference from anyone, 
whether the White House or the Congress.

                           GOVERNMENT SAVINGS

    Mr. Culberson. That is great. Thank you.
    You received at the Department of Commerce a $7.9 billion 
increase from the Stimulus Act, and your entire annual budget 
for 2008 was 7.9 billion. There is a dramatic increase in 
funding this year, of course, primarily due to the needs of the 
census.
    But in light of the economic downturns, severe problems the 
country is facing as a whole, the fact I mentioned to you 
earlier that the Medicare bank account is empty, there is no 
more money for benefits in 10 years, the country's glide path 
is--we have got record debt and deficit, I want to ask you 
specifically, would you commit to the subcommittee that you 
will identify areas where we could save money in the Department 
of Commerce? And if so, how much?
    Secretary Locke. I cannot give you----
    Mr. Culberson. I mean, a percentage. A penny on the dollar. 
Would you commit to helping us find a penny on the dollar, 1 
percent savings?
    Secretary Locke. I would like to be able to surprise you 
with how much we are able to save, but having only been there 
for 4 weeks, or starting my fourth week, I cannot give you a 
figure.

                        PRIORITIES OF GOVERNMENT

    Mr. Culberson. Sure. You are in a great position, though, 
to apply your budget--what did you call it, the ``priorities of 
government''?
    Secretary Locke. Priorities of government.
    Mr. Culberson. It is a great idea. Let me ask you that. 
Would you commit to apply that principle that you applied as 
Governor to the budget of the State of Washington, would you 
apply that to the budget of the Department of Commerce and 
recommend savings based on that approach to the subcommittee?
    Secretary Locke. I intend to incorporate the priorities-of-
government approach and numerous other government efficiency 
and accountability measures that I employed in the State of 
Washington to the Department of Commerce.
    Mr. Culberson. And make those recommendations to the 
subcommittee?
    Secretary Locke. I will be making our recommendations and 
trying to impose those savings within the Department of 
Commerce, period.
    Mr. Culberson. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Culberson.
    Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Mollohan. I am glad we got you in here this morning.

                          BROADBAND DEPLOYMENT

    Mr. Schiff. I apologize, Mr. Secretary and Mr. Chairman. I 
had votes in the Judiciary Committee, so I have been running 
back and forth; I may get called again to vote.
    But it is wonderful to see you. We had a chance to meet in 
Los Angeles some years ago. No reason you would remember that, 
but it was wonderful to meet you then and nice to see you again 
here today.
    I wanted to ask you a little bit about broadband 
deployment. And I know in your testimony you mention NTIA is 
administering the $4.7 billion in surplus funds directed both 
towards expanding--well, primarily towards expanding broadband 
Internet access. We all hope that money is spent both quickly 
and wisely.
    Although the U.S. enjoyed an early lead in Internet 
deployment over the last few years, we have fallen behind our 
economic competitors in Europe and Asia in the breadth of 
access, connection, speed and cost. What we call broadband in 
the U.S. seems rare, slow and expensive to visitors from Japan, 
Korea or the U.K.
    What is your sense of what caused us to lose our edge in 
this area, and what do we need to do to change it? Plainly we 
have deployed significant resources. What needs to happen for 
us to catch up?
    Secretary Locke. I think in some ways other countries have 
been able to move faster than the United States only because 
they have learned from our lessons, and they have been able to 
simply take advantage of the latest technology and have been 
able to simply leapfrog Americans and American 
telecommunications by watching and seeing what we have done.
    So much of our telecommunications infrastructure has really 
started, first, with copper wire and so many of the changes 
have been focused on additions to that technology. And so it 
has been very, very expensive to make improvements off of that 
basically legacy systems.
    But you are already seeing in various parts of the United 
States where we are using cellular and satellite technology and 
microwave technology where we are able to leapfrog or 
transverse large distances without having to lay copper or 
fiber-optic cable. Using that cellular technology and satellite 
and microwave technology, you receive the signal and then you 
can deploy fiber-optic cables and so forth.
    And that is what other countries have started to do, so 
they have in some ways benefited from total absence of 
telecommunications and not been burdened by some of the older 
technology that we have had, which was natural, which was state 
of the art at that time, and then basically been able to pick 
and choose from this current technology and say, wow, we can 
transverse mountains and huge valleys using this technology.
    But I think that we are seeing Americans change their 
entire habits. I mean, so many people just have cell phones now 
and really aren't using handhelds or copper wire. Or they are 
using portable phones, walking around their entire house with a 
portable phone.
    So the whole state of technology is changing so rapidly, 
and clearly with the President's initiative on broadband, he 
wants the most advanced telecommunications brought to every 
person and every community and every business in America.
    So we are excited about this possibility and this 
opportunity and this challenge; and we are working with the 
stakeholders, in a very transparent fashion, of 
telecommunications companies, academic communities, political 
leaders, mayors, governors, religious leaders exactly on how 
this $4.7 billion within Commerce will be deployed, working 
with the FCC and the Department of Agriculture as well.
    Mr. Schiff. One of the downside risks that is going to come 
along with the broader deployment of broadband affects an 
industry in my district greatly, and that is the entertainment 
industry. The music industry has been decimated by illegal 
downloads. The more you have broadband coverage, the more you 
can download films which require a lot more bandwidth.

                    PROTECTING INTELLECTUAL PROPERTY

    Are there steps the Commerce Department is contemplating 
taking to try to protect the intellectual property that is 
being stolen so rampantly and will be stolen even more, 
potentially, as the technology improves?
    Secretary Locke. Clearly, the issue of intellectual 
property is of major concern to the industry and it certainly 
is to us within the Department of Commerce, because as we go 
around the world, urging other countries to increase their 
efforts at the protection of intellectual property, we have to 
be able to point to what we are doing here in our own country 
as well.
    And I recently met with the motion picture industry that 
was meeting here in Washington, D.C., and we talked 
specifically about these issues. When some of the movies 
already are available over the Internet, even before they are 
released to the general public, that is of concern. And it is a 
disincentive for investment in a variety of industries, not 
just the entertainment industry. But it is--if people cannot 
receive a return on their investment because of piracy and 
intellectual property violations, whether it is drugs, whether 
it is in machinery, whether it is in ideas, whether it is in 
entertainment, all around the world as well as here in America, 
then is a disincentive to that type of investment, and it is 
depriving people, companies, of income and taking away jobs.
    So it is an issue that is going to require a whole host of 
policymakers to get engaged in, Members of Congress, the 
administration, the industry and all sectors of business.
    Mr. Schiff. Thank you, Mr. Secretary.
    And if I may make one last point, Mr. Chairman, on this 
subject--and I don't even know, it may be in the theaters now 
or may not still be out yet. But Wolverine, the new X-Men film, 
was out, being illegally pirated, before its theatrical 
release. And obviously that can cost millions of dollars to the 
creators of that intellectual property.
    And I always think the old paradigm of the American 
industry was the auto industry, which we have seen having 
tremendous problems. The new paradigm is in the intellectual 
property area, not just content, but things like software and 
other intellectual property.
    If there were cars being stolen off the GM lot or off the 
Ford lot, and those automakers were losing millions because 
there were cars being stolen off the lot, and that was 
contributing to the demise of that industry, we would be 
jumping on that with a vengeance. Well, cars are being stolen 
off the lots of Warner Brothers and Disney and Dreamworks and 
all the other studios by having their films stolen before they 
are out the gate.
    So I appreciate it, all your efforts, and look forward to 
working with you on these issues.
    Secretary Locke. Thank you.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Schiff.
    Mr. Serrano.
    Mr. Serrano. I was----
    Mr. Mollohan. Were you anticipating our adjourning for 
lunch and coming back at 2:00?
    Mr. Serrano. No.
    Mr. Mollohan. Are you going to be back here this afternoon?
    Mr. Serrano. I am not sure. I have one further question.
    Mr. Mollohan. Okay. Mr. Serrano.
    Mr. Serrano. Mr. Schiff covered the area that I wanted to 
cover. And I just know that you said your Department--
Department of Commerce is working with the FCC because they had 
recommendations that they had made on the 4.7 billion. So that 
will be a close relationship, I hope.

                                  CUBA

    I just wanted to ask you a question about Commerce and 
Cuba. The President, to my joy, has made some comments and 
started some things and put some things in place that may begin 
to change certainly our relationship with Cuba.
    As you know, we sell items to Cuba--agriculture, medicine. 
But the problem in the past administration was that we then--
what is allowed to be done, people made it difficult for it to 
get done. And so getting a license was difficult; humanitarian 
shipments were difficult.
    My question is also a statement. I would hope that would 
change, that within the law what is allowed to be done with 
Cuba is done with Cuba, and that people don't take at the 
Department, as they did before the law, and say, yeah, but that 
was a bad policy Congress passed, so we are going to try to get 
around it; and made it very difficult--very, very difficult to 
carry out what is allowed by law.
    Mr. Serrano. What is your take on that whole issue with 
dealing with Cuba and what the law allows now in sales and 
licensing and so on?
    Secretary Locke. The President has embarked on a 
significant change in the relations between the United States 
and Cuba. We now have an opportunity to permit and encourage 
more travel and trade between Cuba and the United States. It is 
my belief that trade, more tourism, more visits can facilitate 
reform and modernization as well as democratization of 
countries; that the more people from the United States travel 
to Cuba or any other country, the more visitors from another 
country to the United States, the more commerce that is 
conducted; the more opportunities for other people of other 
countries to witness firsthand the benefits of our diversity, 
our freedoms, our democratic way of life. And I believe that 
that exposure hastens the appetite--or whets the appetite and 
hastens the development of democratic principles in that other 
country.
    We in the Department of Commerce will vigorously carry out 
the President's initiatives, and we will want to help 
facilitate his objectives.
    Mr. Serrano. I appreciate your comments. I must say, 
however, that the role of the Commerce Department should not be 
that of trying to bring changes in Cuba, as we don't do the 
same with China or with other places; we just deal with them. 
And while that may be the end result, and that is always good, 
the role should be, the one role I want the Commerce Department 
to play, is to know that there are some laws in place that the 
last administration Commerce Department made difficult to work 
within and that we stay there.
    I don't dispute with you, perhaps, your personal desires to 
see change in Cuba, but I think that that is the problem that 
we have had in the past, a lot of folks' personal situation, 
including the last Commerce Secretary, who had a personal stake 
in what happened in Cuba, since he was Cuban American, although 
I stopped trying to embarrass him, which was not my intent, 
after the first hearing that he came every year, because he 
had, when he was the head of Kellogg's, said that we should 
deal with Cuba and trade everything we could. And as Commerce 
Secretary he made another statement, but I only did that once 
to remind him of his comment, as people remind me of mine on a 
constant level.
    Anyway, my whole intent is to get you to say publicly what 
you have said, that what the President wants to do is to get 
closer, and we should get closer. Whether or not that changes, 
well, I could give you a list of countries in the Middle East 
that we don't demand that from while we deal with them. But I 
thank you for your comments, and I stand ready to support you 
in all your work.
    Secretary Locke. Thank you, sir.
    Mr. Mollohan. Thank you, Mr. Serrano. We look forward to 
you being back this afternoon, in any event.
    Mr. Serrano. Thank you, Mr. Chairman. I will make every 
attempt to be back this afternoon.
    Mr. Mollohan. I know. You are very good about that.
    Mr. Secretary, we are going to adjourn, and we will 
reassemble--recess and be back at 2 o'clock.
    Mr. Mollohan. Hearing is in recess.
    Secretary Locke. Thank you.
    Mr. Mollohan. The hearing will come to order. Mr. 
Secretary, I hope you had a good lunch and maybe a walk out in 
that beautiful sunshine. A great day it is out there. But you 
probably ran downtown and worked for 2 hours.
    Secretary Locke. Well, I am not used to this Washington, 
D.C., weather compared to the other Washington.
    Mr. Mollohan. Oh, I will bet.
    Mr. Wolf. How many umbrellas do you own?
    Secretary Locke. Actually I don't like umbrellas either 
so--they are always breaking, and I am afraid they are going to 
poke people in the eye or in the head, so I just wear a parka 
over my suit coat in Seattle.

                          STATUS OF THE CENSUS

    Mr. Mollohan. Mr. Secretary, there were some questions with 
regard to census. We are just going to ask you a few. If you 
would like to give us any more detail about the status of how 
you see the census at this point, and give us some assurances 
with regard to time lines. If there is anything you can add to 
your testimony that you have already given with regard to the 
census, this is extremely important.
    You come to this job and assume the responsibilities of an 
agency that just did an absolutely miserable job with the 
census up to this time from contractor oversight to the 
performance of those who were in charge of this process. And I 
think they would really acknowledge that and actually did 
acknowledge that sitting right there at that table. So what was 
not done well and not done right in a previous regime, you have 
to assume the product and to make it right.
    So if you would talk to us about the status of it, how you 
see it going forward, give us some assurance that you are 
meeting every time line, and we are going to be ready to do a 
bang-up job on the census that is going to make everybody 
proud, we would appreciate it.
    Secretary Locke. Thank you again, Chairman Mollohan and 
Ranking Member Wolf.
    Regarding the census, there have been numerous changes that 
have been made, numerous procedures that have been instituted. 
Let me just be very brief about it and answer any further 
questions you might have.
    There have been leadership changes as a result of the 
debacle surrounding the handheld computers, where large funds 
of money were actually given out to the contractor for very 
little performance.
    We have adjusted the field data automation contract so that 
we have--we are doing more items in house, and we also have a 
different contractor on some of the systems.
    We have implemented, in response to the GAO report, a high-
risk improvement plan to address the points raised by the GAO 
report. There are, for instance, monthly status reports to the 
Department of Commerce Secretary's office, as well as OMB, and 
then within the Census Bureau, they have weekly reports, and 
they have almost like a situation room where they are 
monitoring all the key items, and key management functions, and 
issues, and time frames, and projects within the decennial 
census.
    We have already received some reports that, for instance, 
the verification of addresses is proceeding on time, actually a 
little bit ahead of schedule and within budget. Because the 
Census Bureau has abandoned the handheld computers for the 
enumeration that were to be used by people going around door to 
door, they have instead reinstituted a paper and pencil 
program, and as a result they have not been able to fully test 
all of their systems. They were hoping for a full dress 
rehearsal this past year, but that has not occurred. And so 
they are testing various systems in an abbreviated fashion, in 
a scaled-down version. And, of course, the time frames for 
responding to any deficiencies that might be identified in 
those field tests are very, very--the time schedule or the 
response time is very small and very narrow. But so far things 
are proceeding on course with no major problems identified. So 
we are basically keeping our fingers crossed.
    But we have an enormous challenge ahead of hiring over at 
least another million people next spring to serve as 
enumerators, to go door to door and to get the response that we 
need for those who are not sending in the questionnaires back 
to the Census Bureau. But so far we are watching it very, very 
carefully, and, in fact, we will be bringing on almost a SWOT 
team of people to get an independent assessment of exactly the 
status of the Census Bureau operations surrounding the 
decennial census. And we are bringing people from outside, 
private sector, people experienced in census, and have a 
thorough, independent review just to make sure that things are 
on track.
    Mr. Mollohan. Would you submit for the record a time line, 
your targets for accomplishing each stage of the census, and 
then obviously the implementation date so we can just get a 
sense of what you have to do between now and implementation and 
how close you are to meeting a time schedule?
    Secretary Locke. Yes, be happy to submit that.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mollohan. When will the Bureau thread-test the paper-
based operations control system?
    Secretary Locke. I am sorry, what was that?
    Mr. Mollohan. When will, if you know--and if you don't, you 
can submit it for the record--will the Bureau thread-test the 
paper-based operations control system?
    Secretary Locke. We will have to get that to you.
    [The information follows:]

        Thread Testing of Paper-Based Operations Control System

    Thread testing of the Paper-Based Operations Control System begins 
with the thread test for Non-Response Follow-up. That test is underway 
running from April 20, 2009 through June 1, 2009. Subsequent tests will 
follow.

                               HANDHELDS

    Mr. Mollohan. How are the handhelds working?
    Secretary Locke. The handhelds are actually working for the 
limited purpose now of helping verify addresses and entering it 
into the GPS system so that we have a more accurate 
determination as to which legislative district or where a 
particular household will fall or a particular address will 
fall. So actually that is proceeding well.
    I think we have had demonstration projects for Members of 
Congress and some of the staff. I have actually had that shown 
to me as well. And the handhelds even incorporate such things 
as the time entry for the field workers so that we can 
accurately record their hours for payroll purposes. And they 
can actually communicate back to the field offices if they have 
any questions. So I have talked to one of the staff members, 
one of the paid individuals who is conducting this, and they 
like it, and it is getting positive reviews out in the field.
    Mr. Mollohan. We have a number of fairly detailed questions 
with regard to the census that we will submit, Mr. Secretary, 
for the record, so that you can respond to them.
    Secretary Locke. Okay.

                          INFORMATION SECURITY

    Mr. Mollohan. Department-wide security issues, Mr. 
Secretary. The Inspector General reports that the Department 
has reported information security as a material weakness every 
year since 2001 despite additional expenditures to mitigate the 
problem. Securing systems from cyberthreats is the most 
difficult piece of the challenge. Incorporation of wireless and 
other technologies to support operations and workplace 
flexibilities invite new risks to the Department which you must 
anticipate and mitigate.
    The IG has found a number of problems and several notable 
security incidents. This includes security personnel with an 
inadequate grasp on the Department's IT security policy, NIST 
standards, and guidance and security technology. The Department 
has apparently cited a lack of resources as a major impediment. 
Besides the fact of what you have requested for those 
resources, will you commit to providing this committee with a 
clear, focused request for IT security funding that lays out 
the requirements and the results expected, and give us your 
assessment of this problem?
    Secretary Locke. I would be happy to supply that in writing 
as well.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Secretary Locke. I just want to indicate that I met with 
the Inspector General of the Department of Commerce, and we 
have gone over the issues about information security. For 
instance, the budget request for the Bureau of Industry and 
Security recognizes the need for that overhaul.
    In my earlier comments this morning when I talked about 
some of the systems, servers and other pieces of equipment for 
which there are no replacement parts, I was referring to the 
Bureau of Industry and Security. And there I would like to find 
a way in which we can accelerate the replacement of the 
information technology there.
    And when Representative Culberson was asking about trying 
to achieve savings within the Department of Commerce, it is my 
hope that if we were able to find savings in other departments, 
agencies or bureaus within the Department of Commerce, we would 
be able to move that in the areas that most need it, whether it 
is in satellite for NOAA or into the technology needs and 
cybersecurity needs within the Department of Commerce without 
having to wait for future years and to wait for future 
appropriations or funds in order to accomplish that.

                            BROADBAND ACCESS

    Mr. Mollohan. Well, we stand ready to work with you on 
that, Mr. Secretary, and I know you will let us know what your 
resource needs are as you deal with that issue.
    The American Recovery and Reinvestment Act provided in our 
title of the bill $4.7 billion for broadband, and I believe 2.5 
in Agriculture. As we talked previously, West Virginia 
unfortunately is overrepresenting the rural areas of the Nation 
possibly with regard to inadequate or no broadband access.
    As the Department fashions its guidelines with regard to 
the expenditures of these funds, what steps are you taking to 
ensure that individual States with particular inadequacies in 
this area are not overlooked as these funds are expended, and 
that they achieve one of the goals, and that is to bring 
broadband access in areas where it is inadequate or doesn't 
exist?
    Secretary Locke. That is one of the objectives of the 
broadband dollars that have been appropriated or provided under 
the Recovery Act, and it is a clear priority for the President 
to make sure that both rural and urban areas, served, 
underserved and----
    Mr. Mollohan. Not served.
    Secretary Locke [continuing]. And not served are addressed.
    We are working very closely with the Department of 
Agriculture and the FCC in trying to formulate general policies 
and criteria that would be used across the country, and to make 
sure that when all is said and done, that we can actually point 
to a significant achievement of specific policies, and goals, 
and objectives for the deployment of these broadband dollars.
    We have been very, very transparent in seeking the input, 
ideas from all sectors, Members of the Congress to other 
Federal agencies, to the Governors, to the mayors, the private-
sector academia. And so we are hoping to put together those 
general principals by which we would give out these grants, and 
hope to have those principles clearly enunciated and published 
by early summer, and hope that the first grants will flow in 
the early fall of 2009. But trying to develop some policy and 
principles that will target the rural areas is a priority for 
us.

   COMMUNICATION BETWEEN STATES AND FEDERAL GOVERNMENT OVER BROADBAND

    Mr. Mollohan. Mr. Secretary, I had a broadband symposium or 
meeting, if you will, at which the West Virginia Secretary of 
Agriculture, a very capable woman, attended--was a panel 
member. I was impressed by her knowledge of communication from 
West Virginia, the needs from West Virginia, and specifically 
because we were talking about broadband, broadband.
    I did get the sense, however, that she was waiting. She was 
waiting for something to come down from the Federal Government. 
And that unnerved me a little bit because I had hoped that 
there would be more interaction between the State and the 
Federal Government, even at this point. For example, she didn't 
know whether she was going to be issued a check and told, do 
broadband in West Virginia, which she said, I hope that doesn't 
happen, in words to that effect. Or whether she was going to be 
asked to come up with some comprehensive plan, or whether the 
Federal Government was going to work with the States and then 
work with nonprofits or work with different sectors. So she is 
really at a loss.
    And with the Federal Government going forward with this 
rulemaking, or whatever procedure is going to come forward with 
these guidelines, at least based upon my sense of listening to 
her and observing her at this hearing, I didn't have a sense 
that the State was really prepared to be really proactive when 
the right time came, didn't know where they were going. So it 
means they are going to have a learning curve after all this 
comes forward.
    You may not be able to comment on this, but what 
interaction is going on with the States? The States are going 
to be huge players in this. I guess you are going to work 
through the States. Is that your sense of it primarily, or are 
you going to work through the States and individual entities 
throughout the country?
    Secretary Locke. Mr. Chairman, I can't give you a 
definitive answer because no decisions have yet been made, and 
there are a whole host of recommendations and ideas on how to 
distribute the $4.7 billion within Congress and, as you say, 
over $2 billion in the Department of Agriculture. We are 
coordinating with the FCC and the Department of Agriculture.
    The Department of Commerce has deployed a very transparent 
process in seeking input and ideas, and everything is on the 
Internet so that everyone in the world can see the ideas and 
the suggestions offered by the telecommunications companies and 
different sectors within telecommunications. They all have 
different ideas, to the cable companies, to the Governors, to 
the mayors and all the different interest groups.
    Mr. Mollohan. No, I understood your testimony, and that is 
what you said before. I guess I am simply trying to anticipate 
or trying to head off a disappointment in this area. There is a 
lot of money, there is a lot of need out there, there is a lot 
of not having access, a lot of gaps out there, and if at the 
end of the day we have not really strategically developed a 
plan, looking at West Virginia, that makes a difference, that 
is going to be a very sad thing, and an opportunity--a real 
opportunity missed.
    This is a lot more--I don't have to tell you, you are 
from--you know how to do it up there, and you know how 
important this is for economic development and also, most 
importantly, for areas that are naturally resource-dependent 
for economic diversification. It is the infrastructure we need 
to do that, and I am intent on, to the extent possible, 
following this with the hope that the Federal agencies and good 
people who have responsibility for fashioning these rules, and 
the State of West Virginia, are strategic and results-oriented 
with regard to its being implemented in West Virginia.
    Secretary Locke. I share your concern, Mr. Chairman, 
because for us the measure of success is not simply 
distributing the dollars in a timely fashion, but really making 
sure that at the end of the day that significant policy 
objectives have been advanced so that we can truly say that for 
the dollars expended, the American public businesses in urban, 
rural areas, underserved, unserved areas have truly benefited 
from the distribution of dollars.
    We have to be very, strategic in how we deploy these 
dollars to make sure that we are getting true bang for the buck 
and that we are leveraging whatever successes we have already 
achieved.
    Mr. Mollohan. It is terribly complicated. Thank you, Mr. 
Secretary.
    Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.

                          CENSUS PARTENERSHIPS

    Welcome back, Mr. Secretary. It is a series of different 
subjects, but on the census, before we left, there was one more 
I wanted to ask you. The Census Bureau is partnering with 
thousands of national and local organizations to promote 
participation in the 2010 census. I personally have serious 
concerns that you are partnering with a group like ACORN. I 
think they have been convicted of crimes, and I think it is a 
very bad group. I would like to get your comments about that, 
and are there other groups on there of a similar nature?
    Secretary Locke. Mr. Wolf, Congressman Wolf, with respect 
to ACORN, let me first indicate how the Census Bureau is 
approaching partnerships with other organizations. At no time 
will Department of Commerce or Census Bureau be contracting out 
with any organization to carry out any functions of the Census 
Bureau in terms of partnerships. We will not be providing 
grants to nonprofit groups to do outreach or coordination or 
anything like that.
    We invite all partnership groups or partners in the 
community to help us spread the word. And we will, for 
instance, use our printed material and distribute to them for 
them to pass out. But we are in no way subcontracting out the 
hiring of people or personnel to go door to door. We insist on 
full authority to hire the people that we think are qualified.
    Now, if organizations want to encourage their members and 
others in the community to come and apply for a job with the 
Census Bureau, to knock on the doors, that is fine. We will do 
the screening, and we will do the testing. We are not bound by 
their suggestions. And so we are not using them as 
subcontractors to provide people to us, nor are we 
subcontracting work out to them.
    Mr. Wolf. But why would you even participate with a group 
like ACORN?
    Secretary Locke. Well, first of all--
    Mr. Wolf. They fabricated lists. You are in the Census 
Bureau. Quite frankly, anything that ACORN is connected with, 
the American people will have a difficult time believing is 
credible. And so why would you even involve yourself in 
something with a group like this that has such a bad 
reputation?
    Secretary Locke. If ACORN is willing to take our brochures, 
and pass it out to families in their communities, and hold 
meetings and pass out brochures, encouraging people to mail in 
the response when they get it in the mail, then that is the 
type of help that is legitimate, that is legal that we would 
support.
    Mr. Wolf. Well, that is a troubling answer, because would 
you do it with a convicted felon, a group of people that have 
been convicted felons? Would you do it with a group that wanted 
to overthrow the United States? Would you do it with a group 
that has a history of abusing women? Let's say there was a 
group that had a history of abusing women, and they just wanted 
to participate, and they said, we will participate with you, 
but we will take your people. Would you do that?
    Secretary Locke. No, we would not.
    Mr. Wolf. Would you do that?
    Secretary Locke. No, we would not, sir.
    Mr. Wolf. Well, then I ask you to go back and give us a 
written report and take a look at some of things that ACORN has 
been involved in. I mean, that question really raises questions 
then about the ability to do the census right. If you have a 
group like ACORN, then it is going to be flawed, it is going to 
be questioned, people are going to have problems with it.
    Secretary Locke. I would be more than willing to talk with 
you about this issue.
    Mr. Wolf. Thank you.

                         HUMAN RIGHTS TRAINING

    Several years ago as Chairman of this Subcommittee, I 
included language requiring that ITA employees receive training 
on human rights, the rule of law and corporate responsibility. 
Unfortunately it is my understanding that this training has not 
been continued after that year--I guess that is what happens 
when you leave the committee--and that the new ITA----
    Mr. Mollohan. I didn't hear that.
    Mr. Wolf. I said this program has not been continued, this 
training. I said perhaps, parenthetically, that is what happens 
when you leave. 
    Given that the Department's commercial service currently 
has 120 offices in China, far more than any other country, it 
is a missed opportunity to better prepare our officers to be 
aware of abuses and advocate for human rights.
    We have also been told by the staff you actually have a 
carrier for NEIT. It is a question would you start retraining 
it now? Would you look at having people in your commercial 
program both with regard to China and Vietnam and any other 
country you think may be appropriate to have some training and 
understanding, perhaps have an afternoon where you bring in 
Harry Wu, who was in prison for 18 years, bring in Ray 
Berkadir, bring in a Protestant pastor, bring in the Cardinal 
Kung Foundation so that your commercial people can hear from 
people who have direct knowledge of this. But one, will you 
start the program up, and would you consider starting it up 
with a carrier with the excess money that you currently have?
    Secretary Locke. Well, you mentioned this program to me 
just before this afternoon's hearing commenced, and I was not 
aware of this program.
    Mr. Wolf. No, I didn't expect you--
    Secretary Locke. But I would like to look into it and find 
out more about it. And I can report back to you our response in 
terms of providing some sort of training or reinstituting this 
training program.
    [The information follows:]

                        Training on Human Rights

    Beginning in FY 2003, Congress directed ITA to use $500,000 to 
develop a human rights training program to address a concern that ITA's 
efforts to increase trade were conducted without consideration of the 
impact of U.S. global business expansion on human rights. To ensure 
that our employees included information on human rights as part of 
their counseling for U.S. exporters, the U.S. and Foreign Commercial 
Service's (US&FCS) Office of Professional Development built a 
comprehensive training program in coordination with ITA. Designed with 
the input of Commercial Officers, outside experts, NGOs, and the State 
Department, the training provided Commercial Service staff with the 
tools to incorporate the promotion of human rights, rule of law, and 
corporate responsibility into their daily work when counseling U.S. 
businesses.
    This training program began implementation for Commercial Officers 
in FY 2003. In FY 2005, the training initiative was expanded to include 
Commercial Specialists and Domestic Trade Specialists. ITA has 
incorporated Human Rights training in the employee professional 
development plans and at the beginning of FY 2009 almost all Commercial 
Service officers and the majority of the staff have been trained. As we 
bring on new employees, we are committed to ensuring that they too 
receive human rights training as a part of their ongoing professional 
development.
    The International Trade Administration recognizes the importance of 
human rights, rule of law, and corporate responsibility and the role 
they play in international trade. We have trained almost all Commercial 
Service officers and the majority of staff in this important area and 
are committed to including human rights training in the ongoing 
professional development of new officers and staff. In addition, we are 
exploring cost-effective technology solutions to deliver the training 
in the future to ensure that the training is available to all employees 
on a continuous basis.

    Mr. Wolf. Yeah, I think it would be good. I mean, why 
wouldn't we do it? I mean, why wouldn't we want to sensitize? I 
mean, here we actually had a situation where I picked socks up 
off the line in Beijing prison number 1. Those socks were being 
manufactured for export to the West. I mean, here you had 
Tiananmen Square demonstrators making socks so people could buy 
them here in the West.
    And it would seem to me that your people ought to know what 
is going on, also in Vietnam. I mean, I think they are 
persecuting the Catholic Church, they are persecuting 
Buddhists, and they are having a very, very difficult time. So 
I really can't really understand why--and, again, it is not 
your fault--why we would not do that.

                          EXPORT CONTROL LAWS

    As Commerce Secretary what will you do to ensure that our 
export control laws are aggressively enforced in order to 
prevent dual-use technologies from leaving the United States 
and going to develop advanced military equipment in China, 
build a nuclear bomb in Iran, or assist terrorists in creating 
a weapon of mass destruction?
    Secretary Locke. Dual-use export falls under the 
jurisdiction of the Bureau of Industry and Security, and the 
National Academy of Sciences has come out with a series of 
recommendations on how to improve that operation. There are 
certain items that obviously many people feel should not be the 
subject of regulation that would then free up resources to 
really focus on true threats and other materials that are the 
subject of national security concern, and so that we have the 
right emphasis and can be more vigilant in particular areas.
    I very much am willing to look at that and to see what we 
can do to reform that process to really direct our personnel 
and focus our efforts on those issues and items that clearly 
are of concern to our national security interest.

                          INFORMATION SECURITY

    But we need to be very, very careful with the technology 
that we have and the equipment and the products made in the 
United States that they not fall in the wrong hands or are used 
for military purposes, especially where it could be adverse to 
the United States' interests. And so we take those 
responsibilities seriously.
    That is also an area, for instance, where our information 
technology is vulnerable and antiquated. It is the very same 
agency within the Department of Commerce that has complained 
that it has information technology for which there are no 
replacement parts. And obviously, in order to be cybersecure, 
BIS has shut off access to the Internet to make sure that their 
systems are secure. Those are the programs that we need to 
watch very, very carefully. If we are able we will free up 
dollars in other operations, redeploy them and address some of 
the cybersecurity issues.
    Mr. Wolf. How long has that been a problem with regard to 
that Bureau?
    Secretary Locke. I think it has been ongoing for many, many 
years. And I received a report from the Inspector General 
saying--and even from the Acting Under Secretary, at BIS, 
complaining about this and expressing concern that it has been 
going on for perhaps 7 or 8 years. And they have been wanting 
more dollars devoted to beefing up their information systems 
and addressing the issue of cybersecurity, especially in an 
area, at a Bureau that deals with such sensitive issues such as 
military technology.
    Mr. Wolf. Well, I agree.

                           THE JASON PROGRAM

    The last question I have, are you aware of The Jason 
Program, do you know Dr. Ballard?
    Secretary Locke. No.
    Mr. Wolf. I thought you would have known Dr. Ballard.
    Secretary Locke. No.
    Mr. Wolf. I would encourage you to look into The Jason 
Program. The committee has funded The Jason Program over the 
years. Dr. Ballard is the scientist who discovered the Titanic, 
and he has an educational program with regard to the oceans, 
and it is thoroughly exciting. And a lot of our schools out in 
northern Virginia participate in The Jason Program. I had the 
opportunity, they asked me to come one night to introduce Dr. 
Ballard, and I had another event to go to. And I said, by the 
way, it is the last game of the World Series, so I really don't 
think we will get a crowd, but I will come. The auditorium was 
packed, and they were there listening to Dr. Ballard talk about 
the oceans and the sciences. And so it is an educational 
program in a lot of schools.
    I would urge you to, one, try to find out a little bit 
about it, and maybe if Dr. Ballard comes into town, sit down 
with him. I believe he has a place up in Woods Hole in 
Massachusetts. But it is a program of sciences with regard to 
the oceans and teaching young people math, science, physics, 
chemistry, and biology.
    For some years we will put the program in, and when the 
budget comes up from--what was in the budget last year? We had 
to add it in, and every time the administration would testify, 
they would say it is a great program, we think it is a great 
program, but then when the budget would come up, it would not 
be in. Sometimes--and I know you will not do this--sometimes 
the administration plays games. They know there are programs 
that the Congress will probably put in. They want those 
programs, but they won't put it in knowing someone up there on 
Capitol Hill may very well put it in.
    Now to really care about the math, and science, and 
physics, and chemistry, and biology and oceans and scientists 
for young people and education, The Jason Program offers a lot. 
So I hope you take a look at that, and if you are interested, 
let Dr. Ballard know the next time he is in town to come by and 
see you.
    Secretary Locke. Thank you.
    Mr. Mollohan. Thank you.
    Mr. Ruppersberger.

                           SATELLITE INDUSTRY

    Mr. Ruppersberger. The two issues I want to get into, that 
is the satellite issues and also the issue of cyber security. 
We in this country have been having a difficult time in the 
last maybe 10 years of maintaining our efficiency and where we 
were years ago in the space industry. I think when Sputnik came 
about by the Russians, we responded as a country by putting a 
man on the moon in 12 years. We have a difficult time in our 
overhead architecture to even get a major satellite up in 12 
years, and there are a lot of reasons for that. You basically 
don't have a lot of jurisdiction, but your jurisdiction in NOAA 
where you work with NASA is important, so you have some 
responsibility there.
    I am Chairman of a technical tactical committee on 
Intelligence which overseas the whole overhead architecture. 
And we had a huge investigation or really hearings and 
tabletops, bringing the entire industry in, both the Director 
of National Intelligence and the Department of Defense and also 
the major contractors, commercial contractors. One of the 
things that came out of that report was that one of the reasons 
we have been having problems, a lot is in acquisition and 
setting the specifications, getting people with an expertise in 
the area of acquisition.
    But another reason was the fact that a lot of the research 
that needed to be done to put up the satellite was--was the 
research and development were done after the contracts were let 
out. And I think that in order to maintain our dominance from a 
national security point of view, but also what our satellite 
programs do in the commercial sector, what they do for NOAA, we 
need to maintain and keep moving ahead in that regard.
    My question to you is basically do you understand there are 
issues in the satellite industry and in the space industry? 
From your perspective, where would your priorities be as far as 
resource?
    And one other thing if you could address. We can't afford 
to build satellites for Department of Defense, intel and NASA 
and think we have the money to do everything. Now, we are going 
to keep doing all of them, but we need to really work more in a 
collaborative mode with DOD, with intel, and especially in 
sharing some of the classified areas that we really don't need 
to be classified with NOAA and with NASA. So if you can respond 
to that issue, I would appreciate it, where you think you are 
going from your perspective. And if it is too complicated, just 
get back to you me afterwards on this issue so I could work 
with your staff.

                                  ITAR

    I also want to get back--and this is very high priority to 
me is ITAR, and I want to make sure that we work together to 
resolve this ITAR. We can't wait any longer for ITAR. We are 
having serious issues involving or national security, but our 
business and whatever. So I think we really have to work on 
that, too.

                       SATELLITE PROGRAMS IN NOAA

    Secretary Locke. Thank you very much, Congressman. I would 
like to perhaps sit down with you privately and individually to 
learn more about some of these issues. I can only say that I 
believe that the NPOESS satellite program for NOAA suffers from 
a triagency management structure that simply does not work.
    And the fact is that, with respect to the contracting, as 
you said, a lot of the research and development is performed 
after the contracts have been signed, because the contracts are 
really for entities or organizations, whether private sector, 
to develop the instruments, once the scientists have figured 
out what it is that they want collected and what type of 
information they want collected 20 or 30 years from now. None 
of those instruments exist now.
    And so we are basically saying as President Kennedy 
challenged the Nation to put a man on the moon by the end of 
the decade, we are basically asking the scientific community 
and the contracting community to come up with these instruments 
to measure and to do various tasks for which there are no 
things, they are not off-the-shelf that you can then just stick 
on a satellite and put them up into space.
    So the contract calls for the research and development of 
items in a very general and broad sense for which people really 
don't have a firm estimate of the cost or how long it is going 
to take to do. And so the cost overruns occur when it takes 
more time to do it than anyone ever envisioned. It is taking 
long, and it is more complex, and as a result budgets either 
skyrocket, or the number of instruments get scaled back or 
both.
    Also I think there is an issue as to how we supervise the 
subcontractors, and whether that is done effectively and 
efficiently. In some cases we found perhaps it is better to 
have NASA actually being the overseer of the project, as 
opposed to a private contractor overseeing a subcontractor.
    So I think we need to reexamine all the different models, 
find out what really works and what does not work. Because it 
is amazing that it is taking us so long to get the satellites 
up and running.
    Mr. Ruppersberger. Another area, too, is the commercial 
satellite, which, because Europe has not had the money that we 
have had, they very effectively have used commercial 
satellites, which usually you can get maybe a lot more 
satellites for the money. They are on time and on budget, or 
they don't get paid. And that is something that I think we all 
need to look at in that regard, too.
    There is a report that our committee rendered, that the 
President has now and the administration has now, and I should 
have my staff person to get it to you all and look at it.
    I think one of the things about research and development, 
even before a contract is let out, we need to do that before it 
goes out; in other words, have the research and development 
there. You have program management issues. You have people who 
are putting together the acquisition who don't have experience. 
So there are a lot of issues that we have to deal with that are 
very important.

                             CYBER SECURITY

    The other is cyber. Cyber is probably one of the most 
important issues from a national security point of view that we 
are going to deal with in the future. We are way behind the 
eight ball, other than some areas that I can't discuss, but 
basically cyber can affect everything that we do in this 
country. We know that we have--and I can say this is not 
classified, it has been out there--our Pentagon has been 
cyberattacked, NASA has been cyberattacked. And when you get 
cyberattacked, there is probably millions if not billions of 
dollars of research and development that, say, a China or 
Russia, somebody can obtain that information that we have done, 
and they can pick up what we need to do. But it goes way beyond 
that.
    We rely, we are probably--we are the strongest country in 
the world and one of the main reasons we control the skies. Yet 
China and Russia are that close to us. And yet from a cyber 
point of view, these attacks can come through a grid system; a 
grid system as far as energy or electricity or whatever, can be 
done. They can go and they can attack a bank. You and some of 
the experts in this area, basically if you have a senior 
citizen in South Dakota who has a server and deals with a 
community bank, and that community bank deals with Bank of 
America, the bad guys can go in through that one server and 
probably affect an ATM system of Bank of America generally. 
When Russia went in to fight Georgia just this last summer, 
they cyberattacked first from a banking, a grid. So this is a 
very serious issue that we have to move quickly.
    The good news is President Obama understands this. He was 
briefed with McCain and President Bush last year where this 
really came to the forefront. He has agreed to put money in the 
right place. He has Melissa Hathaway, who he is working with on 
his side, and then General Alexander is probably one of the 
best technicians that we have in the United States military. 
And so there are good people that are in place, but it is just 
not about the people.
    A lot of people right now think that NSA listens to their 
phone calls, which is not true at all. It is unfortunately 
sometimes the way the media takes something, moves something 
out. This is as far as what people think. But cyber, we do not 
own the Internet. The United States does not own the Internet. 
It is very relevant and very important that, I think, from your 
perspective in a commercial, that Microsoft, all these 
businesses that are global are dealing with the cyber issue. 
There has to be a buy-in from the business community, from the 
government community, and from the average American citizen who 
has a computer that we need to do this.
    So if you could really focus on the cyber initiative and 
maybe stand up some people in your organization, because a lot 
of this is going to have to do with global companies, and we 
need to have all of them in the tent, because there is going to 
be billions of dollars' worth of money, and the government 
cannot pay for all of that. Business has to be a part of this.
    Secretary Locke. I thoroughly agree. And you indicated Ms. 
Hathaway is helping conduct that review on behalf of the 
President, and I believe that the various executive agencies 
will be meeting shortly to discuss that report and to have that 
report.
    Mr. Ruppersberger. Do you see from your perspective and 
your mission that you have a role there also? I think you have 
a major role.
    Secretary Locke. Oh, very much so. And the whole issue of 
the impact on commerce, the impact to businesses, small and 
medium-size businesses, to our financial institutions, as you 
indicated, to our power grid system on which everything 
depends. And as the President has declared, we all need to 
really step up to the issue of cybersecurity not only within 
our agencies, but for the entire country as a whole, and 
commercial enterprises and financial enterprises, power grid 
systems, water supply systems, medical systems, everything. I 
mean, it is very easy for a person, a teenager, from some other 
country just to start hacking into and destroying----
    Mr. Ruppersberger. It could be al Qaeda, it could be a 
hacker.
    Secretary Locke. Or an organization of terrorist intent.
    Mr. Ruppersberger. Thanks.
    Mr. Mollohan. Thank you, Mr. Ruppersberger.

                   PACIFIC COAST SALMON RECOVERY FUND

    Secretary Locke, as a former Governor of Washington, you 
likely are very familiar with the Pacific Coast Salmon Recovery 
Fund. In fact, the State of Washington received, I believe, 
approximately 17 percent of those funds for this program.
    Last year we heard testimony from the previous NOAA 
Administrator, a fine Administrator, Retired Vice Admiral 
Conrad Lautenbacher, who testified that the PCSRF had been 
funded to the tune of, quote, ``many millions of dollars,'' end 
of quote, over the previous 6 or 7 years. And in his opinion, 
quote, ``It is time to start weaning the States off of some of 
these grants. They have had time to adjust to them and the time 
to build recovery plans.''
    Do you agree with that statement in whole or in part, and 
if not, why not?
    Secretary Locke. I am not familiar with those comments or 
his recommendations or his assessment. I do know that a lot of 
effort has gone into addressing the endangered and threatened 
salmon runs on the west coast, in the North Pacific all the way 
from Alaska down to northern California, and we constantly face 
additional challenges.
    In fact, there appears to be another run of salmon that are 
threatened, and the Governors of both California and Oregon are 
asking for economic assistance because it appears that the 
scientists are recommending a complete shutdown of a fishery in 
the Klamath Basin area. That will have profound economic 
impact.
    It is important that we set time frames and that we have 
measurable goals with respect to the actions by which we can 
judge the actions at the local level. We cannot just continue 
to support endless study after study; there has to be action 
plans. We need to be monitoring the local governments and the 
communities with respect to their progress on those action 
plans, and if they are not making progress, they need to adjust 
those action plans.
    So I think it really is a case-by-case basis. I do believe, 
however, that as we look at endangered runs in the north 
Atlantic to the Gulf Coast States, that as, I think, one of the 
other Congressmen indicated earlier, that we need to be very 
mindful of the economic impact to the restrictions that we 
impose based on the science. We have to be grounded by the 
science, but then we also need to recognize the economic toll 
and the economic impact of restricting fisheries.
    Mr. Mollohan. Well, let me explain a little bit more the 
focus of my question. This Pacific Coast Salmon Recovery Fund 
is requested in previous years to the tune of about $35 
million. In the 2009 request, it was $35 million. There is 
considerable support, parochial support, in the Congress for 
this program. Programmatically we have increased it to 60-, 70-
, 80-, 90-million. Last year, I think, after conference this 
fund was--we funded it to the tune of $90 million. That is a 
lot of money.
    That money, as I understand it, goes for remediation of 
spawning areas, helping the salmon get up to where they spawn. 
And the program has been going on, as Admiral Lautenbacher 
indicated, for a long time now, a great number of years, and 
many millions of dollars spent on it. And I think it is worth a 
review because it is so much money.
    This committee really does want to address the problem and 
the issue, and I am just wondering if repairing so many 
culverts or opening so many dams or so many run-arounds, how 
much of that we can do, because I don't see the goals being 
achieved. I see there still being continuing problems. There 
are some that say, look, you can remediate, continue to do 
that, if that is your strategy, but you have to be equally or 
maybe more concerned about the increasing acidification of the 
oceans where the salmon swim. So I just encourage you to look 
at that program.
    And I also wonder about the equity of these areas being so 
designated and salmon being the only species involved here. I 
just commend it to your consideration as you come forward, 
because we are looking at because it is so much money. Again, 
there is tremendous support for it in the Congress. We 
understand its justification, but we think we ought to be more 
strategic and maybe more scientific about it. Are we really 
addressing the problem by spending these tremendous amounts of 
money on inland remediation?
    Secretary Locke. I thoroughly agree with you. There is 
always room for an analysis and evaluation of the effectiveness 
of the programs. The measure of a program should not be the 
dollars spent, but what we are getting for it.

                  ECONOMIC DEVELOPMENT ADMINISTRATION

    Mr. Mollohan. The Economic Development Administration, Mr. 
Secretary. It is an agency that I am pretty familiar with. Tell 
me what your attitude is with regard to the Economic 
Development Administration; to what extent do you anticipate 
the Department of Commerce supporting it? And what is going to 
be your emphasis with regard to programs that they manage?
    Secretary Locke. Well, I think that the role of the 
Economic Development Administration is more critical now than 
ever before, given the tough economic times that our country is 
in. And the President has proposed in the 2010 budget 
delineating out of the funds that have been proposed some $50 
million for the creation of regional innovation clusters that 
really would build on the strengths and the vision of 
communities. And that is up to each community working with 
their public-private partnerships, their colleges, 
universities, and really focusing on their strengths and trying 
to build on those strengths.
    Another $50 million would be designated for public-private 
business incubators to encourage that entrepreneurial activity, 
especially in economically distressed areas. Of course, the 
Congress put some $150 million in additional funds for the 
Economic Development Administration as part of the Recovery 
Act, especially for communities experiencing very severe job 
losses, and so we are very excited about that; and, of course, 
with some of the money that was provided, several hundreds of 
millions of dollars provided, in the aftermath of various 
natural disasters in the recent couple of years, again to 
target those areas to help them address and mitigate against 
those natural disasters, but also to help rebuild some of their 
industries.
    So I look forward to the opportunity to administer this. 
Right now it is administered through regional offices on a 
competitive basis all across the country. They do incredible 
leveraging of dollars. I think for every $1 that is provided by 
the Federal agency, we are actually getting some $14 in 
economic benefit working in partnership with economic 
development associations, colleges, universities, State 
programs, State dollars, the private sector. Federal dollars 
provide sometimes that last critical piece of funding that 
makes the project viable. And so this program is very, very 
valuable and very much needed.
    Mr. Mollohan. I would encourage you to, as you interact 
with the Economic Development Administration and its new 
leadership, encourage it to have an economic diversification 
focus, because really in those areas that are dependent on 
traditional industries, if they are not going to be focusing on 
diversification, they need to be incentivized to focus on 
diversification, because they are going to be in for tough 
competition if they are just going to continue to try to pursue 
those sectors of the economy on which they relied forever.
    In the Economic Development Administration I think that is 
a simple redirection, perhaps only in part. But if that were 
made a part of every grant submitted, to what extent does this 
contribute to economic diversification, you would, in my 
judgment, help facilitate in the long-term improvement in 
standard of living that we are looking for.

       REGIONAL INNOVATION CLUSTERS AND PUBLIC-PRIVATE INCUBATORS

    Please talk to me a little bit about regional innovation 
clusters and public-private incubators. Are there models for 
these two suggestions out there across the country? And 
otherwise talk a little bit more about them for us.
    Secretary Locke. Actually there has been a great deal of 
interest in the academic community and in the business 
development community about, first of all, public-private 
business incubators. We see a lot of those supported by the 
States using the colleges and universities, where the private 
sector can rent very inexpensive space in a college engineering 
facility and have access to other staff and laboratories where 
they can actually help perfect their ideas and their 
innovations, their products, and take advantage of the 
expertise that is also available, offered, let's say, in that 
public-private partnership to really help entrepreneurs to 
perfect their ideas, to make it more commercially available.
    Mr. Mollohan. Do you have any examples of where that is 
occurring for the record? Could you submit----
    Secretary Locke. Well, actually there are some at the 
University of Washington, in my home State of Washington. And I 
believe that there are numerous examples, but, yes, we can get 
you a list of some of that.
    [The information follows:]

   History of EDA's Investments in Business Incubators and Regional 
                          Innovation Clusters

    The Economic Development Administration (EDA) has a long, 
successful history supporting business incubator projects throughout 
the nation. Since 1995, EDA has invested approximately $348 million in 
321 business incubator projects. Grantees estimate that these projects 
have created 61,428 jobs and have generated $4.8 billion in private 
investment. A complete list of those investments has been included for 
your review. This list will be maintained in the Subcommittee's files.
    Similarly, EDA has long recognized the power of the regional 
cluster approach to economic development. Since the early 1990s, EDA 
has taken steps to conduct practitioner accessible research on 
regionalism, business and occupational clusters, their importance to 
regional economies, and ties to innovation and entrepreneurism. In 
addition, EDA has sought to fund economic development projects at the 
local and regional levels that support the development of clusters and 
cluster-based economic development initiatives. Such projects have 
highlighted EDA's emphasis on expanding regional competitiveness, 
promoting business clusters as a series of coordinated economic 
development activities related to a comprehensive economic development 
strategy for a given region.
    For example, in FY 2008, EDA funded a $154,000 Local Technical 
Assistance investment to the Center for Advanced Technology and 
Information (CATI) to replicate the successful CATI technology transfer 
model in up to three other mid-sized Midwestern regions attempting to 
infuse innovation and technology into existing manufacturing companies 
as a way to compete globally as well as to instill a mechanism for more 
value-added entrepreneurship by linking underutilized intellectual 
property. The Midwest region is a growing cluster for developing new 
technologies and ideas, generating one-third of the nation's new 
intellectual property and approximately 30 percent of all the private 
and public research and development, but less than 12 percent of all 
equity capital has been attracted to the area, meaning that there is 
underutilized intellectual property which requires an aggressive 
process for transferring to entrepreneurs and existing companies 
capable of commercialization.
    Furthermore, EDA has supported significant research efforts on the 
topic of regional innovation clusters over the past two decades. These 
studies include:
    --Cluster Based Economic Development: A Key to Regional 
Competitiveness--Report (1997)
    --Innovative Local Economic Development Programs--Report (1999)
    --A Governor's Guide to Cluster-Based Economic Development--Report 
(2002)
    --Rural Knowledge Clusters: The Challenge of Rural Economic 
Prosperity (2002)
    --Universities and the Development of Industry Clusters--Report 
(2004)
    --Competitiveness in Rural U.S. Regions: Learning and Research 
Agenda--Report (2004)
    --Unlocking Rural Competitiveness: The Role of Regional Clusters--
Report & Interactive Website (2006)
    --Know Your Region Project--Curriculum & Interactive Website (2006)

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Secretary Locke. Jonathan Salit, who used to work at 
Commerce Department, has written extensively on this and even, 
I think, testified in front of various committees here in the 
House of Representatives about the notion and the benefits of 
regional clusters as well as business incubators.
    The whole notion of the regional clusters is to build on 
the natural strengths of a community, instead of just giving 
out dollars willy-nilly and for any project that comes along, 
but to really try and capitalize on the aspirations, the 
natural geographic workforce, strengths of a region, some of 
their core industries to begin with, not at the expense of 
diversifying, as you pointed out. But if an area is well known 
for biotechnology, what is that entire region doing to bring 
other businesses into biotechnology or biomedical research? And 
are the grants working truly in partnership with the colleges 
and universities to train people into life sciences at all 
levels of salary and employment?
    Mr. Mollohan. That would be relatively easy to do if the 
area has a tradition of biotechnology. I could see where that 
could happen easily.
    Secretary Locke. It might be in other areas. It might be 
focusing on tourism. Another area of the country might be 
focusing on aerospace or automotive industry whether it is in 
the South or you name it. It is not to prejudge, but to say 
have you as a region really thought about what you believe to 
be your economic future or a component of your economic future, 
and do you have a lot of forces that are already aligned that 
perhaps with some Federal assistance, incentivize and promote 
even greater collaboration for whatever it is that the 
community and the regional economic leaders have focused on.
    Mr. Mollohan. And all regions have some strengths.
    Secretary Locke. Yes.
    Mr. Mollohan. But if you are going to diversify, then 
sometimes you have to help create the strength and then create 
the cluster. How would the Economic Development Administration 
promote a regional innovation cluster? What would be the steps, 
the facilitating steps, and resources made available by the 
Economic Development Administration?
    Secretary Locke. It would be grants along the lines of our 
current programs where we receive applications. We would judge 
the application based on the type of partnerships that are 
being envisioned and looking at the totality of support. 
Obviously if there are private-sector funds, that means that 
there is private-sector interest and validation on the ideas 
and the priorities or the emphases that are put on, let's say, 
by the local government, the State government or the region. 
But knowing that not every region has, in fact--is prepared to 
identify what they want to be or do over the next several 
years, then there is funding also proposed just for planning. 
And to bring all those economic development, you know, the 
counties, the cities, the State economic development people, 
the nonprofit, the college and universities, and the private 
sector together so they can start creating that vision for 
their communities.
    Mr. Mollohan. Are these block grants? Are these grants 
applied for directly to the Economic Development 
Administration?
    Secretary Locke. These would be grants that would be 
applied to directly to the Economic Development Administration.
    Mr. Mollohan. And managed at the regional basis, regional 
level?
    Secretary Locke. It would be, I believe, our intent to have 
them administered and the decisions made at the regional 
levels, by the regional offices scattered throughout the 
country.

                                  PTO

    Mr. Mollohan. Mr. Secretary, as a wholly fee-supported 
Agency, USPTO's funding is not based on the requirements 
necessary to complete the work, and the Agency's ability to 
operate is affected by the economic crisis. Fewer applications 
are filed and more patent holders decline to maintain their 
patents.
    Would you agree that the decision to transform USPTO into a 
wholly fee-supported agency does not appear to be working?
    Secretary Locke. I think clearly there are challenges with 
the fee-supported concept and especially with applications 
declining and the backlog increasing. We may have to look at 
another model.
    But clearly, number one, we should not be diverting the 
fees generated within the Patent and Trademark Office to other 
purposes. They need steady funding; they may need, in fact, an 
extra infusion of funds down the road to reduce that backlog 
and to make significant changes, such as improvements in 
technology, so that we can truly get the average processing 
time of patents down to what I think is an acceptable level.
    The average now is anywhere from 27 to 28 months for first 
action review, and that is an average because some patents are 
very simple and take very little time. So that means other 
patents that are more complex can take anywhere from 4 to 5 
years. And I think that is completely unacceptable, especially 
for a country that prides itself on innovation and the need to 
get products, new ideas, and new medicines, out to market and 
commercialized.
    Mr. Mollohan. What is your goal?
    Secretary Locke. I would love it if we could say the 
average time frame is less than a year.
    Mr. Mollohan. You think that is achievable?
    Secretary Locke. We are hopefully about to announce a new 
director for the Patent and Trademark Office. We want to work 
with all the stakeholders, including the employees, the 
professionals there, on creative ways of using technology, and 
basically start from scratch and rebuild and reinvent how we 
process patent applications.

                     DIGITAL TELEVISION TRANSITION

    Mr. Mollohan. On April the 2nd, the Wall Street Journal--we 
are winding down here, Mr. Secretary--the Wall Street Journal 
reported that 11 percent of local TV stations planned to change 
their broadcast areas. Is it possible, even with a converter 
box and a powerful rooftop antenna, some people may still not 
receive their local TV stations?
    Secretary Locke. We are working very hard on that, Mr. 
Chairman; and I am proud to say that the backlog for request 
for coupons has been eliminated and all requests for coupons 
are being processed within a week.
    And I note that in the various large media markets, I think 
about the top 100 media markets, roughly at least 95, 97 
percent of the households are ready and will not be affected by 
the changeover come June 12th.
    But there are some pockets around the country where we 
would like to have the numbers higher in terms of the 
households ready to receive this new digital transmission. And 
so we are really revamping and stepping up our advertising, 
working with the FCC to get the word out.
    Too many seniors and others simply don't know what an 
analog versus a digital television is, and the commercials that 
say the countdown has begun does not really tell them whether 
they are affected and what to do. And so we need to modify our 
announcements, our publicity campaign, working with the TV 
stations who are doing a lot of public service announcements. 
It is in their economic interest to make sure people can 
receive their broadcasts, so we are trying to get the word out.
    But we have made considerable progress, and I think the 
country is much better prepared than it was several months ago. 
And I thank the Members of the Congress and the President for 
the delay and the extra funding to get the publicity out and 
provide those converter coupons.
    But in some of the markets where they have made the change, 
they have noticed that in the past, with analog, your reception 
may not be great because of distance or because of geography, 
but you were getting a signal. The problem with digital is that 
it is a very abrupt--it is basically all or nothing, and so 
there is no grey area of a less-than-desirable, less-than-high-
quality picture. Some individuals may end up with no picture.
    And so there have been some complaints about that--for 
instance in the Denver area, which made the transition about 3 
weeks ago--but very few, very few. So that is something that 
the FCC and we are looking at and working with the stations to 
address.
    Mr. Mollohan. Well, we wish you luck in that. As the 
complaint center of last resort, I can tell you Members of 
Congress hope you resolve these issues before they get to us.
    Mr. Wolf.

                                TELEWORK

    Mr. Wolf. Thank you, Mr. Chairman. One final issue. The 
Patent and Trademark Office is one of the premier agencies in 
the government with regard to using telework. The committee 
over the years has had language encouraging, mandating 
telework. Can you tell us your views with regard to telework?
    Secretary Locke. I think it is a great idea. It is one of 
the successes--the great successes, and is a great example for 
other Federal agencies. So much of the work actually done in 
the trademark area is done by telecommuting or telework; and I 
actually would like to take the success in the Trademark 
Division and move it over to the patent area as well.
    And, in fact, other agencies, especially as we face traffic 
congestion, it helps to cut down on congestion, pollution, and 
reduces the overhead costs of government by not having to 
provide offices for everyone. I think it is an innovative way 
in which the private sector is moving, and we in government 
should also try to follow that same model.
    Mr. Wolf. Also, in continuity of government, should there 
be that need, would you submit for the record how the various 
agencies of the Department of Commerce, or do we know, EDA, et 
cetera, what percentage each agency has with regard to how many 
are teleworking?
    Secretary Locke. Yes, we can try to get you that 
information.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Wolf. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.

                            CLOSING REMARKS

    Mr. Mollohan. Mr. Secretary, thank you very much for your 
appearance today. Again, congratulations on your appointment to 
this very important position at this very crucial time in our 
Nation's history. This Committee stands ready to work with you 
in solving and confronting the diverse challenges that your 
agency deals with.
    We look forward to the budget in detail. We will probably 
have questions, the Committee and members of the Committee, 
after it is submitted. We will hold the record open for a 
couple of weeks after that for that purpose.
    And do you have any comments in summary or in closing that 
you would like to make?

                            CLOSING REMARKS

    Secretary Locke. Thank you very much, Mr. Chairman, for the 
time and the courtesy for engaging in this dialogue.
    And clearly we need to work with you and the members of 
your Committee on these tough issues, whether it is cyber 
security, whether it is economic development, math and science 
instruction, human rights issues in other countries, and to 
just elevating science and technology, not just in the programs 
administered by the Departments, in Congress but also by the 
entire Federal Government.
    The charge of the Department of Commerce is very, very 
broad. And we are trying to make it even more relevant to the 
people of America, the medium- and small-size businesses, the 
Main Street businesses of America; and we have much to offer 
those entities, large and small.
    We need to make sure that people know that the Department 
of Commerce is truly one of a repository of knowledge, a source 
for innovation and, ultimately, a source for job creation. And 
that is what it is all about.
    So I thank you and look forward to the opportunity to work 
with you.
    Mr. Mollohan. Thank you, Mr. Secretary.
    The hearing is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 29, 2009.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

CHRISTOPHER J. SCOLESE, ACTING ADMINISTRATOR

                  Chairman Mollohan's Opening Remarks

    Mr. Mollohan. The hearing will come to order.
    Good morning, Acting Administrator Scolese, and welcome to 
everybody who is at the table this morning.
    This morning, we turn our attention to the National 
Aeronautics and Space Administration. We appreciate your coming 
today to inform the Committee about ongoing programs and 
activities and general details of the NASA budget while we 
await the appointment and confirmation of a permanent 
Administrator for NASA and its detailed budget submission for 
fiscal year 2010.
    Mr. Scolese was cited by Administrator Griffin as the 
second of twelve people that are most essential to remain at 
NASA. So while we do not have an Administrator in place, NASA 
certainly remains in competent hands as Mr. Scolese and his 
very competent team continue to fulfill their responsibilities 
at NASA. We look forward to hearing from you all this morning.
    Preceding your appearance today, the Committee received 
testimony from a number of expert witnesses in the areas of 
science and technology, research and higher education, earth 
observation, and climate change. NASA is not at the periphery 
of these activities. Rather, it is at the center of them.
    Dr. Leonard Fisk commented that he ``can find no logic in 
the judgment that NASA science is less important than other 
scientific disciplines,'' at NSF and NIH, for example, and that 
we need to recognize that space has become part of the 
underlying infrastructure of our society and an integral part 
of our foreign policy.
    Dr. Ralph Cicerone stated that NASA's science activities 
were an admission from the gathering storm and that its 
activities should be treated similarly to NIST and NSF in the 
doubling agenda outlined in ``The American Competes Act.''
    He went further to note that NASA's research and higher 
education infrastructure is extremely important to this nation. 
Innovative technologies developed from NASA's space and 
aeronautics missions have improved our health and medicine, 
transportation systems, public safety, computer technology, and 
industrial productivity.
    With respect to earth observations and climate change, NASA 
is also front and center. It developed the current class of 
earth observation systems, nearly all of which have exceeded 
their life expectancies, and today is developing the next 
generation of satellites and sensors recommended by the 
National Research Council.
    Part of that effort includes the NPOESS Program which is 
managed by NOAA, DoD, and NASA. We have had to confront major 
cost overruns in the NPOESS Program and additional requirements 
appear likely given the anticipated need to support operational 
climate predictions and monitoring.
    In nominal terms, investments in earth science have 
decreased by one-third since their high water mark. It is time 
again to renew our focus on the mission to planet earth.
    Investments in these satellite development programs and in 
NASA's science enterprise generally are critical, but they also 
must compete for resources with NASA's other major programs. 
NASA continues to fly the shuttle, operate and maintain the 
International Space Station, and proceed with the Constellation 
Program, all very important.
    Costs of all these activities are rising. Last year, for 
example, nearly 70 percent of NASA's major projects were in 
breach of the projects' development costs and/or schedule 
thresholds.
    The price tag for Orion and Ares continues to mount and 
there are considerable unknowns as to whether NASA's plans for 
the Ares and Orion vehicles can be executed within schedule and 
current cost estimates.
    These cost increases occur within finite annual budgets and 
as such, cost increases in one program likely mean reductions 
in another.
    Given these fiscal realities, it is incumbent upon NASA to 
have far more reliable cost estimates at the time missions are 
proposed, effective management tools and empowerment managers 
in place to minimize cost increases and schedule slippages, and 
greater transparency in NASA's budgeting and execution to 
improve program costs, budgeting, review, and oversight. This 
is an ongoing process and one that continues today.
    But the larger looming question remains. Can NASA do all 
that it is asked to do within its budget allocation? Although 
this Administration has requested nearly $1 billion more for 
NASA over the fiscal year 2009 enacted level, the out-year 
profile for NASA is straight-lined over the next five years, 
signaling little change in the budget profile from the last 
Administration.
    Unlike previous years, today NASA is asked to reinvest in 
observations to planet earth and to reinvigorate its 
aeronautics research. These programs suffered at the expense of 
the Constellation Program, so this is a welcome change.
    NASA is to continue with its development of the existing 
vision and the new generation of U.S. human space flight 
capabilities, the cost of which, as I commented earlier, 
continues to mount and the time line for initial operating 
capability gets pushed further and further into the future.
    The shuttle is to be terminated in 2010, creating a gap in 
U.S. human space flight of at least five years before Orion and 
Ares are available. The space station continues to fly, used as 
a platform for far less research than supported by its original 
justification, until 2015 at which time, its fate is uncertain.
    If the decision is to cease the use of the station at that 
time, we could be developing portions of the Constellation 
Program for a one-way trip to low earth orbit to take the 
station from orbit.
    Is it any wonder that it has been so difficult to find an 
Administrator for this agency?
    At some point, it seems clear that the walk must match the 
talk and that funds must follow policy. But the problem is not 
mid-level career staff at the Office of Management and Budget. 
The President, the Administrator, and Congress are responsible 
for defining NASA's missions and then ensuring that funds are 
there to support those missions.
    As we all know, we have not yet received the President's 
complete budget submission. Accordingly, we do not know many of 
the details of the request. We will be eager to see those 
details when the budget is submitted and we are sure to have 
additional questions at that time.
    The hearing transcript that we are developing today will 
remain open for two weeks after the budget submission so as to 
provide members an opportunity to submit any budget-related 
questions.
    At this time, I would like to invite Mr. Scolese to offer 
your opening statement. Your written statement will be made a 
part of the record, of course.
    But first I want to recognize Mr. Culberson who is sitting 
in for the Ranking Member, Mr. Wolf, for any opening statement 
that he would like to make.
    Mr. Culberson.

                    Rep. Culberson's Opening Remarks

    Mr. Culberson. Thank you, Mr. Chairman.
    I am anxious to hear from everyone on this panel. And 
everyone I know on this Subcommittee shares my support for the 
sciences, for the investment the nation must make in our space 
program to maintain America's competitive edge, our leadership 
role in space. It is essential that we provide the resources 
NASA needs to complete everything that you have got on your 
plate.
    And I know that the stimulus package helped immensely in 
filling some of those gaps, but, Mr. Chairman, I appreciate 
very much your support for our nation's space program and look 
forward to your testimony.
    Mr. Mollohan. Thank you, Mr. Culberson.
    Mr. Scolese.

             Acting Administrator Scolese Opening Statement

    Mr. Scolese. Okay. Thank you, Chairman Mollohan and Mr. 
Culberson and members of the Subcommittee, for inviting us here 
today to discuss the President's Fiscal Year 2010 budget 
request for NASA as submitted to Congress on February 26th.
    The President's request of $18.686 billion represents an 
increase of $903.6 million above Fiscal Year 2009 Omnibus 
Appropriations. Because the President's detailed budget request 
has not yet been submitted to Congress, I will address the 
Fiscal Year 2010 budget overview, highlights of NASA's Fiscal 
Year 2009 funding, and current program status.
    NASA's initial Fiscal Year 2009 operating plan is $18.784 
billion or about $1.17 billion above the President's fiscal 
year 2009 request. This reflects an increase of $168.2 million 
in the regular appropriations and about one billion in ``The 
Recovery Act.'' NASA is appreciative of the action by the 
Committee and Congress in providing full funding in the regular 
appropriations and for providing ``Recovery Act'' funds which 
will enable NASA to meet its critical objectives.
    In Earth science, NASA is continuing to work aggressively 
to implement the recommendations of the Decadal Survey. The 
first two Decadal missions, SMAP and ICEsat-II, will continue 
formulation in fiscal year 2010. The next two, DESDynI and 
CLARREO will be accelerated. NASA will issue its first venture 
class announcement of opportunity later this year.
    In the next year, we plan to launch the Glory and Aquarius 
missions and the GOES-O Mission for NOAA, complete development 
of the NPOESS Preparatory Project, continued development of 
foundational missions such as the Global Precipitation Mission 
and the Landsat Data Continuity Mission, and initiate work on a 
thermal infrared sensor to complement the Landsat Data 
Continuity Mission.
    NASA is assessing options to recover from the disappointing 
loss of the Orbiting Carbon Observatory and we will keep the 
Congress informed of our plans.
    We are continuing the exploration of the solar system with 
planetary science missions, Juno to Jupiter, and the Mars 
science laboratory, both planned for launch in 2011, and 
recently selected the MAVEN Scout Mission to Mars.
    NASA's fleet of heliophysics missions strategically placed 
throughout the solar system is providing researchers the first 
ever solar system-wide view of solar influences on Earth and 
other planets and the dynamic structures of space itself.
    In astrophysics, NASA launched the Kepler Mission to search 
for earth-like planets in our galaxy. The final Space Shuttle 
Servicing Mission to the Hubble Space Telescope aboard STS-125 
is scheduled for launch on May 11th to upgrade the observatory 
to its peak scientific performance.
    Development continues on the James Webb space telescope 
which passed its confirmation review in 2008 and has an Agency 
commitment to launch in 2014.
    Formulation continues for ambitious future mission concepts 
to search for Earth-like planets around nearby stars, to 
explore the universe and the nature of dark energy.
    The fiscal year 2010 budget request renews NASA's 
commitment to a strong national program in aeronautics that 
contributes to the economic well-being and quality of life of 
American citizens through its strong partnerships with 
industry, academia, and other government agencies.
    Our Aerospace Systems Program continues to collaborate with 
the Joint Planning Development Office to enhance the capacity, 
efficiency, and flexibility of the national aerospace system.
    In exploration, the President's fiscal year 2010 budget 
overview directs that NASA advance the development of the next 
generation human space flight system to carry American crews 
and supplies to space and work to return Americans to the moon.
    NASA exploration systems continue to make significant 
progress in developing the next generation human space flight 
vehicles and their associated ground to mission support 
systems.
    Soon the Lunar Reconnaissance Orbiter and the Lunar CRater 
Observation Sensing Satellite Spacecraft will be launched to 
help NASA scout for potential lunar landing sites.
    Later this year, two major flight tests for the 
Constellation programs will be conducted. First the Ares I-X 
developmental test flight will launch from Kennedy Space 
Center, pad 39B, to support the design of the Ares I crew 
launch vehicle. Second, the pad abort 1 test at the White Sands 
missile range will be the first test of the launch abort system 
for the Orion crew exploration vehicle.
    The President's fiscal year 2010 budget funds the safe 
flight of the space shuttle to conduct a final servicing 
mission for the Hubble, complete the ISS, and then retire the 
shuttle in 2010.
    An additional flight to deliver the Alpha Magnetic 
spectrometer to the space station will be conducted if it can 
be safely and affordably flown by the end of 2010.
    In May, the ISS will host its first six-person crew. And in 
June, the STS127 mission will deliver the third and final 
component of the Japanese Kibo laboratory, setting the stage 
for full utilization of the ISS as a highly capable research 
facility.
    In December 2008, the Agency awarded two commercial 
resupply services contracts that are required to deliver 
supplies and experiments to the space station.
    The benefits from space shuttle missions and ISS research 
are ultimately demonstrated in the program's ability to inspire 
the next generation of Americans. This was reflected recently 
in the delighted faces of students who participated in the 
uplink phone call between President Obama and the station on 
March 24th which we both participated in, sir.
    NASA's Education Program will continue developing a future 
aerospace workforce, improving the technological 
competitiveness of our nation's universities and attracting and 
retaining students in science technology, engineering, and 
mathematics.
    Finally, the 2010 budget funds NASA's cross-agency support 
programs which provide critical mission support activities 
necessary to ensure the efficient and effective operation and 
administration of the Agency, including the management and 
operations of our centers.
    Chairman Mollohan, thank you again for your support and 
that of the Subcommittee. The five of us would be pleased to 
respond to any questions you or the other members of the 
Subcommittee may have.

                            BUDGET OVERVIEW

    Mr. Mollohan. Thank you, Mr. Scolese.
    We are going to proceed under a five-minute rule in these 
first rounds and then we will see after we go forward how far 
we get and perhaps modify that for longer questioning in 
subsequent rounds. Mr. Scolese, the budget proposes to increase 
funding for NASA in Fiscal Year 2010 by $700 million over the 
Fiscal Year 2009 enacted level, as you pointed out, after which 
the budget would be flat for the next several years.
    The increase this year is notable and a welcome change, but 
what is the effect of straight-lining this budget into the out-
years on your program and project planning?
    Mr. Scolese. Well, of course, we are very appreciative of 
the increase that we get in 2009 and 2010. That allows us to 
start and accelerate a number of activities. The impact in the 
out-years of a flat-line budget, of course, is dictated by the 
economic situation in the country as we all know.
    Mr. Mollohan. No, no. I am not asking what dictates it. I 
am asking like if you were sitting around the table with these 
fine folks that are sitting right there and you said, wow, this 
is a great increase for this year, are we not lucky, or not 
lucky, are we not fortunate and deserving.
    Mr. Scolese. I like that.
    Mr. Mollohan. But, boy--no, I mean that--but, boy, these 
out-years, they are flat. What does that mean for us?
    Mr. Scolese. Yes, sir.
    Mr. Mollohan. So what would we be saying here?
    Mr. Scolese. Yes, sir. We would look at that and, of 
course, we would do our mission planning based on the budget 
projections that we have. So we will design our missions so 
that they fit within that profile. That means some missions 
will not start as soon as people would like, but we also look 
at the content of the mission so that we can structure a 
program. I think you will see when the budget comes out a very 
good program that does excellent science, excellent 
aeronautics, and continues the Human Space Flight Program along 
the lines that we have talked about. But it is very difficult 
to go through all those details. We can give you some more 
details on----
    Mr. Mollohan. Well, why don't you do this at a kind of 
remote level then?
    Mr. Scolese. Okay.

                                SCIENCE

    Mr. Mollohan. What does it mean for science? What does it 
mean for aeronautics? If you were summarizing like a paragraph 
on each one of them, what would flat-lining mean to you? 
Something meaningful for this Committee----
    Mr. Scolese. Okay.
    Mr. Mollohan [continuing]. To understand what flat-lining 
means.
    Mr. Scolese. We, as I was highlighting here and I can give 
some more details, we clearly are going to be developing in 
earth science the Decadal missions. We will solidify the SMAP 
Mission and the ICEsat-II Mission in the 2013 and 2014 time 
frame, which allows us to do that.
    We will accelerate the next two Decadal missions, the tier 
ones. It allows us to maintain and progress on the foundational 
missions. I mentioned two, the GPM, Global Precipitation 
Mission and the Landsat Data Continuity Mission. There are 
other missions in that category, the NPOESS Preparatory 
Project, that we are working on and continue to develop. So we 
have those missions coming along and we are using all the 
resources that we have, quite frankly, in the Earth Sciences 
community to define those missions. We will also be engaging 
more the research community with the new venture class----
    Mr. Mollohan. Okay. Now, are you telling me what flat-
lining into the future, the impact it would have on you?
    Mr. Scolese. Yes, sir we can do all these missions with the 
flat-line budget that you are describing.
    Mr. Mollohan. You could get to tier two?
    Mr. Scolese. Tier one, we are working tier one.
    Mr. Mollohan. I know you are working tier one.
    Mr. Scolese. Tier two is still delayed, sir, in the budget.
    Mr. Mollohan. So if you were not flat-lined, would you be 
able to get to tier two?
    Mr. Scolese. Possibly. We also have, frankly, an industrial 
base issue with the number of people that we have, number of 
contractors we have, number of centers we have to go off and do 
this. I am sure we could do more, but probably not all, just 
the capacity of the nation to be able to go off and support all 
of those missions. So there is a balance there between the 
budget available, of course, and the workforce and the 
industrial capacity that we need to deal with.

                          AERONAUTICS RESEARCH

    Mr. Mollohan. What would flat-lining mean for aeronautics?
    Mr. Scolese. Aeronautics, we have actually a fairly robust 
program there. The flat-lining for Aeronautics is flat-lining 
with a higher level than we have been at in previous years. 
There, we are initiating programs to improve the aerospace 
system, as I mentioned, working with the FAA and others, but 
also allowing us to work on I will call it green aviation, 
looking at ways to improve the efficiency of our aircraft and 
our aerospace system to look at synthetic biofuels.
    So that program will be a very robust program. It is 
enhancing its research in fundamental aeronautics, looking at 
ways to trade, for instance, noise versus fuel efficiency 
versus the effluent. So the Aeronautics Program will be very 
strong.

                          EXPLORATION SYSTEMS

    Mr. Mollohan. Well, if you have got increases for earth 
into the out-years and you are flat-lined, that means something 
is going to have to suffer. What happens to Constellation?
    Mr. Scolese. The Human Space Flight Program, in general, I 
need to talk about. As you know, the intent is to retire the 
shuttle in 2010. As the shuttle is retired, the funds that are 
there for the shuttle go to or accrue to the Constellation 
Program. So that was in the plan before. We are able to 
maintain our plans for the initial operational capability in 
the 2015 time frame. Acceleration earlier than that is not 
likely. Our plans for the lunar, the beyond low earth orbit 
portion really did not start ramping up funding until the 2013, 
2014 time frame.
    Mr. Cooke. Right.
    Mr. Scolese. So that is where we would have to discuss the 
flat-lining, if you will, sir.
    Mr. Mollohan. Availability of Constellation before 2015 is 
not likely? Is that what you said?
    Mr. Scolese. Yes, sir.
    Mr. Mollohan. Well, it is not possible, is it?
    Mr. Scolese. I would not say it is not possible, but it is 
not likely. I mean, as we look at today and----
    Mr. Mollohan. I mean, what is likely is it is going to be 
pushed out beyond 2015.
    Mr. Scolese. We are going to work very hard, sir, to make 
that----
    Mr. Mollohan. No, no, I know, but that is what is likely, 
right?
    Mr. Scolese. We are going to try as hard as we can, sir, to 
make 2015.
    Mr. Mollohan. Thank you.
    Mr. Culberson.

                         PRIORITIZING PROJECTS

    Mr. Culberson. Thank you, Mr. Chairman.
    Administrator Scolese, you have got no better friends in 
Congress than this Committee and we really want to find ways to 
help you.
    We are also operating in an environment of record debt and 
deficit which is affecting all of the entire federal 
government. And every agency is going to have to prioritize and 
find ways to control costs and save money.
    We had the Department of Commerce Secretary in yesterday. I 
asked him about a procedure he followed in the State of 
Washington of prioritizing projects and figuring out ways to 
cut or eliminate those that are at the lower end.
    And as, you know, difficult or hard as it is for NASA, you 
all may have to go through the same process.
    And the Decadal Survey, I know, has been a very successful 
way over the years when it comes to the scientific robotic 
missions of identifying the top priority of the planetary 
scientists. And as I recall, it is broken down to the--is it 
solar missions or is it solar Decadal, inner planet, earth 
Decadal, and then outer planets in each of those categories?
    Mr. Scolese. I think it is planetary, Earth science, 
heliophysics, the solar and planetary or astronomy, I am sorry, 
astronomy and physics.

                            DECADAL MISSIONS

    Mr. Culberson. One thing I would certainly suggest, Mr. 
Chairman and panel members, is that we make absolutely certain 
that NASA has sufficient funding and that you are giving us 
accurate cost estimates, that is really critical, to make sure 
that those Decadal missions are flown.
    NASA has historically always flown those missions, but with 
everything on their plate that they have got to do and 
inadequate funding over the years and the loss of the Columbia, 
the Agency has never really fully been reimbursed and no way to 
compensate the Agency for the loss of the astronauts.
    But when Challenger was lost, Congress paid for another 
shuttle and the Agency was never fully compensated financially 
for the financial loss of Columbia or the hurricane damage. The 
stimulus went, I know, a long way towards helping with that 
effort.
    But what could you tell us about the ability of NASA to 
fully fund, make sure--are you confident that you will be able 
to fully fund the Decadal Survey missions that you have for 
this decade?
    In particular, I am very pleased and excited that the 
internal review process that you went through, Dr. Weiler, 
singled out, reaffirmed the Europa Mission, which had been 
chosen as the Decadal Survey Mission for the outer planets.
    Are you confident you will have what you need to do to fly 
those Decadal Survey missions?
    Mr. Scolese. We have a plan to go off and fly those 
missions, yes, sir. It fits within the budget profile that you 
see. If I may, to address your question about how do we get 
confidence in our budgets, we are working----
    Mr. Culberson. Cost estimates in particular.
    Mr. Scolese. Cost estimates, yes, yes. That is what I am 
talking about, sir, yes. We are working with the National 
Academy at the front end because as you accurately pointed out, 
we go there for our Decadal Surveys and they rank our missions 
appropriately.
    But we need to have good estimates there. So we are working 
with the National Academy so that they have better estimates up 
front that we can use and rely on. Clearly they will not be the 
best estimates. So at NASA, we have instituted processes where 
we get consistent cost estimates. We can compare them over 
time. We will not make our commitment until we have done at 
least the basic research and mission definition. So at least at 
the PDR timeframe is where we will make our commitments to you 
and to the American public as to what it is going to cost. We 
have instituted much more rigorous cost accounting. I discussed 
that in a previous hearing. So I think our cost estimates are 
going to be much better in the future and I think the ones that 
we are providing you today in terms of cost and schedule are 
much better than they were even a year ago.
    Mr. Culberson. It was a particularly good article in the 
Journal of Science which I have always relied on very heavily 
for a lot of my information. Mr. Chairman, I will make sure you 
get a copy of this as well.
    And Dr. Weiler correctly pointed out over a ten-year 
period, you have got $6 billion worth of promises made in 
planetary sciences and you just do not have the money. It is 
just a real concern.
    So the prioritization is critical. Make sure, please, that 
you are flying the Decadal Survey missions. That is vital. We 
have got to close that gap.
    And the Manned Program is one of the, in terms of priority, 
seems to me, you have got to close the gap and make sure that 
we minimize that gap when we are unable to fly manned missions, 
number one, and, number two, to make sure that we are flying 
those Decadal Survey missions and get us realistic cost 
estimates----
    Mr. Scolese. Yes, sir.
    Mr. Culberson. Because we want to help, but we have got to 
have realistic cost estimates.
    Mr. Scolese. And we will do that.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Culberson.
    Mr. Schiff.

            COMMERCIAL ORBITAL TRANSPORTATION SYSTEM (COTS)

    Mr. Schiff. Thank you, Mr. Chairman.
    Administrator, Dr. Weiler, great to see you both. Thank you 
for the outstanding work that you do and all of your team.
    I wanted to ask you about the COTS Program. Over the last 
three years, NASA has developed a commercial orbital 
transportation system to provide commercial cargo and crew 
flights to the International Space Station.
    In December, NASA awarded contracts to two companies, 
Orbital Sciences and SpaceX for ISS resupply missions. The 
first flights are expected in late 2010 or early 2011.
    Before those flights, it is hard to declare the program a 
success, but at this point, it is hard to see how it could be 
going any better.
    I want to congratulate NASA for having the foresight to 
launch the COTS Program. I have been out to SpaceX and was 
incredibly impressed with what they are doing. And I was there 
after the second unsuccessful launch where they were quite 
confident they diagnosed the problem correctly and sure enough, 
on the third launch, they showed that they had. And it is very 
exciting.
    There is another stage to the COTS Program, Capability D, 
which involves developing commercial crew delivery. As we 
approach shuttle retirement, Capability D could offer our only 
domestic method of delivering astronauts to the ISS. This 
Subcommittee has consistently supported that capability as has 
the Authorizing Committee.
    My understanding is that the crew capability could be 
demonstrated two years after approval. In the Stimulus Bill, 
Congress provided an additional 150 million for commercial crew 
and cargo.
    So I am interested to know if NASA has taken any steps 
toward activating the Capability D option or if there are any 
impediments to that. And does NASA believe that exercising the 
option would allow for cheaper ISS crew flights during the 2010 
to 2015 window?
    Mr. Scolese. The Capability D, we did provide $150 million 
of stimulus funds for looking at crew and enhancing cargo. 
About $70 million of that funding is to go off and address 
issues that are broadly related to crew capability for anybody 
that would be providing a crew capability. It is looking at 
what we need to do for attaching a vehicle and detaching a 
vehicle from the station. We need to provide some interfaces 
for that, so we are looking at that. We have activities to work 
with people and to better define the human rating requirements 
that would be needed to put crew into space.
    The Aerospace Safety Advisory Panel had some concerns about 
our human rating requirements as currently written. So this is 
to go off and clarify those, make them clear to anybody that 
wants to fly crew.
    And then we have about $80 million----
    Mr. Schiff. I am sorry, Mr. Administrator. It sounds like 
bongos in here. Is that the sound system or do you have musical 
accompaniment at NASA now?
    Mr. Scolese. I do not think I have musical accompaniment, 
sir.
    Mr. Schiff. Is that in the room?
    Mr. Scolese. I am sorry. I do not know how to follow that 
up.
    Mr. Mollohan. This is NASA.
    Mr. Scolese. And then we have additional resources, the 
balance of it to accelerate cargo flights and to go off and 
solicit initially as a request for information, information on 
how commercial crew could be done.
    Fundamentally, the plan that we see going forward is to 
logically proceed from cargo, which will be difficult in and of 
itself to achieve, to a crew escape capability to ultimately 
bringing crew up to the space station.
    So that is basically our plan and overview and that is what 
the $150 million in the funding that you saw in the operating 
plan yesterday that it will initiate. And that is in addition 
to, as you pointed out already, the commercial cargo portion of 
it.

                             EUROPA MISSION

    Mr. Schiff. Let me ask you about one other issue and that 
is an issue that Mr. Culberson and I are very interested in and 
that is Europa. I saw that a couple months ago, NASA selected 
Europa as the first outer planet flagship mission with a tight 
mission to follow.
    Will you be issuing an Announcement of Opportunity (AO) for 
Europa in fiscal year 2010?
    Mr. Scolese. I do not know the answer to that.
    Mr. Weiler. There are not sufficient funds to get an AO out 
in 2010. I am not sure of the exact date we have planned for 
that, but we can certainly submit that to the record.
    We are also awaiting----
    Mr. Schiff. I am sorry. Did you say there were not 
sufficient funds?
    Mr. Weiler. There are not sufficient funds in the near-term 
budget to issue an AO that early. I will get that date to you 
in the record.
    In the meantime, we are starting the planetary Decadal 
Study and one of the questions we are asking them is to really 
look at the current priorities in the Planetary Program across 
all planets including the moon. We have to ask the question 
what is the highest priority in our program. Should we be 
putting more money into Europa from other parts of the program, 
for instance. Right now Europa is not well-funded at all 
because of previous priorities, frankly, and I want that to be 
relooked at and I want the Decadal to do a fair and competitive 
peer review across all of the missions in the Planetary 
Program.
    Mr. Scolese. But the current plan is at 2020.
    Mr. Weiler. It is a 2020 launch. I should also point out 
that we have worked with the ESA, the European Space Agency, 
and now Europa will actually be a truly international mission. 
Instead of competing with each other, we are going to go to 
Jupiter together. The Europeans are going to orbit Ganymede and 
we are going to orbit Europa and share the data. So it is a 
much better mission, I think, in the long run.
    Mr. Schiff. In the next round, I would love to follow-up 
with you on the moon science and how it affects other science. 
Thank you.

                                 COTS D

    Mr. Mollohan. Just clarification of a question that Mr. 
Schiff asked on the COTS D. Your spending plan is $150 million 
for commercial crew and cargo. Our information, it was 80 
million to be available for commercial development of crew 
concepts and technology demonstrations and investigations.
    And all that sure sounds like COTS D and what you described 
sounded like COTS D. But in conversations with our staff, your 
staff assured us or not assured us but represented that that 
was not COTS D.
    So could you clarify?
    Mr. Scolese. Unfortunately, we use COTS D as a shorthand 
for commercial crew. COTS D really is an option that was out 
there in the early ``Space Act'' agreements to talk about human 
space flight. And there is only one organization that bid to 
that. So shorthand, we call it COTS D, but it really is not 
COTS D. If I misspoke, I am sorry.
    Mr. Mollohan. No, no, you did not misspeak.
    Mr. Scolese. Okay.
    Mr. Mollohan. It just sounded like COTS D.
    Mr. Scolese. Okay.
    Mr. Mollohan. So what is the difference?
    Mr. Scolese. The difference is we are not going off doing 
what we originally described as COTS D. And when I get done 
here, maybe Doug can add a little more----
    Mr. Mollohan. Okay. Well, we will come back to that.
    Mr. Scolese. But what we are doing is a logical progression 
to crew. It is not COTS D as was originally discussed, what was 
it, two years ago?
    Mr. Mollohan. Okay. Great.
    Mr. Bonner.

             KEEPING THE AMERICAN PUBLIC INTEREST IN SPACE

    Mr. Bonner. Thank you, Mr. Chairman.
    Mr. Scolese and your colleagues, we are glad to have you 
before us.
    When I was on the Science Authorizing Committee before I 
joined the Subcommittee this year, I asked this question of 
your predecessors, so I will give you another shot at it as 
well.
    Help me understand. And this is not a new problem, but I do 
think it is a challenge. The shuttle is going to retire in 2010 
and we are looking to have returned man space flight to the 
moon in 2020. So I am trying to understand how we keep the 
American taxpayers' interest in NASA.
    Even though I know there are many important missions that 
will take place between 2010 and 2020, I just wonder sometimes 
if Major League Baseball, which we have got a new season upon 
us, had a ten-year hiatus or the National Football League went 
ten years without there being a Super Bowl, would it not be a 
challenge to keep people--there may be Minor League sports and 
there may be other factors taking place, but the big game that 
for many Americans is seeing that shuttle launch or seeing that 
man take his or her first steps on the moon.
    Are you all concerned about this and, if so, what can we do 
to help you bridge that gap and keep the American taxpayers 
interested, as Mr. Culberson said, with record deficit, record 
debt, record spending, and, yet, out of sight, out of mind?
    Mr. Scolese. I do not know if I will do better than my 
predecessors here or not, but I think the answer to your 
question is it is clearly unfortunate that we have the gap. I 
do not think anybody wanted to have a gap in the ability to 
take Americans to space in American vehicles. That is 
unfortunate and it is the result of previous decisions that 
were made.
    To keep people excited, I think you cited a few things. 
Clearly the missions of exploration on Mars, going to the outer 
planets, going to the inner planets, as we look at those will 
certainly provide a degree of excitement, but we must not 
forget that during that entire period, we will have permanent 
crew on board the space station.
    And the unfortunate thing is it will not be American 
rockets taking the crew to the space station, but we will have 
crew up there. We will have international crew and we will be 
demonstrating, I think, once we get all the labs on board, 
which we will this year, and have it fully functional by the 
end of next year, we will be demonstrating some really exciting 
research that has some very practical applications.
    Others can give you a better indication, but I think, you 
know, one that really peaked my interest and I think even had 
some articles on it is the research that was done that is 
allowing us to better understand salmonella and its modalities 
so that we can develop a vaccine for it.
    So I believe that with a combination of our permanently 
crewed presence on the space station, the exciting research 
that can be done there, as well as the other missions that we 
will keep people stimulated in it.
    And hopefully with the development of the next generation 
system, people will see and be excited about that as I was in 
the 1960s when I was young and becoming interested in the Space 
Program.
    There was that hiatus between Gemini and Apollo and 
subsequently between Apollo and Shuttle. And many of us still 
stayed very much interested in the program.
    So I hope those are the ways that we will keep the American 
public interested, sir.

                       MATH AND SCIENCE EDUCATION

    Mr. Bonner. Well, that is a great lead into my second 
question. This year under the dynamic leadership of our 
Chairman, our Subcommittee has spent a lot of time in 
conversation talking about how to get kids and young people 
throughout the country more interested in math and science 
education.
    And you have just alluded to when you were a young man in 
the 1960s and what piqued your curiosity and interest in this 
area.
    One of the items in your written testimony discusses NASA's 
efforts to strengthen curricula in two-year community colleges.
    In our home State, Congressman Aderholt and I, we are both 
from Alabama, and our state has established a plan to 
dramatically improve workforce training in our two-year system.
    Can you tell us a little bit more about what NASA is doing 
specifically to reach out and engage students? Now, that is at 
a much more advanced stage than you were when you were 
interested in it, but is it too late to capture those 
opportunities when they get to the two-year system?
    Mr. Scolese. No, sir, I do not think so. In fact, not going 
on that, and we will provide you more details for the record 
about what the program is there, but I can describe a program 
that we initiated when I was at the Goddard Space Flight Center 
working with two-year colleges, Capitol College at the time, 
where we provided opportunities for junior college students to 
go off and operate spacecraft. And that has become a very 
successful program, inspiring a lot of people not only to go 
off and become spacecraft operators but to go on and get their 
four-year degrees in engineering or science or mathematics. So 
building upon that program, I think very much we can go off and 
do that, but I cannot give you the details right here. I will 
have to provide the absolute details for the record, sir.
    Mr. Bonner. Great. Thank you.
    Thank you, Chairman.
    Mr. Mollohan. Thank you, Mr. Bonner.
    Mr. Aderholt.

                          ARES I ORION/ARES V

    Mr. Aderholt. Thank you, Mr. Chairman.
    What is the original date that Ares I and Ares V were 
proposed to be ready?
    Mr. Scolese. I believe the commitment date that we always 
had for the Ares I Orion system was 2015. We were striving 
internally for a 2013 and a 2014 date.
    Over time, as a result of a number of factors, that has no 
longer really become possible. So we are at the commitment date 
that we had made of 2015. And for Ares V, I thought it was 
2018, but I may be wrong on that, Doug.
    Mr. Cooke. No. That is correct.
    Mr. Scolese. Okay, 2018.
    Mr. Aderholt. That is what the current is?
    Mr. Scolese. Today, yes.
    Mr. Aderholt. Yeah. Okay. But you said it was originally by 
2013?
    Mr. Scolese. Our internal date for Ares I was 2013 and then 
2014. And now our internal date and our commitment date are 
approximately the same within a few months, but they are both 
in 2015.

                         CONSTELLATION PROGRAM

    Mr. Aderholt. Okay. If the shuttle is retired in 2010 or 
any costs to extend the shuttle are added to your current 
budget, how many additional dollars would you need to be able 
to complete the Constellation Program by 2013 or 2014? Let us 
think of in increments of $100 million. For each $100 million 
that we add to Constellation, how many months do we accelerate 
the completion of the program?
    Mr. Scolese. Today we are driven largely by our long-lead 
materials. So we have looked at acceleration options and do not 
see a significant acceleration that could be done for almost 
any amount of dollars. We could talk a few months, but we could 
not talk a year or more, sir.
    Mr. Aderholt. But it would be possibly a few months?
    Mr. Scolese. Possibly at best.

                    CLIMATE RESEARCH AND AERONAUTICS

    Mr. Aderholt. Okay. There are a lot of climate research 
duties and aeronautics duties that have been added to NASA's 
list that had not been done so in the past.
    Is the Federal Aeronautics Administration, the airline 
industry, or NOAA adding any of their own funds to these 
efforts?
    Mr. Scolese. In both cases, the answer is yes. I cannot 
speak specifically to FAA. Perhaps Dr. Shin could do that. But, 
yes, they are providing resources to go out and do that. NOAA 
definitely is. They have an increase in their budget to go off 
and improve the weather system and the climate system which, of 
course, are very much related. So, yes, there are increases in 
both.
    Dr. Shin. Yes. FAA has a specific program called CLEAN and 
this is to develop certifiable technologies for environmental 
impact mitigation and also climate change. They have also a 
very active weather policy group that works with the 
international community to address regulations and setting the 
standard and all those aspects for climate control or climate 
change mitigation. So we are happily working with FAA in those 
areas.
    Mr. Aderholt. Are they adding any of their own funds, 
though, or----
    Dr. Shin. Out of their new reauthorization at FAA, they are 
funded. The CLEAN Program is funded and climate change----
    Mr. Aderholt. Out of their own budget?
    Dr. Shin. Yes, out of their own budget.
    Mr. Aderholt. Okay. That is all I have, Mr. Chairman.

                          NASA BUDGET REQUEST

    Mr. Mollohan. Thank you, Mr. Aderholt. Mr. Scolese, in 
testimony before this Subcommittee earlier, again, Dr. Fisk 
stated that when he was on the Space Studies Board they 
repeatedly pointed out that NASA is asked to do too much with 
too little, something we hear a lot of. Do you feel that this 
is the case today?
    Mr. Scolese. Yes. I mean, it is also a good place to be, 
quite frankly. It is nice to have people wanting us to do more 
than we can do. All of our communities, the science community, 
the aviation community, all want us to do a lot of very 
exciting things. And we have to work collaboratively with them 
to try and determine what we can fit within the resources that 
we are provided. I think for as long as NASA is around I hope 
there is always more people coming to us asking us to do more 
than is currently possible. But I also hope that we have an 
organization in the National Academy, and obviously with 
Congress and the administration, that understands that we have 
a finite budget and a finite number of people and resources to 
be able to prioritize those in a sensible and logical way. And 
I think we get that, sir.
    Mr. Mollohan. I think I heard that process being discussed 
in Mr. Weiler's response to Mr. Schiff's question.
    Mr. Scolese. Yes, sir.

                       RETURN HUMANS TO THE MOON

    Mr. Mollohan. Does this budget in any way, either 
programmatic content or out year funding constraints, change 
the nation's current plans to return Americans to the moon by 
2020?
    Mr. Scolese. It may impact the return to the moon. But 
clearly, that is part of our normal design process as we go off 
and understand the vehicles that we are developing. We have a 
major preliminary design review coming up this year that will 
help us inform that decision. I think the significant piece in 
this discussion is that the President did in the overview 
budget ask that we strive to return humans to the moon by 2020. 
That is the goal that we are going to work on. But it is going 
to be informed along the way as we understand more and more 
about our systems, and we can understand more and more about 
the budget that we will have to live on. Not just this year and 
for the next five, but for the next ten years.
    Mr. Mollohan. So my question is, how does this budget and 
the out year budgets impact that as you are looking at it are 
informed along the way?
    Mr. Scolese. Yes, sir.
    Mr. Mollohan. Do you anticipate an impact?
    Mr. Scolese. I anticipate that we will have some changes in 
the program, yes, sir.
    Mr. Mollohan. Yeah, but my question is, is there anything--
--
    Mr. Scolese. I cannot tell you what those changes will be.
    Mr. Mollohan. I do not know. I mean, if you look forward, 
you can look at the budget and see how that impacts various 
programs and see which ones of them are a critical path to 
getting back to the moon. And does anything you see possibly 
impact our getting to the moon by the 2020 target date?
    Mr. Scolese. Well the reason----
    Mr. Mollohan. Anything you see in this budget, in the 
project?
    Mr. Scolese. No, I understand, sir. The difficulty is, we 
looked at, we are still looking at options for what do we mean 
by the moon. Do we mean a colony on the moon?
    Mr. Mollohan. Oh, boy.
    Mr. Scolese. That is clearly very expensive, right? Are we 
looking at something along the lines of what we did with 
Apollo?
    Mr. Mollohan. Well what definition were we using when we 
set the goal? So whatever definition we were using, what is 
returning to the moon, when we set the goal of 2020.
    Mr. Scolese. I think we were looking at an outpost on the 
moon, was the basis for that estimate, and that one is being 
revisited. It will probably be less than an outpost on the 
moon. But where it fits between sorties, single trips to the 
moon to various parts, and an outpost is really going to be 
dependent on the studies that we are going to be doing, not 
just this year but as we progress in the definition of the 
lunar program.
    Mr. Mollohan. So if you were sitting on the Committee and 
you were asking somebody, because you want to get a sense of, 
well, is the funding we are providing in these various programs 
that are lead up to getting on the moon by the target date, 
what kind of an answer would you want to walk away with, having 
a sense, or at least an understanding, of what the experts 
thought about this budget impacting our getting to the moon, 
whatever definition we used originally, what answer would you 
want to hear in order to help understand that? That is the 
answer I would like to have.
    Mr. Scolese. Okay. I think the answer I would like to hear, 
and I guess I will give, is that we will have the capability 
provide options for what that solution space looks like at the 
moon and beyond. Because recall, the vision was not just to go 
to the moon, as it was in Apollo. It was to utilize space to go 
on to Mars and to go to other places. So what I would look for 
from us over time is a system that is capable of carrying crew, 
clearly, into space. But then the capability of carrying crew 
and sufficient cargo out of low Earth orbit. So that we can do 
various things at the moon.
    We have demonstrated over the last several years that with 
multiple flights we can build a very complex system reliably, 
the Space Station, involving multiple Nations. As long as we 
have that capability, and we will need something like that if 
we are going to go to Mars. So what I would like to see from 
NASA over time is an architecture that allows us to build up a 
system that will give us flexibility for taking humans beyond 
low Earth orbit and allowing us to have options for what we can 
do at the moon as well as other destinations. Be they, physical 
destinations like the moon or Mars or an asteroid, or whether 
they be, astronomical ones, or celestial mechanics ones, the 
libration points where we are going to be putting satellites to 
do, you know, to do repairs there if that is warranted.
    So that is the answer I would be looking for from us today 
so that there are options on what we do in 2020. Is that okay?
    Mr. Mollohan. Well, you have exhausted my five minutes. Mr. 
Culberson.

                       SCIENCE MISSION PRIORITIES

    Mr. Culberson. Thank you, Mr. Chairman. The Chairman asked 
a really important question and I want to follow up on it. But 
I first want to make sure I understand Dr. Weiler's response to 
my good friend Mr. Schiff's question about Europa. I thought 
the Europa question was settled. That is the top outer planets 
priority, is it not, Dr. Weiler? You said something about you 
are going to go back and reevaluate as a scientist, to compare 
Europa, we are not going through another competition, are we? 
Europa is settled. That is the flagship mission to the outer 
planets, now top priority, right?
    Dr. Weiler. Absolutely. The Europa orbiter is now the top 
priority in the outer planets program. The problem is, the 
budget that I inherited about a year ago when I came back to 
headquarters does not just have outer planets in it. It has 
Mars, it has the moon, it has asteroids, comets, and various 
other programs. To get Europa moving faster than the plan is 
currently----
    Mr. Culberson. Okay.
    Dr. Weiler [continuing]. I would have to move money around.
    Mr. Culberson. From other, lower priority missions that are 
not----
    Dr. Weiler. Well, that is the key, Mr. Culberson. As an 
associate administrator I may have a lot of authority but when 
it comes to making priority scientific decisions I tend to rely 
on the National Academy.
    Mr. Culberson. Sure. Of course, as you should.
    Dr. Weiler. That is why this decadal is so important, 
because I have asked them, nothing is special in the solar 
system. Not the moon, not comets, whatever. You guys, you gals, 
are supposed to tell me. What is the most important thing? Is 
it Mars? Is it the outer planets program? Is it going to the 
moon----
    Mr. Culberson. Right.
    Dr. Weiler [continuing]. For science? And we should have 
that answer, you know, over the next year, year and a half.
    Mr. Culberson. Okay, very good. I recommend, Mr. Chairman 
and the Committee, as an absolute minimum that we make certain 
that no matter what else NASA is doing, and when it comes to 
the scientific work that they do on the robotics missions, that 
we have given them enough money to fly that top priority 
decadal mission in each of those categories. At an absolute 
minimum, particularly in this tough budget environment. That 
would be good. Because the scientific community does make those 
recommendations to them, Mr. Chairman. And they have done a 
good job over the years of prioritizing the mission.
    The one area that you have just got to get a handle on is 
the cost estimates. And the GAO recommends that you develop a 
sound business case for each mission and as a part of the 
process. Could you comment on that? What is your thought on the 
GAO recommendation on trying to give us more accurate cost 
estimates? And it makes it easier for your friends on this 
Committee to be able to fund what you want to do.
    Mr. Scolese. Well, we certainly do not disagree with the 
GAO. And we, in fact, responded back that we principally agreed 
with their findings. And they also commented in the report that 
we were doing much of what they had recommended in the report. 
So we are doing those things to make our estimates much better.
    Mr. Culberson. Okay.
    Mr. Scolese. The one thing I would like to comment on in 
the report that we did disagree with, which was mentioned 
earlier, was the number of missions that had cost growth. We 
specifically asked them to consider the fact that many of those 
missions we had no control over. I will give two examples, and 
we said about half of them they really should not count as NASA 
cost growth.
    SDO, the Solar Dynamics Observatory, was ready on time to 
launch. And because of the launch manifest will launch about a 
year later than anticipated.
    Mr. Culberson. Sure.
    Mr. Scolese. And a similar, although not as significant 
delay, is for the lunar reconnaissance orbiter and the LCROSS 
mission.

                             CBO'S ANALYSIS

    Mr. Culberson. Well let me if I could follow up on the 
Chairman's very important question. Because he was throwing you 
a nice softball trying to help you find a way, help you help us 
to get you the money that you need. And in order to help, I am 
going to yield, I am going to ask the question and then yield 
whatever time I have got back to the Chairman to follow up.
    But the CBO estimated that if you follow your current 
budget plans there will be an average rate of cost growth, 
would result in a delay in Orion/Ares until 2016. And we have 
just got to shrink that gap. Because the human space flight 
program is just essential. And we cannot allow ourselves to be 
hostage to the Russians, who will charge us whatever the market 
will bear. Because they will be the only game in town. That is 
just an unacceptable, that gap is just unacceptable and we have 
got to make sure we shrink it. But the CBO is estimating that 
there could be a delay in Orion/Ares until late 2016, a delay 
in returning humans to the moon until 2023, and that fifteen of 
seventy-nine science missions would be delayed beyond 2025. Do 
you agree with the CBO's analysis? And then could you make sure 
you address the Chairman's question, which is related to this?
    Mr. Scolese. I agree with how the CBO did their analysis, 
the results they got. I do not agree with their conclusions, 
however. They made assumptions that we would have 50 percent 
cost growth across the board, in all of our activities. 
Clearly, we do not plan to have 50 percent cost growth. We work 
so that we do not. As I alluded to earlier, we are doing what 
we can to provide you and ourselves, frankly, with better 
estimates so that when we lay out a plan it is a plan that we 
can live with, and that we can execute, and that we will show 
up on time.
    That is our plan with Constellation. We will come to you 
with our detailed plan at the conclusion of PDR, as we do with 
all of our missions. But our plan, our efforts, and everything 
that we are doing is to be there in 2015. Of course, I mean in 
any new development there are surprises. But our plan, and the 
activities that we have settled, that we have in place, and the 
benefits that were provided by the stimulus allow us to do some 
early testing. So we are going to work as hard as we can to 
make 2015 a reality.
    Mr. Mollohan. Thank you, Mr. Culberson. Mr. Schiff?

                             EUROPA MISSION

    Mr. Schiff. Thank you, Mr. Chairman. I had a couple of 
follow up questions for Dr. Weiler on the Europa mission. How 
soon would you need to go out with a proposal on the science in 
order to keep on a 2020 schedule?
    Dr. Weiler. Well we are talking about an AO for a mission 
that if we can meet a 2020 goal, which is currently what the 
Europeans are trying to meet too, I would guess that an AO 
would have to go out for instruments. Because we would be 
soliciting AO instruments and science team, broadly. That would 
probably have to go out in a time frame of 2012, 2013, 
probably, at the latest. So I would feel more comfortable if we 
went out about 2012. Despite our best efforts, instruments 
usually drive the launch. So, you like to get those started as 
early as possible. In the meantime, even with the budget we 
have now, I can keep the Europa team working on critical 
technologies. But again, I look to the decadal for advice on 
how to prioritize these things because with more money I could 
accelerate that launch date.

                         SCIENTIFIC PRIORITIES

    Mr. Schiff. Well, let me ask you about that issue. And 
this, I think, may have been part of the Chairman's question. 
Or I may have been reading more into the Chairman's question 
than I should. But you mentioned doing some reexamination of 
scientific priorities and where we are putting our resources. 
As I understand it, the manned mission to the moon is part of a 
broader manned mission to Mars. There is moon scientific work 
that is being done in preparation for a manned mission to the 
moon. And there is moon science that is being done that is 
probably independent of what you would need to do to bring man 
back to the moon. If the science community does not, and I am 
asking this question. If the science community does not 
conclude that the moon science is anywhere near as valuable as, 
say, Mars science or Europa science, are there ways that the 
moon program could be trimmed back to accommodate other higher 
scientific priorities?
    Dr. Weiler. Oh, absolutely, Mr. Schiff. That is exactly, 
that is exactly why we want this decadal. Because, and I will 
let Doug speak for himself, but there is no question that the 
lunar reconnaissance orbiter (LRO) mission that we are going to 
launch hopefully next month is absolutely critical for the 
human landings. Because we to this day do not have a high 
quality digital map of the moon. And we do not have a laser 
altimeter map of the terrain. So the LRO is going to provide 
critical information that is going to help the manned lunar 
program in the near term.
    On the science side, I have asked the current Associate 
Administrator, and actually the previous two, are there 
scientific missions that are critical to support the human 
mission beyond LRO, the lunar reconnaissance orbiter? The 
answer has usually been no, so at that point I have to ask the 
question, where does moon science stand in priority, versus 
searching for life on Mars, going to Europa, going to other 
planets, comets, whatever? That is a question that is so 
important. That is why I say the decadal should answer that 
question. I do not feel qualified to make that decision on my 
own.
    Mr. Schiff. Thank you. And I think that is exactly the 
right question to ask. Things get put in motion, they get an 
inertia of their own. And they may, they may not make sense. 
And I realize you inherited this budget, and the trajectory we 
are on in several different programs. But given, you know, for 
example the very exciting discovery of this Earth-like planet, 
this planet that is two or three times the size of Earth, and 
the possibility that there may be a great many Earth-like 
planets out there, I would think as a non-scientist the level 
of interest and excitement that could be generated over, you 
know, science exploring those, you know, habitats where life 
could exist would drive a lot of interest in the science. In 
the space program and in the sciences.
    Let me ask you one other question. The President announced 
a new science initiative designed to devote 3 percent of our 
GDP to research and development, which I was thrilled to hear. 
``Science,'' he said, ``was more essential for our prosperity, 
security, health, environment, and quality of life than it has 
ever been.'' Has the administration given you any indication, 
Mr. Administrator, that NASA will be a part of this new focus 
on science? Because obviously, I think I speak for my fellow 
Committee members, we really feel it should be. And it is 
probably the one area of science that is most attractive to 
young people, to get them interested in science. But also has 
some of the most fascinating questions. So have you heard 
anything about whether NASA will be part of this?
    Dr. Weiler. If I could interrupt and save a question for 
the record, it turns out I am more conservative than my 
planetary division director. Even with the budget he has today 
in the near term he feels he can get an AO on the street for 
instruments on Europa in the late 2011 time frame, which would 
even be better for a 2020 launch because it would give us more 
time to develop the technologies.
    Mr. Schiff. All right. Well, I think many of us would love 
to see it happen before 2020. So we would love to see the 
proposal go out in 2010.
    Mr. Scolese. The answer to your question is, I was at the 
President's speech. He did mention it. He mentioned, of course, 
NASA several times. But to be very frank, we do not have the 
details yet of what that means. But I would fully expect that 
NASA as a science agency would certainly be a part of that. But 
I cannot say anything more than that because I do not know.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Schiff. Mr. Kennedy.

                       EARTH SYSTEMS DISTURBANCES

    Mr. Kennedy. Thank you, Mr. Chairman. Welcome all of you. 
Thank you for the work you do for our country. I wanted to ask 
about, particularly Dr. Cooke if you would, about how NASA has 
begun to support systems approaches to exploring science of the 
interactions among components of the Earth's system, including 
human dimensions of the Earth's systems disturbances. And 
particularly we do, in Rhode Island, through our sciences work 
to develop quantitative risk models that analyze the 
interactions between humans and regional atmospheric systems 
for studying local and regional environmental changes, and the 
potential for social and economic consequences related to 
renewable energy, coastal fisheries, and human infrastructure 
and health. Has NASA begun to include this type of applied 
modeling and social science into its scientific portfolio? And 
are there opportunities for NASA to support this type of work 
with universities like we have in Rhode Island?
    Mr. Scolese. Mr. Kennedy, that would be in Dr. Weiler's 
division. Let me answer just real briefly, though, and then Ed 
can add more detail to it. The short answer is, yes. It is in 
our applied sciences division. We do do that. Of course, we 
have to work with other agencies. Since NASA is a research 
agency we do not do operational type of activities. We 
support--operational activities. But, it is something----
    Mr. Kennedy. Well then what do you need to do with other 
agencies to do that?
    Mr. Scolese. I will let Ed cover that.
    Dr. Weiler. It is a very detailed question, Mr. Kennedy. I 
really would like to take it for the record, if I could.
    Mr. Kennedy. Okay. That would be fine. Maybe you could 
comment about it just generally, then we could get some detail 
later on. But in terms of the Earth's systems disturbances, and 
how the human----
    Mr. Scolese. I can give a brief one because most of my 
career in NASA was actually on the Earth science side. So while 
it may not be as current or as up-to-date as some, NASA has 
launched a number of missions, as you know, to collect data 
about the Earth. The Landsat missions have been flying since 
the 1970's, and in their current forms since the early 1980's, 
they provide us with a continuous data record that is used by a 
number of localities for urban planning and it is used by 
agricultural services to predict and plan for crops. The EOS 
series of missions, there are several of those, are providing 
daily critical resources, critical information on resources 
around the world, not just in this country, both for marine and 
hydrologic activities. We have our tropical rain forest 
mission. It is integral in predicting the path and the 
intensity of hurricanes. We have instruments that are used 
routinely by the operational agencies for mitigating floods, 
predicting flood paths, and predicting paths for even volcanic 
activity. So that is sort of an overview of it. Those missions 
are being used continuously by virtually every agency of the 
U.S. government, and they are being used by other nations as 
well.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                 NASA'S EARTH SCIENCE PROGRAM BENEFITS

    Mr. Kennedy. Well I think it is important that we find out, 
Mr. Chairman, how those other agencies benefit from the work 
that NASA does. Because I think in a time of global climate 
change, like we are going through right now, it is especially 
important how the Department of Agriculture uses NASA's assets, 
and how Department of Defense uses NASA's assets, and how all 
of these different agencies use NASA's, rely on them, you know, 
frankly I think even the Department of Transportation and all 
of our local governments with coastal zone management.
    The fact of the matter is, I think these are the assets 
that NASA has that they could contribute in the most direct 
way, obviously, in the Mission to Planet Earth. And we 
obviously have to plan ahead in terms of droughts, in terms of 
preparing for potential civil conflict. If there is a drought 
that is going to be coming ahead, we are going to see it from 
space before we see it anywhere else. And if we can, and we 
know there is going to be displacement of people because of the 
drought and we are going to have to call in our Marines as a 
result, it is going to be a mass expenditure of our military. I 
mean, these are things that, you know, we can know and have a 
direct impact on our economy and on our national security. And, 
you know, most people in my district do not know how NASA 
impacts their daily lives. I think they would like to know, and 
I think they would be very happy to know how it does in a very 
direct way, that their sons' and daughters' lives could be 
saved by this vital information.
    So I would really like to get that. And I would like to 
have this so that we can really publicize it. Because I think 
NASA really, we need to get the message out there about how 
vital the work that NASA does is to our national security and 
to the future of this planet and its security.
    Mr. Scolese. Yes, sir. And we will provide you with the 
details on that.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mollohan. Thank you, Mr. Kennedy. Mr. Ruppersberger.

                  SPACE COMMUNICATION NETWORK SERVICES

    Mr. Ruppersberger. First I have a question. I want to get 
into two areas if I have time, ITAR and also cyber security. 
But Chairman Bart Gordon from the Science Committee asked me to 
ask this question. It is about the $1.3 billion contract for 
Space Communication Network Services, SCNS, despite the fact 
that both the House Science Committee and NASA's own inspector 
general are investigating serious allegations of that may have 
affected procurement. He asked me to ask you, is there any 
reason why NASA could not have waited to award the contract 
until after these investigations are complete?
    Mr. Scolese. Sir, we had reviewed the----
    Mr. Ruppersberger. I do not want to spend a lot of time 
because I want to get into my questions.
    Mr. Scolese. Okay.
    Mr. Ruppersberger. I am doing this as a favor.
    Mr. Scolese. Well, I will make it real short, then. Sir, we 
awarded the contract because we felt it was in the best value 
of the government. The contract has been protested again, so it 
is under a protective order. We are prohibited from discussing 
it further than that, really.
    Mr. Ruppersberger. Okay. But, maybe, have you determined 
whether an adequate analysis was performed to ensure that no 
organizational conflict of interest was prevalent during this 
competition? Is it not NASA's responsibility to do so?
    Mr. Scolese. Yes, sir, we did do that. We did not see an 
organizational conflict of interest.
    Mr. Ruppersberger. And the final question that was asked, 
should this Committee fund a program when you cannot find an 
assurance that proper process was followed to ensure adherence 
to ethical requirements to prevent personal and organizational 
conflicts of interest?
    Mr. Scolese. We, on every one of our contracts we review 
organizational conflicts of interest. We have a rigorous 
process. We believe we followed all the rules and that the 
award was valid.
    Mr. Ruppersberger. Okay. Also, what will NASA do in the 
event that a problem is found as a result of these 
investigations? Will there be, will we be, it is too late to 
remedy the problem once one is found?
    Mr. Scolese. No. We will have to work out a remedy if a 
problem is found.

            INTERNATIONAL TRAFFIC IN ARMS REGULATIONS (ITAR)

    Mr. Ruppersberger. Okay. ITAR. ITAR is an issue that, 
again, sometimes I think in this country we try to fix some 
problems and it causes other problems, and I think this is a 
perfect example. Different administrations have been looking at 
ITAR and saying, ``We are going to study it. We are going to 
look at it.'' But we really do not do anything. And it is about 
time we stand up and do something. I think we need to do 
something right away.
    There have been different studies that have come out about 
U.S. national space policy and how do we resolve some of the 
ITAR issues. And I want to read something here. Maybe you can 
respond to it. ``The study recommends a number of changes to 
existing export control regime, including that the Secretary of 
Defense and NASA Administrator in conjunction with the 
Secretary of State should have the authority to grant real 
time, case by case, specific time period exemptions for 
resolutions deemed to be in the national interest based on the 
criteria and the national space policy.'' Do you have any 
comments on, and you are included in, trying to be involved and 
providing exemptions, I guess, right away?
    Mr. Scolese. That would be ideal. I mean, ITAR has been one 
of the issues that has made it very difficult to do some of our 
international missions, mostly because of delays to get the 
agreements in place, and the delays associated with working the 
protections to make sure that information is not exchanged. 
Further, it sort of stifles the conversation with our 
international partners, as they look at it and say, ``Are you 
telling us everything you can tell us?'' So they create, in 
some cases, their own ITAR, a reverse ITAR.
    Mr. Ruppersberger. And that is what is happening 
internationally, and it is putting a lot of our companies at a 
disadvantage.
    Mr. Scolese. Seriously.
    Mr. Ruppersberger. Seriously. And it seems to me that when 
it comes to, you want to call it tier one or whatever as far as 
what we need to be classified, I think that most of the 
contractors you deal with understand that. And you all have the 
ability to be able to maintain that confidentiality, or keep it 
classified.
    Mr. Scolese. Yes, sir.
    Mr. Ruppersberger. But we need to move it. I think, I met, 
we had the Commerce Secretary here afterwards. I met with him 
afterwards. We are going to have to deal with our International 
Relations Committee. I know Mr. Schiff is on that Committee, 
right? And also on Intelligence, we are both on Intelligence 
and we are looking at it from that perspective. But we are 
going to try and get very aggressive. And if you have any ideas 
if you could get to us on that, where we need to go. Whether we 
need a law, a regulation, we are still not sure. But we are 
going to try to deal with it.
    Mr. Scolese. Yes, we do have ideas on that and we will be 
happy to provide it for you on the record.
    Mr. Ruppersberger. Do you have any recommendations? Any 
recommendations what you think should be done?
    Mr. Scolese. Well, I think one of the things that you 
mentioned, providing exemptions. Or providing the ability for 
the NASA Administrator to make exemptions, similar to what the 
Department of Defense has. Getting the munitions list down to 
a, to truly those things that are classified as opposed to 
potentially useful would help immensely as a first order. Those 
would probably be the first two things that I would go after. 
Then we could probably do more at the detail level for the 
record.

                             CYBERSECURITY

    Mr. Ruppersberger. The other thing is cybersecurity. Very 
serious issue to our country, to the world. And we know we have 
had a lot of attacks. We know that NASA has been attacked. We 
are concerned about, and this is all unclassified because I 
have been reading about it in the papers, and these issues. I 
believe there was an article about how NASA really has not 
identified the fact, it does not want to admit that we have 
been compromised, especially by countries like China as far as 
getting a lot of our data, information, and the way we do 
business. Do you have a system, is my time starting to run out, 
Mr. Chairman?
    Mr. Mollohan. Yes, it is.
    Mr. Ruppersberger. Okay. Can I finish this?
    Mr. Mollohan. How long are you going to take?
    Mr. Ruppersberger. Well, I am just going to finish this 
question.
    Mr. Mollohan. Okay, go ahead. And it is a short answer, I 
am sure.
    Mr. Ruppersberger. That is up to him. It is just that it is 
important, I think, that you work with our different agencies 
that deal with cyber, and that we have a defense because of 
what we do in space. It is very important. And I hope you have 
a system or a plan in place to do that.
    Mr. Scolese. Yes, sir, we do. We are working with the other 
committees. In the interest of time I will not go much further. 
But I will add that we do have a committee on our advisory 
council that also looks at cybersecurity that we work with. So 
we do take it very seriously. We are taking appropriate 
actions, and in the interest of time I will leave it at that, 
sir.
    Mr. Ruppersberger. Okay, thanks.
    Mr. Mollohan. Supplement that for the record, if you want.
    Mr. Scolese. Okay.
    Mr. Mollohan. Thank you, Mr. Ruppersberger. Mr. Wolf.

                      NASA ADMINISTRATOR SELECTION

    Mr. Wolf. Thank you, Mr. Chairman. I apologize for being 
late. I had a, I was on a panel with Congressman Cooper 
downtown and there was a demonstration at the Capitol. You 
cannot get in the grounds. So I do apologize, and do not know 
what questions have been asked. So just some general ones that 
probably have not, and hopefully have not. When will the new 
Administrator be selected? Do you have any idea?
    Mr. Scolese. No, sir, I do not.

                          CHINA SPACE PROGRAM

    Mr. Wolf. Okay. What is the likelihood of China beating us 
back to the moon?
    Mr. Scolese. That is hard to say. We believe they have a 
vehicle with minor modifications to maybe moderate 
modifications could be a lunar vehicle. Not a lander, but it 
could get to the moon. And we believe that they are developing 
vehicles that would allow them that opportunity. Whether they 
have the desire to do it or not, we cannot say.
    Mr. Wolf. I think the desire, so, given I believe they have 
the desire, do you think with the desire they have the ability?
    Mr. Scolese. Yes. They will. I mean, they do not have it 
today but they will.
    Mr. Wolf. And could they beat us back? Could they beat us, 
the United States, back to the moon?
    Mr. Scolese. Sir, I do not have the latest study.
    Mr. Wolf. Well, you must have thought about this.
    Mr. Scolese. We have. I am just checking----
    Mr. Wolf. I mean, I cannot be the only guy, person----
    Mr. Scolese. No, I mean, they could beat us to the moon, 
yes, sir.
    Mr. Wolf. Well, how do you define ``could''?
    Mr. Scolese. That is what I was trying to find out, sir. I 
have not seen the latest study. What we do know is that they 
have plans for vehicles that are capable, with docking and 
Earth orbit, of getting to the moon. We understand that their 
Shenzhou capsule, with some modifications, would leave Earth 
orbit, clearly, and return from a lunar trajectory. What we do 
not know is, you know, whether they have any plans to build a 
lander and what the----
    Mr. Wolf. What are your expectations?
    Mr. Scolese. I think if they have the desire to do it, sir, 
they can do it. I think considering where they are today they 
could probably beat us to the moon before 2020.
    Mr. Wolf. Well, how many employees do we have, both 
government and contractors, working on the space program and 
how many do the Chinese have?
    Mr. Scolese. I do not know the answer on the Chinese side. 
We have 17,900 civil servants in the agency. We have about 
double that in support contractors immediately around the 
centers. Then the industrial base is probably several times 
that number.
    Mr. Wolf. So what----
    Mr. Scolese. I will have to give you for the record the 
total number, sir.
    Mr. Wolf. And, Griffin was able to tell us last year how 
many the Chinese had. Can you----
    Mr. Scolese. We can get that for the record, sir. I do not 
know the answer to that.

                          AERONAUTICS RESEARCH

    Mr. Wolf. Two other last questions. The aeronautics, there 
has been great criticism that NASA, National Aeronautic, you 
are not doing as much. What are the expectations in the budget 
with regard to aeronautics?
    Mr. Scolese. Aeronautics has been given a plus up in the 
2009 budget, as you saw, and with the stimulus. So we expect 
more out of aeronautics. I would let Dr. Shin cover some more 
of the details of what we are doing there.
    Dr. Shin. Yes. Most importantly, we will be able to address 
and focus more on the environmental impact mitigation. Also, we 
will continue to work on supporting NextGen vision, Next 
Generation Air Transportation System vision. So we still play a 
very strong role providing research and technologies in that 
initiative.
    Mr. Wolf. Would you agree that it had weakened a little 
bit?
    Dr. Shin. I do not think so.
    Mr. Wolf. Well, most people outside do. But----
    Dr. Shin. I did not quite catch the last part.
    Mr. Wolf. Do you believe the emphasis, both funding and 
interest, by NASA on aeronautics had weakened over the last 
several years?
    Dr. Shin. We have been stable. We have been getting stable 
funding. And we conduct fundamental----
    Mr. Wolf. But what about the funding for the Jet Propulsion 
Lab, and what about the funding for some of the other labs. I 
mean, has that not been decreased?
    Mr. Scolese. In aeronautics the principal centers are 
Langley, Ames, and Glenn Research Centers.
    Mr. Wolf. And has Langley not been reduced in numbers of 
people, too?
    Mr. Scolese. Langley is not as large as it was a few years 
ago. It is growing again. They are hiring up. Langley has 
continued to do work in aeronautics, and Jai can focus more. 
Langley has also been very much involved in the exploration 
program. They have developed the launch abort, or developing 
launch abort system, the boiler plate capsules for the various 
tests that are going on. I mentioned earlier the Ares 1-X Test 
and the Pad Abort 1 Test. Langley developed those vehicles for 
it and is very much engaged on the Constellation program as 
well. But today they are in the process of increasing their 
hiring.

         IRAN, NORTH KOREA, SYRIA NONPROLIFERATION ACT (INKSNA)

    Mr. Wolf. Two other last questions. At the retirement of 
the shuttle, and maybe you have answered this, you will need to 
buy flights from Russia to deliver crews. Last year, Congress 
provided you with a waiver from the Iran, North Korea, Syria 
Nonproliferation Act to continue these purchases. Have you 
secured the necessary agreements with the Russians?
    Mr. Scolese. Yes. Yes, we have.

                        WALLOPS FLIGHT FACILITY

    Mr. Wolf. Lastly, what are you doing down at Wallops 
Island? Maybe you can just tell me that, have somebody call me 
and bring me up to speed on it.
    Mr. Scolese. Certainly, we would be glad to do it. We are 
doing a lot of interesting things there. Of course, just as a 
brief highlight, we are going to, we have started space 
launches again from Wallops with the Minotaurs. Orbital space 
science is moving there.
    Mr. Wolf. Well maybe you can get somebody to tell me what 
you are doing, and what your projections are, and what you----
    Mr. Scolese. Okay. We are doing launches today with the 
Minotaurs. We will be doing launches in the future as well, 
with the orbital sciences. Of course, we do the balloon 
research there as I am sure you know. But we will get you all 
the details of that.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Wolf. Okay. Thank you very much. Thank you, Mr. 
Chairman.

                           RETURN TO THE MOON

    Mr. Mollohan. Thank you, Mr. Wolf. Mr. Scolese, so Mr. 
Cooke, I asked Mr. Scolese, does this budget in any way either 
by programmatic content or out year funding constraints change 
our nation's current plans to return Americans to the moon by 
2020? May I direct that question to you, please?
    Mr. Cooke. Yes, sir. In terms of the 2010 budget we have 
actually not assessed that at this point. The programs, the 
Constellation program projects have not seen that budget.
    Mr. Mollohan. No, no. I am sorry. This budget. Is there 
anything in this budget----
    Mr. Cooke. The 2009?
    Mr. Mollohan [continuing]. That would impact our getting to 
the moon by the target date of 2020? I am sorry--2020. Does the 
2010 budget request impact in any way our target, is this so 
complicated, our target of getting to the moon by 2020? Or is 
the answer scary? What is----
    Mr. Cooke. Well, we, once again, we have not released, we 
have not given that budget to the project or program to assess. 
There are also variables associated with that far out, which 
include certain things that we can do ourselves.
    Mr. Mollohan. But all of those variables existed when that 
target date was established.
    Mr. Cooke. Yes.
    Mr. Mollohan. Is that not correct? Have any of those 
variables changed that would impact that target? With the same 
probabilities as was in existence when the target was set?
    Mr. Cooke. Not really. The variables are the cost of 
transition from shuttle to Constellation. The question of 
extension of Space Station beyond 2016. Those variables have 
been there and they, they certainly have an effect one way or 
another. But we have, we actually have not assessed the 2010 
budget at this point within the program.
    Mr. Mollohan. Is there any consideration being given within 
the organization to not attempting to, to not attempting to 
meet the 2020 moon? Is there any reconsideration of going 
there? What is going on there?
    Mr. Cooke. The direction that we have is to continue to 
pursue the 2020 date within our guidance.
    Mr. Mollohan. Mm-hmm. And with the 2010 budget request, do 
you feel like you are still on target for that?
    Mr. Cooke. That is what we have to assess.
    Mr. Mollohan. And what will be the assessment process?
    Mr. Cooke. Well, we will----
    Mr. Mollohan. Describe the assessment process for me, 
please.
    Mr. Cooke. The budget that we build is based on release of 
that budget, and the program and projects working through what 
has to be done first to get to the initial operating capability 
of 2015 with Ares I and Orion and then looking at the out year 
budgets and what we can do with that. But it does, it is a 
bottoms up exercise that we go through to build the budget, 
within the Ares I project, the Orion, with the people who are 
working Ares V, and lunar lander, and surface systems, and all 
that. So that is the process we go through. And as we try to 
understand priorities and how they fit together, and what we 
are able to do within the budget that we have.
    Mr. Mollohan. What about your 2009 budget, which we have 
seen? Does that in any way impact your ability to get to the 
moon by 2020?
    Mr. Cooke. That one, that budget we feel we are on track to 
get there in that time, near that time frame, understanding 
that those variables are still in play.
    Mr. Mollohan. Is there anything in the 2009 budget that 
would bring that into question, getting to the moon by 2020? Is 
there anything in that budget, 2009 budget, that would impact 
getting to the moon by 2020?
    Mr. Cooke. Not that I can think of, sir. We fully intend, 
with that planning we had the ability to get there, I believe.
    Mr. Mollohan. Are you involved----
    Mr. Cooke. With some uncertainty due to the Space Station 
commitment, for extension and such.
    Mr. Mollohan. So the question of Space Station is in the 
path of thinking about getting to the moon by 2020. In what 
way?
    Mr. Cooke. Well, in terms of overall budgets, that has 
never, the extension beyond 2016 has not been in our, 
absolutely in our budget.
    Mr. Mollohan. Yeah.
    Mr. Cooke. So, actually between Bill Gerstenmaier and I we 
are looking at operations costs, fixed costs out in that time 
frame to get to reductions there to make those kinds of plans 
work.

                             SPACE STATION

    Mr. Mollohan. Okay, well that is a nice segue. Mr. 
Gerstenmaier, Space Station after 2015, is there any money 
projected in the budget beyond, or to 2015 and beyond 2015, for 
Space Station? Why do you not just pull that close to you?
    Mr. Gerstenmaier. Yes. We have been given guidance to not 
preclude Space Station operations beyond 2015. We have done 
that within the budget we have been given. There is no unique 
expenditures now that we have applied that have been required 
prior to our 2009 budget submit for that do not preclude 
statement. In the next budget cycle 2010 and 2011 we are going 
to have to start showing some additional impacts potentially to 
protect the option of keeping Space Station viable beyond 2015.
    Mr. Mollohan. Well in your planning do you, I have got 
several questions for you. In your planning, do you anticipate 
budget requests for Space Station beyond 2015?
    Mr. Gerstenmaier. Yes. We are going to go ahead and propose 
to continue to operate Space Station in conjunction with what 
Doug talked about, to work an overall kind of combined 
exploration operations budget for beyond 2015. We will make 
those submits into the system at the appropriate time.
    Mr. Mollohan. And your international partners, are they 
confident and totally reassured that you are going to be 
operating Space Station beyond 2015?
    Mr. Gerstenmaier. We do not have formal approval to operate 
beyond 2015. We have been told to not preclude operations 
beyond 2015. That is what we are doing. We will look for a 
decision from the administration at the appropriate time to 
allow us to either continue or not continue Space Station 
operations. We are working that through the system. We keep our 
partners informed. At the last heads of agency last year we got 
agreement from all our partners that each of us would go to our 
governments and talk about extending operations beyond 2015 
with the idea that we would get together as an international 
community this summer, or maybe fall. Then we would decide 
collectively if that is in all our best interests, to go ahead 
and continue Space Station beyond that.
    Mr. Mollohan. I am sorry. Say that again, that last part?
    Mr. Gerstenmaier. We were going to get together at another 
heads of agency meeting in the fall to understand whether we 
can all then commit to operating Space Station beyond 2015. So 
it is, each country has to go seek approval from their own 
government to do that. We are in the same situation as they 
are. We need each other to continue to operate. The Russians 
need to be there to supply some services to us. We provide 
services to them. The Japanese operate their laboratory. The 
Europeans do as well. So it is a collective international 
decision that will ultimately result in whether we continue 
Space Station operations or not.
    Mr. Mollohan. So you anticipate that by this fall you will 
have enough interaction, enough collaboration with the 
administration to be able to talk confidently about what our 
government's attitude is going to be with regard to Station 
after 2015?
    Mr. Gerstenmaier. That is our goal, is to get the 
appropriate approval to remove the do not preclude and make a 
positive decision on the future of Space Station.
    Mr. Mollohan. Okay. This is our situation. And members have 
left, so I would ask staff to advise their members. We have a 
series of votes here. We are going to recess the hearing and 
reconvene at approximately 1:00. We hope to reconvene by 1:00. 
And we understand your time constraints, Mr. Scolese, and some 
others. And we are going to respect that. So we are going to be 
done by 3:00 here, or very shortly if an answer goes over. Does 
that accommodate you? Okay. So we are going to try to start an 
hour earlier if that is all right. Both the Ranking and myself, 
we have noontime commitments, but we are really cutting that 
short and trying to get back here. So we will take advantage of 
this vote to stop a little early. And we will start a little 
early, and then we will move right along and be done by 3:00.
    Mr. Scolese. Okay, thank you.
    Mr. Mollohan. Thank you, Mr. Scolese. Thank you, all, and 
we will look forward to seeing you.

                              MARS PROGRAM

    Mr. Schiff [presiding]. We are back in session. And Mr. 
Administrator, this is the moment I have been waiting for. It 
came much sooner than I expected. I have always wanted to be a 
Committee or Subcommittee Chair and it is finally happened. Up 
until now I have been only the chair of the Congressional 
Delegation from the eastern part of the San Fernando Valley and 
the western part of the San Gabriel Valley, and that is my only 
chairmanship of one.
    I would like to start out and ask you about an issue that 
is near and dear to my heart. We had a chance to talk it over a 
little bit yesterday, and I know you can't be very specific, 
given the budget numbers haven't been fully delineated yet, but 
I would like to ask you your agency's perspective on the Mars 
Program.
    It was on a very strong trajectory, that trajectory was 
changed over the last couple years, and we have had some 
problems with the Mars Science Lab, which are hopefully now 
being corrected. But I would like to get your thoughts on the 
future of the Mars Program and whether you see an opportunity 
to make up for some of the ground we may have lost funding wise 
over the last couple years.
    Mr. Scolese. Sure. Well as you know the Mars Program has 
yielded some incredible results. And you know, with the first 
time a human machine--not a human yet--but a human machine has 
touched water on another planet with the Phoenix landing, and 
of course the incredible discoveries of our two rovers on the 
surface and the orbital assets that are there, and we now need 
to go beyond those as you were talking about. Ed talked about 
it earlier or eluded to it, but there is really--if I could 
expand on it a little bit and then let Ed add to it.
    There is really three pieces. There is The National Academy 
study that is going to go off and look at the entire planetary 
arena; the Moon, Mars, and all the other planets, the outer 
planets, what have you, to determine their priorities and their 
ranking so that we have an assessment of the importance of the 
various planetary bodies as well as the missions that would be 
going there.
    Second we have, kind of collectively realized as a world 
that we are getting to the point where Mars' exploration--we 
are starting to ask the very difficult questions, and very 
difficult questions tend to cost a lot of money. So 
partnerships are being forged. The most recent one is with ESA 
for the 2016 mission that we are working.
    Third, we have asked Scott Hubbard, who led the recovery 
effort of Mars '98 to go off and look at the Mars Program and 
help us put together a program of record that we can go off and 
look at.
    So these three things will all help us to (a) do more as we 
have partners that can provide resources, provide a better 
understanding of what needs to be done so that we can advocate 
for more or less, if it comes out that way, for the Mars 
Program, and have a solid direction to go in.
    I don't know, Ed, do you want to add to that?
    Dr. Weiler. If I could expand a little bit on the European 
Space Agency connection, because I am in the middle of that for 
the past few months. Because of the problems with the Mars 
Science Laboratory and the impacts that it has on the ability 
for us to do the kind of missions we want to do in the out 
years, we were facing a situation where the kinds of missions 
we wanted to do we weren't going to have enough money for.
    In the meantime I met with David Southwood, who is my 
counterpart in Europe just last summer, and he was having the 
same problems with his Mars Program. He has a 2016 mission that 
is very aggressive. His scientists have added a lot of 
instruments to it. And he was facing a situation where he just 
didn't have the kind of money that would be needed to do his 
mission. So that is where the idea came up, maybe it is time.
    We have now reached the point where the easy things have 
been done on Mars, the really cheap things have been done. When 
you look at U.S. science community plans, western European 
plans, they are remarkably similar. We all want the so-called 
Holy Grail. We all agree at some point we have to send a robot 
to Mars, pick up a piece of Mars and bring it back for analysis 
and the billions of dollars of laboratories we have here right 
on Earth. That is going to be a very expensive mission, and it 
is going to be very expensive to develop the technology to get 
to that point.
    Since missions are looking like they are going to cost a 
billion dollars whether they are European or American, we kind 
of said maybe it is time for us to stop competing with each 
other and start working together since we have the same goals. 
That was kind of the genesis of where we are now. We are going 
to Plymouth, England in June for our annual bilateral meeting 
and that is what we are going to start trying to lay out not 
just a plan where we might do the 2016 mission together, but 
what I would call an architecture of where are we going to go 
in 2016, 18, 20, and so on leading up to a Mars sample return. 
I think we all have agreed between us scientists that there is 
no way one country is going to be able to afford a Mars sample 
return mission. We have to do it internationally, and maybe it 
is the time to start recognizing that now and do the whole 
program that way in the future.

                COLLABORATION WITH CHINESE SPACE PROGRAM

    Mr. Schiff. What kind of collaboration, if any, do we have 
or might we have with the Chinese space program?
    Mr. Scolese. Today on the science side we have some 
collaboration and we are expanding that a little bit more. The 
fundamental tenants that we have for the Chinese program, is 
transparency as we do with all of our other partners within the 
bounds that we are allowed to have as we were talking earlier 
about ITAR, and we have that on the science programs.
    I believe at this stage, and I have to be corrected, we 
have some efforts going on in Earth science that we are doing. 
I do know we have a Landsat station in China that they utilize, 
and we are looking to expand that.
    On the human space flight front there haven't really been 
any dialogues there yet because we really haven't-- it is a 
much more complicated situation, because anything that involves 
human space flight and going to the space station isn't really 
a U.S.-only question.
    So in addition to the transparency it is our other partner 
nations on the space station that would have to agree to 
participate. So we have to have the dialogues with our 
international partners on that. But that is about the extent of 
it right now.
    Some limited science missions and activities are 
progressing and not much in the way of human space flight yet.

                 JAPANESE AIR SPACE EXPLORATION AGENCY

    Mr. Schiff. Does the Japanese Air Space Exploration Agency 
have a potential role in the Mars Program or is that something 
to explore as well?
    Mr. Scolese. You want to answer that one?
    Dr. Weiler. Yes. The Japanese have played a major role in 
many of our programs, especially x-ray astronomy, and they have 
their own small planetary program even now. We have a 
collaborative mission with them on an asteroid sample return 
mission. I forget the name of it, but it is on the way back to 
Earth now with Japan and JPL.
    When I mentioned our working closely with ESA it is not to 
preclude other countries, it was just that I was looking for 
other space agencies that could afford billion dollar class 
missions, and certainly ESA is the only one out there at this 
point in time. That does not preclude us working with other 
countries, especially Japan, for contributions like a science 
instrument on a rover or an orbiter, that kind of thing.
    So we welcome all comers, and Japan is certainly one of the 
strongest space agencies, you know, other than the U.S. and 
Europe.

                   ORBITING CARBON OBSERVATORY (OCO)

    Mr. Schiff. Can you comment a little bit on the loss of the 
OCO and what options NASA is exploring to be able to replace 
the data that we would have had, had that been a successful 
launch?
    Mr. Scolese. Certainly. Like everybody, we were very 
disappointed in the loss of OCO. It had great potential and it 
still does. So that has been confirmed. We have asked the 
science community to go off and look at the mission and see if 
the data that was going to come from OCO would still be 
relevant and still be high priority. The answer came back yes. 
That wasn't really a surprise, but we had to answer that 
question. So we are in the process now of looking at what is 
the best way to go off and recover that mission. We are looking 
at two options.
    One which would be to fly essentially a copy of OCO, and 
the other would be to fly the OCO instrument with the Landsat 
instrument, TIR, on a common bus. That one is a little bit more 
complicated because you have to work out the relationships 
between the two instruments and make sure that since they will 
be in the same orbit to make sure that that orbit is compatible 
with the science for both. We are in the process of evaluating 
that.
    One of the reasons it is not exactly a copy is OCO was--we 
didn't have any spares, so we have to acquire the same 
equipment and some of it is obsolete, so we will have to go off 
and restart that. But we are looking at the earliest as 
probably three years before we could have a mission flying 
again. Principally because of that.
    Mr. Schiff. How with the cost of OCO change in doing a 
duplicate if that is the route that you take? You mentioned 
that some of the parts aren't made anymore and they have got to 
be redone, some of the instrumentation may need to be updated. 
On the other hand a lot of the work has been done. Do the cost 
savings in doing again largely what you have done before, are 
they more than enough to offset the additional costs of the new 
instrumentation or re-engineering the parts that aren't made 
anymore?
    Mr. Scolese. Again, it depends on which mission, and that 
is one of the factors that we are off looking at. But the short 
answer is it will end up costing about the same. Clearly we 
don't have to do the design over again, but we have to do the 
build over again.
    The spacecraft--I am not 100 percent sure--I think it was 
an off the shelf spacecraft, so that is going to be essentially 
the same price as it was before. The launch vehicle cost has 
gone up a little bit.
    So if we were to do a copy we wouldn't have to pay for the 
engineering all over again, but that is a small part of the 
cost that we had to recoup. So it would end up being about the 
same cost. A little less, but about the same cost.
    So that is one of the other motivations for looking at 
flying the two sensors that I mentioned, the OCO sensor and TIR 
sensor together. There may be an economic advantage, as well as 
a scientific advantage to do that. We haven't determined 
whether that is true or not yet, and that is one of the things 
that we hope to find out by the end of late spring, early 
summer, to have that answered and then be ready to present a 
plan.
    Mr. Schiff. Thank you. Mr. Wolf.

                    SHUTTLE RETENTION AND WORKFORCE

    Mr. Wolf. I thank you, Mr. Chairman.
    And a couple questions to you both. I had just spoken to 
somebody earlier, they said that with the end of the shuttle 
that you potentially could lose thousands of employees.
    What are your expectations with regard to employee 
additions, losses, retirements, ages, and with regard to NASA 
based on where we are now and where you think we are going to 
be going?
    Mr. Scolese. With the retirement of the shuttle we do 
expect to lose several thousand employees.
    Mr. Wolf. Two thousand or----
    Mr. Scolese. The current number is close to 10,000.
    Mr. Wolf. Ten thousands.
    Mr. Scolese. Yeah. Correct me if I am wrong.
    Mr. Gerstenmaier. That would include all of the contractors 
that support the shuttle program throughout. Civil servants 
were about the same. We do a work course report that is given 
to Congress periodically, we are due for another update for 
that. As soon as we get the budget that report-- and then you 
can go ahead and you can see the report and read for yourself 
the numbers where they are. The report is about six months old.
    Mr. Wolf. And where would they likely go?
    Mr. Gerstenmaier. Well, we were trying to capture as many 
of the workforce as we can in the new program, the Doug 
Constellation Program, so we have been giving them some 
training opportunities to go learn some skills that helps 
support his program.
    Again, it is not uniform across our workforce. Some of the 
older employees are ready for retirement. The younger employees 
have employment opportunities in other areas. The mid-age group 
has opportunities to potentially-- they are probably more 
susceptible to have to move to another industry other than 
aerospace, but our goal is to try to capture and give them jobs 
in the aerospace community. They have provided unbelievable 
service to us. They have great knowledge. We want to use them 
in the most effective ways we can and engage them in the Doug's 
program.
    So even though there is a period where we are not flying, 
we are still doing testing for Doug's equipment, we are doing 
test flight at KSC, we are starting to build up launch pads, we 
are putting infrastructure in place, we are doing analysis and 
those types of things. We can do those with this same 
workforce. So there will be a period where they will be 
employed maybe in a slightly different job, but they will still 
be able to contribute to the space station.
    Mr. Wolf. But you are projecting there are a loss of 10,000 
that would leave the agency?
    Mr. Gerstenmaier. We don't know the exact number leaving 
the agency, but that is the maximum number that is in our 
workforce report. It is a function of how many jobs we can 
create.
    Again, you know, we purchase services as NASA, and then we 
let our contractors go do the actual employment and hiring. So 
the estimates we had, the worst case, was the number on the 
order of 10,000, and that is again, agency wide and country 
wide, and we will see where they are. The lower ranges were on 
the order. I don't remember the exact number off the top of my 
head, but we can get it for you for the record.
    [The information follows:]

                     Workforce Transition Strategy

    In NASA's October 2008 Workforce Transition Strategy update, the 
Agency projected a net reduction of between 3,800 and 6,000 direct 
equivalent positions from FY 2008 through FY 2013, including civil 
service ``full time equivalents'' and contractor ``work year 
equivalents.'' Since civil servant equivalents stay roughly level from 
year to year, the great majority of the reduction would be in 
contractor ``work year equivalents.'' This 3,800-6,000 planned 
reduction is the net change from year to year based on the total number 
of equivalents working on the Space Shuttle Program and the 
Constellation Program. It should be noted that NASA's workforce 
projections after FY2010 will change as a result of the President's 
2010 Budget Submission and the ``Review of United States Human Space 
Flight Plans.'' This review will examine ongoing and planned NASA human 
space flight development activities, as well as potential alternatives, 
and present options for advancing a safe, innovative, affordable, and 
sustainable human space flight program in the years following Space 
Shuttle retirement. The review will be concluded by August 2009; any 
resultant changes will be reflected in future editions of the Workforce 
Transition Strategy, which NASA updates and provides to Congress twice 
a year, as directed in the FY 2008 Consolidated Appropriations Act 
(P.L. 110-161). NASA plans to update its workforce report in July 2009. 
This report will focus on the workforce changes anticipated in 2010. 
The remaining years will be updated after the ``Review of United States 
Human Space Flight Plans'' is completed in August 2009.

    Mr. Wolf. Would they ever go work for Russia?
    Mr. Gerstenmaier. No, I don't think so.
    Mr. Scolese. Don't think so. And Bill is indicating the 
difficulty that we have. We can tell you what you lose if you 
no longer do an activity, but we don't actually know what the 
contractors are going to hire back. So that makes it difficult 
to determine the lowest number, and that is what the higher 
number is based on, just what would be lost.

                 PROGRAM COST ESTIMATES AND ASSESSMENTS

    Mr. Wolf. A combination of a couple questions. A recent 
article in Science quoted some unnamed scientists who blame 
NASA centers, contractors, and members of Congress for 
exploiting the system of low initial estimates to get a project 
started, followed by pressure to fund any ensuing cost growth 
in order to protect the project and the jobs associated with 
it. What is your reaction to that critique?
    Mr. Scolese. Well, I think it is exaggerated, unfair. I had 
mentioned earlier that we are working harder today to develop 
better estimates that we can provide to you, that we can commit 
to ourselves so that we can do it more completely.
    And what are we doing to do that? We are working with the 
National Academy to help them develop better cost estimates. 
They are contracting with people that do cost estimates so they 
can develop better cost estimates. We have established rules 
for how we are going to do our cost estimating and assessing of 
our programs and projects from day one and monitoring those 
monthly, quarterly and periodic reviews so that we can clearly 
understand what the costs are and when there are threats to 
cost growth, be they underestimates, optimism in the estimate, 
or problems that come up. Either they are not getting the 
funding that they needed, they have launch vehicle issues, they 
have things outside of their control that they are going to go 
off and deal with. The earlier we can address those the earlier 
we can make corrective actions that will limit or eliminate any 
additional cost growth. So we are looking at it from the very 
beginning at those essential estimates, working with our 
colleagues in the academy to develop better estimates, common 
estimates, all the way up until we actually deliver the 
spacecraft on orbit or on a planetary surface so that we are 
looking at each step to make sure that we understand what the 
impacts are and how we can mitigate those.

                 MAJOR PROGRAM COST AND SCHEDULE GROWTH

    Mr. Wolf. One of the questions was, and you don't have to 
cover it, it is going to set up another question, but one of 
the major reasons why NASA does not seem to have enough funding 
to carry out its mission is a recurring problem of cost and 
scheduled growth in their major projects. A recent GAO report 
found that 10 or 13 large projects they reviewed experienced 
cost or scheduled growth that exceeded reporting thresholds.
    I guess the general question because we are out of time and 
I assume we are coming back here, but what has happened to 
NASA? What do you think? I mean, this is not a fair question 
and I am not trying to put you on the spot. You don't have an 
administer and I think it is until you get an administer a lot 
of these can't be directly--you may not want to answer. But 
what has happened to NASA? Is it that the bloom is off with 
regard to--you know, in the old days when there was a space 
shot everyone knew it was Glenn, it was Shepard, it was--we 
stopped, we watched it on television. I bet, maybe this 
audience would be the exceptions, but we don't know the names 
of the last astronauts that went up. And it seems you have had 
leadership that has been somewhat political at times, and then 
you have had other leadership.
    And it may not be a fair question, and if you don't want to 
answer it is fine. But I guess I am asking myself what has 
happened to NASA? It is a great agency and you have done a lot 
of amazing things. America ought to be number one in space. We 
ought to be, you know, just out there. It is kind of the 
American explorer concept, ideas, excitement, having young 
people excited about it and involved in it, and yet it seems 
that there is something missing, that something has been lost. 
No offense to anybody here, obviously I am not attributing that 
to anyone.
    If you want to take a shot at the answer I would appreciate 
it. What has happened to NASA?
    Mr. Scolese. I will be glad to take a shot, don't know how 
well I will do, but I will take a shot at it from a couple of 
different directions.
    Mr. Wolf. And I guess the question is that do you agree 
something has happened to NASA?
    Mr. Scolese. I think our mission has matured, but I think 
that the NASA you see today is as vibrant and as capable as the 
NASA that you talk about from the 1960s. We have some 
incredible people, we are doing some absolutely incredible 
things that I believe from going around and talking to people, 
not that this is representative, but most recently to a group 
of seventh graders that were absolutely thrilled about what we 
were doing at NASA. More than thrilled, they were as engaged 
and knowledgeable about the program as a geek like I was in the 
1960s and 1970s when I was the same age as they were. So I 
think the excitement is still there.
    I think the difference is that the agency has matured as 
many do. As we said earlier the problems have become more 
difficult. To think that we have built a space station. Back 
when I was a kid in the 1960s there was 2001: A Space Odyssey, 
space stations were science fiction. And we built this one 
over, what was it 50 flights or thereabouts, with multiple 
other nations. It is an incredible accomplishment. We have 
landed spacecraft on Mars, discovered water.
    We look back at the Earth and we have made the Earth a 
better place. Aviation, we continue to make, great discoveries 
in aviation that help our civil aviation as well as or national 
air space system. So I think the difference that you are 
reflecting is a more mature agency that is addressing much more 
difficult problems.

                      TENOR OF NASA ADMINISTRATORS

    Mr. Wolf. All right, the last question.
    Would it make sense to use the same language for the NASA 
administrator that you have for the FBI, set a ten-year term, 
non-political, non-partisan, and so there is a continuity?
    I mean, you had Griffin and you had the other guy. I mean, 
would something like that--has that ever been considered or 
would that make sense to have a NASA administrator, non-
political ten-year term, only removed for cause of action?
    Mr. Scolese. All I can say is it has never been discussed 
with me, and it certainly makes sense.
    Mr. Wolf. Okay, thank you.
    Thank you, Mr. Chairman. I don't know what the time is.
    Mr. Schiff. I think we are probably out of time.
    Mr. Wolf. Are we coming back?
    Mr. Schiff. We are coming back. Okay, we will recess until 
after votes, thank you.
    [Recess.]

             INDEPENDENT VERIFICATION AND VALIDATION (IV&V)

    Mr. Mollohan [presiding]. Good afternoon. One of the best 
laid plans. Yeah. As the clock goes on though there is fewer 
questions.
    Mr. Scolese. Yes, sir.
    Mr. Mollohan. Thank you all for your patience.
    Mr. Scolese, NASA maintains an internal, independent 
verification and validation process that it applies to its 
mission critical software. This assurance process is performed 
in addition to and not in lieu of software design and project 
verification and validation. This process is independent of the 
project design team and seeks to answer three questions.
    One, did the design team miss anything? Two, did the design 
team design the right thing? Three, does the design system 
work?
    Today the IV&V facility supports dozens of projects across 
the mission directorate. It is each year, however, program 
coverage is restricted, as insufficient funds have been 
requested each out year by NASA, significantly increasing 
agency risk related to safety and mission critical software 
rework.
    IV&V's customers have identified the value added of IV&V 
work noting, quote, ``IV&V has unequivocally become some of the 
best systems engineers on the program, their depth of knowledge 
contributes continually.'' Quote, ``IV&V discovers issues that 
no one else is capable of discovering.'' Quote, ``Your IV&V 
staff demonstrates an outstanding ability to know when to bring 
forward issues to be resolved.''
    Mr. Scolese, do you share the same opinions as those I have 
just reiterated and that IV&V adds valuable review to NASA 
systems and accordingly contributes to cost savings and mission 
success?
    Mr. Scolese. Certainly IV&V focuses on the software and the 
interaction of the software with the hardware, and yes, they do 
definitely provide a value added service to the missions that 
they support.
    Mr. Mollohan. Do they contribute to cost savings and to 
mission success?
    Mr. Scolese. Yes, they do. It is always hard to determine 
the cost savings, because when you find something you don't 
always know what the cost would have been if you didn't do it, 
but I am sure that it is there, it is just a little bit harder 
to quantify.
    Mission success is a lot easier to demonstrate by the fact 
that we have fewer software issues with our missions.
    Mr. Mollohan. Is that a fact with the use of IV&V 
processing?
    Mr. Scolese. Again, some of these things are very difficult 
to go off and quantify specifically. We believe that we need an 
independent process to review all of our activities in fact. 
IV&V looks at software and they come at it from an independent 
viewpoint. That, as we do in other areas, as you know where we 
look at our designs and we bring in an independent team to look 
at the overall design and the overall architecture of a system 
brings some real value, because they ask questions that 
sometimes the team didn't think about. They look at it in a way 
that is different from the team, and therefore it brings 
forward issues or identifies things that can be done better. So 
clearly the IV&V activity is a value added activity.
    Mr. Mollohan. Does it follow reason to conclude then that 
if such activities are curtailed or limited NASA's safety and 
mission critical software are placed at greater risk?
    Mr. Scolese. I would have to go off and see what the 
limitations are. There is a very rigorous process that our team 
looks at for determining which missions don't get IV&V. So we 
try and make sure that all of our critical missions, where 
there is new development software, do in fact get IV&V. They 
try to limit the ones that don't get IV&V or get a minimal set 
of IV&V, for cases where there is true software reuse, where 
there isn't very much risk in the system. I don't have off the 
top of my head what the exact specifics are on that, but I am 
pretty sure that critical missions get the full IV&V, and that 
most missions get some fraction, some portion of the IV&V 
activity.
    Mr. Mollohan. Would you supply that for the record?
    Mr. Scolese. We will.
    Mr. Mollohan. Please. IV&V has continuously sought funding 
to allow broader coverage of mission and safety critical 
software for each project selected for IV&V and to cover the 
cost increase to the agency security support contract. Why then 
has NASA headquarters consistently constrained the IV&V's 
annual budgetary requests?
    Mr. Scolese. I am sorry, I misunderstood. The security 
support contract? I don't think I----
    Mr. Mollohan. Both security and software review, John is 
telling me here. IV&V has continually sought funds to allow 
broader coverage of mission and safety critical software for 
each project selected for IV&V and to cover the cost increase 
of the agency security support contract. Does that make sense 
to you?
    Mr. Scolese. I can't answer the last part. We will have to 
probably go off and look at that. Well, I am not sure that I 
know what the latest request is. I would have to take that one 
for the record, sir.
    Mr. Mollohan. Okay, well let me understand it a little 
better too, and we will both come back to it.
    Mr. Scolese. Okay.
    Mr. Mollohan. How is that? The budget for IV&V software has 
remained fairly constrained over the last several years, 
augmented mostly by Congress. However, would you agree that the 
requirements for IV&V are projected to increase--kind of 
referring to what you eluded to with regard to critical 
missions--significantly to constellation ramping up while 
existing programs, shuttle, ISS, and nominal science missions 
continue?
    Mr. Scolese. Hard to answer that question. Clearly we would 
have to look at the mission profile as missions complete. Of 
course we don't need to do IV&V as the shuttle is coming down 
and constellation is going up. If we had a net increase in all 
of our missions I would say yes. But I have to look at how many 
missions are coming down the activity and how many missions are 
going up in activity.
    To a first order I would say we have been relatively flat 
with the number of missions that we have, but I mean, when you 
look at missions that are coming off their design and missions 
that are coming up the design curve. So about a flat level is 
about right for the software, as well as to our standing review 
boards. Looking at standing review boards is another way to 
look at it, and they stay about the same annually as well in 
terms of numbers. But again, we can get you the numbers on what 
the projected growth or projected number of projects is.

                     IV&V REQUIREMENTS FOR SCIENCE

    Mr. Mollohan. Dr. Weiler, would you anticipate that the 
requirements for IV&V will increase beyond planned rates as 
additional investments are made and are observing systems that 
were not projected in your fiscal year '09 budget?
    [The information follows:]

             Independent Verification and Validation (IV&V)

    The President's FY 2010 budget contains resources for the 
development phase of seventeen science missions each year on average. 
The President's budget also provides for nine STS launches during FY 
2009 and FY 2010, as well as ongoing operation of the ISS through the 
outyears identified in the President's FY 2010 budget.
    Exploration Systems projects in the President's FY 2010 budget are 
driven principally by the Constellation program, notably Orion, Ares I, 
and Ares V which is still in the early formulation stage. The budget 
for Exploration Systems contains resources for a robotics project 
through FY 2009 and it provides for Constellation-related modifications 
to ground-based infrastructure.
    Considering this portfolio as a whole the trend, at least from a 
budgetary resources perspective, is that the Constellation program 
offsets, but only marginally, declines in the STS program, while 
science program and project activity remains approximately level.
    Over each of the last three years through FY 2009 the Office of 
Safety and Mission Assurance has made IV&V services available to an 
average of more than sixteen programs and projects (including ISS 
operations and STS mission execution). NASA uses a systematic risk-
based evaluation process to select projects for IV&V support. Under 
this approach IV&V activity levels do not directly correlate with the 
number of planned programs and projects in a particular year or over a 
period of time.

    Mr. Weiler. Well, I can't give you a specific thing without 
going into every single mission, but what Chris said is 
probably accurate in space science too, because the budget, at 
least for the last three or four years, has been flat, so the 
number of missions being launched or coming out of development 
probably offsets the number of missions that are going into 
development.
    So you know, what we will have to go now is with the earth 
science stimulus package and some acceleration in some of those 
missions, you know, we will have to look at our needs for IV&V, 
you know, in the future years. But in general for at least the 
past three or four years the space science, earth science 
budget has been flat and not even keeping up with inflation.

               IV&V REQUIREMENTS FOR EXPLORATION SYSTEMS

    Mr. Mollohan. Dr. Cooke, do you anticipate that the 
requirements for IV&V will increase beyond planned rates as 
additional and new investments come on line?
    Mr. Cooke. I am sure that as--is this working?
    Mr. Mollohan. If the button is lit, it is.
    Mr. Cooke. It is. Okay. It wasn't working earlier.
    I am sure that as we are defining the work and development 
of software we will be looking at the requirements for that in 
the future, and it will be weighed against other programs in 
the agency in terms of how that affects the overall budget.
    Mr. Mollohan. Will you say that again, please?
    Mr. Cooke. Yes. We will be looking at our requirements for 
independent verification, validation, as we get into further 
development, and that will be weighed in as part of the overall 
agency requirements.
    Mr. Mollohan. Sure. I was asking about your anticipation 
for its potential increase given the increase.
    Mr. Cooke. Well in terms of our part of it, possibly.
    Mr. Scolese. If I can interject. Clearly as constellation 
goes up, because they are new projects there, they are going to 
have a demand for the IV&V services. At the same time shuttle 
demand and the station demand is going down. Those are the 
things that we have to look at, and we look at it every year. I 
can get you the results of that, but I can't recall it off the 
top of my head.

                   FY 2009 OBLIGATIONS APPROPRIATIONS

    Mr. Mollohan. What is your plan to fully obligate in this 
fiscal year '09 the $45 million provided in the fiscal year '09 
appropriations?
    Mr. Scolese. We intend to obligate--we are working to 
obligate close to 100 percent of our funding.
    Mr. Mollohan. So you are not planning on carrying over any 
funds?
    Mr. Scolese. Well, that is different. We can obligate the 
funding, and if we need to carry over some fraction of that to 
carry us into the next fiscal year, whether it is for costing 
on fixed price contracts where you have to pay for the work 
ahead of time or whether it is a cost that will be accrued in 
the subsequent year, would have to be worked.

                               ARES/ORION

    Mr. Mollohan. The whole idea of closing the gap by 
accelerating Ares Orion, we are beyond that; is that correct? I 
think the date for making that decision to go with--attempting 
acceleration or not was March of '09.
    Mr. Scolese. Yes, that is correct.
    Mr. Mollohan. But are we beyond that? That is no longer an 
option?
    Mr. Scolese. Potentially yes. I mean, there is no 
significant acceleration that can occur.
    Mr. Mollohan. I mean it would not be possible to do it at 
this point; is that correct?
    Mr. Scolese. Yes.
    Mr. Mollohan. Okay. Mr. Serrano.

               MINORITY INSTITUTIONS FOR HIGHER EDUCATION

    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Scolese, I commend you and those under your leadership 
at NASA for the strides that you have taken to engage young 
people in the sciences.
    I would also like to recognize Joseph M. Joe Acaba, who you 
also mention in your written statement. I was looking at 
transcripts a couple a years ago wherein being very supportive 
of NASA. I said it would look good for the community if someone 
identified with the Puerto Rican community went up in space. A 
lot of jokes were made at that time, but here look what 
happened. And I commend you for that, because diversity is 
important. And I don't know if you saw the writings in New 
York, New Jersey, you know, Florida, and in Puerto Rico it was 
a great moment of pride. And not only because he of who he is, 
but because of his role as a schoolteacher for middle and high 
school students, and it conveys a powerful message to young 
people across the nation about the endless possibility within 
the realm of science.
    Currently African Americans represent 12 percent of the 
population, but only 8.7 percent of bachelor degree recipients 
in the science and engineering fields in 2006. In addition, 
Hispanics now represent about 15 percent of the U.S. 
population, but only eight percent of students graduating with 
a bachelors degree in science or engineering field in the same 
year.
    As you note in your written statement NASA has considerably 
ramped up its targeted educational support to research grants 
and universities, including minority serving institutions, as 
well as its efforts to provide students with opportunities in 
science, internships, and hands-on education.
    I am also particularly pleased with the way NASA has 
embraced new technologies, such as Twitter and other online 
resources in an effort to engage young people in the exciting 
work that you do.
    Can you talk a bit more about how NASA is helping to 
prepare young people for careers in the sciences and technology 
fields?
    I would also be interested to hear your thoughts on how 
NASA might be able to further bridge the gap in terms of how 
space sciences relate to more well-known issues such as climate 
change and green technology.
    Mr. Scolese. Certainly. And thank you for covering the 
items that you did. In fact, I just signed out our annual 
report that is coming over to the Congress on our support of 
minority institutions for higher education, so you should be 
getting those statistics here very shortly.
    I think you covered well many of the things that we are 
doing. In addition to what you said, we have programs clearly 
where we allow, you know, have discussions with the crews on 
the space station where they take opportunities to talk to 
local schools, secondary schools, primary schools to relate 
directly to the students where they have an opportunity to talk 
to them. E-mail will be an opportunity as well.
    We have been working as you noted with our websites to make 
them much more friendly, and we have a kids section on the NASA 
website so that younger people can go off and be motivated by 
what is going on.
    In addition to the societal end of things that you were 
talking about, NASA is very much engaged in climate research 
and in weather, in providing data to operational agencies, 
providing it to industry, providing it to universities for use 
in a broad range of activities.
    In fact, it is probably almost too numerous to mention, but 
a few that come to mind is we have satellites that help us to 
better understand, predict, to track, and predict the severity 
of hurricanes. Tropical Rainfall Measuring Mission (TRMM). The 
satellite does that. It was an experimental mission. We intend 
to extend that, working with our partners in the international 
community and others in the U.S. government, it is called the 
Global Precipitation Mission. We have instruments and missions 
that are used by operational agencies. The MODIS instruments on 
AQUA and TERRA are very much used by the operational agencies 
in the prediction of weather and climate. There are many other 
instruments that do that as well.
    We support other agencies around the world. In fact 
tracking forest fires is something that the MODIS instruments 
are very good at doing and have been used most recently in 
California in conjunction with unpiloted vehicles, UAVs, that 
we have to help firefighters better determine what fires they 
need to fight, where the fire front is, where to place their 
resources, and doing that with a combination of satellites and 
UAVs so that minimizes the risks to humans.
    So I think there are lots of examples that we have out 
there. And in addition our website has many of these listed on 
it, plus some very practical home applications that NASA has 
been engaged in.
    I hope that answers your question, sir.
    Mr. Serrano. Yes. I encourage you to continue to expand. I 
have been the recipient of your services, if you will, and 
astronauts and other folks visiting schools, and I would 
commend anyone if they know in their community that this is 
happening to go and see this. I don't know that there is a more 
exciting event to attend in a school, other than graduation 
maybe, or last day of school period, you know, than to see the 
astronauts. Everyone understands it, it is exciting, it is one 
of the few occasions--or it is an occasion, I am not going to 
say few--where the teachers are excited as the students, 
because you know, there is this romantic thing and dramatic and 
special.
    So I would continue to expand your work within the schools. 
It is good for the agency, it is good for the children, it is 
good for the country. And you know whatever NASA can do to 
continue to encourage people from certain communities to study 
in sciences and math and to expand that horizon, that would be 
a good thing.
    Mr. Scolese. Okay.
    Mr. Serrano. But I stand ready, as I have been in the past, 
and I am now a member of this Committee once again, to be 
supportive in every way I can.
    Mr. Scolese. Thank you.
    Mr. Serrano. All right, thank you.
    Mr. Mollohan. Thank you, Mr. Serrano. Mr. Wolf.

                      TENOR OF NASA ADMINISTRATORS

    Mr. Wolf. Thank you, Mr. Chairman.
    Just a follow up on the question I had asked you about the 
length of service of the administrator. Can you kind of tell me 
what was the length of service? I mean, you know, Griffin was 
there certain time. What from your tenor that you have been 
there, how long did a general administrator generally stay, and 
what has been the longest that you know of since the beginning 
of NASA?
    Mr. Scolese. I think Dan Goldin had the longest service at 
about ten years I think, and then Jim Webb was--who was I guess 
the second administrator in NASA was about eight or nine years. 
I would guess the average service is about four years, maybe a 
little more, a little less. In my recollection, in my tenor at 
NASA the administrators have been Admiral Truly, Dr. Fletcher, 
Dan Goldin.
    Mr. Wolf. Who was the first administrator?
    Mr. Scolese. The first administrator in NASA? Glennan I 
believe. T. Keith Glennan. Dr. Glennan.
    Mr. Wolf. And how long was he there, do you know?
    Mr. Scolese. He was there at the very beginning, and then 
Jim Webb came up, so I am not sure, maybe two years, three 
years. That was in the transition from the old NACA to NASA.

                             CYBERSECURITY

    Mr. Wolf. Okay. I think I heard this question, but let me 
just elaborate a little bit more.
    Last November Business Week published a very disturbing 
report about a string of cyber attacks on NASA's computer 
systems. ``In 2005 NASA's computer networks were compromised, 
and it was only detected seven months later after millions of 
pages of information had been rerouted to Taiwan. Attacks have 
continued, including 2007.'' Do you continue to experience 
these attacks, number one?
    Mr. Scolese. Our systems are attacked, and of course we 
take precautions against that and prefer not to discuss what we 
do in public.
    Mr. Wolf. The NASA OIG was quoted that quote, ``The scope, 
sophistication, and timing and characteristics of some of these 
intrusions indicate they are coordinated or essentially 
managed.'' The sources, do you know the sources of them? China, 
Russia?
    Mr. Scolese. We know the sources of some of them, sir, and 
some of them are from foreign nationals. Again, this is 
something I would prefer to discuss----
    Mr. Wolf. Sure.
    Mr. Scolese [continuing]. You know, separately.
    Mr. Wolf. But I wonder without asking you, what would the 
problem be as saying who it is though? I mean, it is probably 
China. China came in and stripped a number of members 
computers, the IR Committee's computers. It seems to me that 
the administration ought to just say who it is. But I am not 
going to press you on that. But you do know who it is?
    Mr. Scolese. Yes, sir.
    Mr. Wolf. Has there ever been a full assessment of who has 
gained what information, and what national security impacts are 
these--have these breaches had?
    Mr. Scolese. Yes, sir. There have been.
    Mr. Wolf. Have there been any accounting of the value of 
the intellectual property that has been stolen?
    Mr. Scolese. Yes, sir.
    Mr. Wolf. And have any criminal charges been filed?
    Mr. Scolese. I know that there have been, I can't recall 
exactly who, but I know there has been at least a couple of 
cases where criminal charges have been filed, and there may 
have been more.
    Mr. Wolf. Well without asking you, maybe some time we can 
chat about it privately. But my guess is that some of the 
progress that China has made has probably come from cyber 
attacks, you know.
    Any way, thank you very much. Thank you, Mr. Chairman.

  NATIONAL POLAR-ORBITING OPERATIONAL ENVIRONMENTAL SATELLITE SYSTEM 
                                (NPOESS)

    Mr. Mollohan. Thank you, Mr. Wolf.
    Mr. Scolese, NPOESS. What are we going to do about NPOESS?
    Mr. Scolese. Well let me take a step back. NPOESS is not a 
NASA project.
    Mr. Mollohan. No, I understand it is not a NASA project, it 
is NOAA, DOD, and NASA. And NASA----
    Mr. Scolese. NASA's role in NPOESS is limited to two areas.
    Mr. Mollohan. You have no money in NPOESS I don't think. 
Yes.
    Mr. Scolese. Yes. We do technology development, and we are 
also providing the what is called the NPOESS Preparatory 
Project. It is a satellite that is going to fly several 
instruments. That mission we directly know that NPOESS 
satellite and its instruments we know peripherally, and I can't 
give you great detail on those, other than to tell you that 
they are delayed.
    Mr. Mollohan. No, I know you can't, but you kind of have a 
unique background in the fact that you are not at the center of 
it. Kind of puts you in a position of I think maybe commenting 
on it more objectively.
    Mr. Scolese. Okay. Let me start with the good parts, if I 
will.
    Mr. Mollohan. Sure.
    Mr. Scolese. In NPOESS one of the things that has been 
demonstrated is a very strong relationship between NASA and 
NOAA. I think we have had a long-term relationship, as you may 
recall with the early polar orbiting satellites, TIROS and 
GOES. And NPOESS has demonstrated the importance of that 
relationship. I think it has strengthened the operational 
weather community to an extent as they see common need to data. 
So those are some of the good things that have come out of it.
    I think the NPP, NPOESS Preparatory Project, as we call it, 
is a demonstration of the flexibility of what we can do given 
the resources and given the support of our sister agencies. 
While it hasn't flown yet because of delays in the beers 
instrument and the Chris instrument, we were able to add 
relatively quickly critical climate instruments, the series 
instrument and the OMPS, it is an ozone monitoring instrument, 
LIM sounder to that mission relatively quickly. So when it 
launches it will be an addition to and help fill in the gaps 
that are anticipated from the aging of the EOS satellites that 
carry similar instruments.
    The problems that we have experienced on NPOESS are 
serious. They threaten the continuity of our weather satellite 
system. That is of serious concern. Serious enough that NPP 
mission has now become a--I will put it in terms of quasi 
operational mission--it is required to make sure that there 
isn't a gap in the afternoon orbit now, and that was never the 
intent of the NPP mission. So that demonstrates flexibility, 
but it also demonstrates the frailty of the system that we have 
got.
    We certainly need to look along the lines of what we were 
talking about earlier at how we got here. I think it is a 
combination of underscoping of the initial set of requirements 
when they were put together, and I think it demonstrates the 
need for strong government oversight over come flex 
developments.
    And I probably can't go much more than that into it without 
speculating on the specifics of the NPOESS arrangement.

                   CONTRACT REGARDING WEATHER SYSTEM

    Mr. Mollohan. Well what observations, and you sit around 
and talk about it, what should happen? How should it move 
forward? I mean, if DOD and NOAA aren't working well together, 
and I don't know their budget overrun tolerances are different, 
what advise would you give, if you have any, for moving 
forward?
    Mr. Scolese. I think the advise I would give would be to 
look carefully at the contract that is in place to make sure 
that we are getting the information and the responsiveness that 
is desired to get this system launched to minimize or eliminate 
the possibility of a gap in the weather record.
    The clarity overall on the requirements. There is been an 
excellent process to define what the requirements are for this 
system, and we need to make sure that those are being 
satisfied, one. Second, that there is flexibility to deal with 
issues that come up with any development where you may not be 
able to achieve the optimum, the desired speck, but you can 
obtain a good enough, if you will. It is better than what we 
have today, but maybe not the ideal that everybody wants. And 
there has to be a process that would allow us to go off and do 
that.
    We are working with the Department of Defense and NOAA on 
doing both of those things, but the specifics of the contract--
again, those are my observations--you would have to ask them as 
to what to do specifically or what could be done specifically 
with the contract.
    But those would be the two major things that I would say 
that we need to do. Take a good look at the contract and are we 
getting what we expected in terms of data, in terms of 
responsiveness? And if we are fine. If not, we should make 
changes. And second, we need to be able to look at the 
requirements, because we haven't launched the system yet, and 
determine how much flexibility we have in meeting those 
requirements so that we can minimize the probability of a gap 
in our weather.
    Mr. Mollohan. You are noted in the Aerospace Safety 
Advisory Board as saying quote, ``The U.S. Air Force led NPOESS 
development delays represent a threat to NASA's science budget 
and ability to meet the earth science decay goals established 
by NRC and endorsed by Congress.'' Could you elaborate on that?
    Mr. Scolese. Yes, sir. When the NPOESS project was 
originally conceived it was to do both weather and carry on the 
climate measurements of the EOS satellites. Those satellites 
were launched in the late '90s, 1999 and the early 2000s. Most 
of them, not all, but the two critical ones, TERRA and AQUA, 
from the prospective of NPOESS, are now at or well beyond their 
design life. So while they are operating fine now, when you are 
far beyond your design life you don't always know how much 
longer they are going to operate and how well they are going to 
operate beyond that design life.
    So without these satellites to fill in when these sensors 
do eventually die we have a risk of losing that data, and it is 
a very critical data set for the climate community.
    And as I mentioned earlier, it is something that is being 
used actively by the operational communities for weather and 
other services. So that is one risk that we obviously have in 
the loss of data.
    What that has meant is that we may have to expend 
additional resources that we weren't planning on doing. The 
Decadle Missions assumed NPOESS would be there. NASA planning 
prior to that assumed NPOESS would be there. So now we have to 
go off and look at our plans to see if we need to fill in 
critical gaps. So that is one that puts the Decadles at risk.
    And clearly NPP was supposed to have launched--three years 
ago--three or four years ago, and the satellite has been ready, 
so we have had to pay the carrying cost for that mission. So 
there is a direct cost associated with the delays in the NPOESS 
project and NASA, and that was what I was trying to get at.

                     ENHANCED USE LEASING AUTHORITY

    Mr. Mollohan. A different topic.
    NASA's enhanced use lease authority was first enacted in 
2003 and allowed NASA to enter into a demonstration project for 
EULs at two NASA centers. AIMS Research Center was selected as 
a demonstration center.
    In 2007 and again 2008 NASA's EUL authority was amended to 
extent the EUL authority to allow NASA to use its authority in 
all of its centers, limited the consideration NASA may receive 
in cash and add a sunset date of ten years. These provisions of 
law became effective in July of '08.
    The NASA Authorization Act of 2008 clarified how the funds 
should be expended, established percentages of the net revenue 
that were to remain at the center, 65 percent, with 35 percent 
being placed in the agency capital asset account.
    NASA received $6.5 million in 2007 from EUL receipts, 9.8 
million in 2008; we are advised, and a projection of 15.7 
million in 2009; we were advised, and 15.7 million 2010, a 
projected 76.6 million is projected to be collected over the 
five-year budget horizon from Ames principally.
    The fiscal year 2009 omnibus placed a limitation on EUL 
expenditures of $9 million. In February NASA headquarters 
placed a moratorium on all new EUL agreements.
    Why did you do that?
    Mr. Scolese. First, very simply, we completed the pilot and 
we needed to collect our lessons learned and understand where 
we were and where we were going if we were to expand it to the 
other centers for use to determine, better when enhanced use 
leasings are used, what that means, how are we going to go off 
and implement them efficiently? We had done it at two centers 
as you mentioned, as pilot projects. We learned from that. We 
had some legislation, as you also indicated, that we wanted to 
incorporate in it. We also wanted to understand where do we use 
enhanced use leasing versus Space Act agreements?
    So we took a hiatus to go off and understand that and 
codify that and collect the lessons learned. We are about to 
lift the moratorium, very shortly here, with revised 
guidelines--clearer guidelines--for all of our organizations. 
So that is why we did it. We wanted to collect the lessons 
learned and understand where we are at. I might point out that 
we have learned a lot in those few years that we had the pilot 
projects. We are looking at some, I think, very good uses of 
land that had easements on them because we want to have them 
protected, either because of rocket tests, and you just can't 
use the land. So we are looking at some of our facilities in 
Plum Brook, Ohio, Kennedy Space Center, Florida, to put in 
green energy activities where we could allow industry to come 
in, whether those are enhanced use leases or Space Act 
agreements. We can now go off and address those questions and 
determine what makes the most sense. So we are looking to the 
future as well as looking to the past to see how we can go off 
and improve our use of enhanced use leases.
    Mr. Mollohan. During that time out you significantly 
changed the accounting of the enhanced use leasing program at 
Ames. Why did you do that?
    Mr. Scolese. Actually we found an error. And if we want to 
go into details, I can ask the Comptroller to come forward. But 
the simple answer is that we incorrectly accounted for income 
from federal agreements with other federal agencies which we 
shouldn't do. They don't pay us rent, they just pay for the 
services that they use, as opposed to a commercial entity that 
would pay for rent. We incorrectly kept those in the account 
and we shouldn't have done that.
    Mr. Mollohan. What occasioned discovering that error?
    Mr. Scolese. As I said, when we took the time out to go off 
and understand what we learned from the past, what we wanted to 
do in the future, and bringing into account all of the 
legislation that goes along with it, is when we discovered it.

                              EUL REVENUE

    Mr. Mollohan. Describe please the effect of the Committee's 
action on placing an obligation limitation of $9 million on the 
expenditure of EUL revenue in fiscal year '09.
    Mr. Scolese. That was one of the things that allowed us 
to--as we were learning about EUL--one of the things that we 
considered as we were looking at this moratorium. As it turns 
out, when we took out the federal expenditures, the $9 million 
was not a significant limitation on our ability to do things 
for that legislation. I just got a note here that says the 
total income projections that we anticipate is $7.9 million in 
total income.
    Mr. Mollohan. I thought it was 6 million.
    Mr. Scolese. I have $6.1 in rental income, and $1.8 in 
reimbursable services, and if we need more than that I need the 
Comptroller to come up and explain that.

                           EUL DESK GUIDANCE

    Mr. Mollohan. NASA's EUL desk guidance provides direction 
on what costs can be considered as full costs for administering 
the leases. To what extent, if at all, does the facility's 
Engineering and Real Property Division or the Office of Program 
and Institutional Integration review and audit these costs as 
being appropriate and conforming to the guidance of the chief 
financial officer?
    Mr. Scolese. If I may, sir, can I invite the Comptroller 
up?
    Mr. Mollohan. Please.
    Mr. Scolese. David, do you want to?
    Mr. Schurr. Sure.
    Mr. Mollohan. You will want to identify yourself.
    Mr. Schurr. David Schurr, NASA comptroller.
    The Office of Program and Institutional Integration is 
responsible for running the budget process that would encompass 
EUL as part of our formal budget submit, starting with the 2009 
appropriation. We are required to incorporate this in the 
budget. So we have formalized it as part of our budget process. 
That office has the responsibility for collecting the 
requirements and vetting them across all of the centers once we 
get through the current stand down on new leases. So they are 
vetting the actual numbers that will be part of what you saw in 
the operating plan, as well as the budget. They will be 
submitted hopefully in the next week or so.
    Then the Facility's Engineering office has got the overall 
responsibility for what they are using the funds for and 
ensuring that they are following their particular processes.
    The Chief Financial Officer has got the general 
responsibility to make sure they are doing the accounting 
properly so it shows up in the proper accounts.
    Mr. Mollohan. The model of the general services 
administration which deposits rent and other receipts from its 
federal tenants into the federal buildings fund, and every year 
Congress provides authority to spend those funds--Why wouldn't 
that model be instructive to NASA's enhanced use lease 
receipts?
    Mr. Schurr. I think effectively with the direction of the 
2009 appropriation that is what we are doing. You have asked us 
to provide to you a plan for what we are going to spend the 
monies on, the net receipts from the EUL activity, and that can 
be part of our submit.
    Mr. Mollohan. And is that a contingent precedent to you all 
spending it?
    Mr. Schurr. The other requirement we had is to submit to 
you a plan with the operating plan on the specifics of what we 
are spending it on, so I think both of those cover----
    Mr. Mollohan. It has no spending prior to the approval of 
that plan?
    Mr. Schurr. We have to take that one for the record. It was 
what we were doing in '09 prior to the passage of the '09 
appropriations.
    Mr. Mollohan. But the limitation that we put in the bill 
didn't affect because the estimates were a lot higher--14 
million--than what you are now coming up with; isn't that 
correct?
    Mr. Schurr. That is true. At the gross level that would be 
true.
    Mr. Mollohan. So we would have to do something else if we 
are going to impact that.
    Mr. Schurr. If we were going to limit the amount that was 
spent in '09 that number would not limit it' that is correct.

            RELATIONSHIP BETWEEN NASA/NOAA & OTHER COUNTRIES

    Mr. Mollohan. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Gentlemen, I am always intrigued by the relationship 
between NASA and NOAA. And it seems to some of us at times like 
you are working on the same projects, but you certainly have 
different responsibilities.
    So my question to you is--and you might have covered this 
and I apologize for this-- in what areas is there joint work?
    And then secondly as a side to that, one question that I 
ask all, just about all of our federal agencies that gather 
information, does our lack of diplomatic relations with certain 
places, say with Cuba or our tense relationship with places 
like Bolivia or Venezuela come into play when you have 
information that is actually good for the people in those 
areas?
    I mean, I asked NOAA, you know, when you see a hurricane 
coming. And you know the Cubans are very good at knowing when 
these hurricanes are coming. But do you share some information? 
Do you let them know or does politics come into play and you 
have to hold back?
    So the relationship between you and NOAA and then the----
    Mr. Scolese. Yes, sir. NASA and NOAA have a long 
relationship going back to almost the formation of both 
agencies in the '50s and the '60s, so the NASA relationship 
with NOAA is multifaceted.
    On the one hand we are their agent for providing the 
spacecraft and the instruments that collect the data on weather 
around the world. We have been the agent in the past for the 
polar orbiting environmental satellites originally called TIROS 
that started in the 1960s, and the last one was launched 
earlier this year, but we remain--and that was replaced now 
where the DOD is the agent for NOAA on the NPOESS project that 
we were just discussing.
    We still do the geostationary orbit environmental 
satellites, the GOES satellites that are in geostationary orbit 
that actually is the image that you typically see on the 
evening news. So we do those directly for NOAA. NOAA funds 
those, we are their agent for procuring them, launching them, 
and doing initial check out.
    In addition, we do research jointly with NOAA to improve 
severe weather forecasts. We provide data from our research 
satellites. I mentioned a couple of them earlier. The TRMM 
satellites and the EOS satellites that provide data. So our 
research from those satellites is shared with NOAA so they can 
improve their models.
    By the same token their researchers are looking at ours to 
help us determine which kind of instruments we should go off 
and develop. As far as the data, our data, and actually Dixon 
Butler is sitting in the back here, one of the things he did 
when he was at NASA was make sure that all of our data is 
available so that our data doesn't have political boundaries. 
If you want to get the data you can acquire it. The NASA data. 
Sometimes it is very esoteric, but because we don't typically 
do forecasts, but our data is made available. It is made 
available to researchers, it is made available to operational 
agencies around the world.
    In addition many of our satellites have what we call a 
direct broadcast capability that allow, if you have a receiver 
on the ground, you can receive our data as the satellite is 
coming overhead and use it for your purposes. And clearly if 
desired we can deny that service. To my knowledge we have never 
been asked to deny that service. So we have it on basically 
continuously.
    Mr. Serrano. Thank you. Thank you, Mr. Chairman.

                       Chairman's Closing Remarks

    Mr. Mollohan. Thank you, Mr. Serrano.
    Thank you, Mr. Scolese. I hope your make your flight.
    Mr. Scolese. Thank you, sir.
    Mr. Mollohan. And we very much appreciate your terrific 
service and the great team that you have that is doing that in 
so many different ways, and we look forward to a new 
administrator, and I know you all are looking forward to a new 
administrator.
    Mr. Scolese. Yes, sir.
    Mr. Mollohan. So thank you very much for your testimony 
today.
    Mr. Scolese. Thank you, sir.
    Mr. Mollohan. Thank you. Hearing is adjourned. 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           W I T N E S S E S 

                              ----------                              
                                                                   Page
Arabit, Joseph...................................................     1
Barnett, Helaine.................................................   193
Bevier, Lillian..................................................   193
Gordon, Phil.....................................................     1
Holder, Eric.....................................................   269
Leonhart, Michele................................................   115
Locke, Gary......................................................   383
Newell, Bill.....................................................     1
Scolese, Christopher.............................................   587
Shirk, David.....................................................     1

                                  <all>
</pre></body></html>
